                                   United States Department of Agriculture

                                   Report to the Secretary of Agriculture




December 1997
                                   Nationwide Data on
                                   Minority Participation
                                   in Farm Service Agency’s
                                   Farm Loan Programs -
                                   Phase III
                                   Volume 1 of 5
                                   Executive Summary
                                   Alabama through Idaho




Evaluation Report No. 50801-4-Hq
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL
                                         Washington D.C. 20250



                                                                                December 17, 1997

SUPPLEMENTAL REPORT TO THE SECRETARY OF AGRICULTURE

FROM:          Roger C. Viadero
               Inspector General

SUBJECT:       Nationwide Data on Minority Participation in Farm Service Agency’s Farm Loan
               Programs - Phase III


On December 9, 1996, you asked us to evaluate the Department's effectiveness in working with
socially disadvantaged and minority farmers and ranchers. In response to your request we issued two
reports, Evaluation Report on Civil Rights Issues - Phase I, Report No. 50801-2-Hq(1), dated
February 27, 1997, and Minority Participation in Farm Service Agency's Farm Loan Programs - Phase
II, Report No. 50801-3-Hq, dated September 29, 1997. This report provides you with supplemental
data related to your request that we determine whether the percentage of minority participation in
FSA's farm loan programs correlates to the total population by Nation, State, and county.

EXECUTIVE SUMMARY

As explained in our Phase II report, we were unable to make meaningful correlations between FSA’s
portfolio data and either the General Population Census or Agricultural Census. The General
Population Census reports the total population but does not identify that portion of the population
engaged in the business of farming. The Agricultural Census shows the number of farms and land in
farms for minorities, but it does not show the number of persons in the business of farming. Further,
the FSA portfolio may contain borrowers who are still indebted to FSA but are no longer farming.
We found that FSA's application data base was a better indicator of minority participation in FSA's
direct farm loan programs. However, we also noted that some FSA loan service centers may not
have entered all application data into FSA's application tracking system.

In response to your request, we obtained data from the 1990 General Population Census, the 1992
Agricultural Census, FSA’s loan portfolio as of February 1997, and data from FSA's direct farm loan
applications for fiscal year 1996. This data is presented in this report for each State and county in
the Nation.1 We have not audited the data for accuracy or completeness. The nationwide data is
presented in two parts. The first part is the Executive Summary which explains the data obtained and



       1
       FSA’s direct loan application data is presented by Service Center which
may service more than one county in the State.
provides summary information. The second part of the report provides the detailed data obtained for
all States and counties.

The following tables present nationwide summaries of the data.

                                     1990 General Population Census

                                                     Nonminority                             Minority

                          Total                Number              Percent             Number              Percent

 United States            248,709,873          188,128,296              76              60,581,577           24

                                           1992 Agricultural Census

 Farms                      1,925,274              1,865,655            97                  59,619           3

 Land in Farms2           943,270,066          902,155,573              96              41,114,493           4



                                             FSA's Loan Portfolio
                                               (February 1997)

                                                          Nonminority                           Minority

                                  Total                 Number               Percent     Number             Percent

 Borrowers                              113,389            106,208             94                7,181         6

 Loans                                  278,632            259,994             93               18,638         7

 Principal and Interest       $16,961,147,130      $15,895,495,617             94      $1,065,651,513          6

                                          FSA's Delinquent Portfolio
                                               (February 1997)

 Borrowers                                37,362               34,151          91                3,211         9

 Loans                                  106,518                96,775          91                9,743         9

 Principal and Interest        $2,781,632,470       $2,563,617,344             92       $218,015,126           8




         2
          Given in acres.




USDA/OIG-A/50801-4-Hq                                                                                                 2
                      Fiscal Year 1996 Approved Direct Farm Loan Applications

                                              Nonminority                       Minority

                        Total            Number             Percent       Number           Percent

 United States              16,205             15,213         94                   992       6


Nationally, during fiscal year 1996, minority farmers submitted 1,603 applications (7 percent) for
direct farm loans compared to 21,282 (93 percent) submitted by nonminority farmers. Of the 1,603
minority-submitted applications, 992 (62 percent) were approved and 611 (38 percent) were rejected
or withdrawn. Of the 21,282 nonminority-submitted applications, 15,213 (71 percent) were approved
and 6,069 (29 percent) were rejected or withdrawn. Our Phase II report (Report No. 50801-3-Hq)
provides insight into FSA's loan application process and why it is perceived as a burden to both
minorities and nonminorities.




USDA/OIG-A/50801-4-Hq                                                                                3
The following tables provide Statewide summaries of the data for each State.



                              1990 GENERAL POPULATION CENSUS

                                Total           Nonminority                Minority

                    State      Number        Number       Percent    Number           Percent

         Alabama                 4,040,587    2,960,167        73      1,080,420           27

         Alaska                   550,043       406,722        74       143,321            26

         Arizona                 3,665,228    2,626,185        72      1,039,043           28

         Arkansas                2,350,725    1,933,082        82       417,643            18

         California             29,760,021   17,029,126        57     12,730,895           43

         Colorado                3,294,394    2,658,945        81       635,449            19

         Connecticut             3,287,116    2,754,184        84       532,932            16

         Delaware                 666,168       528,092        79       138,076            21

         Florida                12,937,926    9,475,326        73      3,462,600           27

         Georgia                 6,478,216    4,543,425        70      1,934,791           30

         Hawaii                  1,108,229      347,644        31       760,585            69

         Idaho                   1,006,749      928,661        92        78,088             8

         Illinois               11,430,602    8,550,208        75      2,880,394           25

         Indiana                 5,544,159    4,965,242        90       578,917            10

         Iowa                    2,776,755    2,663,840        96       112,915             4

         Kansas                  2,477,574    2,190,524        88       287,050            12

         Kentucky                3,685,296    3,378,022        92       307,274             8

         Louisiana               4,219,973    2,776,022        66      1,443,951           34

         Maine                   1,227,928    1,203,357        98        24,571             2

         Maryland                4,781,468    3,326,109        70      1,455,359           30

         Massachusetts           6,016,425    5,280,292        88       736,133            12

         Michigan                9,295,297    7,649,951        82      1,645,346           18

         Minnesota               4,375,099    4,101,266        94       273,833             6

         Mississippi             2,573,216    1,624,198        63       949,018            37

         Missouri                5,117,073    4,448,465        87       668,608            13

         Montana                  799,065       733,878        92        65,187             8

         Nebraska                1,578,385    1,460,095        93       118,290             7

         Nevada                  1,201,833      946,357        79       255,476            21

         New Hampshire           1,109,252     1,079484        97        29,768             3

         New Jersey              7,730,188    5,718,966        74      2,011,222           26




USDA/OIG-A/50801-4-Hq                                                                           4
                              1990 GENERAL POPULATION CENSUS

                               Total            Nonminority               Minority

                  State       Number        Number        Percent   Number           Percent

       New Mexico               1,515,069      764,164         50      750,905            50

       New York                17,990,455    12,460,189        69     5,530,266           31

       North Carolina           6,628,637     4,971,127        75     1,657,510           25

       North Dakota              638,800       601,592         94       37,208             6

       Ohio                    10,847,115     9,444,622        87     1,402,493           13

       Oklahoma                 3,145,585     2,547,588        81      597,997            19

       Oregon                   2,842,321     2,579,732        91      262,589             9

       Pennsylvania            11,881,643    10,422,058        88     1,459,585           12

       Rhode Island             1,003,464      896,109         89      107,355            11

       South Carolina           3,486,703     2,390,056        69     1,096,647           31

       South Dakota              696,004       634,788         91       61,216             9

       Tennessee                4,877,185     4,027,631        83      849,554            17

       Texas                   16,986,510    10,291,680        61     6,694,830           39

       Utah                     1,722,850     1,571,254        91      151,596             9

       Vermont                   562,758       552,184         98       10,574             2

       Virginia                 6,187,358     4,701,650        76     1,485,708           24

       Washington               4,866,692     4,221,622        87      645,070            13

       West Virginia            1,793,477     1,718,896        96       74,581             4

       Wisconsin                4,891,769     4,464,677        91      427,092             9

       Wyoming                   453,588       412,711         91       40,877             9

       District of Columbia      606,900       166,131         27      440,769            73

       United States          248,709,873   188,128,296        76    60,581,577           24




USDA/OIG-A/50801-4-Hq                                                                          5
                          1992 AGRICULTURAL CENSUS (FARMS)

                            Total              Nonminority              Minority

                  State    Number           Number       Percent   Number          Percent

       Alabama                  37,905         36,349         96        1,556            4

       Alaska                        486          472         97            14           3

       Arizona                      6,773       5,762         85        1,011           15

       Arkansas                 43,937         43,116         98            821          2

       California               77,669         68,058         88        9,611           12

       Colorado                 27,152         25,752         95        1,400            5

       Connecticut                  3,427       3,419        100             8           *

       Delaware                     2,633       2,583         98            50           2

       Florida                  35,204         33,291         95        1,913            5

       Georgia                  40,759         39,690         97        1,069            3

       Hawaii                       5,336       2,036         38        3,300           62

       Idaho                    22,124         21,590         98            534          2

       Illinois                 77,610         77,406        100            204          *

       Indiana                  62,778         62,668        100            110          *

       Iowa                     96,543         96,418        100            125          *

       Kansas                   63,278         63,046        100            232          *

       Kentucky                 90,281         89,535         99            746          1

       Louisiana                25,652         24,361         95        1,291            5

       Maine                        5,776       5,773        100             3           *

       Maryland                 13,037         12,726         98            311          2

       Massachusetts                5,258       5,218         99            40           1

       Michigan                 46,562         46,269         99            293          1

       Minnesota                75,079         74,959        100            120          *

       Mississippi              31,998         29,462         92        2,536            8

       Missouri                 98,082         97,634        100            448          *

       Montana                  22,821         22,342         98            479          2

       Nebraska                 52,923         52,802        100            121          *

       Nevada                       2,890       2,690         93            200          7

       New Hampshire                2,445       2,436        100             9           *

       New Jersey                   9,079       8,926         98            153          2

       New Mexico               14,279          8,409         59        5,870           41

       New York                 32,306         32,202        100            104          *




USDA/OIG-A/50801-4-Hq                                                                        6
                                 1992 AGRICULTURAL CENSUS (FARMS)

                                   Total              Nonminority              Minority

                  State           Number           Number       Percent   Number          Percent

       North Carolina                  51,854         49,374         95        2,480            5

       North Dakota                    31,123         30,980        100            143          *

       Ohio                            70,711         70,496        100            215          *

       Oklahoma                        66,937         63,652         95        3,285            5

       Oregon                          31,892         31,143         98            749          2

       Pennsylvania                    44,870         44,756        100            114          *

       Rhode Island                         649          649        100             0           0

       South Carolina                  20,242         18,412         91        1,830            9

       South Dakota                    34,057         33,581         99            476          1

       Tennessee                       75,076         73,992         99        1,084            1

       Texas                         180,644         168,900         93       11,744            7

       Utah                            13,520         13,360         99            160          1

       Vermont                             5,436       5,422        100            14           *

       Virginia                        42,222         40,840         97        1,382            3

       Washington                      30,264         29,321         97            943          3

       West Virginia                   17,020         16,996        100            24           *

       Wisconsin                       67,959         67,836        100            123          *

       Wyoming                             8,716       8,545         98            171          2

       District of Columbia                   0             0         0             0           0

       United States                1,925,274       1,865,655        97       59,619            3

     * Less than .005 percent.




USDA/OIG-A/50801-4-Hq                                                                               7
                            FSA DIRECT FARM LOAN PORTFOLIO (BORROWERS)

                                                     Nonminority                    Minority
                                     Total
                    State           Portfolio    Portfolio        Percent   Portfolio          Percent

       Alabama                           2,041         1,799           88           242             12

       Alaska                               17               16        94               1            6

       Arizona                             588           473           80           115             20

       Arkansas                          4,231         3,876           92           355              8

       California                        1,937         1,679           87           258             13

       Colorado                          1,117         1,010           90           107             10

       Connecticut                         129           122           95               7            5

       Delaware                            100               94        94               6            6

       Florida                           1,228         1,043           85           185             15

       Georgia                           2,075         1,846           89           229             11

       Hawaii                              324               69        21           255             79

       Idaho                             2,184         2,054           94           130              6

       Illinois                          4,030         4,004           99               26           1

       Indiana                           2,201         2,184           99               17           1

       Iowa                              6,169         6,133           99               36           1

       Kansas                            4,232         4,166           98               66           2

       Kentucky                          4,221         4,135           98               86           2

       Louisiana                         2,648         2,390           90           258             10

       Maine                               878           863           98               15           2

       Maryland                            346           321           93               25           7

       Massachusetts                       385           352           91               33           9

       Michigan                          2,203         2,174           99               29           1

       Minnesota                         4,555         4,530           99               25           1

       Mississippi                       4,912         4,054           83           858             17

       Missouri                          4,420         4,313           98           107              2

       Montana                           1,940         1,758           91           182              9

       Nebraska                          4,224         4,185           99               39           1

       Nevada                              189           156           83               33          17

       New Hampshire                       120           114           95               6            5

       New Jersey                          405           373           92               32           8

       New Mexico                          821           577           70           244             30




USDA/OIG-A/50801-4-Hq                                                                                    8
                           FSA DIRECT FARM LOAN PORTFOLIO (BORROWERS)

                                                       Nonminority                    Minority
                                    Total
                   State           Portfolio       Portfolio        Percent   Portfolio          Percent

       New York                         2,957            2,918           99               39           1

       North Carolina                   2,710            2,256           83           454             17

       North Dakota                     4,434            4,295           97           139              3

       Ohio                             1,507            1,476           98               31           2

       Oklahoma                         5,787            5,222           90           565             10

       Oregon                           1,119            1,053           94               66           6

       Pennsylvania                     1,916            1,897           99               19           1

       Rhode Island                        52                  50        96               2            4

       South Carolina                   1,508            1,211           80           297             20

       South Dakota                     5,841            5,592           96           249              4

       Tennessee                        3,331            3,125           94           206              6

       Texas                            8,151            7,447           91           704              9

       Utah                             1,312            1,285           98               27           2

       Vermont                            417              403           97               14           3

       Virginia                         1,388            1,182           85           206             15

       Washington                       1,053              987           94               66           6

       West Virginia                    1,133            1,111           98               22           2

       Wisconsin                        3,554            3,532           99               22           1

       Wyoming                            349              303           87               46          13

       District of Columbia                    0               0          0               0            0

       United States                 113,389          106,208            94         7,181              6




USDA/OIG-A/50801-4-Hq                                                                                      9
                             DELINQUENT FSA DIRECT FARM BORROWERS

                                                    Nonminority                  Minority
                                    Total
                     State        Delinquent   Delinquent       Percent   Delinquent        Percent

        Alabama                          519          432            83            87           17

        Alaska                             1                1       100                0         0

        Arizona                          331          263            79            68           21

        Arkansas                       1,184         1,030           87           154           13

        California                       801          688            86           113           14

        Colorado                         325          297            91            28            9

        Connecticut                       49            46           94                3         6

        Delaware                          22            20           91                2         9

        Florida                          468          389            83            79           17

        Georgia                          725          609            84           116           16

        Hawaii                            98            17           17            81           83

        Idaho                            657          630            96            27            4

        Illinois                         761          753            99                8         1

        Indiana                          630          623            99                7         1

        Iowa                           1,429         1,426          100                3          *

        Kansas                         1,014          996            98            18            2

        Kentucky                         974          955            98            19            2

        Louisiana                      1,249         1,093           88           156           12

        Maine                            333          326            98                7         2

        Maryland                          98            85           87            13           13

        Massachusetts                    157          146            93            11            7

        Michigan                         782          765            98            17            2

        Minnesota                      1,503         1,493           99            10            1

        Mississippi                    2,337         1,807           77           530           23

        Missouri                       1,122         1,098           98            24            2

        Montana                          638          566            89            72           11

        Nebraska                       1,177         1,170           99                7         1

        Nevada                            54            40           74            14           26

        New Hampshire                     23            20           87                3        13

        New Jersey                       201          179            89            22           11

        New Mexico                       324          223            69           101           31




USDA/OIG-A/50801-4-Hq                                                                                 10
                                DELINQUENT FSA DIRECT FARM BORROWERS

                                                       Nonminority                  Minority
                                       Total
                    State            Delinquent   Delinquent       Percent   Delinquent        Percent

         New York                         1,243         1,225           99            18            1

         North Carolina                   1,040          801            77           239           23

         North Dakota                     1,721         1,635           95            86            5

         Ohio                               525          519            99                6         1

         Oklahoma                         2,235         2,043           91           192            9

         Oregon                             322          311            97            11            3

         Pennsylvania                       492          488            99                4         1

         Rhode Island                        18            18          100                0         0

         South Carolina                     575          429            75           146           25

         South Dakota                     1,696         1,635           96            61            4

         Tennessee                          963          867            90            96           10

         Texas                            4,011         3,615           90           396           10

         Utah                               305          297            97                8         3

         Vermont                             94            92           98                2         2

         Virginia                           503          396            79           107           21

         Washington                         306          288            94            18            6

         West Virginia                      296          290            98                6         2

         Wisconsin                          947          940            99                7         1

         Wyoming                             84            76           90                8        10

         District of Columbia                 0                0         0                0         0

         United States                   37,362        34,151           91         3,211            9

      * Less than .005 percent.




USDA/OIG-A/50801-4-Hq                                                                                    11
                    FISCAL YEAR 1996 APPROVED DIRECT FARM LOAN APPLICATIONS

                                 Total              Nonminority               Minority

                  State         Number           Number        Percent   Number          Percent

       Alabama                            136          120          88            16          12

       Alaska                              17             15        88            2           12

       Arizona                             33             20        61            13          39

       Arkansas                           593          514          87            79          13

       California                         217          180          83            37          17

       Colorado                           169          151          89            18          11

       Connecticut                         30             29        97            1            3

       Delaware                            12             9         75            3           25

       Florida                            182          159          87            23          13

       Georgia                            234          199          85            35          15

       Hawaii                              18             10        56            8           44

       Idaho                              368          344          93            24           7

       Illinois                           431          426          99            5            1

       Indiana                            235          233          99            2            1

       Iowa                               966          965         100            1            *

       Kansas                             591          583          99            8            1

       Kentucky                           741          731          99            10           1

       Louisiana                          362          313          86            49          14

       Maine                              217          213          98            4            2

       Maryland                            19             19       100            0            0

       Massachusetts                      179          174          97            5            3

       Michigan                           317          307          97            10           3

       Minnesota                         1,040       1,028          99            12           1

       Mississippi                        562          478          85            84          15

       Missouri                           431          413          96            18           4

       Montana                            140          130          93            10           7

       Nebraska                           568          561          99            7            1

       Nevada                              41             37        90            4           10

       New Hampshire                       37             36        97            1            3

       New Jersey                          81             68        84            13          16

       New Mexico                          66             56        85            10          15

       New York                           564          552          98            12           2




USDA/OIG-A/50801-4-Hq                                                                              12
                     FISCAL YEAR 1996 APPROVED DIRECT FARM LOAN APPLICATIONS

                                    Total              Nonminority               Minority

                    State          Number           Number        Percent   Number          Percent

         North Carolina                      355          300          85            55          15

         North Dakota                        855          838          98            17           2

         Ohio                                 82             78        95             4           5

         Oklahoma                            499          455          91            44           9

         Oregon                              170          164          96             6           4

         Pennsylvania                        706          700          99             6           1

         Rhode Island                         26             25        96             1           4

         South Carolina                      136          108          79            28          21

         South Dakota                        434          399          92            35           8

         Tennessee                           365          340          93            25           7

         Texas                              1,629       1,449          89            180         11

         Utah                                184          180          98             4           2

         Vermont                              32             22        69            10          31

         Virginia                            183          168          92            15           8

         Washington                          120             99        83            21          17

         West Virginia                       307          305          99             2           1

         Wisconsin                           443          439          99             4           1

         Wyoming                              82             71        87            11          13

         District of Columbia                  0             0          0             0           0

         United States                  16,205         15,213          94            992          6

       * Less than .005 percent.




The second part of this report provides the detailed data obtained for all States and counties in the
United States.




USDA/OIG-A/50801-4-Hq                                                                                 13
                                TABLE OF CONTENTS
Alabama . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Alaska . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53
Arizona . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61
Arkansas . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 75
California . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 119
Colorado . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 153
Connecticut . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 185
Delaware . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 193
Florida . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 198
Georgia . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 235
Hawaii . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 307
Idaho . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 314
Illinois . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 342
Indiana . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 401
Iowa . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 450
Kansas . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 512
Kentucky . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 571
Louisiana . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 637
Maine . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 676
Maryland . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 688
Massachusetts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 704
Michigan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 714
Minnesota . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 763
Mississippi . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 818
Missouri . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 868
Montana . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 951
Nebraska . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 993
Nevada . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1049
New Hampshire . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1061
New Jersey . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1069
New Mexico . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1081
New York . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1100
North Carolina . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1132
North Dakota . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1187
Ohio . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1226
Oklahoma . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1274
Oregon . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1322
Pennsylvania . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1350
Rhode Island . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1387




USDA/OIG-A/50801-4-Hq                                                                                                                       14
                                TABLE OF CONTENTS
South Carolina . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1392
South Dakota . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         1420
Tennessee . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1469
Texas . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1521
Utah . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1654
Vermont . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1675
Virginia . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1685
Washington . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1739
West Virginia . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1761
Wisconsin . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1791
Wyoming . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1833




USDA/OIG-A/50801-4-Hq                                                                                                                        15
                            Demographics         17
                        FSA’s Loan Portfolio     26
                        FSA’s Application data   48




USDA/OIG-A/50801-4-Hq                                 16
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American      Native American            Asian                Other                 Hispanic
                                          Total      Number      Percent     Number    Percent    Number       Percent   Number     Percent   Number       Percent   Number    Percent
     AL                 Population         34,222      26,997     79%          6,806     20%           71         0%         118       0%              0      0%         230      1%
     Autauga County     Borrowers              13           8     62%              5     38%            0         0%           0       0%              0      0%           0      0%
                        Farms                 322         305     95%             17      5%            0         0%           0       0%              0      0%           0      0%
                        Land in Farms     107,259     107,259    100%              0      0%            0         0%           0       0%              0      0%           0      0%

     AL                 Population         98,280      83,800     85%         12,592     13%          621         1%         216       0%          29         0%       1,022      1%
     Baldwin County     Borrowers              37          35     95%              1      3%            0         0%           0       0%           1         3%           0      0%
                        Farms                 941         928     99%              0      0%            8         1%           0       0%           0         0%           5      1%
                        Land in Farms     167,832     167,697    100%              0      0%            0         0%           0       0%           0         0%         135      0%

     AL                 Population         25,417      14,054     55%         11,156     44%           40         0%          43       0%              0      0%         124      0%
     Barbour County     Borrowers              26          26    100%              0      0%            0         0%           0       0%              0      0%           0      0%
                        Farms                 421         391     93%             30      7%            0         0%           0       0%              0      0%           0      0%
                        Land in Farms     177,189     177,189    100%              0      0%            0         0%           0       0%              0      0%           0      0%

     AL                 Population         16,576      13,033     79%          3,468     21%           25         0%          11       0%              0      0%          39      0%
     Bibb County        Borrowers               3           3    100%              0      0%            0         0%           0       0%              0      0%           0      0%
                        Farms                 177         177    100%              0      0%            0         0%           0       0%              0      0%           0      0%
                        Land in Farms      48,022      48,022    100%              0      0%            0         0%           0       0%              0      0%           0      0%

     AL                 Population         39,248      38,275     98%           519       1%          129         0%          33       0%              6      0%         286      1%
     Blount County      Borrowers              49          49    100%             0       0%            0         0%           0       0%              0      0%           0      0%
                        Farms               1,121       1,116    100%             0       0%            0         0%           0       0%              0      0%           5      0%
                        Land in Farms     137,426     137,064    100%             0       0%            0         0%           0       0%              0      0%         362      0%

     AL                 Population         11,042       3,011      27%         7,948     72%               8      0%          10       0%              0      0%          65      1%
     Bullock County     Borrowers              12           7      58%             5     42%               0      0%           0       0%              0      0%           0      0%
                        Farms                 271         243      90%            28     10%               0      0%           0       0%              0      0%           0      0%
                        Land in Farms     144,799     138,288      96%         6,511      4%               0      0%           0       0%              0      0%           0      0%

     AL                 Population         21,892      13,001      59%         8,783     40%           24         0%          19       0%              0      0%          65      0%
     Butler County      Borrowers              35          27      77%             8     23%            0         0%           0       0%              0      0%           0      0%
                        Farms                 455         432      95%            23      5%            0         0%           0       0%              0      0%           0      0%
                        Land in Farms      96,427      92,498      96%         3,929      4%            0         0%           0       0%              0      0%           0      0%

     AL                 Population        116,034      92,154     79%         21,476     19%          291         0%         814       1%          17         0%       1,282      1%
     Calhoun County     Borrowers              24          23     96%              1      4%            0         0%           0       0%           0         0%           0      0%
                        Farms                 570         561     98%              6      1%            3         1%           0       0%           0         0%           0      0%
                        Land in Farms      73,841      73,841    100%              0      0%            0         0%           0       0%           0         0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 17
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American      Native American         Asian                Other                 Hispanic
                                          Total      Number      Percent     Number    Percent    Number    Percent   Number     Percent   Number       Percent   Number    Percent
     AL                 Population         36,876      23,510     64%         13,187     36%           36      0%          12       0%              4      0%         127      0%
     Chambers County    Borrowers              16          15     94%              1      6%            0      0%           0       0%              0      0%           0      0%
                        Farms                 343         328     96%             12      3%            0      0%           0       0%              0      0%           3      1%
                        Land in Farms     109,555     109,089    100%              0      0%            0      0%           0       0%              0      0%         466      0%

     AL                 Population         19,543      18,118     93%          1,291      7%           51      0%          24       0%              2      0%          57      0%
     Cherokee County    Borrowers              58          55     95%              3      5%            0      0%           0       0%              0      0%           0      0%
                        Farms                 441         437     99%              4      1%            0      0%           0       0%              0      0%           0      0%
                        Land in Farms     121,504     121,078    100%            426      0%            0      0%           0       0%              0      0%           0      0%

     AL                 Population         32,458      28,577     88%          3,664     11%           63      0%          37       0%              1      0%         116      0%
     Chilton County     Borrowers              19          18     95%              1      5%            0      0%           0       0%              0      0%           0      0%
                        Farms                 637         628     99%              9      1%            0      0%           0       0%              0      0%           0      0%
                        Land in Farms      99,466      98,995    100%            471      0%            0      0%           0       0%              0      0%           0      0%

     AL                 Population         16,018       8,889      55%         7,052     44%           10      0%          10       0%              4      0%          53      0%
     Choctaw County     Borrowers               5           3      60%             2     40%            0      0%           0       0%              0      0%           0      0%
                        Farms                 215         167      78%            48     22%            0      0%           0       0%              0      0%           0      0%
                        Land in Farms      67,950      61,591      91%         6,359      9%            0      0%           0       0%              0      0%           0      0%

     AL                 Population         27,240      15,481     57%         11,572     42%           45      0%          35       0%              4      0%         103      0%
     Clarke County      Borrowers               2           2    100%              0      0%            0      0%           0       0%              0      0%           0      0%
                        Farms                 213         203     95%             10      5%            0      0%           0       0%              0      0%           0      0%
                        Land in Farms      61,426      60,066     98%          1,360      2%            0      0%           0       0%              0      0%           0      0%

     AL                 Population         13,252      11,021     83%          2,166     16%           23      0%          13       0%              2      0%          27      0%
     Clay County        Borrowers              16          16    100%              0      0%            0      0%           0       0%              0      0%           0      0%
                        Farms                 370         370    100%              0      0%            0      0%           0       0%              0      0%           0      0%
                        Land in Farms      68,478      68,478    100%              0      0%            0      0%           0       0%              0      0%           0      0%

     AL                 Population         12,730      12,072     95%           587       5%           20      0%          13       0%              0      0%          38      0%
     Cleburne County    Borrowers              12          12    100%             0       0%            0      0%           0       0%              0      0%           0      0%
                        Farms                 338         338    100%             0       0%            0      0%           0       0%              0      0%           0      0%
                        Land in Farms      47,200      47,200    100%             0       0%            0      0%           0       0%              0      0%           0      0%

     AL                 Population         40,240      32,396     81%          6,903     17%          159      0%         305       1%              6      0%         471      1%
     Coffee County      Borrowers              51          50     98%              1      2%            0      0%           0       0%              0      0%           0      0%
                        Farms                 760         752     99%              8      1%            0      0%           0       0%              0      0%           0      0%
                        Land in Farms     175,209     174,448    100%            761      0%            0      0%           0       0%              0      0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 18
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American      Native American         Asian                  Other                 Hispanic
                                          Total      Number      Percent     Number    Percent    Number    Percent   Number       Percent   Number       Percent   Number    Percent
     AL                 Population         51,666      42,701     83%          8,545     17%          135      0%          93         0%              5      0%         187      0%
     Colbert County     Borrowers              29          28     97%              1      3%            0      0%           0         0%              0      0%           0      0%
                        Farms                 488         475     97%             13      3%            0      0%           0         0%              0      0%           0      0%
                        Land in Farms     138,135     138,135    100%              0      0%            0      0%           0         0%              0      0%           0      0%

     AL                 Population         14,054       8,026      57%         5,888     42%           40      0%          13         0%              5      0%          82      1%
     Conecuh County     Borrowers              24          20      83%             3     13%            1      4%           0         0%              0      0%           0      0%
                        Farms                 326         311      95%            15      5%            0      0%           0         0%              0      0%           0      0%
                        Land in Farms      82,466      80,708      98%         1,758      2%            0      0%           0         0%              0      0%           0      0%

     AL                 Population         11,063       7,230     65%          3,776     34%           34      0%              4      0%              1      0%          18      0%
     Coosa County       Borrowers               0           0      0%              0      0%            0      0%              0      0%              0      0%           0      0%
                        Farms                 191         188     98%              3      2%            0      0%              0      0%              0      0%           0      0%
                        Land in Farms      40,832      40,664    100%            168      0%            0      0%              0      0%              0      0%           0      0%

     AL                 Population         36,478      31,460      86%         4,770     13%           70      0%          48         0%              0      0%         130      0%
     Covington County   Borrowers              29          28      97%             1      3%            0      0%           0         0%              0      0%           0      0%
                        Farms                 831         814      98%            14      2%            3      0%           0         0%              0      0%           0      0%
                        Land in Farms     166,490     165,596      99%           894      1%            0      0%           0         0%              0      0%           0      0%

     AL                 Population         13,635      10,027     74%          3,542     26%           25      0%          10         0%              1      0%          30      0%
     Crenshaw County    Borrowers              29          27     93%              2      7%            0      0%           0         0%              0      0%           0      0%
                        Farms                 458         444     97%             11      2%            0      0%           0         0%              0      0%           3      1%
                        Land in Farms     111,315     111,167    100%              0      0%            0      0%           0         0%              0      0%         148      0%

     AL                 Population         67,613      66,540     98%           559       1%          130      0%         110         0%              2      0%         272      0%
     Cullman County     Borrowers              66          66    100%             0       0%            0      0%           0         0%              0      0%           0      0%
                        Farms               2,086       2,071     99%             0       0%            5      0%           3         0%              0      0%           7      0%
                        Land in Farms     196,859     195,386     99%             0       0%            0      0%         202         0%              0      0%       1,271      1%

     AL                 Population         49,633      38,690     78%          8,767     18%          235      0%         706         1%          20         0%       1,215      2%
     Dale County        Borrowers              13          11     85%              2     15%            0      0%           0         0%           0         0%           0      0%
                        Farms                 403         397     99%              6      1%            0      0%           0         0%           0         0%           0      0%
                        Land in Farms     134,555     133,892    100%            663      0%            0      0%           0         0%           0         0%           0      0%

     AL                 Population         48,130      20,054      42%        27,768     58%           41      0%         129         0%              7      0%         131      0%
     Dallas County      Borrowers              13           8      62%             5     38%            0      0%           0         0%              0      0%           0      0%
                        Farms                 408         320      78%            88     22%            0      0%           0         0%              0      0%           0      0%
                        Land in Farms     233,422     224,457      96%         8,965      4%            0      0%           0         0%              0      0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 19
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American      Native American            Asian                  Other                 Hispanic
                                          Total      Number      Percent     Number    Percent    Number       Percent   Number       Percent   Number       Percent   Number    Percent
     AL                 Population         54,651      52,854      97%         1,023      2%          473         1%          76         0%          10         0%         215      0%
     DeKalb County      Borrowers             131         128      98%             1      1%            1         1%           0         0%           1         1%           0      0%
                        Farms               1,894       1,884      99%             0      0%            0         0%           0         0%           0         0%          10      1%
                        Land in Farms     210,733     209,638      99%             0      0%            0         0%           0         0%           0         0%       1,095      1%

     AL                 Population         49,210      37,687     77%         10,995     22%          128         0%         125         0%              5      0%         270      1%
     Elmore County      Borrowers              50          50    100%              0      0%            0         0%           0         0%              0      0%           0      0%
                        Farms                 519         506     97%             13      3%            0         0%           0         0%              0      0%           0      0%
                        Land in Farms     104,364     103,587     99%            777      1%            0         0%           0         0%              0      0%           0      0%

     AL                 Population         35,518      24,227     68%         10,015     28%         1,036        3%          58         0%          13         0%         169      0%
     Escambia County    Borrowers              19          16     84%              3     16%             0        0%           0         0%           0         0%           0      0%
                        Farms                 362         352     97%             10      3%             0        0%           0         0%           0         0%           0      0%
                        Land in Farms      85,872      85,872    100%              0      0%             0        0%           0         0%           0         0%           0      0%

     AL                 Population         99,840      85,078     85%         13,782     14%          242         0%         401         0%              6      0%         331      0%
     Etowah County      Borrowers              29          29    100%              0      0%            0         0%           0         0%              0      0%           0      0%
                        Farms                 774         774    100%              0      0%            0         0%           0         0%              0      0%           0      0%
                        Land in Farms      85,821      85,821    100%              0      0%            0         0%           0         0%              0      0%           0      0%

     AL                 Population         17,962      15,666     87%          2,190     12%               9      0%          19         0%              0      0%          78      0%
     Fayette County     Borrowers              11          11    100%              0      0%               0      0%           0         0%              0      0%           0      0%
                        Farms                 299         288     96%             11      4%               0      0%           0         0%              0      0%           0      0%
                        Land in Farms      64,755      64,425     99%            330      1%               0      0%           0         0%              0      0%           0      0%

     AL                 Population         27,814      26,375      95%         1,247      4%           57         0%          34         0%              0      0%         101      0%
     Franklin County    Borrowers              35          34      97%             0      0%            0         0%           0         0%              1      3%           0      0%
                        Farms                 767         750      98%             8      1%            5         1%           0         0%              0      0%           4      1%
                        Land in Farms     130,063     127,747      98%           848      1%          718         1%           0         0%              0      0%         750      1%

     AL                 Population         23,647      20,604      87%         2,817     12%           90         0%          13         0%              2      0%         121      1%
     Geneva County      Borrowers              75          74      99%             1      1%            0         0%           0         0%              0      0%           0      0%
                        Farms                 806         791      98%            12      1%            3         0%           0         0%              0      0%           0      0%
                        Land in Farms     195,536     194,064      99%         1,103      1%          369         0%           0         0%              0      0%           0      0%

     AL                 Population         10,153       1,966      19%         8,160     80%               3      0%              0      0%              0      0%          24      0%
     Greene County      Borrowers              56          25      45%            31     55%               0      0%              0      0%              0      0%           0      0%
                        Farms                 255         177      69%            78     31%               0      0%              0      0%              0      0%           0      0%
                        Land in Farms     128,357     117,889      92%        10,468      8%               0      0%              0      0%              0      0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 20
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American      Native American          Asian                  Other                 Hispanic
                                          Total      Number      Percent     Number    Percent    Number     Percent   Number       Percent   Number       Percent   Number    Percent
     AL                  Population        15,498       6,241      40%         9,172     59%           20       0%              8      0%              0      0%          57      0%
     Hale County         Borrowers             38          28      74%            10     26%            0       0%              0      0%              0      0%           0      0%
                         Farms                382         324      85%            58     15%            0       0%              0      0%              0      0%           0      0%
                         Land in Farms    167,583     162,614      97%         4,969      3%            0       0%              0      0%              0      0%           0      0%

     AL                  Population        15,374       9,878      64%         5,368     35%           30       0%              5      0%              1      0%          92      1%
     Henry County        Borrowers              0           0       0%             0      0%            0       0%              0      0%              0      0%           0      0%
                         Farms                357         342      96%            15      4%            0       0%              0      0%              0      0%           0      0%
                         Land in Farms    166,949     164,714      99%         2,235      1%            0       0%              0      0%              0      0%           0      0%

     AL                  Population        81,331      61,233      75%        18,900     23%          283       0%         446         1%              5      0%         464      1%
     Houston County      Borrowers             63          56      89%             6     10%            1       2%           0         0%              0      0%           0      0%
                         Farms                753         729      97%            17      2%            4       1%           3         0%              0      0%           0      0%
                         Land in Farms    191,810     189,407      99%         2,403      1%            0       0%           0         0%              0      0%           0      0%

     AL                  Population        47,796      44,531     93%          1,957      4%         1,008      2%          89         0%              3      0%         208      0%
     Jackson County      Borrowers             65          65    100%              0      0%             0      0%           0         0%              0      0%           0      0%
                         Farms              1,139       1,111     98%              3      0%            21      2%           0         0%              0      0%           4      0%
                         Land in Farms    204,487     200,193     98%            933      0%         2,374      1%           0         0%              0      0%         987      0%

     AL                  Population       651,525     416,458     64%       228,191      35%          864       0%       3,146         0%         121         0%       2,745      0%
     Jefferson County    Borrowers              3           3    100%             0       0%            0       0%           0         0%           0         0%           0      0%
                         Farms                387         368     95%            19       5%            0       0%           0         0%           0         0%           0      0%
                         Land in Farms     35,748      34,742     97%         1,006       3%            0       0%           0         0%           0         0%           0      0%

     AL                  Population        15,715      13,748     87%          1,862     12%           24       0%              9      0%              1      0%          71      0%
     Lamar County        Borrowers              9           9    100%              0      0%            0       0%              0      0%              0      0%           0      0%
                         Farms                299         293     98%              6      2%            0       0%              0      0%              0      0%           0      0%
                         Land in Farms     56,102      56,102    100%              0      0%            0       0%              0      0%              0      0%           0      0%

     AL                  Population        79,661      71,310     90%          7,677     10%           163      0%         193         0%              5      0%         313      0%
     Lauderdale County   Borrowers             48          45     94%              3      6%             0      0%           0         0%              0      0%           0      0%
                         Farms              1,143       1,122     98%             14      1%             4      0%           0         0%              0      0%           3      0%
                         Land in Farms    201,892     200,889    100%              0      0%         1,003      0%           0         0%              0      0%           0      0%

     AL                  Population        31,513      24,483      78%         4,790     15%         2,118      7%          19         0%              1      0%         102      0%
     Lawrence County     Borrowers             91          85      93%             5      5%             1      1%           0         0%              0      0%           0      0%
                         Farms                915         878      96%            15      2%            22      2%           0         0%              0      0%           0      0%
                         Land in Farms    173,468     171,096      99%           813      0%         1,559      1%           0         0%              0      0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 21
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American      Native American            Asian                  Other                 Hispanic
                                          Total      Number      Percent     Number    Percent    Number       Percent   Number       Percent   Number       Percent   Number    Percent
     AL                 Population         87,146      64,527     74%         20,359     23%          128         0%       1,565         2%          15         0%         552      1%
     Lee County         Borrowers               7           7    100%              0      0%            0         0%           0         0%           0         0%           0      0%
                        Farms                 336         326     97%             10      3%            0         0%           0         0%           0         0%           0      0%
                        Land in Farms      67,962      67,270     99%            692      1%            0         0%           0         0%           0         0%           0      0%

     AL                 Population         54,135      46,468      86%         7,106     13%          144         0%         154         0%              2      0%         261      0%
     Limestone County   Borrowers              61          56      92%             5      8%            0         0%           0         0%              0      0%           0      0%
                        Farms                 910         884      97%            18      2%            5         1%           0         0%              0      0%           3      0%
                        Land in Farms     207,226     198,176      96%         8,555      4%          495         0%           0         0%              0      0%           0      0%

     AL                 Population         12,658       3,177     25%          9,408     74%               9      0%              4      0%              0      0%          60      0%
     Lowndes County     Borrowers              40          13     33%             27     68%               0      0%              0      0%              0      0%           0      0%
                        Farms                 315         270     86%             45     14%               0      0%              0      0%              0      0%           0      0%
                        Land in Farms     199,714     199,714    100%              0      0%               0      0%              0      0%              0      0%           0      0%

     AL                 Population         24,928       3,429     14%         21,290     85%           23         0%          78         0%              5      0%         103      0%
     Macon County       Borrowers              21          16     76%              5     24%            0         0%           0         0%              0      0%           0      0%
                        Farms                 311         230     74%             81     26%            0         0%           0         0%              0      0%           0      0%
                        Land in Farms     138,437     138,437    100%              0      0%            0         0%           0         0%              0      0%           0      0%

     AL                 Population        238,912     182,334      76%        47,826     20%         1,564        1%       4,140         2%          64         0%       2,984      1%
     Madison County     Borrowers              41          35      85%             6     15%             0        0%           0         0%           0         0%           0      0%
                        Farms                 871         813      93%            52      6%             3        0%           0         0%           0         0%           3      0%
                        Land in Farms     224,370     218,909      98%         5,311      2%             0        0%           0         0%           0         0%         150      0%

     AL                 Population         23,084      11,279      49%        11,707     51%           10         0%          11         0%              2      0%          75      0%
     Marengo County     Borrowers              22          16      73%             6     27%            0         0%           0         0%              0      0%           0      0%
                        Farms                 434         368      85%            66     15%            0         0%           0         0%              0      0%           0      0%
                        Land in Farms     199,117     194,097      97%         5,020      3%            0         0%           0         0%              0      0%           0      0%

     AL                 Population         29,830      28,708     96%           965       3%           57         0%          33         0%              2      0%          65      0%
     Marion County      Borrowers              22          22    100%             0       0%            0         0%           0         0%              0      0%           0      0%
                        Farms                 566         563     99%             3       1%            0         0%           0         0%              0      0%           0      0%
                        Land in Farms      89,228      89,038    100%           190       0%            0         0%           0         0%              0      0%           0      0%

     AL                 Population         70,832      69,118     98%          1,086      2%          227         0%         109         0%              3      0%         289      0%
     Marshall County    Borrowers              53          51     96%              0      0%            0         0%           0         0%              1      2%           1      2%
                        Farms               1,364       1,358    100%              0      0%            3         0%           0         0%              0      0%           3      0%
                        Land in Farms     142,873     142,873    100%              0      0%            0         0%           0         0%              0      0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 22
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American      Native American          Asian                Other                 Hispanic
                                          Total      Number      Percent     Number    Percent    Number     Percent   Number     Percent   Number       Percent   Number    Percent
     AL                  Population       378,643     252,660     67%       117,509      31%         1,895      1%       3,319       1%          96         0%       3,164      1%
     Mobile County       Borrowers             24          23     96%             1       4%             0      0%           0       0%           0         0%           0      0%
                         Farms                670         657     98%            13       2%             0      0%           0       0%           0         0%           0      0%
                         Land in Farms    104,342     104,342    100%             0       0%             0      0%           0       0%           0         0%           0      0%

     AL                  Population        23,968      14,251     59%          9,354     39%          215       1%          53       0%              1      0%          94      0%
     Monroe County       Borrowers             10           9     90%              1     10%            0       0%           0       0%              0      0%           0      0%
                         Farms                400         349     87%             51     13%            0       0%           0       0%              0      0%           0      0%
                         Land in Farms    110,066     110,066    100%              0      0%            0       0%           0       0%              0      0%           0      0%

     AL                  Population       209,085     118,480      57%        87,050     42%          403       0%       1,477       1%          51         0%       1,624      1%
     Montgomery County   Borrowers             37          31      84%             5     14%            0       0%           0       0%           1         3%           0      0%
                         Farms                598         529      88%            63     11%            3       1%           0       0%           0         0%           3      1%
                         Land in Farms    231,243     223,770      97%         7,420      3%           53       0%           0       0%           0         0%           0      0%

     AL                  Population       100,043      88,726      89%        10,042     10%          307       0%         366       0%          18         0%         584      1%
     Morgan County       Borrowers             58          57      98%             0      0%            0       0%           0       0%           1         2%           0      0%
                         Farms              1,129       1,106      98%            13      1%            6       1%           0       0%           0         0%           4      0%
                         Land in Farms    155,914     154,120      99%         1,461      1%          333       0%           0       0%           0         0%           0      0%

     AL                  Population        12,759       4,496      35%         8,196     64%           16       0%          14       0%              1      0%          36      0%
     Perry County        Borrowers             55          26      47%            29     53%            0       0%           0       0%              0      0%           0      0%
                         Farms                312         245      79%            67     21%            0       0%           0       0%              0      0%           0      0%
                         Land in Farms    144,193     132,280      92%        11,913      8%            0       0%           0       0%              0      0%           0      0%

     AL                  Population        20,699      11,973     58%          8,625     42%           24       0%          27       0%              0      0%          50      0%
     Pickens County      Borrowers             51          44     86%              7     14%            0       0%           0       0%              0      0%           0      0%
                         Farms                404         382     95%             22      5%            0       0%           0       0%              0      0%           0      0%
                         Land in Farms    106,206     106,206    100%              0      0%            0       0%           0       0%              0      0%           0      0%

     AL                  Population        27,595      17,760      64%         9,513     34%           144      1%          68       0%              2      0%         108      0%
     Pike County         Borrowers             25          24      96%             1      4%             0      0%           0       0%              0      0%           0      0%
                         Farms                549         529      96%            13      2%             4      1%           0       0%              0      0%           3      1%
                         Land in Farms    179,319     177,286      99%             0      0%         1,843      1%           0       0%              0      0%         190      0%

     AL                  Population        19,881      15,104      76%         4,672     23%           29       0%          21       0%              2      0%          53      0%
     Randolph County     Borrowers             33          29      88%             3      9%            0       0%           0       0%              1      3%           0      0%
                         Farms                559         546      98%             9      2%            0       0%           0       0%              0      0%           4      1%
                         Land in Farms     96,435      94,908      98%             0      0%            0       0%           0       0%              0      0%       1,527      2%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 23
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American      Native American            Asian                Other                 Hispanic
                                          Total      Number      Percent     Number    Percent    Number       Percent   Number     Percent   Number       Percent   Number    Percent
     AL                  Population        46,860      28,311     60%         18,041     38%           86         0%         111       0%          10         0%         301      1%
     Russell County      Borrowers             12          12    100%              0      0%            0         0%           0       0%           0         0%           0      0%
                         Farms                213         200     94%             13      6%            0         0%           0       0%           0         0%           0      0%
                         Land in Farms    112,620     110,924     98%          1,696      2%            0         0%           0       0%           0         0%           0      0%

     AL                  Population        50,009      45,038     90%          4,545      9%          134         0%          76       0%              7      0%         209      0%
     St. Clair County    Borrowers             11          10     91%              0      0%            0         0%           0       0%              0      0%           1      9%
                         Farms                555         555    100%              0      0%            0         0%           0       0%              0      0%           0      0%
                         Land in Farms     78,176      78,176    100%              0      0%            0         0%           0       0%              0      0%           0      0%

     AL                  Population        99,358      90,292      91%         7,698      8%          263         0%         573       1%              7      0%         525      1%
     Shelby County       Borrowers             10           9      90%             1     10%            0         0%           0       0%              0      0%           0      0%
                         Farms                426         415      97%             8      2%            3         1%           0       0%              0      0%           0      0%
                         Land in Farms     71,697      70,867      99%           764      1%           66         0%           0       0%              0      0%           0      0%

     AL                  Population        16,174       4,745      29%        11,313     70%               6      0%          29       0%              3      0%          78      0%
     Sumter County       Borrowers             39          21      54%            18     46%               0      0%           0       0%              0      0%           0      0%
                         Farms                336         223      66%           109     32%               0      0%           0       0%              0      0%           4      1%
                         Land in Farms    167,923     150,370      90%        15,647      9%               0      0%           0       0%              0      0%       1,906      1%

     AL                  Population        74,107      50,696     68%         22,620     31%          172         0%         113       0%          16         0%         490      1%
     Talladega County    Borrowers             19          17     89%              2     11%            0         0%           0       0%           0         0%           0      0%
                         Farms                472         454     96%             18      4%            0         0%           0       0%           0         0%           0      0%
                         Land in Farms    104,199     104,199    100%              0      0%            0         0%           0       0%           0         0%           0      0%

     AL                  Population        38,826      28,461      73%        10,187     26%           62         0%          37       0%              8      0%          71      0%
     Tallapoosa County   Borrowers             27          24      89%             3     11%            0         0%           0       0%              0      0%           0      0%
                         Farms                317         311      98%             6      2%            0         0%           0       0%              0      0%           0      0%
                         Land in Farms     78,889      78,376      99%           513      1%            0         0%           0       0%              0      0%           0      0%

     AL                  Population       150,522     108,801     72%         39,272     26%          241         0%       1,228       1%          32         0%         948      1%
     Tuscaloosa County   Borrowers             12          12    100%              0      0%            0         0%           0       0%           0         0%           0      0%
                         Farms                436         425     97%              8      2%            0         0%           0       0%           0         0%           3      1%
                         Land in Farms     96,194      94,927     99%          1,267      1%            0         0%           0       0%           0         0%           0      0%

     AL                  Population        67,670      62,863     93%          4,397      6%           83         0%         101       0%              2      0%         224      0%
     Walker County       Borrowers             14          14    100%              0      0%            0         0%           0       0%              0      0%           0      0%
                         Farms                430         430    100%              0      0%            0         0%           0       0%              0      0%           0      0%
                         Land in Farms     50,257      50,257    100%              0      0%            0         0%           0       0%              0      0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 24
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American      Native American            Asian                  Other                 Hispanic
                                          Total      Number      Percent     Number    Percent    Number       Percent   Number       Percent   Number       Percent   Number    Percent
     AL                  Population        16,694      10,958     66%          4,612     28%         1,057        6%          14         0%              2      0%          51      0%
     Washington County   Borrowers              7           6     86%              1     14%             0        0%           0         0%              0      0%           0      0%
                         Farms                361         350     97%             11      3%             0        0%           0         0%              0      0%           0      0%
                         Land in Farms     85,086      84,714    100%            372      0%             0        0%           0         0%              0      0%           0      0%

     AL                  Population        13,568       4,185     31%          9,332    69%                6      0%              5      0%              0      0%          40      0%
     Wilcox County       Borrowers              6           0      0%              6   100%                0      0%              0      0%              0      0%           0      0%
                         Farms                235         187     80%             48    20%                0      0%              0      0%              0      0%           0      0%
                         Land in Farms    141,260     141,260    100%              0     0%                0      0%              0      0%              0      0%           0      0%

     AL                  Population        22,053      21,871     99%             57      0%           42         0%          24         0%              0      0%          59      0%
     Winston County      Borrowers             20          20    100%              0      0%            0         0%           0         0%              0      0%           0      0%
                         Farms                559         559    100%              0      0%            0         0%           0         0%              0      0%           0      0%
                         Land in Farms     56,680      56,680    100%              0      0%            0         0%           0         0%              0      0%           0      0%

     AL                  Population      4,040,587   2,960,167     73% 1,017,713         25%        16,221        0%      21,217         1%         640         0%      24,629      1%
     STATE               Borrowers           2,041       1,799     88%       229         11%             4        0%           0         0%           7         0%           2      0%
                         Farms              37,905      36,349     96%     1,371          4%           105        0%           6         0%           0         0%          74      0%
                         Land in Farms   8,450,823   8,313,850     98% 118,971            1%         8,813        0%         202         0%           0         0%       8,987      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 25
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          AUTAUGA, ALABAMA                                   BALDWIN, ALABAMA                                  BARBOUR, ALABAMA
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            13                      4                         37                      7                         26                     15
                              Loans                                19                      4                         66                    12                          55                     36
                              Principal and Interest     479,597                      2,376              3,489,640                    26,292               2,105,593                    200,781

WHITE                         Borrowers                             8     62%              2     50%                 35     95%              7    100%                 26    100%             15        100%
                              Loans                                12     63%              2     50%                 64     97%            12     100%                 55    100%             36        100%
                              Principal and Interest     408,065          85%           162        7%    3,387,615          97%       26,292      100%     2,105,593         100%       200,781         100%

AFRICAN AMERICAN              Borrowers                             5     38%              2     50%                  1       3%             0       0%                 0       0%                 0       0%
                              Loans                                 7     37%              2     50%                  1       2%             0       0%                 0       0%                 0       0%
                              Principal and Interest      71,532          15%         2,214      93%        27,356            1%             0       0%                 0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%             0       0%                 1       3%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 1       2%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%       74,670            2%             0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 26
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   BIBB, ALABAMA                             BLOUNT, ALABAMA                                  BULLOCK, ALABAMA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            3                      3                         49                    21                          12                          6
                              Loans                                4                      3                    106                        43                          31                     17
                              Principal and Interest      98,047                   20,927               4,550,595                   414,537                 937,763                     98,793
WHITE                         Borrowers                            3    100%              3    100%                 49    100%            21     100%                  7     58%                  3     50%
                              Loans                                4    100%              3    100%            106        100%            43     100%                 22     71%             12         71%
                              Principal and Interest      98,047        100%       20,927      100%     4,550,595         100%      414,537      100%       724,516          77%        57,651          58%
AFRICAN AMERICAN              Borrowers                            0       0%             0       0%                 0       0%             0       0%                 5     42%                  3     50%
                              Loans                                0       0%             0       0%                 0       0%             0       0%                 9     29%                  5     29%
                              Principal and Interest               0       0%             0       0%                 0       0%             0       0%      213,246          23%        41,142          42%
NATIVE AMERICAN               Borrowers                            0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest               0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                            0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest               0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
OTHER                         Borrowers                            0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest               0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                            0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Prinicpal and Interest               0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 27
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            BUTLER, ALABAMA                                 CALHOUN, ALABAMA                                  CHAMBERS, ALABAMA
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            35                      3                         24                      7                         16                          3
                              Loans                                64                      3                         57                    15                          30                          9
                              Principal and Interest   1,469,526                    12,586               1,012,123                    94,458               1,136,334                     50,839
WHITE                         Borrowers                            27     77%              2     67%                 23     96%              7    100%                 15     94%                  3    100%
                              Loans                                56     88%              2     67%                 53     93%            15     100%                 29     97%                  9    100%
                              Principal and Interest   1,284,257          87%         6,971      55%     1,006,255          99%       94,458      100%     1,128,634          99%        50,839         100%
AFRICAN AMERICAN              Borrowers                             8     23%              1     33%                  1       4%             0       0%                 1       6%                 0       0%
                              Loans                                 8     13%              1     33%                  4       7%             0       0%                 1       3%                 0       0%
                              Principal and Interest     185,269          13%         5,615      45%          5,868           1%             0       0%         7,700           1%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 28
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         CHEROKEE, ALABAMA                                   CHILTON, ALABAMA                                  CHOCTAW, ALABAMA
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            58                    12                          19                      4                          5                          0
                              Loans                           144                        31                          29                      9                         10                          0
                              Principal and Interest   5,286,823                   312,197                687,130                     30,880                 144,524                               0
WHITE                         Borrowers                            55     95%            10      83%                 18     95%              4    100%                  3     60%                  0       0%
                              Loans                           134         93%            26      84%                 28     97%              9    100%                  8     80%                  0       0%
                              Principal and Interest   4,820,547          91%      177,310       57%      678,400           99%       30,880      100%       136,002          94%                  0       0%
AFRICAN AMERICAN              Borrowers                             3       5%             2     17%                  1       5%             0       0%                 2     40%                  0       0%
                              Loans                                10       7%             5     16%                  1       3%             0       0%                 2     20%                  0       0%
                              Principal and Interest     466,275            9%     134,887       43%          8,730           1%             0       0%         8,522           6%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 29
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            CLARKE, ALABAMA                                     CLAY, ALABAMA                                CLEBURNE, ALABAMA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            2                      1                         16                      2                         12                          2
                              Loans                                3                      2                         20                      2                         32                          3
                              Principal and Interest      56,568                     2,347               542,559                     10,459               1,328,192                     19,531
WHITE                         Borrowers                            2    100%              1    100%                 16    100%              2    100%                 12    100%                  2    100%
                              Loans                                3    100%              2    100%                 20    100%              2    100%                 32    100%                  3    100%
                              Principal and Interest      56,568        100%         2,347     100%      542,559          100%       10,459      100%     1,328,192         100%        19,531         100%
AFRICAN AMERICAN              Borrowers                            0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest               0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
NATIVE AMERICAN               Borrowers                            0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest               0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                            0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest               0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
OTHER                         Borrowers                            0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest               0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                            0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Prinicpal and Interest               0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 30
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            COFFEE, ALABAMA                                  COLBERT, ALABAMA                                  CONECUH, ALABAMA
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            51                    13                          29                    11                          24                          7
                              Loans                                95                    24                          38                    14                          57                     10
                              Principal and Interest   5,005,105                   182,080               1,728,300                    43,874               1,657,306                     97,636
WHITE                         Borrowers                            50     98%            12      92%                 28     97%            10      91%                 20     83%                  7    100%
                              Loans                                92     97%            21      88%                 37     97%            13      93%                 53     93%             10        100%
                              Principal and Interest   4,952,380          99%      178,529       98%     1,708,660          99%       40,334       92%     1,605,503          97%        97,636         100%
AFRICAN AMERICAN              Borrowers                             1       2%             1       8%                 1       3%             1       9%                 3     13%                  0       0%
                              Loans                                 3       3%             3     13%                  1       3%             1       7%                 3       5%                 0       0%
                              Principal and Interest      52,725            1%        3,551        2%       19,640            1%        3,540        8%       39,892            2%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%             0       0%                 0       0%             0       0%                 1       4%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 1       2%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%       11,910            1%                 0       0%
ASIAN                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 31
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        COVINGTON, ALABAMA                                 CRENSHAW, ALABAMA                                   CULLMAN, ALABAMA
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            29                      8                         29                      3                         66                     11
                              Loans                                50                    14                          56                      8                         96                     18
                              Principal and Interest   1,981,562                    52,971               2,349,278                    21,024               3,632,576                     91,710
WHITE                         Borrowers                            28     97%              8    100%                 27     93%              2     67%                 66    100%             11        100%
                              Loans                                49     98%            14     100%                 52     93%              7     88%                 96    100%             18        100%
                              Principal and Interest   1,947,807          98%       52,971      100%     2,275,307          97%       20,893       99%     3,632,576         100%        91,710         100%
AFRICAN AMERICAN              Borrowers                             1       3%             0       0%                 2       7%             1     33%                  0       0%                 0       0%
                              Loans                                 1       2%             0       0%                 4       7%             1     13%                  0       0%                 0       0%
                              Principal and Interest      33,755            2%             0       0%       73,971            3%          131        1%                 0       0%                 0       0%

NATIVE AMERICAN               Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 32
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               DALE, ALABAMA                                  DALLAS, ALABAMA                                   DE KALB, ALABAMA
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            13                      3                         13                      4                    131                        40
                              Loans                                18                      3                         24                      9                    250                        83
                              Principal and Interest     805,597                    12,629                650,017                     16,338               7,763,004                   446,306
WHITE                         Borrowers                            11     85%              1     33%                  8     62%              2     50%            128        98%             38         95%
                              Loans                                16     89%              1     33%                 15     63%              6     67%            239        96%             80         96%
                              Principal and Interest     775,064          96%         7,269      58%      622,700           96%       13,660       84%     7,194,950         93%       430,838          97%
AFRICAN AMERICAN              Borrowers                             2     15%              2     67%                  5     38%              2     50%                 1       1%                 1       3%
                              Loans                                 2     11%              2     67%                  9     38%              3     33%                 2       1%                 2       2%
                              Principal and Interest      30,533            4%        5,360      42%        27,318            4%        2,678      16%       239,086           3%       13,524            3%
NATIVE AMERICAN               Borrowers                             0       0%             0       0%                 0       0%             0       0%                1       1%                 1       3%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                8       3%                 1       1%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%      274,816           4%         1,944
ASIAN                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                0       0%                 0       0%
OTHER                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                1       1%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                1       0%                 0
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%       54,153           1%                 0       0%
HISPANIC                      Borrowers                             0       0%             0       0%                 0       0%             0       0%                0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                0       0%                 0       0%
                              Prinicpal and Interest                0       0%             0       0%                 0       0%             0       0%                0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 33
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           ELMORE, ALABAMA                                  ESCAMBIA, ALABAMA                                   ETOWAH, ALABAMA
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            50                      9                         19                      3                         29                          6
                              Loans                                78                    14                          45                      7                         48                     12
                              Principal and Interest   3,071,842                    35,961               2,660,138                   125,333               1,843,934                     36,439
WHITE                         Borrowers                            50    100%              9    100%                 16     84%              3    100%                 29    100%                  6    100%
                              Loans                                78    100%            14     100%                 33     73%              7    100%                 48    100%             12        100%
                              Principal and Interest   3,071,842         100%       35,961      100%     2,471,401          93%      125,333      100%     1,843,934         100%        36,439         100%
AFRICAN AMERICAN              Borrowers                             0       0%             0       0%                 3     16%              0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                12     27%              0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%     188,738             7%             0       0%                 0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%

HISPANIC                      Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 34
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           FAYETTE, ALABAMA                                 FRANKLIN, ALABAMA                                    GENEVA, ALABAMA
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            11                      4                         35                      6                         75                     24
                              Loans                                23                      9                         61                      8                    111                         36
                              Principal and Interest     639,472                    73,134               1,159,371                      9,233              5,399,408                    187,303
WHITE                         Borrowers                            11    100%              4    100%                 34     97%              6    100%                 74     99%             24        100%
                              Loans                                23    100%              9    100%                 60     98%              8    100%            109         98%             36        100%
                              Principal and Interest     639,472         100%       73,134      100%     1,123,839          97%         9,233     100%     5,387,913         100%       187,303         100%
AFRICAN AMERICAN              Borrowers                             0       0%             0       0%                 0       0%             0       0%                 1       1%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 2       2%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%       11,495            0%                 0
NATIVE AMERICAN               Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%             0       0%                 1       3%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 1       2%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%       35,533            3%             0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 35
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            GREENE, ALABAMA                                      HALE, ALABAMA                                 HOUSTON, ALABAMA
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            56                    20                          38                    10                          63                     20
                              Loans                           120                        37                          58                    14                     124                         48
                              Principal and Interest   2,115,775                    77,176               1,284,938                    14,771               4,627,458                    321,061
WHITE                         Borrowers                            25     45%              9     45%                 28     74%              6     60%                 56     89%             15         75%
                              Loans                                66     55%            19      51%                 43     74%              9     64%            109         88%             37         77%
                              Principal and Interest   1,095,658          52%       43,553       56%     1,060,636          83%         7,630      52%     4,054,480          88%       241,970          75%
AFRICAN AMERICAN              Borrowers                            31     55%            11      55%                 10     26%              4     40%                  6     10%                  5     25%
                              Loans                                54     45%            18      49%                 15     26%              5     36%                 14     11%             11         23%
                              Principal and Interest   1,020,116          48%       33,623       44%      224,302           17%         7,141      48%       494,208          11%        79,091          25%
NATIVE AMERICAN               Borrowers                             0       0%             0       0%                 0       0%             0       0%                 1       2%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 1       1%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%       78,770            2%                 0       0%
ASIAN                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 36
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           JACKSON, ALABAMA                                JEFFERSON, ALABAMA                                    LAMAR, ALABAMA
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            65                    21                          3                      1                          9                          1
                              Loans                           158                        46                          7                      1                         19                     11
                              Principal and Interest   5,928,912                   458,954                463,783                      6,103                733,729                    174,147
WHITE                         Borrowers                            65    100%            21     100%                 3    100%              1    100%                  9    100%                  1    100%
                              Loans                           158        100%            46     100%                 7    100%              1    100%                 19    100%             11        100%
                              Principal and Interest   5,928,912         100%      458,954      100%      463,783         100%         6,103     100%       733,729         100%       174,147         100%
AFRICAN AMERICAN              Borrowers                             0       0%             0       0%                0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                0       0%             0       0%                 0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%             0       0%                0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                0       0%             0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                             0       0%             0       0%                0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                0       0%             0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%             0       0%                0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                0       0%             0       0%                 0       0%                 0       0%

HISPANIC                      Borrowers                             0       0%             0       0%                0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                0       0%             0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%             0       0%                0       0%             0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 37
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       LAUDERDALE, ALABAMA                                 LAWRENCE, ALABAMA                                           LEE, ALABAMA
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            48                    11                          91                    15                           7                          2
                              Loans                                89                    22                     131                        16                          16                          5
                              Principal and Interest   3,041,287                   299,922               3,279,452                    71,135               1,186,887                     32,799
WHITE                         Borrowers                            45     94%            11     100%                 85     93%            14      93%                  7    100%                  2    100%
                              Loans                                85     96%            22     100%            121         92%            15      94%                 16    100%                  5    100%
                              Principal and Interest   3,006,833          99%      299,922      100%     3,123,526          95%       70,029       98%     1,186,887         100%        32,799         100%
AFRICAN AMERICAN              Borrowers                             3       6%             0       0%                 5       5%             0       0%                 0       0%                 0       0%
                              Loans                                 4       4%             0       0%                 8       6%             0       0%                 0       0%                 0       0%
                              Principal and Interest      34,454            1%             0       0%     118,027             4%             0       0%                 0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%             0       0%                 1       1%             1       7%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 2       2%             1       6%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%       37,900            1%        1,106        2%                 0       0%                 0       0%
ASIAN                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%

HISPANIC                      Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 38
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        LIMESTONE, ALABAMA                                  LOWNDES, ALABAMA                                     MACON, ALABAMA
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            61                      8                         40                    14                          21                          5
                              Loans                           116                        12                          65                    21                          37                     16
                              Principal and Interest   3,681,884                    54,677               1,646,954                   262,205               2,260,679                    645,945
WHITE                         Borrowers                            56     92%              6     75%                 13     33%              2     14%                 16     76%                  4     80%
                              Loans                           110         95%            10      83%                 25     38%              3     14%                 31     84%             14         88%
                              Principal and Interest   3,211,183          87%       38,688       71%      946,108           57%       71,457       27%     2,136,412          95%       642,892         100%

AFRICAN AMERICAN              Borrowers                             5       8%             2     25%                 27     68%            12      86%                  5     24%                  1     20%
                              Loans                                 6       5%             2     17%                 40     62%            18      86%                  6     16%                  2     13%
                              Principal and Interest     470,701          13%       15,989       29%      700,847           43%      190,747       73%       124,267            5%         3,053           0%
NATIVE AMERICAN               Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 39
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           MADISON, ALABAMA                                 MARENGO, ALABAMA                                     MARION, ALABAMA
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                                    Borrowers                 41                      9                         22                      8                         22                          2
                                             Loans            109                        25                          37                    12                          52                          4
                              Principal and Interest   4,488,253                    65,472                931,292                     24,378               1,374,199                       3,000

WHITE                                    Borrowers                 35     85%              7     78%                 16     73%              5     63%                 22    100%                  2   100%
                                             Loans                 91     83%            18      72%                 27     73%              9     75%                 52    100%                  4   100%
                              Principal and Interest   4,224,607          94%       46,626       71%      806,004           87%       24,310      100%     1,374,199         100%          3,000       100%

AFRICAN AMERICAN                         Borrowers                  6     15%              2     22%                  6     27%              3     38%                  0       0%                 0    0%
                                             Loans                 18     17%              7     28%                 10     27%              3     25%                  0       0%                 0    0%
                              Principal and Interest     263,645            6%      18,845       29%      125,288           13%            67                           0       0%                 0    0%

NATIVE AMERICAN                          Borrowers                  0       0%             0       0%                 0       0%             0       0%                 0       0%                 0    0%
                                             Loans                  0       0%             0       0%                 0       0%             0       0%                 0       0%                 0    0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0    0%

ASIAN                                    Borrowers                  0       0%             0       0%                 0       0%             0       0%                 0       0%                 0    0%
                                             Loans                  0       0%             0       0%                 0       0%             0       0%                 0       0%                 0    0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0    0%

OTHER                                    Borrowers                  0       0%             0       0%                 0       0%             0       0%                 0       0%                 0    0%
                                             Loans                  0       0%             0       0%                 0       0%             0       0%                 0       0%                 0    0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0    0%

HISPANIC                                 Borrowers                  0       0%             0       0%                 0       0%             0       0%                 0       0%                 0    0%
                                             Loans                  0       0%             0       0%                 0       0%             0       0%                 0       0%                 0    0%
                              Prinicpal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 40
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         MARSHALL, ALABAMA                                    MOBILE, ALABAMA                                   MONROE, ALABAMA
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            53                    14                          24                      5                         10                          2
                              Loans                                91                    18                          50                    10                          25                          3
                              Principal and Interest   5,095,568                   137,645               1,514,543                    50,456               1,010,622                     20,177

WHITE                         Borrowers                            51     96%            14     100%                 23     96%              4     80%                  9     90%                  2    100%
                              Loans                                89     98%            18     100%                 48     96%              9     90%                 22     88%                  3    100%
                              Principal and Interest   4,895,729          96%      137,645      100%     1,508,903         100%       49,606       98%     1,007,268         100%        20,177         100%

AFRICAN AMERICAN              Borrowers                             0       0%             0       0%                 1       4%             1     20%                  1     10%                  0       0%
                              Loans                                 0       0%             0       0%                 2       4%             1     10%                  3     12%                  0       0%
                              Principal and Interest                0       0%             0       0%         5,641           0%          850        2%         3,354           0%                 0       0%

NATIVE AMERICAN               Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%

ASIAN                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%

OTHER                         Borrowers                             1       2%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 1       1%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest      61,872            1%             0       0%                 0       0%             0       0%                 0       0%                 0       0%

HISPANIC                      Borrowers                             1       2%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 1       1%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Prinicpal and Interest     137,967            3%             0       0%                 0       0%             0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 41
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MONTGOMERY, ALABAMA                                   MORGAN, ALABAMA                                      PERRY, ALABAMA
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            37                      8                         58                      5                         55                     16
                              Loans                                57                    17                          89                      7                         59                     17
                              Principal and Interest   2,933,042                    53,046               2,403,160                    17,261                 891,341                     15,689

WHITE                         Borrowers                            31     84%              6     75%                 57     98%              5    100%                 26     47%                  6     38%
                              Loans                                47     82%            11      65%                 88     99%              7    100%                 28     47%                  6     35%
                              Principal and Interest   2,716,939          93%       51,641       97%     2,389,382          99%       17,261      100%       694,970          78%          6,300         40%

AFRICAN AMERICAN              Borrowers                             5     14%              2     25%                  0       0%             0       0%                29     53%             10         63%
                              Loans                                 9     16%              6     35%                  0       0%             0       0%                31     53%             11         65%
                              Principal and Interest     183,147            6%        1,405        3%                 0       0%             0       0%      196,371          22%          9,389         60%

NATIVE AMERICAN               Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%

ASIAN                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%

OTHER                         Borrowers                             1       3%             0       0%                 1       2%             0       0%                 0       0%                 0       0%
                              Loans                                 1       2%             0       0%                 1       1%             0       0%                 0       0%                 0       0%
                              Principal and Interest      32,955            1%             0       0%       13,778            1%             0       0%                 0       0%                 0       0%

HISPANIC                      Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 42
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           PICKENS, ALABAMA                                      PIKE, ALABAMA                                RANDOLPH, ALABAMA
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            51                    17                          25                      9                         33                          7
                              Loans                           110                        45                          40                    15                          63                     18
                              Principal and Interest   3,711,086                   177,743               1,270,556                    96,944               2,814,172                    434,774

WHITE                         Borrowers                            44     86%            15      88%                 24     96%              9    100%                 29     88%                  6     86%
                              Loans                                98     89%            39      87%                 39     98%            15     100%                 56     89%             17         94%
                              Principal and Interest   3,437,374          93%      161,003       91%     1,257,410          99%       96,944      100%     2,601,412          92%       434,770         100%

AFRICAN AMERICAN              Borrowers                             7     14%              2     12%                  1       4%             0       0%                 3       9%                 1     14%
                              Loans                                12     11%              6     13%                  1       3%             0       0%                 4       6%                 1       6%
                              Principal and Interest     273,712            7%      16,741         9%       13,146            1%             0       0%      159,732            6%                 4       0%

NATIVE AMERICAN               Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%

ASIAN                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%

OTHER                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 1       3%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 3       5%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%       53,028            2%                 0       0%

HISPANIC                      Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 43
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           RUSSELL, ALABAMA                                   SHELBY, ALABAMA                                   ST CLAIR, ALABAMA
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            12                      1                         10                      2                         11                          2
                              Loans                                30                      1                         25                      8                         44                     13
                              Principal and Interest   1,335,697                    29,925                756,893                     17,972               1,345,154                    152,895

WHITE                         Borrowers                            12    100%              1    100%                  9     90%              2    100%                 10     91%                  2    100%
                              Loans                                30    100%              1    100%                 24     96%              8    100%                 38     86%             13        100%
                              Principal and Interest   1,335,697         100%       29,925      100%      752,735           99%       17,972      100%     1,196,501          89%       152,895         100%

AFRICAN AMERICAN              Borrowers                             0       0%             0       0%                 1     10%              0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 1       4%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%         4,158           1%             0       0%                 0       0%                 0       0%

NATIVE AMERICAN               Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%

ASIAN                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%

OTHER                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%

HISPANIC                      Borrowers                             0       0%             0       0%                 0       0%             0       0%                 1       9%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 6     14%                  0       0%
                              Prinicpal and Interest                0       0%             0       0%                 0       0%             0       0%      148,653          11%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 44
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            SUMTER, ALABAMA                               TALLADEGA, ALABAMA                                TALLAPOOSA, ALABAMA
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            39                    13                          19                      4                         27                          4
                              Loans                                58                    15                          38                    12                          69                     14
                              Principal and Interest   1,735,034                    53,354               1,458,388                    57,159               1,157,434                     17,678

WHITE                         Borrowers                            21     54%              3     23%                 17     89%              3     75%                 24     89%                  3     75%
                              Loans                                33     57%              3     20%                 36     95%            11      92%                 66     96%             13         93%
                              Principal and Interest   1,310,429          76%       34,813       65%     1,322,481          91%       23,095       40%     1,104,280          95%        17,142          97%

AFRICAN AMERICAN              Borrowers                            18     46%            10      77%                  2     11%              1     25%                  3     11%                  1     25%
                              Loans                                25     43%            12      80%                  2       5%             1       8%                 3       4%                 1       7%
                              Principal and Interest     424,604          24%       18,541       35%      135,907             9%      34,064       60%        53,155            5%           536           3%

NATIVE AMERICAN               Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%

ASIAN                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%

OTHER                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%

HISPANIC                      Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 45
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       TUSCALOOSA, ALABAMA                                   WALKER, ALABAMA                               WASHINGTON, ALABAMA
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            12                      5                         14                      3                          7                          5
                              Loans                                28                    12                          27                      5                         10                          6
                              Principal and Interest   1,061,305                    73,640               1,152,664                    10,303                 111,226                       8,610

WHITE                         Borrowers                            12    100%              5    100%                 14    100%              3    100%                  6     86%                  5    100%
                              Loans                                28    100%            12     100%                 27    100%              5    100%                  9     90%                  6    100%
                              Principal and Interest   1,061,305         100%       73,640      100%     1,152,664         100%       10,303      100%       110,052          99%          8,610        100%

AFRICAN AMERICAN              Borrowers                             0       0%             0       0%                 0       0%             0       0%                 1     14%                  0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 1     10%                  0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%         1,174           1%                 0       0%

NATIVE AMERICAN               Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%

ASIAN                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%

OTHER                         Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%

HISPANIC                      Borrowers                             0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Loans                                 0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%             0       0%                 0       0%             0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 46
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            WILCOX, ALABAMA                                 WINSTON, ALABAMA                                     STATE OF ALABAMA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent     Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            6                      1                         20                      7                    2,041                        519
                              Loans                                7                      1                         29                    10                     3,807                        995
                              Principal and Interest     104,042                       432              1,308,259                    55,987               133,887,592                  6,722,409

WHITE                         Borrowers                            0       0%             0       0%                20    100%              7    100%            1,799         88%            432         83%
                              Loans                                0       0%             0       0%                29    100%            10     100%            3,421         90%            862         87%
                              Principal and Interest               0       0%             0       0%    1,308,259         100%       55,987      100%     126,025,940          94%     6,076,197          90%

AFRICAN AMERICAN              Borrowers                            6    100%              1    100%                  0       0%             0       0%             229         11%             85         16%
                              Loans                                7    100%              1    100%                  0       0%             0       0%             358           9%           131         13%
                              Principal and Interest     104,042        100%           432     100%                  0       0%             0       0%      6,845,649            5%      643,160          10%

NATIVE AMERICAN               Borrowers                            0       0%             0       0%                 0       0%             0       0%                   4       0%                 2       0%
                              Loans                                0       0%             0       0%                 0       0%             0       0%                  12       0%                 2       0%
                              Principal and Interest               0       0%             0       0%                 0       0%             0       0%        403,396            0%         3,050           0%

ASIAN                         Borrowers                            0       0%             0       0%                 0       0%             0       0%                   0       0%                 0       0%
                              Loans                                0       0%             0       0%                 0       0%             0       0%                   0       0%                 0       0%
                              Principal and Interest               0       0%             0       0%                 0       0%             0       0%                   0       0%                 0       0%

OTHER                         Borrowers                            0       0%             0       0%                 0       0%             0       0%                   7       0%                 0       0%
                              Loans                                0       0%             0       0%                 0       0%             0       0%                   9       0%                 0       0%
                              Principal and Interest               0       0%             0       0%                 0       0%             0       0%        325,989            0%                 0       0%

HISPANIC                      Borrowers                            0       0%             0       0%                 0       0%             0       0%                   2       0%                 0       0%
                              Loans                                0       0%             0       0%                 0       0%             0       0%                   7       0%                 0       0%
                              Prinicpal and Interest               0       0%             0       0%                 0       0%             0       0%        286,620            0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 47
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African            Native
State  Servicing Office   Decision           Average Days       Total        White            American           American         Asian            Hispanic
 AL CHEROKEE              Approved   No. of Applications                17        16   94%             1   6%            0   0%           0   0%          0    0%
                                     Receipt to Completion                        14                   0                 0                0               0
                                     Completion to Approval                        7                   7                 0                0               0
                                     Approval to Loan Closing                     14                   7                 0                0               0

                          Rejected   No. of Applications                1         1    100%           0    0%           0    0%           0   0%         0     0%
                                     Receipt to Completion                       28                   0                 0                 0              0
                                     Completion to Rejected                      16                   0                 0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%           0    0%           0   0%         0     0%
                                    Receipt to Completion                         0                   0                 0                 0              0
                                    Completion to Withdrawn                       0                   0                 0                 0              0

 AL   CLARKE              Approved   No. of Applications                12        6    50%            6    50%          0    0%           0   0%         0     0%
                                     Receipt to Completion                       28                  49                 0                 0              0
                                     Completion to Approval                      35                  29                 0                 0              0
                                     Approval to Loan Closing                    27                  18                 0                 0              0

                          Rejected   No. of Applications                3         3    100%           0    0%           0    0%           0   0%         0     0%
                                     Receipt to Completion                       36                   0                 0                 0              0
                                     Completion to Rejected                       9                   0                 0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%           0    0%           0   0%         0     0%
                                    Receipt to Completion                        56                   0                 0                 0              0
                                    Completion to Withdrawn                      33                   0                 0                 0              0

 AL   COFFEE              Approved   No. of Applications                18       18    100%           0    0%           0    0%           0   0%         0     0%
                                     Receipt to Completion                       17                   0                 0                 0              0
                                     Completion to Approval                      18                   0                 0                 0              0
                                     Approval to Loan Closing                    14                   0                 0                 0              0

                          Rejected   No. of Applications                3         3    100%           0    0%           0    0%           0   0%         0     0%
                                     Receipt to Completion                       18                   0                 0                 0              0
                                     Completion to Rejected                       0                   0                 0                 0              0

                          Withdrawn No. of Applications                 6         4    67%            2    33%          0    0%           0   0%         0     0%
                                    Receipt to Completion                         6                  19                 0                 0              0
                                    Completion to Withdrawn                      19                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 48
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African            Native
State  Servicing Office   Decision           Average Days       Total        White            American           American         Asian            Hispanic
 AL ELMORE                Approved   No. of Applications                27        22   81%             5   19%           0   0%           0   0%          0    0%
                                     Receipt to Completion                        35                   5                 0                0               0
                                     Completion to Approval                       30                   4                 0                0               0
                                     Approval to Loan Closing                     22                  17                 0                0               0

                          Rejected   No. of Applications                3         2    67%            1    33%          0    0%           0   0%         0     0%
                                     Receipt to Completion                       53                   0                 0                 0              0
                                     Completion to Rejected                       8                   0                 0                 0              0

                          Withdrawn No. of Applications                 9         5    56%            4    44%          0    0%           0   0%         0     0%
                                    Receipt to Completion                         0                   0                 0                 0              0
                                    Completion to Withdrawn                       0                   0                 0                 0              0

 AL   GENEVA              Approved   No. of Applications                5         3    60%            2    40%          0    0%           0   0%         0     0%
                                     Receipt to Completion                       19                   7                 0                 0              0
                                     Completion to Approval                      14                   2                 0                 0              0
                                     Approval to Loan Closing                    12                  17                 0                 0              0

                          Rejected   No. of Applications                6         6    100%           0    0%           0    0%           0   0%         0     0%
                                     Receipt to Completion                        0                   0                 0                 0              0
                                     Completion to Rejected                       0                   0                 0                 0              0

                          Withdrawn No. of Applications                 5         5    100%           0    0%           0    0%           0   0%         0     0%
                                    Receipt to Completion                         0                   0                 0                 0              0
                                    Completion to Withdrawn                       0                   0                 0                 0              0

 AL   JACKSON             Approved   No. of Applications                13       13    100%           0    0%           0    0%           0   0%         0     0%
                                     Receipt to Completion                       23                   0                 0                 0              0
                                     Completion to Approval                      21                   0                 0                 0              0
                                     Approval to Loan Closing                    17                   0                 0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0     0%
                                     Receipt to Completion                        0                   0                 0                 0              0
                                     Completion to Rejected                       0                   0                 0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%           0    0%           0   0%         0     0%
                                    Receipt to Completion                         0                   0                 0                 0              0
                                    Completion to Withdrawn                       0                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 49
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African            Native
State  Servicing Office   Decision           Average Days       Total       White              American           American          Asian            Hispanic
 AL LAUDERDALE            Approved   No. of Applications                9        9      100%            0   0%            0   0%            0   0%          0    0%
                                     Receipt to Completion                      17                      0                 0                 0               0
                                     Completion to Approval                     18                      0                 0                 0               0
                                     Approval to Loan Closing                   25                      0                 0                 0               0

                          Rejected   No. of Applications                2           1   50%            1    50%          0    0%            0   0%         0     0%
                                     Receipt to Completion                          0                 35                 0                  0              0
                                     Completion to Rejected                         0                  0                 0                  0              0

                          Withdrawn No. of Applications                 5           4   80%            0    0%           1    20%           0   0%         0     0%
                                    Receipt to Completion                           0                  0                 0                  0              0
                                    Completion to Withdrawn                         0                  0                 0                  0              0

 AL   LAWRENCE            Approved   No. of Applications                9        7      78%            2    22%          0    0%            0   0%         0     0%
                                     Receipt to Completion                      19                    38                 0                  0              0
                                     Completion to Approval                     24                     2                 0                  0              0
                                     Approval to Loan Closing                   23                    13                 0                  0              0

                          Rejected   No. of Applications                3        3      100%           0    0%           0    0%            0   0%         0     0%
                                     Receipt to Completion                      20                     0                 0                  0              0
                                     Completion to Rejected                      0                     0                 0                  0              0

                          Withdrawn No. of Applications                 3           3   100%           0    0%           0    0%            0   0%         0     0%
                                    Receipt to Completion                           0                  0                 0                  0              0
                                    Completion to Withdrawn                         0                  0                 0                  0              0

 AL   LIMESTONE           Approved   No. of Applications                0           0    0%            0    0%           0    0%            0   0%         0     0%
                                     Receipt to Completion                          0                  0                 0                  0              0
                                     Completion to Approval                         0                  0                 0                  0              0
                                     Approval to Loan Closing                       0                  0                 0                  0              0

                          Rejected   No. of Applications                1           1   100%           0    0%           0    0%            0   0%         0     0%
                                     Receipt to Completion                          0                  0                 0                  0              0
                                     Completion to Rejected                         0                  0                 0                  0              0

                          Withdrawn No. of Applications                 0           0    0%            0    0%           0    0%            0   0%         0     0%
                                    Receipt to Completion                           0                  0                 0                  0              0
                                    Completion to Withdrawn                         0                  0                 0                  0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 50
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African            Native
State  Servicing Office   Decision           Average Days       Total        White              American           American          Asian            Hispanic
 AL MORGAN                Approved   No. of Applications                4         4      100%            0   0%            0   0%            0   0%          0    0%
                                     Receipt to Completion                       19                      0                 0                 0               0
                                     Completion to Approval                      16                      0                 0                 0               0
                                     Approval to Loan Closing                    58                      0                 0                 0               0

                          Rejected   No. of Applications                0            0    0%            0    0%           0    0%            0   0%         0     0%
                                     Receipt to Completion                           0                  0                 0                  0              0
                                     Completion to Rejected                          0                  0                 0                  0              0

                          Withdrawn No. of Applications                 1            1   100%           0    0%           0    0%            0   0%         0     0%
                                    Receipt to Completion                            0                  0                 0                  0              0
                                    Completion to Withdrawn                          0                  0                 0                  0              0

 AL   PICKENS             Approved   No. of Applications                12       12      100%           0    0%           0    0%            0   0%         0     0%
                                     Receipt to Completion                       50                     0                 0                  0              0
                                     Completion to Approval                      11                     0                 0                  0              0
                                     Approval to Loan Closing                    23                     0                 0                  0              0

                          Rejected   No. of Applications                0            0    0%            0    0%           0    0%            0   0%         0     0%
                                     Receipt to Completion                           0                  0                 0                  0              0
                                     Completion to Rejected                          0                  0                 0                  0              0

                          Withdrawn No. of Applications                 3            2   67%            1    33%          0    0%            0   0%         0     0%
                                    Receipt to Completion                            0                  0                 0                  0              0
                                    Completion to Withdrawn                          0                  0                 0                  0              0

 AL   TALLADEGA           Approved   No. of Applications                10       10      100%           0    0%           0    0%            0   0%         0     0%
                                     Receipt to Completion                       22                     0                 0                  0              0
                                     Completion to Approval                      12                     0                 0                  0              0
                                     Approval to Loan Closing                    19                     0                 0                  0              0

                          Rejected   No. of Applications                2            1   50%            0    0%           1    50%           0   0%         0     0%
                                     Receipt to Completion                           0                  0                 0                  0              0
                                     Completion to Rejected                          0                  0                 0                  0              0

                          Withdrawn No. of Applications                 5         4      80%            1    20%          0    0%            0   0%         0     0%
                                    Receipt to Completion                         4                     0                 0                  0              0
                                    Completion to Withdrawn                      17                     0                 0                  0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 51
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                          African            Native
State  Servicing Office   Decision           Average Days       Total    White           American           American         Asian            Hispanic
 AL STATE                 Approved   No. of Applications           136      120    88%           16   12%           0   0%           0   0%          0    0%
                                     Receipt to Completion                    25                 26                 0                0               0
                                     Completion to Approval                   19                 13                 0                0               0
                                     Approval to Loan Closing                 21                 16                 0                0               0

                          Rejected   No. of Applications           24        21    88%           2    8%           1    4%           0   0%         0     0%
                                     Receipt to Completion                   17                 18                 0                 0              0
                                     Completion to Rejected                   3                  0                 0                 0              0

                          Withdrawn No. of Applications            38        29    76%           8    21%          1    3%           0   0%         0     0%
                                    Receipt to Completion                     3                  5                 0                 0              0
                                    Completion to Withdrawn                   6                  0                 0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                          Page 52
                            Demographics         54
                        FSA’s Loan Portfolio     58
                        FSA’s Application data   60




USDA/OIG-A/50801-4-Hq                                 53
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                  White             African American Native American             Asian             Other                 Hispanic
                                                     Total     Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
      AK                             Population      226,338   178,168     79%         14,126      6%     14,126      6%     10,427      5%        233          0%      9,258       4%
      Anchorage Borough              Borrowers             0         0      0%              0      0%          0      0%          0      0%          0          0%          0       0%
                                     Farms               217       208     96%              0      0%          5      2%          0      0%          1          0%          3       1%
                                     Land in Farms    47,146    47,146    100%              0      0%          0      0%          0      0%          0          0%          0       0%

      AK                             Population       77,720    62,201     80%          5,395      7%      5,238     7%       1,913      2%         74          0%      2,899       4%
      Fairbanks North Star Borough   Borrowers             6         5     83%              0      0%          1    17%           0      0%          0          0%          0       0%
                                     Farms               168       164     98%              0      0%          3     2%           0      0%          0          0%          1       1%
                                     Land in Farms   141,338   141,338    100%              0      0%          0     0%           0      0%          0          0%          0       0%

      AK                             Population       26,751    21,257     79%            279      1%      3,360    13%       1,097      4%              9      0%        749       3%
      Juneau Borough                 Borrowers             0         0      0%              0      0%          0     0%           0      0%              0      0%          0       0%
                                     Farms                 8         8    100%              0      0%          0     0%           0      0%              0      0%          0       0%
                                     Land in Farms       210       210    100%              0      0%          0     0%           0      0%              0      0%          0       0%

      AK                             Population       40,802    36,580     90%            196      0%      2,892      7%        398      1%         10          0%        726       2%
      Kenai Peninsula Borough        Borrowers             2         2    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                                     Farms                93        92     99%              0      0%          0      0%          0      0%          0          0%          1       1%
                                     Land in Farms    50,810    50,810    100%              0      0%          0      0%          0      0%          0          0%          0       0%

      AK                             Population        2,464       801      33%            15      1%      1,040    42%         423      17%             5      0%        180       7%
      Aleutians East Borough         Borrowers             0         0       0%             0      0%          0     0%           0       0%             0      0%          0       0%
                                     Farms                 0         0       0%             0      0%          0     0%           0       0%             0      0%          0       0%
                                     Land in Farms         0         0       0%             0      0%          0     0%           0       0%             0      0%          0       0%

      AK                             Population        9,478     6,130      65%           635      7%      1,066    11%         898      9%              7      0%        742       8%
      Aleutians West Census Area     Borrowers             0         0       0%             0      0%          0     0%           0      0%              0      0%          0       0%
                                     Farms                 0         0       0%             0      0%          0     0%           0      0%              0      0%          0       0%
                                     Land in Farms         0         0       0%             0      0%          0     0%           0      0%              0      0%          0       0%

      AK                             Population       13,656     2,074      15%            62      0%     11,339    83%          90      1%         11          0%         80       1%
      Bethel Census Area             Borrowers             0         0       0%             0      0%          0     0%           0      0%          0          0%          0       0%
                                     Farms                 0         0       0%             0      0%          0     0%           0      0%          0          0%          0       0%
                                     Land in Farms         0         0       0%             0      0%          0     0%           0      0%          0          0%          0       0%

      AK                             Population        1,410       881      62%            38      3%        446    32%          12      1%              0      0%         33       2%
      Bristol Bay Borough            Borrowers             0         0       0%             0      0%          0     0%           0      0%              0      0%          0       0%
                                     Farms                 0         0       0%             0      0%          0     0%           0      0%              0      0%          0       0%
                                     Land in Farms         0         0       0%             0      0%          0     0%           0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 54
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                White             African American Native American                Asian             Other                 Hispanic
                                                   Total     Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
      AK                           Population        4,012     1,007      25%                8      0%      2,917    73%          25      1%              6      0%         49       1%
      Dillingham Census Area       Borrowers             0         0       0%                0      0%          0     0%           0      0%              0      0%          0       0%
                                   Farms                 0         0       0%                0      0%          0     0%           0      0%              0      0%          0       0%
                                   Land in Farms         0         0       0%                0      0%          0     0%           0      0%              0      0%          0       0%

      AK                           Population        2,117     1,793      85%                1      0%        279    13%          17      1%              0      0%         27       1%
      Haines Borough               Borrowers             0         0       0%                0      0%          0     0%           0      0%              0      0%          0       0%
                                   Farms                 0         0       0%                0      0%          0     0%           0      0%              0      0%          0       0%
                                   Land in Farms         0         0       0%                0      0%          0     0%           0      0%              0      0%          0       0%

      AK                           Population       13,828    11,182      81%            55         0%      1,840    13%         460      3%              6      0%        285       2%
      Ketchikan Gateway Borough    Borrowers             0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%
                                   Farms                 0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%
                                   Land in Farms         0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%

      AK                           Population       13,309     9,008      68%           133         1%      2,097    16%       1,401      11%             7      0%        663       5%
      Kodiak Island Borough        Borrowers             0         0       0%             0         0%          0     0%           0       0%             0      0%          0       0%
                                   Farms                 0         0       0%             0         0%          0     0%           0       0%             0      0%          0       0%
                                   Land in Farms         0         0       0%             0         0%          0     0%           0       0%             0      0%          0       0%

      AK                           Population        1,668       379      23%                0      0%      1,245    75%          12      1%              0      0%         32       2%
      Lake and Peninsula Borough   Borrowers             0         0       0%                0      0%          0     0%           0      0%              0      0%          0       0%
                                   Farms                 0         0       0%                0      0%          0     0%           0      0%              0      0%          0       0%
                                   Land in Farms         0         0       0%                0      0%          0     0%           0      0%              0      0%          0       0%

      AK                           Population       39,683    36,452     92%            294         1%      1,900      5%        277      1%              8      0%        752       2%
      Matanuska-Susitna Borough    Borrowers             9         9    100%              0         0%          0      0%          0      0%              0      0%          0       0%
                                   Farms                 0         0      0%              0         0%          0      0%          0      0%              0      0%          0       0%
                                   Land in Farms         0         0      0%              0         0%          0      0%          0      0%              0      0%          0       0%

      AK                           Population        8,288     1,987      24%                9      0%      6,132    74%          51      1%              3      0%        106       1%
      Nome Census Area             Borrowers             0         0       0%                0      0%          0     0%           0      0%              0      0%          0       0%
                                   Farms                 0         0       0%                0      0%          0     0%           0      0%              0      0%          0       0%
                                   Land in Farms         0         0       0%                0      0%          0     0%           0      0%              0      0%          0       0%

      AK                           Population        5,979     1,248      21%            37         1%      4,304    72%         264      4%              2      0%        124       2%
      North Slope Borough          Borrowers             0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%
                                   Farms                 0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%
                                   Land in Farms         0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 55
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                    White             African American Native American                Asian             Other                 Hispanic
                                                       Total     Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
      AK                               Population        6,113       824      13%            12         0%      5,190    85%          48      1%              3      0%         36       1%
      Northwest Arctic Borough         Borrowers             0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%
                                       Farms                 0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%
                                       Land in Farms         0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%

      AK                               Population        6,278     3,798      60%                9      0%      2,324    37%          24      0%              2      0%        121       2%
      Prince of Wales-Outer Ketchika   Borrowers             0         0       0%                0      0%          0     0%           0      0%              0      0%          0       0%
                                       Farms                 0         0       0%                0      0%          0     0%           0      0%              0      0%          0       0%
                                       Land in Farms         0         0       0%                0      0%          0     0%           0      0%              0      0%          0       0%

      AK                               Population        8,588     6,270      73%            39         0%      1,758    20%         312      4%              0      0%        209       2%
      Sitka Borough                    Borrowers             0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%
                                       Farms                 0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%
                                       Land in Farms         0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%

      AK                            Population           4,385     2,622      60%                6      0%      1,656    38%          31      1%              3      0%         67       2%
      Skagway-Yakutat-Angoon Census Borrowers                0         0       0%                0      0%          0     0%           0      0%              0      0%          0       0%
                                    Farms                    0         0       0%                0      0%          0     0%           0      0%              0      0%          0       0%
                                       Land in Farms         0         0       0%                0      0%          0     0%           0      0%              0      0%          0       0%

      AK                               Population        5,913     4,612      78%           284         5%        762    13%          77      1%              1      0%        177       3%
      Southeast Fairbanks Census Are   Borrowers             0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%
                                       Farms                 0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%
                                       Land in Farms         0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%

      AK                               Population        9,952     8,096      81%            55         1%      1,219    12%         310      3%              2      0%        270       3%
      Valdez-Cordova Census Area       Borrowers             0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%
                                       Farms                 0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%
                                       Land in Farms         0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%

      AK                               Population        5,791       342       6%            12         0%      5,397    93%          22      0%              1      0%         17       0%
      Wade Hampton Census Area         Borrowers             0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%
                                       Farms                 0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%
                                       Land in Farms         0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%

      AK                             Population          7,042     5,472      78%            11         0%      1,348    19%          91      1%              1      0%        119       2%
      Wrangell-Petersburg Census Are Borrowers               0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%
                                     Farms                   0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%
                                     Land in Farms           0         0       0%             0         0%          0     0%           0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 56
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American             Asian             Other                 Hispanic
                                                  Total     Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
      AK                          Population        8,478     3,538      42%            88      1%      4,719    56%          50      1%              1      0%         82       1%
      Yukon-Koyukuk Census Area   Borrowers             0         0       0%             0      0%          0     0%           0      0%              0      0%          0       0%
                                  Farms                 0         0       0%             0      0%          0     0%           0      0%              0      0%          0       0%
                                  Land in Farms         0         0       0%             0      0%          0     0%           0      0%              0      0%          0       0%

      AK                          Population      550,043   406,722     74%         21,799      4%     84,594    15%      18,730      3%        395          0%     17,803       3%
      STATE                       Borrowers            17        16     94%              0      0%          1     6%           0      0%          0          0%          0       0%
                                  Farms               486       472     97%              0      0%          8     2%           0      0%          1          0%          5       1%
                                  Land in Farms   239,504   239,504    100%              0      0%          0     0%           0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 57
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       FAIRBANKS NORTH STAR, ALASKA                        KENAI PENINSULA, ALASKA                        MATANUSKA-SUSITNA, ALASKA
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                            6                       0                         2                     1                          9                     0
                              Loans                            13                          0                         2                     1                      22                        0
                              Principal and Interest    979,774                            0              281,314                     1,283               1,492,695                         0

WHITE                         Borrowers                            5       83%             0       0%                2    100%             1     100%                 9    100%             0        0%
                              Loans                            10          77%             0       0%                2    100%             1     100%             22       100%             0        0%
                              Principal and Interest    627,096            64%             0       0%     281,314         100%        1,283      100%     1,492,695        100%             0        0%

AFRICAN AMERICAN              Borrowers                            0         0%            0       0%                0       0%            0        0%                0       0%            0        0%
                              Loans                                0         0%            0       0%                0       0%            0        0%                0       0%            0        0%
                              Principal and Interest               0         0%            0       0%                0       0%            0        0%                0       0%            0        0%

NATIVE AMERICAN               Borrowers                            1       17%             0       0%                0       0%            0        0%                0       0%            0        0%
                              Loans                                3       23%             0       0%                0       0%            0        0%                0       0%            0        0%
                              Principal and Interest    352,678            36%             0       0%                0       0%            0        0%                0       0%            0        0%

ASIAN                         Borrowers                            0         0%            0       0%                0       0%            0        0%                0       0%            0        0%
                              Loans                                0         0%            0       0%                0       0%            0        0%                0       0%            0        0%
                              Principal and Interest               0         0%            0       0%                0       0%            0        0%                0       0%            0        0%

OTHER                         Borrowers                            0         0%            0       0%                0       0%            0        0%                0       0%            0        0%
                              Loans                                0         0%            0       0%                0       0%            0        0%                0       0%            0        0%
                              Principal and Interest               0         0%            0       0%                0       0%            0        0%                0       0%            0        0%

HISPANIC                      Borrowers                            0         0%            0       0%                0       0%            0        0%                0       0%            0        0%
                              Loans                                0         0%            0       0%                0       0%            0        0%                0       0%            0        0%
                              Prinicpal and Interest               0         0%            0       0%                0       0%            0        0%                0       0%            0        0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 58
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   STATE OF ALASKA
                                                       Portfolio        Percent   Delinquent   Percent
TOTAL                         Borrowers                        17                          1
                              Loans                            37                          1
                              Principal and Interest   2,753,783                     1,283

WHITE                         Borrowers                        16          94%             1    100%
                              Loans                            34          92%             1    100%
                              Principal and Interest   2,401,105           87%       1,283      100%

AFRICAN AMERICAN              Borrowers                            0         0%            0       0%
                              Loans                                0         0%            0       0%
                              Principal and Interest               0         0%            0       0%

NATIVE AMERICAN               Borrowers                            1         6%            0       0%
                              Loans                                3         8%            0       0%
                              Principal and Interest    352,678            13%             0       0%

ASIAN                         Borrowers                            0         0%            0       0%
                              Loans                                0         0%            0       0%
                              Principal and Interest               0         0%            0       0%

OTHER                         Borrowers                            0         0%            0       0%
                              Loans                                0         0%            0       0%
                              Principal and Interest               0         0%            0       0%

HISPANIC                      Borrowers                            0         0%            0       0%
                              Loans                                0         0%            0       0%
                              Prinicpal and Interest               0         0%            0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED   Page 59
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American           Asian            Hispanic
 AK PALMER                Approved   No. of Applications                17        15   88%             0   0%            2   12%           0   0%          0    0%
                                     Receipt to Completion                        44                   0                25                 0               0
                                     Completion to Approval                        6                   0                 0                 0               0
                                     Approval to Loan Closing                     29                   0                 0                 0               0

                          Rejected   No. of Applications                0         0     0%            0    0%           0    0%            0   0%         0     0%
                                     Receipt to Completion                        0                   0                 0                  0              0
                                     Completion to Rejected                       0                   0                 0                  0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%           0    0%            0   0%         0     0%
                                    Receipt to Completion                        90                   0                 0                  0              0
                                    Completion to Withdrawn                     194                   0                 0                  0              0

 AK   STATE               Approved   No. of Applications                17       15    88%            0    0%           2    12%           0   0%         0     0%
                                     Receipt to Completion                       44                   0                25                  0              0
                                     Completion to Approval                       6                   0                 0                  0              0
                                     Approval to Loan Closing                    29                   0                 0                  0              0

                          Rejected   No. of Applications                0         0     0%            0    0%           0    0%            0   0%         0     0%
                                     Receipt to Completion                        0                   0                 0                  0              0
                                     Completion to Rejected                       0                   0                 0                  0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%           0    0%            0   0%         0     0%
                                    Receipt to Completion                        90                   0                 0                  0              0
                                    Completion to Withdrawn                     194                   0                 0                  0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 60
                            Demographics         62
                        FSA’s Loan Portfolio     64
                        FSA’s Application data   71




USDA/OIG-A/50801-4-Hq                                 61
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American      Native American          Asian              Other             Hispanic
                                           Total       Number     Percent     Number    Percent    Number     Percent   Number   Percent   Number   Percent   Number    Percent
        AZ                Population         61,591      11,354     18%            98      0%        47,425    77%          86      0%         29      0%       2,599      4%
        Apache County     Borrowers              28          19     68%             0      0%             7    25%           0      0%          1      4%           1      4%
                          Farms                 332         213     64%             0      0%            99    30%           0      0%          6      2%          14      4%
                          Land in Farms   5,785,707   1,072,731     19%             0      0%     4,603,858    80%           0      0%     30,995      1%      78,123      1%

        AZ                Population         97,624      61,543     63%         4,815      5%           654      1%      2,108      2%        125      0%      28,379      29%
        Cochise County    Borrowers             157         129     82%             1      1%             4      3%          3      2%          0      0%          20      13%
                          Farms                 831         759     91%             0      0%             6      1%          0      0%         18      2%          48       6%
                          Land in Farms   1,891,644   1,850,529     98%             0      0%             0      0%          0      0%      7,288      0%      33,827       2%

        AZ                Population         96,591      56,938     59%         1,339      1%        27,737    29%         821      1%         60      0%       9,696      10%
        Coconino County   Borrowers               5           3     60%             0      0%             2    40%           0      0%          0      0%           0       0%
                          Farms                 285         167     59%             0      0%           113    40%           0      0%          0      0%           5       2%
                          Land in Farms   5,989,961   1,683,720     28%             0      0%     4,306,241    72%           0      0%          0      0%           0       0%

        AZ                Population         40,216      27,377     68%            97      0%         5,112    13%         109      0%         35      0%       7,486      19%
        Gila County       Borrowers               8           2     25%             0      0%             5    63%           1     13%          0      0%           0       0%
                          Farms                 143         129     90%             0      0%             3     2%           0      0%          4      3%           7       5%
                          Land in Farms   1,151,284   1,142,176     99%             0      0%             0     0%           0      0%          0      0%       9,108       1%

        AZ                Population         26,554     15,437      58%           468      2%         3,857    15%          97      0%         13      0%       6,682      25%
        Graham County     Borrowers              65         63      97%             1      2%             0     0%           0      0%          0      0%           1       2%
                          Farms                 317        277      87%             0      0%             9     3%           0      0%         12      4%          19       6%
                          Land in Farms   1,846,497    578,017      31%             0      0%     1,268,480    69%           0      0%          0      0%           0       0%

        AZ                Population         8,008       4,372      55%            27      0%           129      2%         15      0%          9      0%       3,456      43%
        Greenlee County   Borrowers              7           6      86%             0      0%             0      0%          0      0%          0      0%           1      14%
                          Farms                107          98      92%             0      0%             0      0%          0      0%          4      4%           5       5%
                          Land in Farms    137,834     136,169      99%             0      0%             0      0%          0      0%        800      1%         865       1%

        AZ                Population        13,844       8,495      61%           103      1%         2,005    14%          83      1%         19      0%       3,139      23%
        La Paz County     Borrowers             13          10      77%             0      0%             3    23%           0      0%          0      0%           0       0%
                          Farms                101          44      44%             0      0%            23    23%           0      0%         10     10%          24      24%
                          Land in Farms    246,038     230,169      94%             0      0%             0     0%           0      0%          0      0%      15,869       6%

        AZ                Population      2,122,101   1,637,076     77%        70,843      3%        32,270      2%     33,996      2%      2,418      0%     345,498      16%
        Maricopa County   Borrowers             129         115     89%             1      1%             3      2%          1      1%          1      1%           8       6%
                          Farms               1,856       1,710     92%             5      0%            10      1%         27      1%         28      2%          76       4%
                          Land in Farms     729,947     691,933     95%             0      0%             0      0%      4,319      1%      4,496      1%      29,199       4%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 62
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American      Native American             Asian              Other              Hispanic
                                              Total       Number      Percent     Number    Percent    Number        Percent   Number   Percent   Number    Percent   Number    Percent
        AZ                  Population          93,497       85,808     92%           291      0%         1,919        2%         514      1%         46       0%       4,919      5%
        Mohave County       Borrowers               15           11     73%             0      0%             2       13%           2     13%          0       0%           0      0%
                            Farms                  212          186     88%             0      0%            12        6%           0      0%          3       1%          11      5%
                            Land in Farms    1,981,938    1,025,701     52%             0      0%       943,499       48%           0      0%          0       0%      12,738      1%

        AZ                  Population          77,658       31,256    40%            667      1%        39,789       51%         245      0%         49       0%       5,652      7%
        Navajo County       Borrowers               51           29    57%              0      0%            20       39%           1      2%          0       0%           1      2%
                            Farms                  375          261    70%              0      0%           109       29%           0      0%          0       0%           5      1%
                            Land in Farms    7,229,585    7,229,585   100%              0      0%             0        0%           0      0%          0       0%           0      0%

        AZ                  Population         666,880     454,919      68%        19,455      3%        17,005        3%      11,228      2%       1,011      0%     163,262      24%
        Pima County         Borrowers                0           0       0%             0      0%             0        0%           0      0%           0      0%           0       0%
                            Farms                  448         375      84%             0      0%            20        4%           6      1%          15      3%          32       7%
                            Land in Farms    3,472,248     847,808      24%             0      0%     2,425,304       70%           0      0%      80,374      2%     118,762       3%

        AZ                  Population         116,379       68,900     59%         3,469      3%         9,402        8%         439      0%        107       0%      34,062      29%
        Pinal County        Borrowers               60           45     75%             1      2%             1        2%           0      0%          1       2%          12      20%
                            Farms                  611          524     86%             0      0%            13        2%           0      0%         25       4%          49       8%
                            Land in Farms    1,902,452    1,055,779     55%             0      0%       790,491       42%           0      0%          0       0%      56,182       3%

        AZ                  Population         29,676        6,168      21%            56      0%               29      0%        131      0%          71      0%      23,221      78%
        Santa Cruz County   Borrowers               0            0       0%             0      0%                0      0%          0      0%           0      0%           0       0%
                            Farms                 164          132      80%             0      0%                0      0%          0      0%          12      7%          20      12%
                            Land in Farms     334,284      320,465      96%             0      0%                0      0%          0      0%       4,631      1%       9,188       3%

        AZ                  Population         107,714       98,391    91%            305      0%         1,580         1%        470      0%         69       0%       6,899      6%
        Yavapai County      Borrowers               15           14    93%              0      0%             0         0%          0      0%          0       0%           1      7%
                            Farms                  463          451    97%              0      0%             5         1%          0      0%          0       0%           7      2%
                            Land in Farms    2,108,834    2,108,834   100%              0      0%             0         0%          0      0%          0       0%           0      0%

        AZ                  Population        106,895       58,151      54%         2,776      3%         1,178         1%      1,188      1%         214      0%      43,388      41%
        Yuma County         Borrowers              35           27      77%             0      0%             0         0%          2      6%           0      0%           6      17%
                            Farms                 528          436      83%             0      0%             6         1%          0      0%          28      5%          58      11%
                            Land in Farms     229,365      197,494      86%             0      0%             0         0%          0      0%       9,726      4%      22,145      10%

        AZ                  Population       3,665,228    2,626,185     72%       104,809      3%    190,091           5%      51,530      1%       4,275      0%     688,338      19%
        STATE               Borrowers              588          473     80%             4      1%         47           8%          10      2%           3      1%          51       9%
                            Farms                6,773        5,762     85%             5      0%        428           6%          33      0%         165      2%         380       6%
                            Land in Farms   35,037,618   20,171,110     58%             0      0% 14,337,873          41%       4,319      0%     138,310      0%     386,006       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 63
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           APACHE,PT, ARIZONA                            APACHE,S, ARIZONA                               COCHISE, PT, ARIZONA
                                                       Portfolio   Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio   Percent   Delinquent   Percent
TOTAL                         Borrowers                        5                     1                      23                       12                     157                    91
                              Loans                            5                     1                      46                       28                     437                   302
                              Principal and Interest    138,792                    909              2,136,058                   241,365              53,984,462             18,759,684

WHITE                         Borrowers                        0       0%            0        0%            19         83%           10       83%           129      82%           68       75%
                              Loans                            0       0%            0        0%            41         89%           26       93%           336      77%          217       72%
                              Principal and Interest           0       0%            0        0%    1,864,341          87%      233,535       97%    45,927,818      85% 15,806,835         84%
AFRICAN AMERICAN              Borrowers                        0       0%            0        0%                0       0%            0        0%             1       1%            1        1%
                              Loans                            0       0%            0        0%                0       0%            0        0%             1     100%
                              Principal and Interest           0       0%            0        0%                0       0%            0        0%      301,064        1%      124,447        1%

NATIVE AMERICAN               Borrowers                        5     100%            1      100%                2       9%            1        8%             4       3%            4        4%
                              Loans                            5     100%            1      100%                3       7%            1        4%             8       2%            7        2%
                              Principal and Interest    138,792      100%          909      100%       67,258           3%        2,248        1%      688,354        1%       82,922

ASIAN                         Borrowers                        0       0%            0        0%                0       0%            0        0%             3       2%            2        2%
                              Loans                            0       0%            0        0%                0       0%            0        0%             5       1%            3        1%
                              Principal and Interest           0       0%            0        0%                0       0%            0        0%     1,424,306       3%      354,110        2%

OTHER                         Borrowers                        0       0%            0        0%                1       4%            0        0%             0       0%            0        0%
                              Loans                            0       0%            0        0%                1       2%            0        0%             0       0%            0        0%
                              Principal and Interest           0       0%            0        0%        2,657           0%            0        0%             0       0%            0        0%

HISPANIC                      Borrowers                        0       0%            0        0%                1       4%            1        8%            20      13%           16       18%
                              Loans                            0       0%            0        0%                1       2%            1        4%            87      20%           74       25%
                              Prinicpal and Interest           0       0%            0        0%      201,803           9%        5,583        2%     5,642,919      10%     2,391,370      13%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 64
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        COCONINO,PT, ARIZONA                            COCONINO,UT PT, ARIZONA                                 GILA,PT, ARIZONA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                            3                      3                         2                      1                         8                      1
                              Loans                                4                      4                         4                      2                         9                      1
                              Principal and Interest   497,422                    141,717                    8,761                      488              486,373                      34,344

WHITE                         Borrowers                            3    100%              3    100%                 0       0%             0       0%                2      25%             1    100%
                              Loans                                4    100%              4    100%                 0       0%             0       0%                2      22%             1    100%
                              Principal and Interest   497,422          100%      141,717      100%                 0       0%             0       0%    188,044            39%       34,344     100%
AFRICAN AMERICAN              Borrowers                            0       0%             0       0%                0       0%             0       0%                0       0%             0       0%
                              Loans                                0       0%             0       0%                0       0%             0       0%                0       0%             0       0%
                              Principal and Interest               0       0%             0       0%                0       0%             0       0%                0       0%             0       0%

NATIVE AMERICAN               Borrowers                            0       0%             0       0%                2    100%              1    100%                 5      63%             0       0%
                              Loans                                0       0%             0       0%             4       100%             2     100%           6            67%             0       0%
                              Principal and Interest               0       0%             0       0%         8,761       100%           488     100%     147,097            30%             0       0%
ASIAN                         Borrowers                            0       0%             0       0%                0       0%             0       0%                1      13%             0       0%
                              Loans                                0       0%             0       0%                0       0%             0       0%                1      11%             0       0%
                              Principal and Interest               0       0%             0       0%                0       0%             0       0%    151,232            31%             0       0%
OTHER                         Borrowers                            0       0%             0       0%                0       0%             0       0%                0       0%             0       0%
                              Loans                                0       0%             0       0%                0       0%             0       0%                0       0%             0       0%
                              Principal and Interest               0       0%             0       0%                0       0%             0       0%                0       0%             0       0%

HISPANIC                      Borrowers                            0       0%             0       0%                0       0%             0       0%                0       0%             0       0%
                              Loans                                0       0%             0       0%                0       0%             0       0%                0       0%             0       0%
                              Prinicpal and Interest               0       0%             0       0%                0       0%             0       0%                0       0%             0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 65
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            GRAHAM,PT, ARIZONA                                GREENLEE, ARIZONA                                      LA PAZ, ARIZONA
                                                         Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                          65                        40                          7                      4                      13                         9
                              Loans                            200                       114                          13                      4                      33                        26
                              Principal and Interest   26,216,551                  8,823,171               830,124                      21,113              3,413,901                  1,450,605

WHITE                         Borrowers                          63         97%            39      98%                 6      86%             4    100%              10         77%             7      78%
                              Loans                            188          94%          108       95%                12      92%             4    100%              28         85%            22      85%
                              Principal and Interest   25,042,501           96%    8,535,162       97%     798,751            96%       21,113     100%     2,855,733           84%    1,198,818       83%
AFRICAN AMERICAN              Borrowers                              1       2%             0       0%                 0       0%             0       0%                 0       0%             0       0%
                              Loans                                  5       3%             0       0%                 0       0%             0       0%                 0       0%             0       0%
                              Principal and Interest     752,833             3%             0       0%                 0       0%             0       0%                 0       0%             0       0%

NATIVE AMERICAN               Borrowers                              0       0%             0       0%                 0       0%             0       0%                 3      23%             2      22%
                              Loans                                  0       0%             0       0%                 0       0%             0       0%                 5      15%             4      15%
                              Principal and Interest                 0       0%             0       0%                 0       0%             0       0%     558,169            16%     251,787        17%

ASIAN                         Borrowers                              0       0%             0       0%                 0       0%             0       0%                 0       0%             0       0%
                              Loans                                  0       0%             0       0%                 0       0%             0       0%                 0       0%             0       0%
                              Principal and Interest                 0       0%             0       0%                 0       0%             0       0%                 0       0%             0       0%

OTHER                         Borrowers                              0       0%             0       0%                 0       0%             0       0%                 0       0%             0       0%
                              Loans                                  0       0%             0       0%                 0       0%             0       0%                 0       0%             0       0%
                              Principal and Interest                 0       0%             0       0%                 0       0%             0       0%                 0       0%             0       0%

HISPANIC                      Borrowers                              1       2%             1       3%                 1      14%             0       0%                 0       0%             0       0%
                              Loans                                  7       4%             6       5%                 1       8%             0       0%                 0       0%             0       0%
                              Prinicpal and Interest     421,217             2%     288,010         3%       31,374            4%             0       0%                 0       0%             0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                              Page 66
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          MARICOPA,SW, ARIZONA                                MOHAVE, PT, ARIZONA                               MOHAVE,PT, ARIZONA
                                                         Portfolio       Percent    Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        112                          65                         14                      8                         1                      1
                              Loans                            276                        191                          20                     12                         1                      1
                              Principal and Interest   52,743,522                  21,716,699              3,548,487                   419,308                 16,823                     10,021

WHITE                         Borrowers                        104          93%             59      91%                10      71%             6      75%                1    100%              1    100%
                              Loans                            259          94%           177       93%                14      70%             8      67%                1    100%              1    100%
                              Principal and Interest   49,760,599           94% 20,519,463          94%    1,820,440           51%     208,165        50%      16,823         100%        10,021     100%
AFRICAN AMERICAN              Borrowers                              1       1%              0       0%                 0       0%             0       0%                0       0%             0       0%
                              Loans                                  1       0%              0                          0       0%             0       0%                0       0%             0       0%
                              Principal and Interest     168,207             0%              0                          0       0%             0       0%                0       0%             0       0%

NATIVE AMERICAN               Borrowers                              3       3%              3       5%                 2      14%             1      13%                0       0%             0       0%
                              Loans                                  6       2%              6       3%                 3      15%             2      17%                0       0%             0       0%
                              Principal and Interest     903,337             2%      307,319         1%    1,555,247           44%     146,866        35%                0       0%             0       0%

ASIAN                         Borrowers                              0       0%              0       0%                 2      14%             1      13%                0       0%             0       0%
                              Loans                                  0       0%              0       0%                 3      15%             2      17%                0       0%             0       0%
                              Principal and Interest                 0       0%              0       0%     172,800             5%       64,278       15%                0       0%             0       0%

OTHER                         Borrowers                              1       1%              1       2%                 0       0%             0       0%                0       0%             0       0%
                              Loans                                  2       1%              2       1%                 0       0%             0       0%                0       0%             0       0%
                              Principal and Interest     349,887             1%      100,082                            0       0%             0       0%                0       0%             0       0%

HISPANIC                      Borrowers                              3       3%              2       3%                 0       0%             0       0%                0       0%             0       0%
                              Loans                                  8       3%              6       3%                 0       0%             0       0%                0       0%             0       0%
                              Prinicpal and Interest    1,561,493            3%      789,836         4%                 0       0%             0       0%                0       0%             0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                              Page 67
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          NAVAJO AZ 2, ARIZONA                                NAVAJO,S, ARIZONA                                  PHOENIX, ARIZONA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        18                        12                         33                     12                      17                         5
                              Loans                            21                        14                         63                     35                      26                         8
                              Principal and Interest   579,424                      62,152              6,380,046                  1,025,191              2,930,004                   461,529

WHITE                         Borrowers                            0       0%             0       0%                29      88%            11      92%             11         65%             4      80%
                              Loans                                0       0%             0       0%                53      84%            28      80%             14         54%             6      75%
                              Principal and Interest               0       0%             0       0%    6,207,182           97%     902,494        88%    1,675,593           57%     340,759        74%
AFRICAN AMERICAN              Borrowers                            0       0%             0       0%                 0       0%             0       0%                 0       0%             0       0%
                              Loans                                0       0%             0       0%                 0       0%             0       0%                 0       0%             0       0%
                              Principal and Interest               0       0%             0       0%                 0       0%             0       0%                 0       0%             0       0%

NATIVE AMERICAN               Borrowers                        17         94%            12    100%                  3       9%             0       0%                 0       0%             0       0%
                              Loans                            20         95%            14    100%                  3       5%             0       0%                 0       0%             0       0%
                              Principal and Interest   561,879            97%       62,152     100%        13,243            0%             0                          0       0%             0       0%

ASIAN                         Borrowers                            1       6%             0       0%                 0       0%             0       0%                 1       6%             0       0%
                              Loans                                1       5%             0       0%                 0       0%             0       0%                 3      12%             0       0%
                              Principal and Interest     17,545            3%             0       0%                 0       0%             0       0%     339,693            12%             0       0%
OTHER                         Borrowers                            0       0%             0       0%                 0       0%             0       0%                 0       0%             0       0%
                              Loans                                0       0%             0       0%                 0       0%             0       0%                 0       0%             0       0%
                              Principal and Interest               0       0%             0       0%                 0       0%             0       0%                 0       0%             0       0%
HISPANIC                      Borrowers                            0       0%             0       0%                 1       3%             1       8%                 5      29%             1      20%
                              Loans                                0       0%             0       0%                 7      11%             7      20%                 9      35%             2      25%
                              Prinicpal and Interest               0       0%             0       0%     159,621             3%     122,697        12%     914,718            31%     120,770        26%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                              Page 68
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               PINAL,PT, ARIZONA                                YAVAPAI, ARIZONA                               YAVAPAI, PT, ARIZONA
                                                         Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                          60                        39                         1                      1                      14                         6
                              Loans                            136                         98                         2                      2                      21                        12
                              Principal and Interest   21,799,244                  5,307,785               156,056                     11,008              4,141,591                   785,966

WHITE                         Borrowers                          45         75%            30      77%                0       0%             0       0%             14       100%              6    100%
                              Loans                            107          79%            79      81%                0       0%             0       0%             21       100%             12    100%
                              Principal and Interest   14,982,941           69%    3,595,525       68%                0       0%             0       0%    4,141,591         100%      785,966      100%
AFRICAN AMERICAN              Borrowers                              1       2%             0       0%                0       0%             0       0%                 0       0%             0       0%
                              Loans                                  1       1%             0       0%                0       0%             0       0%                 0       0%             0       0%
                              Principal and Interest       20,960            0%             0       0%                0       0%             0       0%                 0       0%             0       0%

NATIVE AMERICAN               Borrowers                              1       2%             1       3%                0       0%             0       0%                 0       0%             0       0%
                              Loans                                  2       1%             2       2%                0       0%             0       0%                 0       0%             0       0%
                              Principal and Interest     451,233             2%     131,757         2%                0       0%             0       0%                 0       0%             0       0%

ASIAN                         Borrowers                              0       0%             0       0%                0       0%             0       0%                 0       0%             0       0%
                              Loans                                  0       0%             0       0%                0       0%             0       0%                 0       0%             0       0%
                              Principal and Interest                 0       0%             0       0%                0       0%             0       0%                 0       0%             0       0%

OTHER                         Borrowers                              1       2%             1       3%                0       0%             0       0%                 0       0%             0       0%
                              Loans                                  2       1%             1       1%                0       0%             0       0%                 0       0%             0       0%
                              Principal and Interest     117,491             1%       11,908                          0       0%             0       0%                 0       0%             0       0%

HISPANIC                      Borrowers                          12         20%             7      18%                1    100%              1    100%                  0       0%             0       0%
                              Loans                              24         18%            16      16%                2    100%              2    100%                  0       0%             0       0%
                              Prinicpal and Interest    6,226,618           29%    1,568,595       30%     156,056         100%        11,008     100%                  0       0%             0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 69
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               YUMA, PT, ARIZONA                                  STATE OF ARIZONA
                                                         Portfolio       Percent   Delinquent   Percent     Portfolio        Percent    Delinquent   Percent
TOTAL                         Borrowers                          35                        20                      588                        331
                              Loans                              85                        58                    1,402                        913
                              Principal and Interest   13,704,600                  5,629,247              193,712,241                  64,902,302

WHITE                         Borrowers                          27         77%            14      70%             473          80%           263       79%
                              Loans                              62         73%            41      71%           1,142          81%           734       80%
                              Principal and Interest   10,940,608           80%    3,626,282       64%    166,720,387           86% 55,960,199          86%
AFRICAN AMERICAN              Borrowers                              0       0%             0       0%                   4       1%              1       0%
                              Loans                                  0       0%             0       0%                   8       1%              1       0%
                              Principal and Interest                 0       0%             0       0%      1,243,064            1%      124,447         0%

NATIVE AMERICAN               Borrowers                              0       0%             0       0%                  47       8%             26       8%
                              Loans                                  0       0%             0       0%                  65       5%             39       4%
                              Principal and Interest                 0       0%             0       0%      5,093,370            3%      986,448         2%

ASIAN                         Borrowers                              2       6%             2      10%                  10       2%              5       2%
                              Loans                              11         13%            11      19%                  24       2%             16       2%
                              Principal and Interest    1,697,620           12%    1,741,852       31%      3,803,196            2%     2,160,240        3%

OTHER                         Borrowers                              0       0%             0       0%                   3       1%              2       1%
                              Loans                                  0       0%             0       0%                   5       0%              3       0%
                              Principal and Interest                 0       0%             0       0%       470,035             0%      111,990         0%

HISPANIC                      Borrowers                              6      17%             4      20%                  51       9%             34      10%
                              Loans                              12         14%             6      10%             158          11%           120       13%
                              Prinicpal and Interest    1,066,372            8%     261,114         5%     16,382,191            8%     5,558,983        9%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                               Page 70
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State  Servicing Office   Decision           Average Days       Total       White              American          American           Asian            Hispanic
 AZ APACHE                Approved   No. of Applications                0           0    0%             0   0%           0    0%            0   0%          0    0%
                                     Receipt to Completion                          0                   0                0                  0               0
                                     Completion to Approval                         0                   0                0                  0               0
                                     Approval to Loan Closing                       0                   0                0                  0               0

                          Rejected   No. of Applications                1           0    0%            0    0%          1    100%           0   0%         0     0%
                                     Receipt to Completion                          0                  0                0                   0              0
                                     Completion to Rejected                         0                  0                0                   0              0

                          Withdrawn No. of Applications                 4           2   50%            0    0%          2    50%            0   0%         0     0%
                                    Receipt to Completion                           0                  0                0                   0              0
                                    Completion to Withdrawn                         0                  0                0                   0              0

 AZ   COCHISE             Approved   No. of Applications                7        6      86%            0    0%          0     0%            0   0%         1    14%
                                     Receipt to Completion                      46                     0                0                   0              0
                                     Completion to Approval                     55                     0                0                   0             13
                                     Approval to Loan Closing                   27                     0                0                   0            259

                          Rejected   No. of Applications                3           3   100%           0    0%          0     0%            0   0%         0     0%
                                     Receipt to Completion                          0                  0                0                   0              0
                                     Completion to Rejected                         0                  0                0                   0              0

                          Withdrawn No. of Applications                 1           1   100%           0    0%          0     0%            0   0%         0     0%
                                    Receipt to Completion                           0                  0                0                   0              0
                                    Completion to Withdrawn                         0                  0                0                   0              0

 AZ   GRAHAM              Approved   No. of Applications                5        5      100%           0    0%          0     0%            0   0%         0     0%
                                     Receipt to Completion                      29                     0                0                   0              0
                                     Completion to Approval                     47                     0                0                   0              0
                                     Approval to Loan Closing                   45                     0                0                   0              0

                          Rejected   No. of Applications                0           0    0%            0    0%          0     0%            0   0%         0     0%
                                     Receipt to Completion                          0                  0                0                   0              0
                                     Completion to Rejected                         0                  0                0                   0              0

                          Withdrawn No. of Applications                 1           0    0%            0    0%          0     0%            0   0%         1    100%
                                    Receipt to Completion                           0                  0                0                   0              0
                                    Completion to Withdrawn                         0                  0                0                   0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 71
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African           Native
State  Servicing Office   Decision           Average Days       Total        White              American          American           Asian            Hispanic
 AZ HOLBROOK              Approved   No. of Applications                0            0    0%             0   0%           0    0%            0   0%          0    0%
                                     Receipt to Completion                           0                   0                0                  0               0
                                     Completion to Approval                          0                   0                0                  0               0
                                     Approval to Loan Closing                        0                   0                0                  0               0

                          Rejected   No. of Applications                0            0    0%            0    0%          0     0%            0   0%         0     0%
                                     Receipt to Completion                           0                  0                0                   0              0
                                     Completion to Rejected                          0                  0                0                   0              0

                          Withdrawn No. of Applications                 6            0    0%            0    0%          6    100%           0   0%         0     0%
                                    Receipt to Completion                            0                  0              112                   0              0
                                    Completion to Withdrawn                          0                  0                0                   0              0

 AZ   MARICOPA            Approved   No. of Applications                0            0    0%            0    0%          0     0%            0   0%         0     0%
                                     Receipt to Completion                           0                  0                0                   0              0
                                     Completion to Approval                          0                  0                0                   0              0
                                     Approval to Loan Closing                        0                  0                0                   0              0

                          Rejected   No. of Applications                0            0    0%            0    0%          0     0%            0   0%         0     0%
                                     Receipt to Completion                           0                  0                0                   0              0
                                     Completion to Rejected                          0                  0                0                   0              0

                          Withdrawn No. of Applications                 3            3   100%           0    0%          0     0%            0   0%         0     0%
                                    Receipt to Completion                            0                  0                0                   0              0
                                    Completion to Withdrawn                          0                  0                0                   0              0

 AZ   NAVAJO              Approved   No. of Applications                19        8      42%            0    0%         10    53%            0   0%         1     5%
                                     Receipt to Completion                       20                     0               35                   0              0
                                     Completion to Approval                       0                     0                0                   0              0
                                     Approval to Loan Closing                    73                     0               62                   0             57

                          Rejected   No. of Applications                5         3      60%            0    0%          2    40%            0   0%         0     0%
                                     Receipt to Completion                       72                     0                0                   0              0
                                     Completion to Rejected                       0                     0                0                   0              0

                          Withdrawn No. of Applications                 14        4      29%            0    0%          9    64%            0   0%         1     7%
                                    Receipt to Completion                       146                     0               64                   0              0
                                    Completion to Withdrawn                       0                     0                0                   0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 72
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State  Servicing Office   Decision           Average Days       Total       White              American          American         Asian            Hispanic
 AZ PHOENIX               Approved   No. of Applications                0           0    0%             0   0%           0   0%           0   0%          0    0%
                                     Receipt to Completion                          0                   0                0                0               0
                                     Completion to Approval                         0                   0                0                0               0
                                     Approval to Loan Closing                       0                   0                0                0               0

                          Rejected   No. of Applications                1        1      100%           0    0%          0    0%           0   0%         0     0%
                                     Receipt to Completion                      51                     0                0                 0              0
                                     Completion to Rejected                      0                     0                0                 0              0

                          Withdrawn No. of Applications                 1        1      100%           0    0%          0    0%           0   0%         0     0%
                                    Receipt to Completion                       62                     0                0                 0              0
                                    Completion to Withdrawn                     46                     0                0                 0              0

 AZ   PIMA                Approved   No. of Applications                1           0    0%            0    0%          0    0%           0   0%         1    100%
                                     Receipt to Completion                          0                  0                0                 0             29
                                     Completion to Approval                         0                  0                0                 0              0
                                     Approval to Loan Closing                       0                  0                0                 0             54

                          Rejected   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0     0%
                                     Receipt to Completion                          0                  0                0                 0              0
                                     Completion to Rejected                         0                  0                0                 0              0

                          Withdrawn No. of Applications                 1           1   100%           0    0%          0    0%           0   0%         0     0%
                                    Receipt to Completion                           0                  0                0                 0              0
                                    Completion to Withdrawn                         0                  0                0                 0              0

 AZ   PINAL               Approved   No. of Applications                0           0    0%            0    0%          0    0%           0   0%         0     0%
                                     Receipt to Completion                          0                  0                0                 0              0
                                     Completion to Approval                         0                  0                0                 0              0
                                     Approval to Loan Closing                       0                  0                0                 0              0

                          Rejected   No. of Applications                1           1   100%           0    0%          0    0%           0   0%         0     0%
                                     Receipt to Completion                          0                  0                0                 0              0
                                     Completion to Rejected                         0                  0                0                 0              0

                          Withdrawn No. of Applications                 0           0    0%            0    0%          0    0%           0   0%         0     0%
                                    Receipt to Completion                           0                  0                0                 0              0
                                    Completion to Withdrawn                         0                  0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 73
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African           Native
State  Servicing Office   Decision           Average Days       Total        White              American          American          Asian            Hispanic
 AZ YUMA                  Approved   No. of Applications                1         1      100%            0   0%           0   0%            0   0%          0    0%
                                     Receipt to Completion                       98                      0                0                 0               0
                                     Completion to Approval                       0                      0                0                 0               0
                                     Approval to Loan Closing                     0                      0                0                 0               0

                          Rejected   No. of Applications                0            0    0%            0    0%          0    0%            0   0%         0     0%
                                     Receipt to Completion                           0                  0                0                  0              0
                                     Completion to Rejected                          0                  0                0                  0              0

                          Withdrawn No. of Applications                 0            0    0%            0    0%          0    0%            0   0%         0     0%
                                    Receipt to Completion                            0                  0                0                  0              0
                                    Completion to Withdrawn                          0                  0                0                  0              0

 AZ   STATE               Approved   No. of Applications                33       20      61%            0    0%         10    30%           0   0%         3     9%
                                     Receipt to Completion                       34                     0               35                  0             10
                                     Completion to Approval                      28                     0                0                  0              4
                                     Approval to Loan Closing                    49                     0               62                  0            123

                          Rejected   No. of Applications                11        8      73%            0    0%          3    27%           0   0%         0     0%
                                     Receipt to Completion                       33                     0                0                  0              0
                                     Completion to Rejected                       0                     0                0                  0              0

                          Withdrawn No. of Applications                 31       12      39%            0    0%         17    55%           0   0%         2     6%
                                    Receipt to Completion                        54                     0               73                  0              0
                                    Completion to Withdrawn                       4                     0                0                  0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 74
                            Demographics         76
                        FSA’s Loan Portfolio     86
                        FSA’s Application data   112




USDA/OIG-A/50801-4-Hq                                  75
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                   Asian                  Other                 Hispanic
                                            Total         Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
          AR                Population       21,653        16,779     77%         4,724         22%         53          0%         35          0%              1      0%         61       0%
          Arkansas County   Borrowers            37            35     95%             1          3%          0          0%          0          0%              1      3%          0       0%
                            Farms               490           477     97%            13          3%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   411,473       411,473    100%             0          0%          0          0%          0          0%              0      0%          0       0%

          AR                Population       24,319        17,406     72%         6,607         27%         42          0%         44          0%              0      0%        220       1%
          Ashley County     Borrowers            28            24     86%             4         14%          0          0%          0          0%              0      0%          0       0%
                            Farms               300           288     96%            12          4%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   151,325       149,483     99%         1,842          1%          0          0%          0          0%              0      0%          0       0%

          AR                Population       31,186        30,827     99%                 4      0%        120          0%         60          0%              4      0%        171       1%
          Baxter County     Borrowers            43            42     98%                 0      0%          0          0%          0          0%              0      0%          1       2%
                            Farms               433           433    100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms    92,708        92,708    100%                 0      0%          0          0%          0          0%              0      0%          0       0%

          AR                Population       97,499        94,158     97%           118          0%      1,412          1%        441          0%         11          0%      1,359       1%
          Benton County     Borrowers            96            93     97%             1          1%          2          2%          0          0%          0          0%          0       0%
                            Farms             2,244         2,218     99%             0          0%          9          0%          0          0%          0          0%         17       1%
                            Land in Farms   293,745       292,137     99%             0          0%        548          0%          0          0%          0          0%      1,060       0%

          AR                Population       28,297        27,911     99%                 5      0%        170          1%         39          0%              1      0%        171       1%
          Boone County      Borrowers           104           104    100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                            Farms             1,148         1,137     99%                 0      0%          4          0%          0          0%              0      0%          7       1%
                            Land in Farms   250,819       249,086     99%                 0      0%        815          0%          0          0%              0      0%        918       0%

          AR                Population       11,793         7,936     67%         3,641         31%         11          0%              2      0%         12          0%        191       2%
          Bradley County    Borrowers            26            25     96%             1          4%          0          0%              0      0%          0          0%          0       0%
                            Farms               231           227     98%             4          2%          0          0%              0      0%          0          0%          0       0%
                            Land in Farms    30,196        30,196    100%             0          0%          0          0%              0      0%          0          0%          0       0%

          AR                Population        5,826         4,346     75%         1,437         25%              5      0%              7      0%              0      0%         31       1%
          Calhoun County    Borrowers            10            10    100%             0          0%              0      0%              0      0%              0      0%          0       0%
                            Farms               116           112     97%             4          3%              0      0%              0      0%              0      0%          0       0%
                            Land in Farms    18,818        18,461     98%           357          2%              0      0%              0      0%              0      0%          0       0%

          AR                Population       18,654        18,261     98%                 4      0%        140          1%         54          0%              1      0%        194       1%
          Carroll County    Borrowers           148           144     97%                 0      0%          1          0%          0          0%              3      0%          0       0%
                            Farms             1,031         1,025     99%                 0      0%          0          0%          0          0%              0      0%          6       1%
                            Land in Farms   246,184       243,766     99%                 0      0%          0          0%          0          0%              0      0%      2,418       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 76
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American               Asian              Other                 Hispanic
                                             Total         Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
          AR                 Population       15,713         6,666     42%         8,811         56%         22      0%         54      0%              1      0%        159       1%
          Chicot County      Borrowers            96            76     79%            18         19%          1      1%          0      0%              1      1%          0       0%
                             Farms               344           318     92%            26          8%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   269,122       269,122    100%             0          0%          0      0%          0      0%              0      0%          0       0%

          AR                 Population       21,437        16,267     76%         4,898         23%         54      0%         76      0%         15          0%        127       1%
          Clark County       Borrowers            43            39     91%             4          9%          0      0%          0      0%          0          0%          0       0%
                             Farms               356           339     95%            17          5%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms    98,919        97,967     99%           952          1%          0      0%          0      0%          0          0%          0       0%

          AR                 Population       18,107        17,976     99%                 5      0%         42      0%         14      0%              0      0%         70       0%
          Clay County        Borrowers            49            48     98%                 0      0%          0      0%          0      0%              1      2%          0       0%
                             Farms               622           622    100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   313,573       313,573    100%                 0      0%          0      0%          0      0%              0      0%          0       0%

          AR                 Population       19,411        19,213     99%                 6      0%         65      0%         22      0%              0      0%        105       1%
          Cleburne County    Borrowers            97            96     99%                 0      0%          0      0%          0      0%              1      1%          0       0%
                             Farms               653           653    100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   108,046       108,046    100%                 0      0%          0      0%          0      0%              0      0%          0       0%

          AR                 Population        7,781         6,653     86%         1,053         14%         13      0%         13      0%              2      0%         47       1%
          Cleveland County   Borrowers             9             9    100%             0          0%          0      0%          0      0%              0      0%          0       0%
                             Farms               223           223    100%             0          0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    34,115        34,115    100%             0          0%          0      0%          0      0%              0      0%          0       0%

          AR                 Population       25,691        16,516     64%         8,982         35%         53      0%         62      0%              1      0%         77       0%
          Columbia County    Borrowers            13            11     85%             2         15%          0      0%          0      0%              0      0%          0       0%
                             Farms               320           305     95%            12          4%          0      0%          0      0%              0      0%          3       1%
                             Land in Farms    57,253        57,253    100%             0          0%          0      0%          0      0%              0      0%          0       0%

          AR                 Population       19,151        16,071     84%         2,860         15%         70      0%         30      0%              1      0%        119       1%
          Conway County      Borrowers            47            41     87%             6         13%          0      0%          0      0%              0      0%          0       0%
                             Farms               704           681     97%            23          3%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   167,572       164,723     98%         2,849          2%          0      0%          0      0%              0      0%          0       0%

          AR                 Population       68,956        64,225     93%         3,764          5%        189      0%        388      1%              4      0%        386       1%
          Craighead County   Borrowers            52            52    100%             0          0%          0      0%          0      0%              0      0%          0       0%
                             Farms               781           781    100%             0          0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   350,402       350,402    100%             0          0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 77
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American           Asian              Other                 Hispanic
                                              Total         Number     Percent     Number   Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
          AR                  Population       42,493        40,654     96%           361      1%        642      2%        371      1%              6      0%        459       1%
          Crawford County     Borrowers            21            20     95%             0      0%          1      5%          0      0%              0      0%          0       0%
                              Farms               792           780     98%             0      0%         12      2%          0      0%              0      0%          0       0%
                              Land in Farms   145,744       145,744    100%             0      0%          0      0%          0      0%              0      0%          0       0%

          AR                  Population       49,939        27,988     56%        21,334     43%         89      0%        180      0%         12          0%        336       1%
          Crittenden County   Borrowers            31            16     52%            15     48%          0      0%          0      0%          0          0%          0       0%
                              Farms               290           256     88%            34     12%          0      0%          0      0%          0          0%          0       0%
                              Land in Farms   326,808       317,931     97%         8,877      3%          0      0%          0      0%          0          0%          0       0%

          AR                  Population       19,225        14,285     74%         4,751     25%         40      0%         38      0%              2      0%        109       1%
          Cross County        Borrowers            45            38     84%             7     16%          0      0%          0      0%              0      0%          0       0%
                              Farms               409           400     98%             9      2%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms   324,539       324,539    100%             0      0%          0      0%          0      0%              0      0%          0       0%

          AR                  Population        9,614         5,861     61%         3,694     38%         16      0%         10      0%              1      0%         32       0%
          Dallas County       Borrowers             4             2     50%             2     50%          0      0%          0      0%              0      0%          0       0%
                              Farms               108           102     94%             6      6%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms    20,589        20,255     98%           334      2%          0      0%          0      0%              0      0%          0       0%

          AR                  Population       16,798         9,448     56%         7,110     42%         48      0%         37      0%              3      0%        152       1%
          Desha County        Borrowers            61            44     72%            17     28%          0      0%          0      0%              0      0%          0       0%
                              Farms               324           302     93%            22      7%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms   262,021       262,021    100%             0      0%          0      0%          0      0%              0      0%          0       0%

          AR                  Population       17,369        12,482     72%         4,743     27%         26      0%         22      0%              4      0%         92       1%
          Drew County         Borrowers            18            14     78%             4     22%          0      0%          0      0%              0      0%          0       0%
                              Farms               309           292     94%            17      6%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms   110,260       110,260    100%             0      0%          0      0%          0      0%              0      0%          0       0%

          AR                  Population       60,006        54,405     91%         4,771      8%        251      0%        223      0%         15          0%        341       1%
          Faulkner County     Borrowers            51            51    100%             0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms             1,051         1,022     97%            18      2%          7      1%          0      0%          0          0%          4       0%
                              Land in Farms   210,692       207,255     98%         1,543      1%        486      0%          0      0%          0          0%      1,408       1%

          AR                  Population       14,897        14,506     97%            98      1%         89      1%         23      0%              2      0%        179       1%
          Franklin County     Borrowers            57            57    100%             0      0%          0      0%          0      0%              0      0%          0       0%
                              Farms               727           727    100%             0      0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms   168,755       168,755    100%             0      0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 78
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                 White             African American Native American               Asian                  Other                 Hispanic
                                                Total         Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
          AR                    Population       10,037         9,943     99%                 9      0%         47      0%              9      0%              1      0%         28       0%
          Fulton County         Borrowers            65            65    100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                                Farms               716           712     99%                 0      0%          0      0%              0      0%              0      0%          4       1%
                                Land in Farms   223,889       223,559    100%                 0      0%          0      0%              0      0%              0      0%        330       0%

          AR                    Population       73,397        66,309     90%         5,594          8%        471      1%        226          0%         20          0%        777       1%
          Garland County        Borrowers             9             9    100%             0          0%          0      0%          0          0%          0          0%          0       0%
                                Farms               371           367     99%             0          0%          0      0%          0          0%          0          0%          4       1%
                                Land in Farms    42,794        42,349     99%             0          0%          0      0%          0          0%          0          0%        445       1%

          AR                    Population       13,948        13,432     96%           377          3%         37      0%         20          0%              0      0%         82       1%
          Grant County          Borrowers             7             6     86%             0          0%          0      0%          0          0%              1     14%          0       0%
                                Farms               191           191    100%             0          0%          0      0%          0          0%              0      0%          0       0%
                                Land in Farms    37,606        37,606    100%             0          0%          0      0%          0          0%              0      0%          0       0%

          AR                    Population       31,804        31,498     99%            20          0%         79      0%         36          0%              4      0%        167       1%
          Greene County         Borrowers            78            78    100%             0          0%          0      0%          0          0%              0      0%          0       0%
                                Farms               739           739    100%             0          0%          0      0%          0          0%              0      0%          0       0%
                                Land in Farms   251,710       251,710    100%             0          0%          0      0%          0          0%              0      0%          0       0%

          AR                    Population       21,621        14,779     68%         6,450         30%         74      0%         20          0%              7      0%        291       1%
          Hempstead County      Borrowers            73            65     89%             7         10%          0      0%          0          0%              0      0%          1       1%
                                Farms               717           683     95%            31          4%          0      0%          0          0%              0      0%          3       0%
                                Land in Farms   168,848       164,804     98%         2,919          2%          0      0%          0          0%              0      0%      1,125       1%

          AR                    Population       26,115        22,979     88%         2,861         11%        126      0%         32          0%              2      0%        115       0%
          Hot Spring County     Borrowers            15            15    100%             0          0%          0      0%          0          0%              0      0%          0       0%
                                Farms               419           419    100%             0          0%          0      0%          0          0%              0      0%          0       0%
                                Land in Farms    78,498        78,498    100%             0          0%          0      0%          0          0%              0      0%          0       0%

          AR                    Population       13,569        10,460     77%         2,906         21%         51      0%         56          0%              2      0%         94       1%
          Howard County         Borrowers            55            53     96%             2          4%          0      0%          0          0%              0      0%          0       0%
                                Farms               658           641     97%            17          3%          0      0%          0          0%              0      0%          0       0%
                                Land in Farms   105,721       105,721    100%             0          0%          0      0%          0          0%              0      0%          0       0%

          AR                    Population       31,192        30,239     97%           595          2%         77      0%        108          0%              1      0%        172       1%
          Independence County   Borrowers           127           126     99%             0          0%          0      0%          1          1%              0      0%          0       0%
                                Farms               950           946    100%             0          0%          4      0%          0          0%              0      0%          0       0%
                                Land in Farms   263,182       263,182    100%             0          0%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 79
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American           Asian              Other                 Hispanic
                                             Total         Number     Percent     Number   Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
          AR                 Population       11,364        11,212     99%            11      0%         56      0%         14      0%              0      0%         71       1%
          Izard County       Borrowers            54            54    100%             0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               651           647     99%             0      0%          4      1%          0      0%              0      0%          0       0%
                             Land in Farms   183,895       183,895    100%             0      0%          0      0%          0      0%              0      0%          0       0%

          AR                 Population       18,944        16,042     85%         2,748     15%         58      0%         23      0%              7      0%         66       0%
          Jackson County     Borrowers            47            44     94%             3      6%          0      0%          0      0%              0      0%          0       0%
                             Farms               450           440     98%            10      2%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   367,969       367,969    100%             0      0%          0      0%          0      0%              0      0%          0       0%

          AR                 Population       85,487        47,706     56%        36,771     43%        220      0%        347      0%         16          0%        427       0%
          Jefferson County   Borrowers            51            30     59%            21     41%          0      0%          0      0%          0          0%          0       0%
                             Farms               351           307     87%            44     13%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms   281,864       272,674     97%         9,190      3%          0      0%          0      0%          0          0%          0       0%

          AR                 Population       18,221        17,509     96%           306      2%        103      1%         73      0%              9      0%        221       1%
          Johnson County     Borrowers            52            50     96%             1      2%          1      2%          0      0%              0      0%          0       0%
                             Farms               568           568    100%             0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   108,913       108,913    100%             0      0%          0      0%          0      0%              0      0%          0       0%

          AR                 Population        9,643         5,867     61%         3,699     38%         16      0%         17      0%              3      0%         41       0%
          Lafayette County   Borrowers            35            33     94%             2      6%          0      0%          0      0%              0      0%          0       0%
                             Farms               252           247     98%             5      2%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   107,841       107,415    100%           426      0%          0      0%          0      0%              0      0%          0       0%

          AR                 Population       17,457        17,168     98%            88      1%        124      1%         16      0%              1      0%         60       0%
          Lawrence County    Borrowers            93            91     98%             1      1%          0      0%          0      0%              0      0%          1       1%
                             Farms               666           666    100%             0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   281,895       281,895    100%             0      0%          0      0%          0      0%              0      0%          0       0%

          AR                 Population       13,053         5,375     41%         7,447     57%         11      0%         46      0%              0      0%        174       1%
          Lee County         Borrowers           112            61     54%            51     46%          0      0%          0      0%              0      0%          0       0%
                             Farms               313           263     84%            50     16%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   298,547       289,608     97%         8,939      3%          0      0%          0      0%              0      0%          0       0%

          AR                 Population       13,690         8,557     63%         4,896     36%         63      0%         19      0%              3      0%        152       1%
          Lincoln County     Borrowers            28            16     57%            12     43%          0      0%          0      0%              0      0%          0       0%
                             Farms               298           273     92%            25      8%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms   186,685       186,685    100%             0      0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 80
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                 White             African American Native American               Asian              Other                 Hispanic
                                                Total         Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
          AR                    Population       13,966        10,755     77%         2,924         21%        114      1%         13      0%              0      0%        160       1%
          Little River County   Borrowers            43            36     84%             6         14%          0      0%          0      0%              0      0%          1       2%
                                Farms               354           328     93%            22          6%          4      1%          0      0%              0      0%          0       0%
                                Land in Farms   143,104       140,597     98%         2,507          2%          0      0%          0      0%              0      0%          0       0%

          AR                    Population       20,557        19,990     97%           272          1%        123      1%         24      0%              5      0%        143       1%
          Logan County          Borrowers            36            34     94%             1          3%          1      3%          0      0%              0      0%          0       0%
                                Farms               940           931     99%             0          0%          4      0%          0      0%              0      0%          5       1%
                                Land in Farms   186,829       184,958     99%             0          0%      1,076      1%          0      0%              0      0%        795       0%

          AR                    Population       39,268        35,216     90%         3,529          9%        160      0%        108      0%              9      0%        246       1%
          Lonoke County         Borrowers           145           131     90%            12          8%          1      1%          0      0%              1      1%          0       0%
                                Farms               836           820     98%            16          2%          0      0%          0      0%              0      0%          0       0%
                                Land in Farms   382,714       382,714    100%             0          0%          0      0%          0      0%              0      0%          0       0%

          AR                    Population       11,618        11,354     98%                 3      0%        137      1%         13      0%              0      0%        111       1%
          Madison County        Borrowers           160           158     99%                 0      0%          1      1%          0      0%              1      1%          0       0%
                                Farms             1,174         1,164     99%                 0      0%          4      0%          0      0%              0      0%          6       1%
                                Land in Farms   268,075       266,998    100%                 0      0%          0      0%          0      0%              0      0%      1,077       0%

          AR                    Population       12,001        11,865     99%                 6      0%         52      0%         24      0%              6      0%         48       0%
          Marion County         Borrowers            79            79    100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                                Farms               521           521    100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                                Land in Farms   142,856       142,856    100%                 0      0%          0      0%          0      0%              0      0%          0       0%

          AR                    Population       38,467        29,265     76%         8,602         22%        144      0%        135      0%         11          0%        310       1%
          Miller County         Borrowers            47            45     96%             1          2%          0      0%          1      2%          0          0%          0       0%
                                Farms               481           481    100%             0          0%          0      0%          0      0%          0          0%          0       0%
                                Land in Farms   173,861       173,861    100%             0          0%          0      0%          0      0%          0          0%          0       0%

          AR                    Population       57,525        40,303     70%        15,972         28%        160      0%        333      1%         12          0%        745       1%
          Mississippi County    Borrowers            45            44     98%             1          2%          0      0%          0      0%          0          0%          0       0%
                                Farms               546           537     98%             9          2%          0      0%          0      0%          0          0%          0       0%
                                Land in Farms   484,751       484,751    100%             0          0%          0      0%          0      0%          0          0%          0       0%

          AR                    Population       11,333         6,855     60%         4,403         39%         25      0%         18      0%              0      0%         32       0%
          Monroe County         Borrowers            54            43     80%            10         19%          0      0%          0      0%              0      0%          1       2%
                                Farms               278           249     90%            29         10%          0      0%          0      0%              0      0%          0       0%
                                Land in Farms   219,444       219,444    100%             0          0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 81
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American               Asian                  Other                 Hispanic
                                              Total         Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
          AR                  Population        7,841         7,673     98%                 8      0%         93      1%         11          0%              0      0%         56       1%
          Montgomery County   Borrowers            39            39    100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                              Farms               415           415    100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                              Land in Farms    79,803        79,803    100%                 0      0%          0      0%          0          0%              0      0%          0       0%

          AR                  Population       10,101         6,816     67%         3,190         32%         26      0%              5      0%              0      0%         64       1%
          Nevada County       Borrowers            60            58     97%             1          2%          0      0%              0      0%              1      2%          0       0%
                              Farms               387           382     99%             5          1%          0      0%              0      0%              0      0%          0       0%
                              Land in Farms    69,422        69,422    100%             0          0%          0      0%              0      0%              0      0%          0       0%

          AR                  Population        7,666         7,556     99%                 0      0%         51      1%         13          0%              3      0%         43       1%
          Newton County       Borrowers            42            42    100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                              Farms               503           503    100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                              Land in Farms   102,560       102,560    100%                 0      0%          0      0%          0          0%              0      0%          0       0%

          AR                  Population       30,574        19,617     64%        10,712         35%         43      0%         66          0%              3      0%        133       0%
          Ouachita County     Borrowers            11            10     91%             1          9%          0      0%          0          0%              0      0%          0       0%
                              Farms               182           182    100%             0          0%          0      0%          0          0%              0      0%          0       0%
                              Land in Farms    32,003        32,003    100%             0          0%          0      0%          0          0%              0      0%          0       0%

          AR                  Population        7,969         7,748     97%           119          1%         38      0%         17          0%              0      0%         47       1%
          Perry County        Borrowers            13            12     92%             0          0%          1      8%          0          0%              0      0%          0       0%
                              Farms               368           368    100%             0          0%          0      0%          0          0%              0      0%          0       0%
                              Land in Farms    67,044        67,044    100%             0          0%          0      0%          0          0%              0      0%          0       0%

          AR                  Population       28,838        12,793     44%        15,705         54%         36      0%         65          0%              2      0%        237       1%
          Phillips County     Borrowers           112            50     45%            62         55%          0      0%          0          0%              0      0%          0       0%
                              Farms               352           304     86%            48         14%          0      0%          0          0%              0      0%          0       0%
                              Land in Farms   357,416       339,032     95%        18,384          5%          0      0%          0          0%              0      0%          0       0%

          AR                  Population       10,086         9,598     95%           374          4%         54      1%              4      0%              0      0%         56       1%
          Pike County         Borrowers            32            31     97%             1          3%          0      0%              0      0%              0      0%          0       0%
                              Farms               407           404     99%             0          0%          3      1%              0      0%              0      0%          0       0%
                              Land in Farms    70,872        70,872    100%             0          0%          0      0%              0      0%              0      0%          0       0%

          AR                  Population       24,664        22,700     92%         1,770          7%         43      0%         23          0%              4      0%        124       1%
          Poinsett County     Borrowers            58            57     98%             1          2%          0      0%          0          0%              0      0%          0       0%
                              Farms               619           619    100%             0          0%          0      0%          0          0%              0      0%          0       0%
                              Land in Farms   404,585       404,585    100%             0          0%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 82
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                White             African American Native American               Asian                  Other                 Hispanic
                                               Total         Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
          AR                   Population       17,347        16,832     97%                 0      0%        178      1%         33          0%              3      0%        301       2%
          Polk County          Borrowers            60            59     98%                 0      0%          0      0%          0          0%              0      0%          1       2%
                               Farms               791           783     99%                 0      0%          3      0%          0          0%              0      0%          5       1%
                               Land in Farms   122,871       122,355    100%                 0      0%          0      0%          0          0%              0      0%        516       0%

          AR                   Population       45,883        43,830     96%         1,119          2%        308      1%        197          0%              6      0%        423       1%
          Pope County          Borrowers            50            49     98%             1          2%          0      0%          0          0%              0      0%          0       0%
                               Farms               879           873     99%             0          0%          6      1%          0          0%              0      0%          0       0%
                               Land in Farms   156,363       156,363    100%             0          0%          0      0%          0          0%              0      0%          0       0%

          AR                   Population        9,518         8,151     86%         1,294         14%         30      0%              4      0%              1      0%         38       0%
          Prairie County       Borrowers            86            81     94%             4          5%          0      0%              0      0%              1      1%          0       0%
                               Farms               401           398     99%             3          1%          0      0%              0      0%              0      0%          0       0%
                               Land in Farms   313,232       313,232    100%             0          0%          0      0%              0      0%              0      0%          0       0%

          AR                   Population      349,660       250,549     72%        91,976         26%      1,128      0%      2,692          1%        116          0%      3,199       1%
          Pulaski County       Borrowers            11            10     91%             1          9%          0      0%          0          0%          0          0%          0       0%
                               Farms               396           368     93%            24          6%          4      1%          0          0%          0          0%          0       0%
                               Land in Farms   111,895       109,220     98%         2,365          2%        310      0%          0          0%          0          0%          0       0%

          AR                   Population       16,558        16,265     98%           145          1%         50      0%         19          0%              4      0%         75       0%
          Randolph County      Borrowers            56            56    100%             0          0%          0      0%          0          0%              0      0%          0       0%
                               Farms               663           663    100%             0          0%          0      0%          0          0%              0      0%          0       0%
                               Land in Farms   253,948       253,948    100%             0          0%          0      0%          0          0%              0      0%          0       0%

          AR                   Population       28,497        14,651     51%        13,480         47%         47      0%        111          0%              6      0%        202       1%
          St. Francis County   Borrowers            41            22     54%            19         46%          0      0%          0          0%              0      0%          0       0%
                               Farms               388           346     89%            42         11%          0      0%          0          0%              0      0%          0       0%
                               Land in Farms   305,401       305,401    100%             0          0%          0      0%          0          0%              0      0%          0       0%

          AR                   Population       64,183        61,937     97%         1,346          2%        270      0%        239          0%         13          0%        378       1%
          Saline County        Borrowers             8             8    100%             0          0%          0      0%          0          0%          0          0%          0       0%
                               Farms               330           330    100%             0          0%          0      0%          0          0%          0          0%          0       0%
                               Land in Farms    45,609        45,609    100%             0          0%          0      0%          0          0%          0          0%          0       0%

          AR                   Population       10,205        10,003     98%                 1      0%        106      1%         49          0%              4      0%         42       0%
          Scott County         Borrowers            35            33     94%                 0      0%          2      6%          0          0%              0      0%          0       0%
                               Farms               612           612    100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                               Land in Farms   114,762       114,762    100%                 0      0%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 83
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American               Asian              Other                 Hispanic
                                              Total         Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
          AR                  Population        7,841         7,726     99%                 2      0%         66      1%         15      0%              0      0%         32       0%
          Searcy County       Borrowers            82            82    100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                              Farms               616           616    100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms   195,510       195,510    100%                 0      0%          0      0%          0      0%              0      0%          0       0%

          AR                  Population       99,590        87,989     88%         5,617          6%      1,364      1%      3,216      3%         42          0%      1,362       1%
          Sebastian County    Borrowers            25            25    100%             0          0%          0      0%          0      0%          0          0%          0       0%
                              Farms               689           684     99%             0          0%          5      1%          0      0%          0          0%          0       0%
                              Land in Farms   115,019       115,019    100%             0          0%          0      0%          0      0%          0          0%          0       0%

          AR                  Population       13,637        11,999     88%           784          6%        202      1%         16      0%              4      0%        632       5%
          Sevier County       Borrowers            68            65     96%             1          1%          1      1%          0      0%              0      0%          1       1%
                              Farms               549           537     98%             7          1%          0      0%          0      0%              0      0%          5       1%
                              Land in Farms   131,353       130,197     99%           332          0%          0      0%          0      0%              0      0%        824       1%

          AR                  Population       14,109        13,870     98%            64          0%        101      1%         17      0%              0      0%         57       0%
          Sharp County        Borrowers            85            85    100%             0          0%          0      0%          0      0%              0      0%          0       0%
                              Farms               532           532    100%             0          0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms   159,013       159,013    100%             0          0%          0      0%          0      0%              0      0%          0       0%

          AR                  Population        9,775         9,652     99%                 8      0%         53      1%         20      0%              0      0%         42       0%
          Stone County        Borrowers           107           107    100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                              Farms               584           584    100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms   136,309       136,309    100%                 0      0%          0      0%          0      0%              0      0%          0       0%

          AR                  Population       46,719        32,296     69%        14,038         30%         75      0%         87      0%              1      0%        222       0%
          Union County        Borrowers            29            25     86%             3         10%          0      0%          0      0%              1      3%          0       0%
                              Farms               257           247     96%            10          4%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms    31,190        30,699     98%           491          2%          0      0%          0      0%              0      0%          0       0%

          AR                  Population       14,008        13,774     98%            41          0%         76      1%         19      0%              0      0%         98       1%
          Van Buren County    Borrowers            51            51    100%             0          0%          0      0%          0      0%              0      0%          0       0%
                              Farms               513           513    100%             0          0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms   119,930       119,930    100%             0          0%          0      0%          0      0%              0      0%          0       0%

          AR                  Population      113,409       107,724     95%         1,656          1%      1,452      1%      1,027      1%         24          0%      1,526       1%
          Washington County   Borrowers           169           167     99%             0          0%          1      1%          0      0%          0          0%          1       1%
                              Farms             2,539         2,507     99%             0          0%         20      1%          0      0%          0          0%         12       0%
                              Land in Farms   352,322       349,857     99%             0          0%      2,053      1%          0      0%          0          0%        412       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 84
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American           Asian              Other                 Hispanic
                                              Total         Number     Percent     Number   Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
          AR                Population         54,676        52,260     96%         1,694      3%        226      0%        117      0%              7      0%        372       1%
          White County      Borrowers             120           119     99%             1      1%          0      0%          0      0%              0      0%          0       0%
                            Farms               1,440         1,430     99%             0      0%         10      1%          0      0%              0      0%          0       0%
                            Land in Farms     358,904       357,133    100%             0      0%      1,771      0%          0      0%              0      0%          0       0%

          AR                Population          9,520         6,496     68%         2,982     31%         13      0%         11      0%              1      0%         17       0%
          Woodruff County   Borrowers              18            12     67%             6     33%          0      0%          0      0%              0      0%          0       0%
                            Farms                 248           232     94%            16      6%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms     274,843       270,325     98%         4,518      2%          0      0%          0      0%              0      0%          0       0%

          AR                Population         17,759        17,059     96%           367      2%         74      0%         76      0%              6      0%        177       1%
          Yell County       Borrowers              67            64     96%             3      4%          0      0%          0      0%              0      0%          0       0%
                            Farms                 831           824     99%             4      0%          3      0%          0      0%              0      0%          0       0%
                            Land in Farms     190,363       190,363    100%             0      0%          0      0%          0      0%              0      0%          0       0%

          AR                Population       2,350,725     1,933,082    82%       372,762     16%     12,393      1%     12,144      1%        468          0%     19,876       1%
          STATE             Borrowers            4,231         3,876    92%           318      8%         14      0%          2      0%         13          0%          8       0%
                            Farms               43,937        43,116    98%           634      1%        106      0%          0      0%          0          0%         81       0%
                            Land in Farms   14,127,711    14,042,499    99%        66,825      0%      7,059      0%          0      0%          0          0%     11,328       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 85
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          ARKANSAS, ARKANSAS                                       ASHLEY, ARKANSAS                                      BAXTER, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            37                          5                         28                      13                            43                      10
                              Loans                                74                     20                             69                      40                       107                          24
                              Principal and Interest   5,909,945                    684,936                  4,451,208                    982,886                  2,558,024                      66,742
WHITE                         Borrowers                            35     95%                  4     80%                 24     86%              10        77%                 42     98%              10       100%
                              Loans                                70     95%             19         95%                 51     74%              23        58%            104         97%              24       100%
                              Principal and Interest   5,749,468          97%       675,119          99%     3,586,177          81%       681,592          69%     2,432,104          95%         66,742        100%
AFRICAN AMERICAN              Borrowers                             1       3%                 1     20%                  4     14%                  3     23%                  0       0%                 0       0%
                              Loans                                 2       3%                 1       5%                18     26%              17        43%                  0       0%                 0       0%
                              Principal and Interest       23,915           0%                 0       0%      865,030          19%       301,294          31%                  0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             1       3%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 2       3%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest     136,561            2%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 1       2%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 3       3%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%                 0       0%                 0       0%      125,921            5%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 86
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             BENTON, ARKANSAS                                       BOONE, ARKANSAS                                    BRADLEY, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            96                     28                        104                         26                            26                      16
                              Loans                            180                        42                        190                         44                            78                      61
                              Principal and Interest   9,788,763                    268,123                  7,368,518                   170,799                  2,230,074                    877,590
WHITE                         Borrowers                            93     97%             28        100%            104       100%              26       100%                 25     96%              15        94%
                              Loans                            174        97%             42        100%            190       100%              44       100%                 77     99%              60        98%
                              Principal and Interest   9,441,150          96%       268,123         100%     7,368,518        100%       170,799         100%     2,226,234         100%       877,152         100%
AFRICAN AMERICAN              Borrowers                             1       1%                 0       0%                0       0%                 0       0%                 1       4%                 1       6%
                              Loans                                 3       2%                 0       0%                0       0%                 0       0%                 1       1%                 1       2%
                              Principal and Interest     143,008            1%                 0       0%                0       0%                 0       0%         3,840           0%           438           0%
NATIVE AMERICAN               Borrowers                             2       2%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 3       2%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest     204,605            2%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 87
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           CALHOUN, ARKANSAS                                       CAMDEN, ARKANSAS                                      CARROLL, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            10                          4                         11                          3                     148                         47
                              Loans                                23                     11                             21                          5                     402                       105
                              Principal and Interest     703,836                    122,142                    747,729                      89,787                 14,957,986                   838,065
WHITE                         Borrowers                            10    100%                  4    100%                 10     91%                  2     67%             144        97%              46        98%
                              Loans                                23    100%             11        100%                 18     86%                  2     40%             395        98%            104         99%
                              Principal and Interest     703,836         100%       122,142         100%       377,716          51%            555           1%    14,494,758         97%       834,685         100%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 1       9%                 1     33%                  0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 3     14%                  3     60%                  0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%      370,013          49%         89,231         99%                  0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 1       1%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 2       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%       158,370           1%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 3       2%                 1       2%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 5       1%                 1       1%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%       304,859           2%         3,380           0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 88
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              CHICOT, ARKANSAS                                       CLARK, ARKANSAS                                            CLAY, ARKANSAS
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             96                     45                             43                          5                         49                      14
                              Loans                             254                       149                             67                          8                    126                          51
                              Principal and Interest   14,251,924                  3,141,700                  2,258,776                      60,329                 4,133,012                    807,994
WHITE                         Borrowers                             76     79%             30         67%                 39     91%                  4     80%                 48     98%              14       100%
                              Loans                             147        58%             65         44%                 59     88%                  6     75%            125         99%              51       100%
                              Principal and Interest    9,933,328          70%     1,480,077          47%     2,098,902          93%         58,597         97%     4,045,891          98%       807,994         100%
AFRICAN AMERICAN              Borrowers                             18     19%             15         33%                  4       9%                 1     20%                  0       0%                 0       0%
                              Loans                             102        40%             84         56%                  8     12%                  2     25%                  0       0%                 0       0%
                              Principal and Interest    3,867,264          27%     1,661,623          53%       159,874            7%         1,732           3%                 0       0%                 0       0%
NATIVE AMERICAN               Borrowers                              1       1%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                             4            2%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest      349,145            2%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                              0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                  0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                              1       1%                 0       0%                 0       0%                 0       0%                 1       2%                 0       0%
                              Loans                             1            0%                 0       0%                 0       0%                 0       0%            1            1%                 0       0%
                              Principal and Interest      102,187            1%                 0       0%                 0       0%                 0       0%       87,121            2%                 0       0%
HISPANIC                      Borrowers                              0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                  0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 89
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          CLEBURNE, ARKANSAS                                   CLEVELAND, ARKANSAS                                    COLUMBIA, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            97                     30                              9                          2                         13                          3
                              Loans                            214                        59                             33                          2                         25                          9
                              Principal and Interest   7,874,719                    214,684                    735,211                         841                 1,318,924                      76,629
WHITE                         Borrowers                            96     99%             30        100%                  9    100%                  2    100%                 11     85%                  2     67%
                              Loans                            210        98%             59        100%                 33    100%                  2    100%                 22     88%                  8     89%
                              Principal and Interest   7,754,050          98%       214,684         100%       735,211         100%            841        100%     1,291,030          98%         76,619        100%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 2     15%                  1     33%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 3     12%                  1     11%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%       27,894            2%                 9       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             1       1%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 4       2%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest     120,670            2%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 90
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            CONWAY, ARKANSAS                                   CRAIGHEAD, ARKANSAS                                    CRAWFORD, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            47                     11                             52                      13                            21                          2
                              Loans                                98                     27                             96                      23                            37                          5
                              Principal and Interest   4,041,739                    234,811                  3,771,869                    305,087                  1,373,743                      56,760
WHITE                         Borrowers                            41     87%             10         91%                 52    100%              13       100%                 20     95%                  2    100%
                              Loans                                87     89%             22         81%                 96    100%              23       100%                 35     95%                  5    100%
                              Principal and Interest   3,822,747          95%       211,078          90%     3,771,869         100%       305,087         100%     1,223,624          89%         56,760        100%
AFRICAN AMERICAN              Borrowers                             6     13%                  1       9%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                11     11%                  5     19%                  0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest     218,992            5%       23,732          10%                  0       0%                 0       0%                 0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 1       5%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 2       5%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%      150,119          11%                  0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 91
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        CRITTENDEN, ARKANSAS                                         CROSS, ARKANSAS                                     DALLAS, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            31                     16                             45                      15                            4                          0
                              Loans                                80                     47                        118                          70                            7                          0
                              Principal and Interest   4,064,026                  1,050,072                  7,955,627                  3,001,979                    141,151                              0
WHITE                         Borrowers                            16     52%                  9     56%                 38     84%              13        87%                 2     50%                  0       0%
                              Loans                                34     43%             20         43%                 97     82%              59        84%                 2     29%                  0       0%
                              Principal and Interest   2,048,888          50%       396,847          38%     6,622,622          83%     2,526,056          84%       115,121         82%                  0       0%
AFRICAN AMERICAN              Borrowers                            15     48%                  7     44%                  7     16%                  2     13%                 2     50%                  0       0%
                              Loans                                46     58%             27         57%                 21     18%              11        16%                 5     71%                  0       0%
                              Principal and Interest   2,015,138          50%       653,225          62%     1,333,005          17%       475,924          16%        26,030         18%                  0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 92
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              DESHA, ARKANSAS                                        DREW, ARKANSAS                                   FAULKNER, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            61                     19                             18                          6                         51                      19
                              Loans                            158                        75                             40                      11                            98                      38
                              Principal and Interest   6,154,745                  1,066,379                  1,636,228                    112,280                  4,135,774                    154,074
WHITE                         Borrowers                            44     72%             12         63%                 14     78%                  5     83%                 51    100%              19       100%
                              Loans                                97     61%             39         52%                 34     85%              10        91%                 98    100%              38       100%
                              Principal and Interest   5,022,002          82%       573,034          54%     1,516,246          93%       112,248         100%     4,135,774         100%       154,074         100%
AFRICAN AMERICAN              Borrowers                            17     28%                  7     37%                  4     22%                  1     17%                  0       0%                 0       0%
                              Loans                                61     39%             36         48%                  6     15%                  1       9%                 0       0%                 0       0%
                              Principal and Interest   1,132,742          18%       493,345          46%       119,983            7%             32          0%                 0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 93
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           FRANKLIN, ARKANSAS                                      FULTON, ARKANSAS                                     GARLAND, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            57                     12                             65                      22                             9                          1
                              Loans                            106                        19                        119                          33                            18                          4
                              Principal and Interest   6,108,392                    178,438                  3,009,836                      84,106                   723,037                      14,804
WHITE                         Borrowers                            57    100%             12        100%                 65    100%              22       100%                  9    100%                  1    100%
                              Loans                          106         100%            19         100%           119         100%             33        100%            18         100%              4        100%
                              Principal and Interest   6,108,392         100%       178,438         100%     3,009,836         100%         84,106        100%       723,037         100%         14,804        100%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 94
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              GRANT, ARKANSAS                                      GREENE, ARKANSAS                                   HEMPSTEAD, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             7                          2                         78                      12                             73                      22
                              Loans                                11                          5                    146                          27                        192                          66
                              Principal and Interest     484,525                     64,310                  7,037,442                    564,732                  11,723,838                  1,395,121
WHITE                         Borrowers                             6     86%                  2    100%                 78    100%              12       100%                  65     89%              17        77%
                              Loans                                 9     82%                  5    100%            146        100%              27       100%             179         93%              59        89%
                              Principal and Interest     424,055          88%        64,310         100%     7,037,442         100%       564,732         100%     11,304,085          96%     1,215,622          87%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                  7     10%                  4     18%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 12       6%                 6       9%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%       360,006            3%      161,185          12%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
OTHER                         Borrowers                             1     14%                  0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Loans                                 2     18%                  0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Principal and Interest       60,471         12%                  0       0%                 0       0%                 0       0%                  0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                  1       1%                 1       5%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                  1       1%                 1       2%
                              Prinicpal and Interest                0       0%                 0       0%                 0       0%                 0       0%        59,747            1%        18,315           1%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                            Page 95
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         HOT SPRING, ARKANSAS                                     HOWARD, ARKANSAS                                 INDEPENDENCE, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            15                          3                         55                      13                        127                         47
                              Loans                           36                         16                        105                         24                         240                        77
                              Principal and Interest   1,716,637                    822,966                  6,919,686                    181,943                  12,739,502                   248,832
WHITE                         Borrowers                            15    100%                  3    100%                 53     96%              13       100%             126        99%              46        98%
                              Loans                                36    100%             16        100%            103         98%              24       100%             239       100%              76        99%
                              Principal and Interest   1,716,637         100%       822,966         100%     6,707,212          97%       181,943         100%     12,734,707        100%       248,532         100%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 2       4%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 2       2%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%      212,475            3%                 0       0%                 0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 1       1%                 1       2%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 1       0%                 1       1%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%          4,795          0%           300           0%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 96
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            JACKSON, ARKANSAS                                    JEFFERSON, ARKANSAS                                     JOHNSON, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            47                     14                              51                      23                            52                          7
                              Loans                            122                        45                         171                        101                        110                          16
                              Principal and Interest   6,763,017                  1,720,280                  10,562,779                  1,648,511                  5,518,800                    132,403
WHITE                         Borrowers                            44     94%             14        100%                  30     59%              12        52%                 50     96%                  7    100%
                              Loans                            109        89%             45        100%             104         61%              59        58%            107         97%              16       100%
                              Principal and Interest   6,463,780          96%     1,720,280         100%      8,273,562          78%       806,837          49%     5,315,771          96%       132,403         100%
AFRICAN AMERICAN              Borrowers                             3       6%                 0       0%                 21     41%              11        48%                  1       2%                 0       0%
                              Loans                                13     11%                  0       0%                 67     39%              42        42%                  2       2%                 0       0%
                              Principal and Interest     299,237            4%                 0       0%     2,289,217          22%       841,673          51%       110,436            2%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                  0       0%                 0       0%                 1       2%                 0       0%
                              Loans                                 0       0%                 0       0%                  0       0%                 0       0%                 1       1%                 0       0%
                              Principal and Interest                0       0%                 0       0%                  0       0%                 0       0%       92,592            2%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                  0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                  0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                  0       0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                  0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                  0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                  0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                  0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                  0       0%                 0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%                  0       0%                 0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                            Page 97
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         LAFAYETTE, ARKANSAS                                    LAWRENCE, ARKANSAS                                              LEE, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            35                          6                         93                      23                        112                          55
                              Loans                                66                     19                        228                          64                        432                        257
                              Principal and Interest   2,941,610                    175,286                  7,463,402                    391,259                  18,580,764                  4,888,633
WHITE                         Borrowers                            33     94%                  5     83%                 91     98%              23       100%                  61     54%              32        58%
                              Loans                                57     86%             12         63%            225         99%              64       100%             195         45%            118         46%
                              Principal and Interest   2,737,788          93%        52,842          30%     7,217,809          97%       391,259         100%     11,936,773          64%     2,580,016          53%
AFRICAN AMERICAN              Borrowers                             2       6%                 1     17%                  1       1%                 0       0%                 51     46%              23        42%
                              Loans                                 9     14%                  7     37%                  2       1%                 0       0%            237         55%            139         54%
                              Principal and Interest     203,823            7%      122,444          70%       119,736            2%                 0       0%     6,643,991          36%     2,308,617          47%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 1       1%                 0       0%                  0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 1       0%                 0       0%                  0       0%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%      125,857            2%                 0       0%                  0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                            Page 98
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            LINCOLN, ARKANSAS                                LITTLE RIVER, ARKANSAS                                       LOGAN, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            28                     14                             43                      18                            36                          4
                              Loans                                82                     51                        123                          60                            68                      13
                              Principal and Interest   9,462,999                  3,382,662                  9,299,444                  3,135,508                  3,009,504                    188,552
WHITE                         Borrowers                            16     57%                  7     50%                 36     84%              13        72%                 34     94%                  4    100%
                              Loans                                57     70%             36         71%            105         85%              54        90%                 65     96%              13       100%
                              Principal and Interest   6,353,628          67%     2,755,428          81%     8,407,854          90%     3,111,258          99%     2,849,775          95%       188,552         100%
AFRICAN AMERICAN              Borrowers                            12     43%                  7     50%                  6     14%                  4     22%                  1       3%                 0       0%
                              Loans                                25     30%             15         29%                 17     14%                  5       8%                 1       1%                 0       0%
                              Principal and Interest   3,109,371          33%       627,234          19%       846,373            9%        15,679           1%       56,716            2%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 1       3%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 2       3%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%      103,013            3%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 1       2%                 1       6%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 1       1%                 1       2%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%       45,217            0%         8,571           0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 99
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             LONOKE, ARKANSAS                                       MADISON, ARKANSAS                                     MARION, ARKANSAS
                                                        Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                         145                        31                         160                         54                            79                      26
                              Loans                             444                       163                         340                       124                        196                          65
                              Principal and Interest   26,285,748                  5,924,528                  17,958,073                 1,406,235                  7,456,144                    441,948
WHITE                         Borrowers                         131        90%             30         97%             158        99%              53        98%                 79    100%              26       100%
                              Loans                           401          90%           162          99%            338         99%           123          99%           196         100%            65         100%
                              Principal and Interest   24,458,391          93%     5,917,828         100%     17,774,452         99%     1,402,376         100%     7,456,144         100%       441,948         100%
AFRICAN AMERICAN              Borrowers                             12       8%                 1       3%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 40       9%                 1       1%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest    1,691,082            6%         6,700           0%                 0       0%                 0       0%                 0       0%                 0       0%
NATIVE AMERICAN               Borrowers                              1       1%                 0       0%                 1       1%                 1       2%                 0       0%                 0       0%
                              Loans                                  1       0%                 0       0%                 1       0%                 1       1%                 0       0%                 0       0%
                              Principal and Interest        30,163           0%                 0       0%        71,992           0%         3,859           0%                 0       0%                 0       0%
ASIAN                         Borrowers                              0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                  0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                              1       1%                 0       0%                 1       1%                 0       0%                 0       0%                 0       0%
                              Loans                                  2       0%                 0       0%                 1       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest      106,112            0%                 0       0%       111,629           1%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                              0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                  0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 100
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        MELBOURNE, ARKANSAS                                        MILLER, ARKANSAS                                   MISSISSIPPI, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            54                     13                             47                          4                         45                          5
                              Loans                            121                        34                             96                      19                            90                      11
                              Principal and Interest   4,863,419                    179,869                  5,177,647                    706,604                  5,666,343                    199,579
WHITE                         Borrowers                            54    100%             13        100%                 45     96%                  4    100%                 44     98%                  5    100%
                              Loans                            121       100%             34        100%                 93     97%              19       100%                 89     99%              11       100%
                              Principal and Interest   4,863,419         100%       179,869         100%     5,161,693         100%       706,604         100%     5,663,733         100%       199,579         100%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 1       2%                 0       0%                 1       2%                 0       0%
                              Loans                                 0       0%                 0       0%                 2       2%                 0       0%                 1       1%                 0       0%
                              Principal and Interest                0       0%                 0       0%       12,979            0%                 0       0%         2,610           0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                 1       2%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 1       1%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%         2,974           0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 101
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            MONROE, ARKANSAS                                 MONTGOMERY, ARKANSAS                                        NEVEDA, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            54                     14                             39                      16                            60                      20
                              Loans                            183                        67                             68                      24                       107                          37
                              Principal and Interest   7,710,151                  1,538,300                  1,908,860                      64,062                 3,920,463                    209,097
WHITE                         Borrowers                            43     80%                  9     64%                 39    100%              16       100%                 58     97%              19        95%
                              Loans                            129        70%             35         52%                 68    100%              24       100%            104         97%              36        97%
                              Principal and Interest   6,192,590          80%     1,193,510          78%     1,908,860         100%         64,062        100%     3,799,319          97%       208,966         100%
AFRICAN AMERICAN              Borrowers                            10     19%                  5     36%                  0       0%                 0       0%                 1       2%                 1       5%
                              Loans                                53     29%             32         48%                  0       0%                 0       0%                 1       1%                 1       3%
                              Principal and Interest   1,462,903          19%       344,790          22%                  0       0%                 0       0%         6,506           0%           131           0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 1       2%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 2       2%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%      114,638            3%                 0       0%
HISPANIC                      Borrowers                             1       2%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 1       1%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Prinicpal and Interest       54,658           1%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 102
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            NEWTON, ARKANSAS                                         PERRY, ARKANSAS                                     PHILLIPS, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            42                          9                         13                          3                     112                          46
                              Loans                                65                     11                             42                          8                     400                        239
                              Principal and Interest   1,403,408                     16,531                  1,031,556                       4,570                 17,865,022                  7,075,861
WHITE                         Borrowers                            42    100%                  9    100%                 12     92%                  3    100%                  50     45%              14        30%
                              Loans                                65    100%             11        100%                 41     98%                  8    100%             154         39%              77        32%
                              Principal and Interest   1,403,408         100%        16,531         100%       899,253          87%          4,570        100%      8,904,037          50%     2,827,956          40%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 62     55%              32        70%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%            246         62%            162         68%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%     8,960,985          50%     4,247,905          60%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 1       8%                 0       0%                  0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 1       2%                 0       0%                  0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%      132,303          13%                  0       0%                  0       0%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 103
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   PIKE, ARKANSAS                                 POINSETT, ARKANSAS                                           POLK, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            32                     11                             58                          3                         60                      18
                              Loans                                65                     21                        126                              5                    113                          38
                              Principal and Interest   3,572,474                    143,348                  7,326,207                    421,246                  5,143,377                    552,278
WHITE                         Borrowers                            31     97%             10         91%                 57     98%                  3    100%                 59     98%              17        94%
                              Loans                                63     97%             19         90%            124         98%                  5    100%            111         98%              36        95%
                              Principal and Interest   3,463,595          97%       133,634          93%     7,049,422          96%       421,246         100%     5,017,095          98%       544,903          99%
AFRICAN AMERICAN              Borrowers                             1       3%                 1       9%                 1       2%                 0       0%                 0       0%                 0       0%
                              Loans                                 2       3%                 2     10%                  2       2%                 0       0%                 0       0%                 0       0%
                              Principal and Interest     108,880            3%         9,714           7%      276,785            4%                 0       0%                 0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 1       2%                 1       6%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 2       2%                 2       5%
                              Prinicpal and Interest                0       0%                 0       0%                 0       0%                 0       0%      126,283            2%         7,375           1%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 104
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   POPE, ARKANSAS                                   PRAIRIE, ARKANSAS                                     PULASKI, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            50                     10                              86                      19                            11                          2
                              Loans                                99                     14                         236                          59                            21                          2
                              Principal and Interest   6,068,272                    252,113                  14,186,278                  2,652,179                    660,976                       9,978
WHITE                         Borrowers                            49     98%             10        100%                  81     94%              18        95%                 10     91%                  2    100%
                              Loans                                98     99%             14        100%             223         94%              58        98%                 16     76%                  2    100%
                              Principal and Interest   5,976,920          98%       252,113         100%     14,076,871          99%     2,652,162         100%       612,451          93%          9,978        100%
AFRICAN AMERICAN              Borrowers                             1       2%                 0       0%                  4       5%                 1       5%                 1       9%                 0       0%
                              Loans                                 1       1%                 0       0%                  9       4%                 1       2%                 5     24%                  0       0%
                              Principal and Interest       91,352           2%                 0       0%        62,226        1800%                                   48,524            7%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                  0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                  0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                  0       0%                 0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                  0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                  0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                  0       0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                  1       1%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                  4       2%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%        47,180            0%                 0                          0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                  0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                  0       0%                 0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%                  0       0%                 0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 105
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          RANDOLPH, ARKANSAS                                        SALINE, ARKANSAS                                       SCOTT, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            56                     12                              8                          5                         35                      10
                              Loans                            102                        37                             13                          6                         93                      23
                              Principal and Interest   3,272,300                    387,486                    340,542                       2,249                 3,437,150                    176,110
WHITE                         Borrowers                            56    100%             12        100%                  8    100%                  5    100%                 33     94%              10       100%
                              Loans                            102       100%             37        100%                 13    100%                  6    100%                 89     96%              23       100%
                              Principal and Interest   3,272,300         100%       387,486         100%       340,542         100%          2,249        100%     3,287,312          96%       176,110         100%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 2       6%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 4       4%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%      149,838            4%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 106
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             SEARCY, ARKANSAS                                   SEBASTIAN, ARKANSAS                                       SEVIER, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            82                     24                             25                          6                         68                      15
                              Loans                            150                        55                             36                          7                    148                          38
                              Principal and Interest   4,338,543                    222,447                  1,356,308                      28,358                 6,970,291                    651,094
WHITE                         Borrowers                            82    100%             24        100%                 25    100%                  6    100%                 65     96%              15       100%
                              Loans                            150       100%             55        100%                 36    100%                  7    100%            145         98%              38       100%
                              Principal and Interest   4,338,543         100%       222,447         100%     1,356,308         100%         28,358        100%     6,662,120          96%       651,094         100%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 1       1%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 1       1%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%         4,404           0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 1       1%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 1       1%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%      262,360            4%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 1       1%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 1       1%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%                 0       0%                 0       0%       41,407            1%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 107
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              SHARP, ARKANSAS                                   ST FRANCIS, ARKANSAS                                       STONE, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            85                     19                             41                      14                       107                         26
                              Loans                            197                        79                        126                          56                       191                         56
                              Principal and Interest   5,675,043                    856,694                  5,309,077                  1,376,836                  4,150,998                     88,841
WHITE                         Borrowers                            85    100%             19        100%                 22     54%                  6     43%            107       100%              26       100%
                              Loans                            197       100%             79        100%                 71     56%              38        68%            191       100%              56       100%
                              Principal and Interest   5,675,043         100%       856,694         100%     3,861,462          73%     1,287,971          94%     4,150,998        100%         88,841        100%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                19     46%                  8     57%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                55     44%              18        32%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%    1,447,615          27%         88,865           6%                0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 108
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              UNION, ARKANSAS                                   VAN BUREN, ARKANSAS                                  WASHINGTON, ARKANSAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            29                          9                         51                      13                        169                         26
                              Loans                                74                     14                             92                      22                        344                         61
                              Principal and Interest   3,451,683                     53,623                  3,504,020                    116,325                  14,761,323                 1,366,603
WHITE                         Borrowers                            25     86%                  8     89%                 51    100%              13       100%             167        99%              25        96%
                              Loans                                60     81%             12         86%                 92    100%              22       100%             336        98%              59        97%
                              Principal and Interest   2,949,608          85%        50,281          94%     3,504,020         100%       116,325         100%     14,557,825         99%     1,365,894         100%
AFRICAN AMERICAN              Borrowers                             3     10%                  1     11%                  0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                12     16%                  2     14%                  0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest     365,374          11%          3,342           6%                 0       0%                 0       0%                 0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 1       1%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 5       1%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%        42,504           0%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             1       3%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 2       3%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest     136,701            4%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 1       1%                 1       4%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 3       1%                 2       3%
                              Prinicpal and Interest                0       0%                 0       0%                 0       0%                 0       0%       160,994           1%           709           0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 109
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               WHITE, ARKANSAS                                  WOODRUFF, ARKANSAS                                             YELL, ARKANSAS
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                         120                       19                             18                          7                         67                      25
                              Loans                             265                       46                             95                      62                       164                          66
                              Principal and Interest   13,511,805                   614,484                  4,816,300                  1,276,459                  5,478,675                    660,821
WHITE                         Borrowers                         119       99%             19        100%                 12     67%                  2     29%                 64     96%              24        96%
                              Loans                             262       99%             46        100%                 33     35%                  2       3%           160         98%              65        98%
                              Principal and Interest   13,322,766         99%       614,484         100%     2,822,226          59%         12,257           1%    5,365,794          98%       660,289         100%
AFRICAN AMERICAN              Borrowers                             1       1%                 0       0%                 6     33%                  5     71%                  3       4%                 1       4%
                              Loans                                 3       1%                 0       0%                62     65%              60        97%                  4       2%                 1       2%
                              Principal and Interest      189,038           1%                 0       0%    1,994,075          41%     1,264,202          99%       112,881            2%           532           0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 110
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              STATE OF ARKANSAS
                                                         Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                       4,231                      1,184
                              Loans                           9,872                      3,392
                              Principal and Interest   455,207,241                  63,279,791
WHITE                         Borrowers                       3,876         92%          1,030         87%
                              Loans                           8,628         87%          2,700         80%
                              Principal and Interest   409,987,929          90%     49,483,848         78%
AFRICAN AMERICAN              Borrowers                          318          8%           147         12%
                              Loans                           1,176         12%            683         20%
                              Principal and Interest    41,396,328            9%    13,753,433         22%
NATIVE AMERICAN               Borrowers                              14       0%                 1       0%
                              Loans                                  27       0%                 1       0%
                              Principal and Interest     1,747,004            0%         3,859           0%
ASIAN                         Borrowers                               2       0%                 1       0%
                              Loans                                   2       0%                 1       0%
                              Principal and Interest          7,769           0%           300           0%
OTHER                         Borrowers                              13       0%                 1       0%
                              Loans                                  26       0%                 1       0%
                              Principal and Interest     1,328,129            0%         3,380           0%
HISPANIC                      Borrowers                               8       0%                 4       0%
                              Loans                                  13       0%                 6       0%
                              Prinicpal and Interest       740,084            0%       34,970            0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED   Page 111
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African            Native
State  Servicing Office   Decision           Average Days       Total        White            American           American         Asian            Hispanic
 AR ASHLEY                Approved   No. of Applications                45        39   87%             6   13%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        20                  41                 0                0               0
                                     Completion to Approval                        3                  22                 0                0               0
                                     Approval to Loan Closing                     24                  16                 0                0               0

                          Rejected   No. of Applications                13       10    77%            3    23%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        7                   0                 0                 0              0
                                     Completion to Rejected                       0                   0                 0                 0              0

                          Withdrawn No. of Applications                 7         6    86%            1    14%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         1                  28                 0                 0              0
                                    Completion to Withdrawn                      10                   8                 0                 0              0

 AR   BAXTER              Approved   No. of Applications                5         5    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       16                   0                 0                 0              0
                                     Completion to Approval                       6                   0                 0                 0              0
                                     Approval to Loan Closing                    16                   0                 0                 0              0

                          Rejected   No. of Applications                2         2    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       18                   0                 0                 0              0
                                     Completion to Rejected                       9                   0                 0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                        64                   0                 0                 0              0
                                    Completion to Withdrawn                       0                   0                 0                 0              0

 AR   BOONE COUNTY        Approved   No. of Applications                1         1    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                 0                 0              0
                                     Completion to Approval                       0                   0                 0                 0              0
                                     Approval to Loan Closing                    14                   0                 0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                 0                 0              0
                                     Completion to Rejected                       0                   0                 0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                 0                 0              0
                                    Completion to Withdrawn                       0                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 112
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African           Native
State  Servicing Office   Decision           Average Days       Total        White              American          American         Asian            Hispanic
 AR CARROLL               Approved   No. of Applications                4         4      100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                       27                      0                0                0               0
                                     Completion to Approval                     100                      0                0                0               0
                                     Approval to Loan Closing                    31                      0                0                0               0

                          Rejected   No. of Applications                0            0    0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                0                 0              0
                                     Completion to Rejected                          0                  0                0                 0              0

                          Withdrawn No. of Applications                 0            0    0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                0                 0              0
                                    Completion to Withdrawn                          0                  0                0                 0              0

 AR   CLARK               Approved   No. of Applications                22       20      91%            2    9%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       18                    26                0                 0              0
                                     Completion to Approval                      11                     1                0                 0              0
                                     Approval to Loan Closing                    19                    13                0                 0              0

                          Rejected   No. of Applications                2         2      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       15                     0                0                 0              0
                                     Completion to Rejected                      15                     0                0                 0              0

                          Withdrawn No. of Applications                 6            6   100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                0                 0              0
                                    Completion to Withdrawn                          0                  0                0                 0              0

 AR   CONWAY              Approved   No. of Applications                22       21      95%            1    5%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        6                    10                0                 0              0
                                     Completion to Approval                      18                    26                0                 0              0
                                     Approval to Loan Closing                    26                    31                0                 0              0

                          Rejected   No. of Applications                4         4      100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        9                     0                0                 0              0
                                     Completion to Rejected                      21                     0                0                 0              0

                          Withdrawn No. of Applications                 17       17      100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         3                     0                0                 0              0
                                    Completion to Withdrawn                      22                     0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 113
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African            Native
State  Servicing Office   Decision           Average Days       Total        White            American           American         Asian            Hispanic
 AR CROSS                 Approved   No. of Applications                63        48   76%            15   24%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        32                  41                 0                0               0
                                     Completion to Approval                       15                   9                 0                0               0
                                     Approval to Loan Closing                     14                  23                 0                0               0

                          Rejected   No. of Applications                2         1    50%            1    50%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       14                  64                 0                 0              0
                                     Completion to Rejected                       0                  18                 0                 0              0

                          Withdrawn No. of Applications                 32       26    81%            6    19%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        24                  13                 0                 0              0
                                    Completion to Withdrawn                      14                   0                 0                 0              0

 AR   FRANKLIN            Approved   No. of Applications                30       27    90%            3    10%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        8                   5                 0                 0              0
                                     Completion to Approval                      13                  16                 0                 0              0
                                     Approval to Loan Closing                    28                  44                 0                 0              0

                          Rejected   No. of Applications                2         2    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        8                   0                 0                 0              0
                                     Completion to Rejected                       4                   0                 0                 0              0

                          Withdrawn No. of Applications                 5         5    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                 0                 0              0
                                    Completion to Withdrawn                       9                   0                 0                 0              0

 AR   GREENE              Approved   No. of Applications                31       31    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       20                   0                 0                 0              0
                                     Completion to Approval                       9                   0                 0                 0              0
                                     Approval to Loan Closing                    24                   0                 0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       28                   0                 0                 0              0
                                     Completion to Rejected                      13                   0                 0                 0              0

                          Withdrawn No. of Applications                 32       32    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         9                   0                 0                 0              0
                                    Completion to Withdrawn                       8                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 114
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African            Native
State  Servicing Office   Decision           Average Days       Total        White            American           American          Asian            Hispanic
 AR LAFAYETTE             Approved   No. of Applications                41        39   95%             0   0%             2   5%           0   0%          0     0%
                                     Receipt to Completion                         8                   0                  0                0               0
                                     Completion to Approval                        9                   0                 12                0               0
                                     Approval to Loan Closing                     21                   0                 14                0               0

                          Rejected   No. of Applications                5         5    100%           0    0%            0    0%           0   0%         0      0%
                                     Receipt to Completion                        1                   0                  0                 0              0
                                     Completion to Rejected                       4                   0                  0                 0              0

                          Withdrawn No. of Applications                 3         2    67%            1    33%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                  0                 0              0
                                    Completion to Withdrawn                       0                   0                  0                 0              0

 AR   LINCOLN             Approved   No. of Applications                27       17    63%           10    37%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       19                  14                  0                 0              0
                                     Completion to Approval                      12                  20                  0                 0              0
                                     Approval to Loan Closing                    11                  13                  0                 0              0

                          Rejected   No. of Applications                8         2    25%            6    75%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       14                  44                  0                 0              0
                                     Completion to Rejected                       0                   1                  0                 0              0

                          Withdrawn No. of Applications                 7         3    43%            4    57%           0    0%           0   0%         0      0%
                                    Receipt to Completion                        34                   3                  0                 0              0
                                    Completion to Withdrawn                       0                   0                  0                 0              0

 AR   LONOKE              Approved   No. of Applications                80       73    91%            7    9%            0    0%           0   0%         0      0%
                                     Receipt to Completion                       12                  21                  0                 0              0
                                     Completion to Approval                      17                  15                  0                 0              0
                                     Approval to Loan Closing                    16                  26                  0                 0              0

                          Rejected   No. of Applications                3         3    100%           0    0%            0    0%           0   0%         0      0%
                                     Receipt to Completion                       19                   0                  0                 0              0
                                     Completion to Rejected                      15                   0                  0                 0              0

                          Withdrawn No. of Applications                 22       22    100%           0    0%            0    0%           0   0%         0      0%
                                    Receipt to Completion                        13                   0                  0                 0              0
                                    Completion to Withdrawn                       8                   0                  0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 115
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African            Native
State  Servicing Office   Decision           Average Days       Total        White              American           American         Asian            Hispanic
 AR MADISON               Approved   No. of Applications                1         1      100%            0   0%            0   0%           0   0%          0     0%
                                     Receipt to Completion                       62                      0                 0                0               0
                                     Completion to Approval                      18                      0                 0                0               0
                                     Approval to Loan Closing                     0                      0                 0                0               0

                          Rejected   No. of Applications                1            1   100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                 0                 0              0
                                     Completion to Rejected                          0                  0                 0                 0              0

                          Withdrawn No. of Applications                 1         1      100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         7                     0                 0                 0              0
                                    Completion to Withdrawn                     178                     0                 0                 0              0

 AR   PHILLIPS            Approved   No. of Applications                44       24      55%           20    45%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       31                    29                 0                 0              0
                                     Completion to Approval                       7                    10                 0                 0              0
                                     Approval to Loan Closing                    17                    14                 0                 0              0

                          Rejected   No. of Applications                5         1      20%            4    80%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                     0                 0                 0              0
                                     Completion to Rejected                      28                     0                 0                 0              0

                          Withdrawn No. of Applications                 14        9      64%            5    36%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        31                    43                 0                 0              0
                                    Completion to Withdrawn                       6                    20                 0                 0              0

 AR   POINSETT            Approved   No. of Applications                66       55      83%           11    17%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       20                    21                 0                 0              0
                                     Completion to Approval                      13                     5                 0                 0              0
                                     Approval to Loan Closing                    18                    16                 0                 0              0

                          Rejected   No. of Applications                1            1   100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                 0                 0              0
                                     Completion to Rejected                          0                  0                 0                 0              0

                          Withdrawn No. of Applications                 37       33      89%            4    11%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        11                     7                 0                 0              0
                                    Completion to Withdrawn                      10                     5                 0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 116
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African             Native
State  Servicing Office   Decision           Average Days       Total        White            American            American         Asian            Hispanic
 AR PRAIRIE               Approved   No. of Applications                48        46   96%             2    4%            0   0%           0   0%          0     0%
                                     Receipt to Completion                        14                  14                  0                0               0
                                     Completion to Approval                        6                   1                  0                0               0
                                     Approval to Loan Closing                     13                  11                  0                0               0

                          Rejected   No. of Applications                2         0     0%            2    100%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                  36                  0                 0              0
                                     Completion to Rejected                       0                  10                  0                 0              0

                          Withdrawn No. of Applications                 32       30    94%            2     6%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         9                   3                  0                 0              0
                                    Completion to Withdrawn                       3                   0                  0                 0              0

 AR   SEARCY              Approved   No. of Applications                5         5    100%           0     0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       17                   0                  0                 0              0
                                     Completion to Approval                      15                   0                  0                 0              0
                                     Approval to Loan Closing                    21                   0                  0                 0              0

                          Rejected   No. of Applications                2         2    100%           0     0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                  0                 0              0
                                     Completion to Rejected                       0                   0                  0                 0              0

                          Withdrawn No. of Applications                 5         5    100%           0     0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         7                   0                  0                 0              0
                                    Completion to Withdrawn                      15                   0                  0                 0              0

 AR   SEVIER              Approved   No. of Applications                19       19    100%           0     0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       20                   0                  0                 0              0
                                     Completion to Approval                       2                   0                  0                 0              0
                                     Approval to Loan Closing                    14                   0                  0                 0              0

                          Rejected   No. of Applications                0         0     0%            0     0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                  0                 0              0
                                     Completion to Rejected                       0                   0                  0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0     0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                  0                 0              0
                                    Completion to Withdrawn                       0                   0                  0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 117
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African            Native
State  Servicing Office   Decision           Average Days       Total        White            American           American         Asian            Hispanic
 AR SHARP                 Approved   No. of Applications                18        18   100%            0   0%            0   0%           0   0%          0     0%
                                     Receipt to Completion                        17                   0                 0                0               0
                                     Completion to Approval                        6                   0                 0                0               0
                                     Approval to Loan Closing                     29                   0                 0                0               0

                          Rejected   No. of Applications                2         2    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                 0                 0              0
                                     Completion to Rejected                       0                   0                 0                 0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                 0                 0              0
                                    Completion to Withdrawn                       0                   0                 0                 0              0

 AR   WASHINGTON          Approved   No. of Applications                21       21    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       12                   0                 0                 0              0
                                     Completion to Approval                       1                   0                 0                 0              0
                                     Approval to Loan Closing                    36                   0                 0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       43                   0                 0                 0              0
                                     Completion to Rejected                      15                   0                 0                 0              0

                          Withdrawn No. of Applications                 5         5    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                 0                 0              0
                                    Completion to Withdrawn                      36                   0                 0                 0              0

 AR   STATE               Approved   No. of Applications           593          514    87%           77    13%          2    0%           0   0%         0      0%
                                     Receipt to Completion                       17                  27                 0                 0              0
                                     Completion to Approval                      11                  12                12                 0              0
                                     Approval to Loan Closing                    20                  18                14                 0              0

                          Rejected   No. of Applications                56       40    71%           16    29%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        9                  25                 0                 0              0
                                     Completion to Rejected                       7                   3                 0                 0              0

                          Withdrawn No. of Applications            229          206    90%           23    10%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        12                  16                 0                 0              0
                                    Completion to Withdrawn                      11                   6                 0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 118
                            Demographics         120
                        FSA’s Loan Portfolio     128
                        FSA’s Application data   148




USDA/OIG-A/50801-4-Hq                                  119
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American               Asian                  Other                 Hispanic
                                               Total     Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number    Percent
       CA                    Population      1,279,182   680,017      53%       222,873       17%       6,763      1%     184,813        14%      2,911          0%     181,805      14%
       Alameda County        Borrowers               5         4      80%             0        0%           0      0%           1        20%          0          0%           0       0%
                             Farms                 482       427      89%             3        1%           0      0%          27         6%          8          2%          17       4%
                             Land in Farms     286,288   284,237      99%             0        0%           0      0%           0         0%        431          0%       1,620       1%

       CA                    Population          1,113       772     69%                 5      0%        257     23%              5      0%              0     0%           74      7%
       Alpine County         Borrowers               1         0      0%                 0      0%          0      0%              0      0%              1   100%            0      0%
                             Farms                   6         6    100%                 0      0%          0      0%              0      0%              0     0%            0      0%
                             Land in Farms       4,768     4,768    100%                 0      0%          0      0%              0      0%              0     0%            0      0%

       CA                    Population        30,039     25,129     84%          1,670         6%        461      2%         200         1%         59          0%       2,520      8%
       Amador County         Borrowers              1          1    100%              0         0%          0      0%           0         0%          0          0%           0      0%
                             Farms                367        354     96%              0         0%          0      0%           0         0%          0          0%          13      4%
                             Land in Farms    236,222    227,517     96%              0         0%          0      0%           0         0%          0          0%       8,705      4%

       CA                    Population       182,120    158,242      87%         2,238         1%      2,946      2%       4,961         3%        127          0%      13,606      7%
       Butte County          Borrowers             41         39      95%             0         0%          1      2%           1         2%          0          0%           0      0%
                             Farms              1,944      1,806      93%             5         0%         12      1%          35         2%         27          1%          59      3%
                             Land in Farms    452,347    438,249      97%            27         0%        182      0%       3,365         1%      2,911          1%       7,613      2%

       CA                    Population        31,998     29,288     92%            180         1%        606      2%         187         1%         23          0%       1,714      5%
       Calaveras County      Borrowers              3          3    100%              0         0%          0      0%           0         0%          0          0%           0      0%
                             Farms                438        408     93%              0         0%          4      1%           0         0%          7          2%          19      4%
                             Land in Farms    246,077    241,535     98%              0         0%         36      0%           0         0%        242          0%       4,264      2%

       CA                    Population        16,275     10,105      62%            81         0%        302      2%         321         2%         42          0%       5,424      33%
       Colusa County         Borrowers             62         58      94%             1         2%          2      3%           1         2%          0          0%           0       0%
                             Farms                836        758      91%             0         0%          0      0%          23         3%         13          2%          42       5%
                             Land in Farms    450,236    423,066      94%             0         0%          0      0%       8,957         2%      3,541          1%      14,672       3%

       CA                    Population       803,732    560,146     70%         72,799         9%      4,441      1%      73,810         9%      1,254          0%      91,282      11%
       Contra Costa County   Borrowers              1          1    100%              0         0%          0      0%           0         0%          0          0%           0       0%
                             Farms                675        605     90%              0         0%          0      0%          18         3%         10          1%          42       6%
                             Land in Farms    163,036    148,637     91%              0         0%          0      0%       2,171         1%        533          0%      11,695       7%

       CA                    Population        23,460     18,302     78%            853         4%      1,415      6%         433         2%         43          0%       2,414      10%
       Del Norte County      Borrowers              2          1     50%              0         0%          1     50%           0         0%          0          0%           0       0%
                             Farms                 86         86    100%              0         0%          0      0%           0         0%          0          0%           0       0%
                             Land in Farms     12,594     12,594    100%              0         0%          0      0%           0         0%          0          0%           0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 120
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian                Other             Hispanic
                                              Total      Number     Percent     Number    Percent   Number   Percent   Number     Percent   Number   Percent   Number    Percent
       CA                   Population       125,995     113,053     90%            579      0%      1,204      1%       2,318       2%         64      0%       8,777      7%
       El Dorado County     Borrowers              8           8    100%              0      0%          0      0%           0       0%          0      0%           0      0%
                            Farms                690         655     95%              3      0%          7      1%           3       0%          4      1%          18      3%
                            Land in Farms    102,028      99,455     97%             76      0%         87      0%           0       0%          0      0%       2,410      2%

       CA                   Population        667,490     338,595     51%        31,311      5%      5,070      1%      54,110       8%      1,770      0%     236,634      35%
       Fresno County        Borrowers             124          98     79%             2      2%          1      1%          11       9%          0      0%          12      10%
                            Farms               7,021       5,353     76%            25      0%         31      0%         749      11%        326      5%         537       8%
                            Land in Farms   1,774,664   1,621,871     91%           797      0%      4,617      0%      76,981       4%     26,024      1%      44,374       3%

       CA                   Population        24,798      18,461      74%           131      1%        447      2%         773       3%         28      0%       4,958      20%
       Glenn County         Borrowers             65          64      98%             0      0%          0      0%           1       2%          0      0%           0       0%
                            Farms              1,187       1,122      95%             0      0%          3      0%          16       1%         14      1%          32       3%
                            Land in Farms    473,920     458,722      97%             0      0%          0      0%       3,390       1%      3,538      1%       8,270       2%

       CA                   Population       119,118     104,671      88%           934      1%      6,188      5%       2,255       2%         81      0%       4,989       4%
       Humboldt County      Borrowers             21          17      81%             0      0%          0      0%           0       0%          0      0%           4      19%
                            Farms                874         859      98%             0      0%          9      1%           0       0%          0      0%           6       1%
                            Land in Farms    597,766     584,816      98%             0      0%          0      0%           0       0%          0      0%      12,950       2%

       CA                   Population       109,303      31,742      29%         2,272      2%      1,563      1%       1,632       1%        159      0%      71,935      66%
       Imperial County      Borrowers             35          25      71%             0      0%          1      3%           3       9%          0      0%           6      17%
                            Farms                657         553      84%             5      1%          3      0%          17       3%         25      4%          54       8%
                            Land in Farms    532,866     500,806      94%             0      0%          0      0%       3,898       1%      6,423      1%      21,739       4%

       CA                   Population        18,281      14,819     81%             71      0%      1,665      9%         172       1%         18      0%       1,536       8%
       Inyo County          Borrowers              3           2     67%              0      0%          0      0%           0       0%          0      0%           1      33%
                            Farms                 79          71     90%              0      0%          5      6%           0       0%          0      0%           3       4%
                            Land in Farms    247,550     247,199    100%              0      0%        351      0%           0       0%          0      0%           0       0%

       CA                   Population        543,477     340,892     63%        28,851      5%      5,620      1%      14,879       3%      1,240      0%     151,995      28%
       Kern County          Borrowers             104          92     88%             5      5%          1      1%           3       3%          0      0%           3       3%
                            Farms               1,995       1,804     90%             9      0%         30      2%          39       2%         29      1%          84       4%
                            Land in Farms   2,839,531   2,397,461     84%         3,931      0%     14,158      0%      22,002       1%     23,232      1%     378,747      13%

       CA                   Population       101,469      54,426      54%         7,747      8%        905      1%       3,408       3%        432      0%      34,551      34%
       Kings County         Borrowers             40          38      95%             1      3%          0      0%           0       0%          0      0%           1       3%
                            Farms              1,092         969      89%             9      1%          5      0%          17       2%         30      3%          62       6%
                            Land in Farms    775,829     755,094      97%             0      0%          0      0%       1,772       0%      9,806      1%       9,157       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                  Page 121
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian                Other                 Hispanic
                                              Total      Number     Percent     Number    Percent   Number   Percent   Number     Percent   Number       Percent   Number    Percent
       CA                   Population        50,631      44,603      88%           924      2%        998      2%         431       1%         42          0%       3,633      7%
       Lake County          Borrowers             13          12      92%             0      0%          0      0%           0       0%          0          0%           1      8%
                            Farms                815         753      92%             4      0%          7      1%          10       1%         13          2%          28      3%
                            Land in Farms    164,130     156,338      95%         1,882      1%      1,614      1%         436       0%      1,067          1%       2,793      2%

       CA                   Population        27,598      21,920     79%          1,699      6%        790      3%         293       1%         13          0%       2,883      10%
       Lassen County        Borrowers             18          18    100%              0      0%          0      0%           0       0%          0          0%           0       0%
                            Farms                312         299     96%              0      0%          5      2%           0       0%          0          0%           8       3%
                            Land in Farms    487,499     487,499    100%              0      0%          0      0%           0       0%          0          0%           0       0%

       CA                   Population      8,863,164   3,618,850     41%       934,776    11%      29,159      0%     907,810      10%     21,327          0% 3,351,242        38%
       Los Angeles County   Borrowers               7           6     86%             0     0%           0      0%           0       0%          0          0%         1        14%
                            Farms               1,446       1,157     80%            12     1%          11      1%         144      10%         35          2%        87         6%
                            Land in Farms     183,569     169,792     92%            97     0%          46      0%       2,680       1%      1,722          1%     9,232         5%

       CA                   Population        88,090      52,974      60%         2,294      3%      1,165      1%       1,084       1%        173          0%      30,400      35%
       Madera County        Borrowers             51          48      94%             0      0%          0      0%           1       2%          0          0%           2       4%
                            Farms              1,709       1,508      88%            14      1%         16      1%          78       5%         26          2%          67       4%
                            Land in Farms    749,465     654,635      87%         2,410      0%      1,780      0%       6,444       1%      2,786          0%      81,410      11%

       CA                   Population       230,096     194,665     85%          7,529      3%        661      0%       9,064       4%        247          0%      17,930      8%
       Marin County         Borrowers              3           3    100%              0      0%          0      0%           0       0%          0          0%           0      0%
                            Farms                260         256     98%              0      0%          0      0%           0       0%          0          0%           4      2%
                            Land in Farms    168,879     166,887     99%              0      0%          0      0%           0       0%          0          0%       1,992      1%

       CA                   Population        14,302      12,771      89%           120      1%        593      4%         113       1%              8      0%         697       5%
       Mariposa County      Borrowers              3           2      67%             0      0%          0      0%           0       0%              0      0%           1      33%
                            Farms                256         246      96%             0      0%          0      0%           3       1%              0      0%           7       3%
                            Land in Farms    206,138     198,279      96%             0      0%          0      0%           0       0%              0      0%       7,859       4%

       CA                   Population        80,345      67,775      84%           482      1%      2,900      4%         866       1%         74          0%       8,248      10%
       Mendocino County     Borrowers             19          17      89%             0      0%          2     11%           0       0%          0          0%           0       0%
                            Farms              1,088       1,044      96%             0      0%         25      2%           5       0%          0          0%          14       1%
                            Land in Farms    725,118     663,171      91%             0      0%     48,092      7%           0       0%          0          0%      13,855       2%

       CA                   Population       178,403      96,701      54%         7,889      4%      1,135      1%      14,109       8%        462          0%      58,107      33%
       Merced County        Borrowers            155         138      89%             0      0%          3      2%           6       4%          1          1%           7       5%
                            Farms              2,879       2,501      87%            13      0%          5      0%         123       4%         78          3%         159       6%
                            Land in Farms    978,831     881,938      90%           453      0%        517      0%      19,254       2%      7,584          1%      69,085       7%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 122
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian                Other                 Hispanic
                                              Total      Number     Percent     Number    Percent   Number   Percent   Number     Percent   Number       Percent   Number    Percent
       CA                   Population         9,678       8,479     88%             78      1%        378      4%          35       0%              7      0%         701      7%
       Modoc County         Borrowers             60          60    100%              0      0%          0      0%           0       0%              0      0%           0      0%
                            Farms                466         446     96%              0      0%          8      2%           0       0%              0      0%          12      3%
                            Land in Farms    686,876     652,027     95%              0      0%     16,265      2%           0       0%              0      0%      18,584      3%

       CA                   Population         9,956       8,329     84%             41      0%        341      3%         114       1%              5      0%       1,126      11%
       Mono County          Borrowers              2           2    100%              0      0%          0      0%           0       0%              0      0%           0       0%
                            Farms                 73          73    100%              0      0%          0      0%           0       0%              0      0%           0       0%
                            Land in Farms    103,294     103,294    100%              0      0%          0      0%           0       0%              0      0%           0       0%

       CA                   Population        355,660     186,166     52%        21,506      6%      2,124      1%      25,365       7%        929          0%     119,570      34%
       Monterey County      Borrowers              39          12     31%             1      3%          0      0%           2       5%          0          0%          24      62%
                            Farms               1,245         854     69%             6      0%          6      0%         132      11%         93          7%         154      12%
                            Land in Farms   1,372,778   1,311,018     96%            88      0%        396      0%      14,266       1%      9,577          1%      37,433       3%

       CA                   Population       110,765      89,453      81%         1,167      1%        687      1%       3,391       3%        126          0%      15,941      14%
       Napa County          Borrowers              5           4      80%             0      0%          1     20%           0       0%          0          0%           0       0%
                            Farms              1,227       1,172      96%             0      0%          0      0%          12       1%         12          1%          31       3%
                            Land in Farms    235,290     231,700      98%             0      0%          0      0%           0       0%      1,195          1%       2,395       1%

       CA                   Population        78,510      73,697     94%            172      0%        738      1%         615       1%         19          0%       3,269      4%
       Nevada County        Borrowers             15          15    100%              0      0%          0      0%           0       0%          0          0%           0      0%
                            Farms                415         409     99%              0      0%          0      0%           0       0%          0          0%           6      1%
                            Land in Farms     72,471      71,991     99%              0      0%          0      0%           0       0%          0          0%         480      1%

       CA                   Population      2,410,556   1,554,501     64%        39,159      2%      8,584      0%     240,756      10%      2,728          0%     564,828      23%
       Orange County        Borrowers               3           1     33%             0      0%          0      0%           1      33%          0          0%           1      33%
                            Farms                 379         285     75%             0      0%          5      1%          73      19%          4          1%          12       3%
                            Land in Farms      60,740      50,516     83%             0      0%         22      0%      10,127      17%         17          0%          58       0%

       CA                   Population       172,796     152,601     88%            987      1%      1,608      1%       3,635       2%         94          0%      13,871      8%
       Placer County        Borrowers             24          24    100%              0      0%          0      0%           0       0%          0          0%           0      0%
                            Farms              1,125       1,026     91%              0      0%         15      1%          49       4%          6          1%          29      3%
                            Land in Farms    137,723     131,246     95%              0      0%        855      1%       3,979       3%          0          0%       1,643      1%

       CA                   Population        19,739      17,996     91%            151      1%        561      3%         112       1%         12          0%         907      5%
       Plumas County        Borrowers              3           3    100%              0      0%          0      0%           0       0%          0          0%           0      0%
                            Farms                125         121     97%              0      0%          0      0%           0       0%          0          0%           4      3%
                            Land in Farms    119,514     119,514    100%              0      0%          0      0%           0       0%          0          0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 123
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                White             African American Native American            Asian                Other             Hispanic
                                                  Total      Number     Percent     Number    Percent   Number   Percent   Number     Percent   Number   Percent   Number    Percent
       CA                       Population      1,170,413    754,140      64%        59,966      5%      8,393      1%      38,349       3%      2,051      0%     307,514      26%
       Riverside County         Borrowers              40         31      78%             1      3%          1      3%           1       3%          0      0%           6      15%
                                Farms               3,511      2,975      85%            19      1%         22      1%         140       4%        119      3%         236       7%
                                Land in Farms     423,602    352,857      83%           236      0%     42,356     10%       7,026       2%      6,695      2%      14,432       3%

       CA                       Population      1,041,219    721,932      69%        93,970      9%      9,854      1%      92,131       9%      1,788      0%     121,544      12%
       Sacramento County        Borrowers              25         23      92%             0      0%          0      0%           1       4%          0      0%           1       4%
                                Farms               1,427      1,299      91%            14      1%         10      1%          52       4%         10      1%          42       3%
                                Land in Farms     379,044    352,664      93%           124      0%        656      0%      17,252       5%      1,520      0%       6,828       2%

       CA                       Population        36,697      18,793      51%           167      0%        210      1%         653       2%         74      0%      16,800      46%
       San Benito County        Borrowers              8           6      75%             0      0%          1     13%           1      13%          0      0%           0       0%
                                Farms                611         501      82%             0      0%          4      1%          15       2%         23      4%          68      11%
                                Land in Farms    600,073     521,849      87%             0      0%      1,541      0%           0       0%     16,294      3%      60,389      10%

       CA                       Population      1,418,380     862,113     61%       109,162      8%     10,018      1%      55,387       4%      3,118      0%     378,582      27%
       San Bernardino County    Borrowers              21          18     86%             0      0%          1      5%           0       0%          0      0%           2      10%
                                Farms               1,653       1,438     87%            12      1%         13      1%          51       3%         35      2%         104       6%
                                Land in Farms   1,287,057   1,245,292     97%             0      0%        201      0%       1,431       0%          0      0%      40,133       3%

       CA                       Population      2,498,016   1,633,281     65%       149,898      6%     15,050      1%     185,144       7%      3,862      0%     510,781      20%
       San Diego County         Borrowers              15          11     73%             0      0%          0      0%           4      27%          0      0%           0       0%
                                Farms               6,565       5,915     90%             9      0%         45      1%         169       3%        121      2%         306       5%
                                Land in Farms     517,860     396,882     77%           287      0%     99,235     19%       5,059       1%      4,824      1%      11,573       2%

       CA                       Population       723,959     337,118     47%         76,343    11%       2,635      0%     205,686      28%      1,460      0%     100,717      14%
       San Francisco County     Borrowers              0           0      0%              0     0%           0      0%           0       0%          0      0%           0       0%
                                Farms                  6           6    100%              0     0%           0      0%           0       0%          0      0%           0       0%
                                Land in Farms          7           7    100%              0     0%           0      0%           0       0%          0      0%           0       0%

       CA                       Population       480,628     282,766      59%        24,791      5%      3,807      1%      55,774      12%        817      0%     112,673      23%
       San Joaquin County       Borrowers             55          49      89%             1      2%          2      4%           3       5%          0      0%           0       0%
                                Farms              4,097       3,667      90%            13      0%         17      0%         174       4%         62      2%         164       4%
                                Land in Farms    783,715     726,518      93%           376      0%      1,177      0%      32,134       4%      3,748      0%      19,762       3%

       CA                       Population        217,162     176,246     81%         4,325      2%      1,652      1%       5,774       3%        242      0%      28,923      13%
       San Luis Obispo County   Borrowers              21          20     95%             0      0%          1      5%           0       0%          0      0%           0       0%
                                Farms               1,880       1,702     91%             3      0%          9      0%          65       3%         32      2%          69       4%
                                Land in Farms   1,324,403   1,295,724     98%            59      0%      1,636      0%      16,904       1%      1,613      0%       8,467       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                  Page 124
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American               Asian                  Other                 Hispanic
                                                Total     Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number    Percent
       CA                     Population       649,623    392,131     60%         34,000         5%      2,349      0%     105,559        16%        957          0%     114,627      18%
       San Mateo County       Borrowers              1          1    100%              0         0%          0      0%           0         0%          0          0%           0       0%
                              Farms                302        257     85%              0         0%          0      0%          19         6%         11          4%          15       5%
                              Land in Farms     57,418     55,319     96%              0         0%          0      0%           0         0%        404          1%       1,695       3%

       CA                     Population       369,608    244,309      66%         9,379         3%      2,126      1%      15,050         4%        545          0%      98,199      27%
       Santa Barbara County   Borrowers             20         18      90%             0         0%          0      0%           0         0%          0          0%           2      10%
                              Farms              1,613      1,349      84%             0         0%          9      1%          55         3%         71          4%         129       8%
                              Land in Farms    836,989    783,367      94%             0         0%          0      0%       6,159         1%     10,181          1%      37,282       4%

       CA                     Population      1,497,577   869,874      58%        52,583         4%      6,694      0%     251,496        17%      2,366          0%     314,564      21%
       Santa Clara County     Borrowers              10         6      60%             0         0%          0      0%           2        20%          0          0%           2      20%
                              Farms               1,057       838      79%             4         0%          7      1%         145        14%         15          1%          48       5%
                              Land in Farms     342,653   331,274      97%            25         0%        846      0%       3,989         1%        929          0%       5,590       2%

       CA                     Population       229,734    171,203      75%         2,330         1%      1,310      1%       7,690         3%        404          0%      46,797      20%
       Santa Cruz County      Borrowers             22          6      27%             0         0%          0      0%           1         5%          0          0%          15      68%
                              Farms                771        583      76%             0         0%          3      0%          72         9%         37          5%          76      10%
                              Land in Farms     52,905     45,820      87%             0         0%          0      0%       2,659         5%      1,330          3%       3,096       6%

       CA                     Population       147,036    134,001      91%         1,045         1%      3,646      2%       2,610         2%         82          0%       5,652      4%
       Shasta County          Borrowers             30         27      90%             1         3%          0      0%           0         0%          0          0%           2      7%
                              Farms                844        799      95%             3         0%         15      2%           0         0%         12          1%          15      2%
                              Land in Farms    388,084    381,552      98%             0         0%      6,348      2%           0         0%        184          0%           0      0%

       CA                     Population         3,318      3,060     92%                 6      0%         59      2%              8      0%              1      0%         184      6%
       Sierra County          Borrowers              4          4    100%                 0      0%          0      0%              0      0%              0      0%           0      0%
                              Farms                 53         53    100%                 0      0%          0      0%              0      0%              0      0%           0      0%
                              Land in Farms     55,446     55,446    100%                 0      0%          0      0%              0      0%              0      0%           0      0%

       CA                     Population        43,531     38,246      88%           682         2%      1,685      4%         351         1%         18          0%       2,549      6%
       Siskiyou County        Borrowers            109        107      98%             0         0%          0      0%           0         0%          1          1%           1      1%
                              Farms                689        666      97%             0         0%          9      1%           0         0%          5          1%           9      1%
                              Land in Farms    647,446    630,828      97%             0         0%      1,500      0%           0         0%        392          0%      14,726      2%

       CA                     Population       340,421    207,476     61%         43,858       13%       2,469      1%      40,494        12%        607          0%      45,517      13%
       Solano County          Borrowers              9          9    100%              0        0%           0      0%           0         0%          0          0%           0       0%
                              Farms                850        688     81%              3        0%           6      1%          48         6%         22          3%          83      10%
                              Land in Farms    340,328    307,050     90%              0        0%           0      0%      11,604         3%      3,282          1%      18,392       5%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 125
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian                Other                 Hispanic
                                              Total      Number     Percent     Number    Percent   Number   Percent   Number     Percent   Number       Percent   Number    Percent
       CA                   Population       388,222     327,429      84%         5,268      1%      3,663      1%      10,234       3%        405          0%      41,223      11%
       Sonoma County        Borrowers             28          25      89%             1      4%          0      0%           2       7%          0          0%           0       0%
                            Farms              2,737       2,606      95%             4      0%         11      0%          35       1%         14          1%          67       2%
                            Land in Farms    517,114     502,684      97%             0      0%          0      0%       1,257       0%      1,130          0%      12,043       2%

       CA                   Population       370,522     261,323      71%         6,109      2%      3,474      1%      18,146       5%        573          0%      80,897      22%
       Stanislaus County    Borrowers            285         259      91%             0      0%          2      1%           6       2%          1          0%          17       6%
                            Farms              4,354       4,029      93%             6      0%         20      0%          72       2%         54          1%         173       4%
                            Land in Farms    759,649     723,532      95%           117      0%      2,374      0%       2,691       0%     10,097          1%      20,838       3%

       CA                   Population        64,415      46,140      72%           987      2%        826      1%       5,748       9%        122          0%      10,592      16%
       Sutter County        Borrowers             50          26      52%             0      0%          3      6%          19      38%          0          0%           2       4%
                            Farms              1,362       1,084      80%             0      0%          9      1%         174      13%         40          3%          55       4%
                            Land in Farms    318,156     273,661      86%             0      0%          0      0%      36,283      11%      2,086          1%       6,126       2%

       CA                   Population         49,625     43,049      87%           246      0%        849      2%         325       1%         32          0%       5,124      10%
       Tehama County        Borrowers              63         60      95%             0      0%          1      2%           0       0%          0          0%           2       3%
                            Farms               1,381      1,305      94%             3      0%          9      1%           0       0%         20          1%          44       3%
                            Land in Farms   1,016,851    988,773      97%             0      0%        173      0%           0       0%      6,904          1%      21,001       2%

       CA                   Population        13,063      11,881     91%             53      0%        594      5%          99       1%              5      0%         431      3%
       Trinity County       Borrowers              1           1    100%              0      0%          0      0%           0       0%              0      0%           0      0%
                            Farms                113         106     94%              0      0%          7      6%           0       0%              0      0%           0      0%
                            Land in Farms    116,083     116,083    100%              0      0%          0      0%           0       0%              0      0%           0      0%

       CA                   Population        311,921     170,283     55%         4,305      1%      3,228      1%      12,468       4%        744          0%     120,893      39%
       Tulare County        Borrowers             125         104     83%             2      2%          2      2%           9       7%          1          1%           7       6%
                            Farms               5,469       4,726     86%            17      0%         18      0%         184       3%        183          3%         341       6%
                            Land in Farms   1,354,262   1,267,108     94%             0      0%          0      0%      25,669       2%     19,893          1%      41,592       3%

       CA                   Population        48,456      41,887     86%          1,529      3%        876      2%         362       1%         76          0%       3,726      8%
       Tuolumne County      Borrowers              5           5    100%              0      0%          0      0%           0       0%          0          0%           0      0%
                            Farms                249         244     98%              0      0%          0      0%           0       0%          0          0%           5      2%
                            Land in Farms    137,530     136,764     99%              0      0%          0      0%           0       0%          0          0%         766      1%

       CA                   Population       669,016     440,555      66%        14,559      2%      3,430      1%      32,665       5%        855          0%     176,952      26%
       Ventura County       Borrowers             12          11      92%             0      0%          0      0%           1       8%          0          0%           0       0%
                            Farms              2,195       1,801      82%             7      0%          3      0%         153       7%         80          4%         151       7%
                            Land in Farms    320,597     286,943      90%             0      0%          0      0%      15,023       5%      4,032          1%      14,599       5%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 126
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American             Asian                Other              Hispanic
                                               Total     Number      Percent     Number    Percent   Number    Percent   Number     Percent   Number    Percent   Number    Percent
       CA                   Population        141,092      96,825      69%         2,975      2%       1,363      1%      11,455       8%         292      0%      28,182      20%
       Yolo County          Borrowers              22          19      86%             0      0%           0      0%           2       9%           0      0%           1       5%
                            Farms                 912         785      86%             5      1%           0      0%          47       5%          21      2%          54       6%
                            Land in Farms     518,907     468,056      90%             0      0%           0      0%      28,777       6%       5,877      1%      16,197       3%

       CA                   Population         58,228      42,924      74%         2,341      4%       1,530      3%       4,625       8%         80       0%       6,728      12%
       Yuba County          Borrowers              20          17      85%             0      0%           0      0%           2      10%          0       0%           1       5%
                            Farms                 719         650      90%             3      0%          12      2%          38       5%          4       1%          12       2%
                            Land in Farms     234,781     225,817      96%             0      0%         402      0%       7,211       3%          0       0%       1,351       1%

       CA                   Population      29,760,021 17,029,126      57% 2,092,446          7%     184,065      1% 2,710,353         9%      56,093      0% 7,687,938        26%
       STATE                Borrowers            1,937      1,679      87%        16          1%          27      1%        85         4%           5      0%       125         6%
                            Farms               77,669     68,058      88%       233          0%         470      1%     3,281         4%       1,751      2%     3,876         5%
                            Land in Farms   28,978,997 26,967,742      93%    10,985          0%     247,463      1%   400,850         1%     202,044      1% 1,149,913         4%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 127
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          ALAMEDA, CALIFORNIA                                     ALPINE, CALIFORNIA                                  AMADOR, CALIFORNIA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                             5                          3                         1                          0                         1                          0
                              Loans                                12                          8                         1                          0                         2                          0
                              Principal and Interest   1,507,936                     220,715                    89,979                              0             1,315,208                              0
WHITE                         Borrowers                             4      80%                 2      67%                0       0%                 0       0%                1    100%                  0       0%
                              Loans                                 9      75%                 6      75%                0       0%                 0       0%                2    100%                  0       0%
                              Principal and Interest   1,180,090           78%       215,971          98%                0       0%                 0       0%    1,315,208        100%                  0       0%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                0       0%                 0       0%                0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%                0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                0       0%                 0       0%                0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%                0       0%                 0       0%
ASIAN                         Borrowers                             1      20%                 1      33%                0       0%                 0       0%                0       0%                 0       0%
                              Loans                                 3      25%                 2      25%                0       0%                 0       0%                0       0%                 0       0%
                              Principal and Interest     327,846           22%         4,744           2%                0       0%                 0       0%                0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                1    100%                  0       0%                0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                1    100%                  0       0%                0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%       89,979        100%                  0       0%                0       0%                 0       0%

HISPANIC                      Borrowers                             0       0%                 0       0%                0       0%                 0       0%                0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                0       0%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%                0       0%                 0       0%                0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 128
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               BUTTE, CALIFORNIA                              CALAVERAS, CALIFORNIA                                     COLUSA, CALIFORNIA
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             41                      16                            3                          1                          62                     23
                              Loans                                 91                      36                            8                          1                     160                         82
                              Principal and Interest   11,719,679                  1,747,730                   705,343                    207,852                  22,542,785                  3,987,684
WHITE                         Borrowers                             39      95%             14         88%                3    100%                  1    100%                  58      94%            23        100%
                              Loans                                 83      91%             29         81%                8    100%                  1    100%             151          94%            82        100%
                              Principal and Interest   11,067,146           94%    1,658,589           95%     705,343         100%       207,852         100%     21,769,014           97%    3,987,684         100%
AFRICAN AMERICAN              Borrowers                              0       0%                 0       0%                0       0%                 0       0%                  1       2%                 0       0%
                              Loans                                  0       0%                 0       0%                0       0%                 0       0%                  1       1%                 0       0%
                              Principal and Interest                 0       0%                 0       0%                0       0%                 0       0%        29,457            0%                 0       0%
NATIVE AMERICAN               Borrowers                              1       2%                 1       6%                0       0%                 0       0%                  2       3%                 0       0%
                              Loans                                  1       1%                 1       3%                0       0%                 0       0%                  7       4%                 0       0%
                              Principal and Interest        23,375           0%         1,440           0%                0       0%                 0       0%       455,466            2%                 0       0%

ASIAN                         Borrowers                              1       2%                 1       6%                0       0%                 0       0%                  1       2%                 0       0%
                              Loans                                  7       8%                 6      17%                0       0%                 0       0%                  1       1%                 0       0%
                              Principal and Interest      629,158            5%        87,701           5%                0       0%                 0       0%       288,847            1%                 0       0%
OTHER                         Borrowers                              0       0%                 0       0%                0       0%                 0       0%                  0       0%                 0       0%
                              Loans                                  0       0%                 0       0%                0       0%                 0       0%                  0       0%                 0       0%
                              Principal and Interest                 0       0%                 0       0%                0       0%                 0       0%                  0       0%                 0       0%
HISPANIC                      Borrowers                              0       0%                 0       0%                0       0%                 0       0%                  0       0%                 0       0%
                              Loans                                  0       0%                 0       0%                0       0%                 0       0%                  0       0%                 0       0%
                              Prinicpal and Interest                 0       0%                 0       0%                0       0%                 0       0%                  0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 129
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CONTRA COSTA, CALIFORNIA                               DEL NORTE, CALIFORNIA                                EL DORADO, CALIFORNIA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             1                          0                         2                          1                          8                          4
                              Loans                                 1                          0                         3                          1                         28                     16
                              Principal and Interest        5,755                              0              537,527                       3,373                 1,855,620                    266,110
WHITE                         Borrowers                             1    100%                  0       0%                1      50%                 1    100%                  8    100%                  4    100%
                              Loans                                 1    100%                  0       0%                1      33%                 1    100%                 28    100%             16        100%
                              Principal and Interest        5,755        100%                  0       0%     266,947           50%         3,373        100%     1,855,620         100%       266,110         100%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                1      50%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                2      67%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%     270,580           50%                 0       0%                 0       0%                 0       0%

ASIAN                         Borrowers                             0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 130
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              FRESNO, CALIFORNIA                                     GLENN, CALIFORNIA                               HUMBOLDT, CALIFORNIA
                                                        Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                         124                         49                         65                        19                             21                          7
                              Loans                             239                        116                        190                        59                             39                     14
                              Principal and Interest   52,678,062                  17,491,374                 15,658,801                 2,015,490                  2,590,874                    188,598
WHITE                         Borrowers                             98      79%             38         78%             64         98%            19        100%                 17      81%                 4      57%
                              Loans                             187         78%             91         78%            189         99%            59        100%                 28      72%                 6      43%
                              Principal and Interest   47,726,952           91%    16,702,030          95%    15,548,946          99%    2,015,490         100%     1,678,055           65%       40,792           22%
AFRICAN AMERICAN              Borrowers                              2       2%                 1       2%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                  8       3%                 4       3%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest      350,435            1%       135,811           1%                 0       0%                 0       0%                 0       0%                 0       0%

NATIVE AMERICAN               Borrowers                              1       1%                 1       2%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                  2       1%                 1       1%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest      242,257            0%         1,962           0%                 0       0%                 0       0%                 0       0%                 0       0%
ASIAN                         Borrowers                             11       9%                 4       8%                 1       2%                 0       0%                 0       0%                 0       0%
                              Loans                                 15       6%                 5       4%                 1       1%                 0       0%                 0       0%                 0       0%
                              Principal and Interest    1,828,322            3%        19,878           0%      109,856            1%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                              0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                  0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             12      10%                 5      10%                 0       0%                 0       0%                 4      19%                 3      43%
                              Loans                                 27      11%             15         13%                 0       0%                 0       0%                11      28%                 8      57%
                              Prinicpal and Interest    2,530,096            5%       631,692           4%                 0       0%                 0       0%      912,819           35%      147,806           78%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 131
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           IMPERIAL, CALIFORNIA                                       INYO, CALIFORNIA                                      KERN, CALIFORNIA
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent     Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             35                      26                            3                          2                      104                         65
                              Loans                                 62                      52                            8                          5                      378                        294
                              Principal and Interest   22,743,950                  14,201,360                 1,234,080                    58,859                  188,835,249                  92,549,621
WHITE                         Borrowers                             25      71%             19         73%                2      67%                 1      50%                  92      88%            59          91%
                              Loans                                 47      76%             40         77%                6      75%                 4      80%             351          93%           278          95%
                              Principal and Interest   18,520,135           81%    13,274,941          93%     745,650           60%       46,245           79%    182,649,277           97%    91,688,874          99%
AFRICAN AMERICAN              Borrowers                              0       0%                 0       0%                0       0%                 0       0%                   5       5%                 3       5%
                              Loans                                  0       0%                 0       0%                0       0%                 0       0%                  14       4%            12           4%
                              Principal and Interest                 0       0%                 0       0%                0       0%                 0       0%        297,414            0%       51,093            0%
NATIVE AMERICAN               Borrowers                              1       3%                 1       4%                0       0%                 0       0%                   1       1%                 0       0%
                              Loans                                  1       2%                 1       2%                0       0%                 0       0%                   3       1%                 0       0%
                              Principal and Interest      121,670            1%        89,350           1%                0       0%                 0       0%        155,654            0%                 0

ASIAN                         Borrowers                              3       9%                 3      12%                0       0%                 0       0%                   3       3%                 1       2%
                              Loans                                  5       8%                 5      10%                0       0%                 0       0%                   6       2%                 2       1%
                              Principal and Interest    2,004,904            9%       444,612           3%                0       0%                 0       0%      3,250,841            2%      740,690            1%
OTHER                         Borrowers                              0       0%                 0       0%                0       0%                 0       0%                   0       0%                 0       0%
                              Loans                                  0       0%                 0       0%                0       0%                 0       0%                   0       0%                 0       0%
                              Principal and Interest                 0       0%                 0       0%                0       0%                 0       0%                   0       0%                 0       0%
HISPANIC                      Borrowers                              6      17%                 3      12%                1      33%                 1      50%                   3       3%                 2       3%
                              Loans                                  9      15%                 6      12%                2      25%                 1      20%                   4       1%                 2       1%
                              Prinicpal and Interest    2,097,240            9%       392,457           3%     488,430           40%       12,614           21%      2,482,062            1%       68,964




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 132
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              KINGS, CALIFORNIA                                     LAKE, CALIFORNIA                                   LASSEN, CALIFORNIA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            40                      16                        13                             8                         18                          9
                              Loans                                72                      31                        43                        30                             75                     52
                              Principal and Interest   9,678,353                  1,191,802                  4,663,859                   915,604                  6,300,720                  1,745,766
WHITE                         Borrowers                            38      95%             15         94%            12         92%                 7      88%                18    100%                  9    100%
                              Loans                                70      97%             30         97%            37         86%            24          80%                75    100%             52        100%
                              Principal and Interest   9,237,168           95%    1,175,952           99%    4,281,870          92%      767,168           84%    6,300,720         100%     1,745,766         100%
AFRICAN AMERICAN              Borrowers                             1       3%                 1       6%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 1       1%                 1       3%                0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest     149,256            2%        15,850           1%                0       0%                 0       0%                 0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%

ASIAN                         Borrowers                             0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             1       3%                 0       0%                1       8%                 1      13%                 0       0%                 0       0%
                              Loans                                 1       1%                 0       0%                6      14%                 6      20%                 0       0%                 0       0%
                              Prinicpal and Interest     291,929            3%                 0       0%     381,989            8%      148,436           16%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 133
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       LOS ANGELES, CALIFORNIA                                    MADERA, CALIFORNIA                                     MARIN, CALIFORNIA
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                             7                          6                      51                        26                             3                          1
                              Loans                                24                      20                        155                        80                             4                          1
                              Principal and Interest   3,230,297                  1,720,489                  23,030,210                 11,233,494                   611,778                    20,257
WHITE                         Borrowers                             6      86%                 6    100%              48         94%            24          92%                3    100%                  1    100%
                              Loans                                21      88%             20       100%             148         95%            76          95%                4    100%                  1    100%
                              Principal and Interest   3,078,511           95%    1,720,489         100%     21,316,339          93%    10,396,610          93%      611,778        100%        20,257         100%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%

ASIAN                         Borrowers                             0       0%                 0       0%                 1       2%                 0       0%                0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 2       1%                 0       0%                0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%      344,997            1%                 0       0%                0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                0       0%                 0       0%
HISPANIC                      Borrowers                             1      14%                 0       0%                 2       4%                 2       8%                0       0%                 0       0%
                              Loans                                 3      13%                 0       0%                 5       3%                 4       5%                0       0%                 0       0%
                              Prinicpal and Interest     151,786            5%                 0       0%     1,368,874           6%      836,884            7%                0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 134
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          MARIPOSA, CALIFORNIA                                MENDOCINO, CALIFORNIA                                    MERCED, CALIFORNIA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             3                          2                     19                             5                     155                         63
                              Loans                                 4                          3                     47                        17                         350                        166
                              Principal and Interest     778,967                      81,626                 6,133,579                 1,249,806                  76,698,962                  38,590,956
WHITE                         Borrowers                             2      67%                 1      50%            17         89%                 5    100%             138          89%            53          84%
                              Loans                                 3      75%                 2      67%            43         91%            17        100%             308          88%           143          86%
                              Principal and Interest     406,043           52%        45,358          56%    5,930,373          97%    1,249,806         100%     73,723,139           96%    37,498,197          97%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                0       0%                 0       0%                  0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                  0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%                  0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                2      11%                 0       0%                  3       2%                 3       5%
                              Loans                                 0       0%                 0       0%                4       9%                 0       0%                  7       2%                 6       4%
                              Principal and Interest                0       0%                 0       0%     203,206            3%                 0       0%       438,592            1%      151,829            0%

ASIAN                         Borrowers                             0       0%                 0       0%                0       0%                 0       0%                  6       4%                 3       5%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                 22       6%            11           7%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%     1,529,208            2%       47,602            0%
OTHER                         Borrowers                             0       0%                 0       0%                0       0%                 0       0%                  1       1%                 0       0%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                  2       1%                 0       0%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%                  0       0%                 0       0%
HISPANIC                      Borrowers                             1      33%                 1      50%                0       0%                 0       0%                  7       5%                 4       6%
                              Loans                                 1      25%                 1      33%                0       0%                 0       0%                 11       3%                 6       4%
                              Prinicpal and Interest     372,923           48%        36,268          44%                0       0%                 0       0%     1,008,023            1%      893,327            2%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 135
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              MODOC, CALIFORNIA                                     MONO, CALIFORNIA                                 MONTEREY, CALIFORNIA
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             60                      28                            2                          1                          39                     15
                              Loans                             127                         59                            4                          3                          79                     31
                              Principal and Interest   16,834,969                  2,924,601                   615,302                     34,673                  11,860,556                  2,523,459
WHITE                         Borrowers                             60    100%              28       100%                 2    100%                  1    100%                  12      31%                 7      47%
                              Loans                             127       100%              59       100%                 4    100%                  3    100%                  27      34%            19          61%
                              Principal and Interest   16,834,969         100%     2,924,601         100%      615,302         100%        34,673         100%      6,319,163           53%    1,931,217           77%
AFRICAN AMERICAN              Borrowers                              0       0%                 0       0%                0       0%                 0       0%                  1       3%                 1       7%
                              Loans                                  0       0%                 0       0%                0       0%                 0       0%                  1       1%                 1       3%
                              Principal and Interest                 0       0%                 0       0%                0       0%                 0       0%        15,777            0%           218           0%
NATIVE AMERICAN               Borrowers                              0       0%                 0       0%                0       0%                 0       0%                  0       0%                 0       0%
                              Loans                                  0       0%                 0       0%                0       0%                 0       0%                  0       0%                 0       0%
                              Principal and Interest                 0       0%                 0       0%                0       0%                 0       0%                  0       0%                 0       0%

ASIAN                         Borrowers                              0       0%                 0       0%                0       0%                 0       0%                  2       5%                 1       7%
                              Loans                                  0       0%                 0       0%                0       0%                 0       0%                  3       4%                 1       3%
                              Principal and Interest                 0       0%                 0       0%                0       0%                 0       0%       165,093            1%         7,167           0%
OTHER                         Borrowers                              0       0%                 0       0%                0       0%                 0       0%                  0       0%                 0       0%
                              Loans                                  0       0%                 0       0%                0       0%                 0       0%                  0       0%                 0       0%
                              Principal and Interest                 0       0%                 0       0%                0       0%                 0       0%                  0       0%                 0       0%
HISPANIC                      Borrowers                              0       0%                 0       0%                0       0%                 0       0%                 24      62%                 6      40%
                              Loans                                  0       0%                 0       0%                0       0%                 0       0%                 48      61%            10          32%
                              Prinicpal and Interest                 0       0%                 0       0%                0       0%                 0       0%     5,360,524           45%      584,857           23%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 136
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               NAPA, CALIFORNIA                                  NEVADA, CALIFORNIA                                   ORANGE, CALIFORNIA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             5                          1                     15                             9                          3                          3
                              Loans                                 7                          1                     37                        24                             10                     10
                              Principal and Interest   1,228,494                       3,545                 2,407,676                   336,482                  2,015,922                  1,045,703
WHITE                         Borrowers                             4      80%                 1    100%             15       100%                  9    100%                  1      33%                 1      33%
                              Loans                                 6      86%                 1    100%             37       100%             24        100%                  3      30%                 3      30%
                              Principal and Interest   1,186,467           97%         3,545        100%     2,407,676        100%       336,482         100%       731,989           36%      361,099           35%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             1      20%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 1      14%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest       42,027           3%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%

ASIAN                         Borrowers                             0       0%                 0       0%                0       0%                 0       0%                 1      33%                 1      33%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                 6      60%                 6      60%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%    1,058,521           53%      531,338           51%
OTHER                         Borrowers                             0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                0       0%                 0       0%                 1      33%                 1      33%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                 1      10%                 1      10%
                              Prinicpal and Interest                0       0%                 0       0%                0       0%                 0       0%      225,412           11%      153,265           15%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 137
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            PLACER, CALIFORNIA                                   PLUMAS, CALIFORNIA                                  RIVERSIDE, CALIFORNIA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            24                      15                            3                          1                          40                     29
                              Loans                                56                      31                            3                          1                          92                     75
                              Principal and Interest   5,635,221                     777,893                  589,679                     38,598                  40,758,449                  24,579,924
WHITE                         Borrowers                            24    100%              15       100%                 3    100%                  1    100%                  31      78%            23          79%
                              Loans                                56    100%              31       100%                 3    100%                  1    100%                  73      79%            62          83%
                              Principal and Interest   5,635,221         100%        777,893        100%      589,679         100%        38,598         100%     38,783,687           95%    24,369,713          99%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                0       0%                 0       0%                  1       3%                 1       3%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                  3       3%                 3       4%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%       653,399            2%       48,256            0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                0       0%                 0       0%                  1       3%                 1       3%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                  1       1%                 1       1%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%        33,860            0%         3,532           0%

ASIAN                         Borrowers                             0       0%                 0       0%                0       0%                 0       0%                  1       3%                 0       0%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                  2       2%                 0       0%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%       241,418            1%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                0       0%                 0       0%                  0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                  0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%                  0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                0       0%                 0       0%                  6      15%                 4      14%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                 13      14%                 9      12%
                              Prinicpal and Interest                0       0%                 0       0%                0       0%                 0       0%     1,046,086            3%      158,424            1%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 138
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       SACRAMENTO, CALIFORNIA                                   SAN BENITO, CALIFORNIA                              SAN BERNARDINO, CALIFORNIA
                                                        Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             25                      11                             8                          6                          21                     16
                              Loans                                 66                      35                         36                        33                              62                     46
                              Principal and Interest   10,123,394                  2,869,587                  19,259,800                 12,606,650                  5,677,976                  1,778,600
WHITE                         Borrowers                             23      92%             10         91%                 6      75%                 4      67%                 18      86%            13          81%
                              Loans                                 63      95%             34         97%             32         89%            29          88%                 54      87%            40          87%
                              Principal and Interest    9,918,169           98%    2,867,742         100%     18,925,693          98%    12,370,417          98%     5,106,867           90%    1,643,165           92%
AFRICAN AMERICAN              Borrowers                              0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Loans                                  0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Principal and Interest                 0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
NATIVE AMERICAN               Borrowers                              0       0%                 0       0%                 1      13%                 1      17%                  1       5%                 1       6%
                              Loans                                  0       0%                 0       0%                 2       6%                 2       6%                  4       6%                 2       4%
                              Principal and Interest                 0       0%                 0       0%      189,972            1%      131,835            1%        48,696            1%         2,529           0%

ASIAN                         Borrowers                              1       4%                 1       9%                 1      13%                 1      17%                  0       0%                 0       0%
                              Loans                                  2       3%                 1       3%                 2       6%                 2       6%                  0       0%                 0       0%
                              Principal and Interest      185,042            2%         1,845           0%      144,136            1%      104,398            1%                  0       0%                 0       0%
OTHER                         Borrowers                              0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Loans                                  0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Principal and Interest                 0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
HISPANIC                      Borrowers                              1       4%                 0       0%                 0       0%                 0       0%                  2      10%                 2      13%
                              Loans                                  1       2%                 0       0%                 0       0%                 0       0%                  4       6%                 4       9%
                              Prinicpal and Interest        20,182           0%                 0       0%                 0       0%                 0       0%       522,413            9%      132,906            7%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 139
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          SAN DIEGO, CALIFORNIA                               SAN JOAQUIN, CALIFORNIA                              SAN LUIS OBISPO, CALIFORNIA
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            15                          7                      55                        19                              21                     13
                              Loans                                20                          9                     141                        47                              50                     35
                              Principal and Interest   3,244,095                     493,023                 18,755,063                 3,677,118                   7,505,401                  1,579,644
WHITE                         Borrowers                            11      73%                 5      71%             49         89%            16          84%                 20      95%            12          92%
                              Loans                                15      75%                 7      78%            121         86%            36          77%                 47      94%            32          91%
                              Principal and Interest   2,000,021           62%       436,123          88%    15,740,635          84%    3,179,916           86%     7,447,704           99%    1,564,600           99%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 1       2%                 1       5%                  0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 7       5%                 7      15%                  0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%     1,683,052           9%      341,644            9%                  0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 2       4%                 1       5%                  1       5%                 1       8%
                              Loans                                 0       0%                 0       0%                 6       4%                 3       6%                  3       6%                 3       9%
                              Principal and Interest                0       0%                 0       0%      608,322            3%      154,673            4%        57,697            1%       15,044            1%

ASIAN                         Borrowers                             4      27%                 2      29%                 3       5%                 1       5%                  0       0%                 0       0%
                              Loans                                 5      25%                 2      22%                 7       5%                 1       2%                  0       0%                 0       0%
                              Principal and Interest   1,244,075           38%        56,900          12%      723,054            4%           886           0%                  0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 140
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         SAN MATEO, CALIFORNIA                               SANTA BARBARA, CALIFORNIA                             SANTA CLARA, CALIFORNIA
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             1                          0                      20                        15                             10                          6
                              Loans                                 2                          0                      39                        32                             36                     25
                              Principal and Interest     611,577                               0              7,030,204                 1,504,004                  6,904,006                  3,695,607
WHITE                         Borrowers                             1    100%                  0       0%             18         90%            13          87%                 6      60%                 3      50%
                              Loans                                 2    100%                  0       0%             33         85%            26          81%                29      81%            19          76%
                              Principal and Interest     611,577         100%                  0       0%     6,798,717          97%    1,313,857           87%    5,190,592           75%    2,990,656           81%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%

ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 2      20%                 2      33%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 4      11%                 4      16%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%      947,544           14%      419,623           11%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 2      10%                 2      13%                 2      20%                 1      17%
                              Loans                                 0       0%                 0       0%                 6      15%                 6      19%                 3       8%                 2       8%
                              Prinicpal and Interest                0       0%                 0       0%      231,487            3%      190,147           13%      765,869           11%      285,328            8%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 141
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        SANTA CRUZ, CALIFORNIA                                    SHASTA, CALIFORNIA                                   SIERRA, CALIFORNIA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            22                          3                     30                        13                              4                          1
                              Loans                                40                          5                     73                        42                             10                          5
                              Principal and Interest   3,786,623                      74,525                 7,529,334                 1,893,884                  1,115,991                    238,238
WHITE                         Borrowers                             6      27%                 2      67%            27         90%            10          77%                 4    100%                  1    100%
                              Loans                                10      25%                 3      60%            65         89%            34          81%                10    100%                  5    100%
                              Principal and Interest     957,870           25%        37,138          50%    6,679,201          89%    1,626,826           86%    1,115,991         100%       238,238         100%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                1       3%                 1       8%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                5       7%                 5      12%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%     642,960            9%      116,279            6%                 0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%

ASIAN                         Borrowers                             1       5%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 2       5%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest       95,953           3%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                            15      68%                 1      33%                2       7%                 2      15%                 0       0%                 0       0%
                              Loans                                28      70%                 2      40%                3       4%                 3       7%                 0       0%                 0       0%
                              Prinicpal and Interest   2,732,800           72%        37,387          50%     207,174            3%      150,779            8%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 142
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            SISKIYOU, CALIFORNIA                                  SOLANO, CALIFORNIA                                   SONOMA, CALIFORNIA
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                         109                         38                            9                          3                         28                     13
                              Loans                             231                        102                        15                             5                         66                     41
                              Principal and Interest   27,599,375                  6,226,983                  1,772,526                    19,831                  7,281,088                  1,438,552
WHITE                         Borrowers                         107         98%             38       100%                 9    100%                  3    100%                 25      89%            10          77%
                              Loans                             229         99%            102       100%             15       100%                  5    100%                 60      91%            35          85%
                              Principal and Interest   27,488,362         100%     6,226,983         100%     1,772,526        100%        19,831         100%     6,610,835           91%    1,360,349           95%
AFRICAN AMERICAN              Borrowers                              0       0%                 0       0%                0       0%                 0       0%                 1       4%                 1       8%
                              Loans                                  0       0%                 0       0%                0       0%                 0       0%                 2       3%                 2       5%
                              Principal and Interest                 0       0%                 0       0%                0       0%                 0       0%         5,707           0%         2,109           0%
NATIVE AMERICAN               Borrowers                              0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                  0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                 0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%

ASIAN                         Borrowers                              0       0%                 0       0%                0       0%                 0       0%                 2       7%                 2      15%
                              Loans                                  0       0%                 0       0%                0       0%                 0       0%                 4       6%                 4      10%
                              Principal and Interest                 0       0%                 0       0%                0       0%                 0       0%      664,545            9%       76,094            5%
OTHER                         Borrowers                              1       1%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                  1       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest        28,134           0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                              1       1%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                  1       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Prinicpal and Interest        82,879           0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 143
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         STANISLAUS, CALIFORNIA                                     SUTTER, CALIFORNIA                                   TEHAMA, CALIFORNIA
                                                        Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                         285                         70                         50                        15                              63                     30
                              Loans                             617                        144                        101                        19                         186                         91
                              Principal and Interest   61,791,911                  3,751,776                  12,306,724                 1,161,969                  21,520,864                  3,041,808
WHITE                         Borrowers                         259         91%             60         86%             26         52%                 9      60%                 60      95%            28          93%
                              Loans                             566         92%            121         84%             49         49%            11          58%            179          96%            89          98%
                              Principal and Interest   56,740,518           92%    3,075,625           82%     6,336,406          51%    1,020,770           88%    20,802,512           97%    3,021,554           99%
AFRICAN AMERICAN              Borrowers                              0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Loans                                  0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Principal and Interest                 0       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
NATIVE AMERICAN               Borrowers                              2       1%                 0       0%                 3       6%                 1       7%                  1       2%                 0       0%
                              Loans                                  2       0%                 0                      10         10%                 1       5%                  1       1%                 0       0%
                              Principal and Interest      355,074            1%                 0       0%     1,215,489          10%       43,209            4%        43,746            0%                 0

ASIAN                         Borrowers                              6       2%                 1       1%             19         38%                 4      27%                  0       0%                 0       0%
                              Loans                                 10       2%                 2       1%             38         38%                 6      32%                  0       0%                 0       0%
                              Principal and Interest    1,346,832            2%         2,860           0%     4,666,097          38%       97,889            8%                  0       0%                 0       0%
OTHER                         Borrowers                              1       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Loans                                  1       0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
                              Principal and Interest      171,626            0%                 0       0%                 0       0%                 0       0%                  0       0%                 0       0%
HISPANIC                      Borrowers                             17       6%                 9      13%                 2       4%                 1       7%                  2       3%                 2       7%
                              Loans                                 38       6%             21         15%                 4       4%                 1       5%                  6       3%                 2       2%
                              Prinicpal and Interest    3,177,860            5%       673,291          18%        88,732           1%           102           0%       674,605            3%       20,254            1%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 144
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            TRINITY, CALIFORNIA                                   TULARE, CALIFORNIA                                TUOLUMNE, CALIFORNIA
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                             1                          0                     125                        47                             5                          1
                              Loans                                 2                          0                     271                       130                             9                          1
                              Principal and Interest       82,775                              0             41,566,938                 13,541,973                   548,169                    23,368
WHITE                         Borrowers                             1    100%                  0       0%            104         83%            39          83%                5    100%                  1    100%
                              Loans                                 2    100%                  0       0%            224         83%           105          81%                9    100%                  1    100%
                              Principal and Interest       82,775        100%                  0       0%    32,832,373          79%     9,628,076          71%      548,169        100%        23,368         100%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 2       2%                 2       4%                0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 5       2%                 3       2%                0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%      359,963            1%      256,204            2%                0       0%                 0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 2       2%                 0       0%                0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 3       1%                 0       0%                0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%      404,919            1%                 0       0%                0       0%                 0       0%

ASIAN                         Borrowers                             0       0%                 0       0%                 9       7%                 3       6%                0       0%                 0       0%
                              Loans                                 0       0%                 0       0%             20          7%                 9       7%                0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%     1,489,117           4%       48,764            0%                0       0%                 0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 1       1%                 0       0%                0       0%                 0       0%
                              Loans                                 0       0%                 0       0%                 1       0%                 0       0%                0       0%                 0       0%
                              Principal and Interest                0       0%                 0       0%        33,763           0%                 0       0%                0       0%                 0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 7       6%                 3       6%                0       0%                 0       0%
                              Loans                                 0       0%                 0       0%             18          7%            13          10%                0       0%                 0       0%
                              Prinicpal and Interest                0       0%                 0       0%     6,446,804          16%     3,608,929          27%                0       0%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 145
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            VENTURA, CALIFORNIA                                      YOLO, CALIFORNIA                                     YUBA, CALIFORNIA
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                             12                      10                        22                             6                         20                          4
                              Loans                                 42                      38                        49                        18                             36                          4
                              Principal and Interest   15,007,402                  6,894,753                  5,957,127                 1,107,761                  2,229,518                     26,761
WHITE                         Borrowers                             11      92%                 9      90%            19         86%                 6    100%                 17      85%                 4    100%
                              Loans                                 36      86%             32         84%            45         92%            18        100%                 32      89%                 4    100%
                              Principal and Interest   13,914,740           93%    6,516,225           95%    5,673,662          95%    1,107,761         100%     1,849,760           83%       26,761         100%
AFRICAN AMERICAN              Borrowers                              0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                  0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                 0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
NATIVE AMERICAN               Borrowers                              0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                  0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                 0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%

ASIAN                         Borrowers                              1       8%                 1      10%                2       9%                 0       0%                 2      10%                 0       0%
                              Loans                                  6      14%                 6      16%                3       6%                 0       0%                 3       8%                 0       0%
                              Principal and Interest    1,092,662            7%       378,528           5%     212,432            4%                 0       0%      216,167           10%                 0       0%
OTHER                         Borrowers                              0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Loans                                  0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
                              Principal and Interest                 0       0%                 0       0%                0       0%                 0       0%                 0       0%                 0       0%
HISPANIC                      Borrowers                              0       0%                 0       0%                1       5%                 0       0%                 1       5%                 0       0%
                              Loans                                  0       0%                 0       0%                1       2%                 0       0%                 1       3%                 0       0%
                              Prinicpal and Interest                 0       0%                 0       0%       71,033           1%                 0       0%      163,591            7%                 0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 146
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             STATE OF CALIFORNIA
                                                         Portfolio        Percent    Delinquent       Percent
TOTAL                         Borrowers                       1,937                          801
                              Loans                           4,611                       2,226
                              Principal and Interest   826,301,722                  289,599,859
WHITE                         Borrowers                       1,679          87%             688         86%
                              Loans                           4,063          88%          1,969          88%
                              Principal and Interest   758,169,907           92%    275,801,356          95%
AFRICAN AMERICAN              Borrowers                              16       1%              12          1%
                              Loans                                  47       1%              38          2%
                              Principal and Interest     4,187,420            1%        967,464           0%
NATIVE AMERICAN               Borrowers                              27       1%              12          1%
                              Loans                                  60       1%              21          1%
                              Principal and Interest     4,910,602            1%        595,403           0%

ASIAN                         Borrowers                              85       4%              33          4%
                              Loans                              179          4%              75          3%
                              Principal and Interest    24,806,667            3%      3,071,519           1%
OTHER                         Borrowers                               5       0%                  0       0%
                              Loans                                   6       0%                  0       0%
                              Principal and Interest       323,502            0%                  0       0%
HISPANIC                      Borrowers                          125          6%              56          7%
                              Loans                              256          6%             123          6%
                              Prinicpal and Interest    33,903,622            4%      9,164,117           3%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED   Page 147
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American          Asian              Hispanic
 CA FRESNO                Approved   No. of Applications                26        21   81%             1   4%           0   0%             3   12%          1     4%
                                     Receipt to Completion                        73                  99                0                 22              143
                                     Completion to Approval                       50                   0                0                 47               39
                                     Approval to Loan Closing                     36                  21                0                 23              106

                          Rejected   No. of Applications                9         7    78%            0    0%          0    0%             2   22%         0      0%
                                     Receipt to Completion                       17                   0                0                  16               0
                                     Completion to Rejected                      23                   0                0                   0               0

                          Withdrawn No. of Applications                 19       15    79%            0    0%          0    0%            4    21%         0      0%
                                    Receipt to Completion                        21                   0                0                  0                0
                                    Completion to Withdrawn                      39                   0                0                  0                0

 CA   GLENN               Approved   No. of Applications                43       43    100%           0    0%          0    0%            0    0%          0      0%
                                     Receipt to Completion                       37                   0                0                  0                0
                                     Completion to Approval                       3                   0                0                  0                0
                                     Approval to Loan Closing                    46                   0                0                  0                0

                          Rejected   No. of Applications                3         3    100%           0    0%          0    0%            0    0%          0      0%
                                     Receipt to Completion                       24                   0                0                  0                0
                                     Completion to Rejected                      24                   0                0                  0                0

                          Withdrawn No. of Applications                 4         4    100%           0    0%          0    0%            0    0%          0      0%
                                    Receipt to Completion                         0                   0                0                  0                0
                                    Completion to Withdrawn                       0                   0                0                  0                0

 CA   KERN                Approved   No. of Applications                6         3    50%            0    0%          3    50%           0    0%          0      0%
                                     Receipt to Completion                      156                   0               20                  0                0
                                     Completion to Approval                      18                   0               48                  0                0
                                     Approval to Loan Closing                    36                   0               14                  0                0

                          Rejected   No. of Applications                2         2    100%           0    0%          0    0%            0    0%          0      0%
                                     Receipt to Completion                      270                   0                0                  0                0
                                     Completion to Rejected                       2                   0                0                  0                0

                          Withdrawn No. of Applications                 7         6    86%            0    0%          0    0%            1    14%         0      0%
                                    Receipt to Completion                         0                   0                0                  0                0
                                    Completion to Withdrawn                       0                   0                0                  0                0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 148
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African           Native
State  Servicing Office   Decision           Average Days       Total        White              American          American           Asian              Hispanic
 CA MENDOCINO             Approved   No. of Applications                9         5      56%             0   0%            3   33%            1   11%          0     0%
                                     Receipt to Completion                       49                      0                29                 22                0
                                     Completion to Approval                      18                      0                27                  5                0
                                     Approval to Loan Closing                    27                      0                43                 14                0

                          Rejected   No. of Applications                3         3      100%           0    0%           0    0%            0    0%          0      0%
                                     Receipt to Completion                       11                     0                 0                  0                0
                                     Completion to Rejected                     120                     0                 0                  0                0

                          Withdrawn No. of Applications                 2            2   100%           0    0%           0    0%            0    0%          0      0%
                                    Receipt to Completion                            0                  0                 0                  0                0
                                    Completion to Withdrawn                          0                  0                 0                  0                0

 CA   MERCED              Approved   No. of Applications                19       14      74%            0    0%           0    0%          2      11%         3     16%
                                     Receipt to Completion                       62                     0                 0               43                 24
                                     Completion to Approval                     118                     0                 0              118                 80
                                     Approval to Loan Closing                     6                     0                 0                1                  0

                          Rejected   No. of Applications                3         3      100%           0    0%           0    0%            0    0%          0      0%
                                     Receipt to Completion                       47                     0                 0                  0                0
                                     Completion to Rejected                      58                     0                 0                  0                0

                          Withdrawn No. of Applications                 7         7      100%           0    0%           0    0%            0    0%          0      0%
                                    Receipt to Completion                        45                     0                 0                  0                0
                                    Completion to Withdrawn                      28                     0                 0                  0                0

 CA   MODOC               Approved   No. of Applications                8         8      100%           0    0%           0    0%            0    0%          0      0%
                                     Receipt to Completion                       11                     0                 0                  0                0
                                     Completion to Approval                      24                     0                 0                  0                0
                                     Approval to Loan Closing                    25                     0                 0                  0                0

                          Rejected   No. of Applications                0            0    0%            0    0%           0    0%            0    0%          0      0%
                                     Receipt to Completion                           0                  0                 0                  0                0
                                     Completion to Rejected                          0                  0                 0                  0                0

                          Withdrawn No. of Applications                 0            0    0%            0    0%           0    0%            0    0%          0      0%
                                    Receipt to Completion                            0                  0                 0                  0                0
                                    Completion to Withdrawn                          0                  0                 0                  0                0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                    Page 149
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                      African                 Native
State   Servicing Office   Decision           Average Days           Total        White              American                American                 Asian                Hispanic
 CA RIVERSIDE              Approved   No. of Applications                    5         4      80%             0        0%            0         0%             0       0%          1    20%
                                      Receipt to Completion                           91                      0                      0                        0                  91
                                      Completion to Approval                          22                      0                      0                        0                   0
                                      Approval to Loan Closing                        18                      0                      0                        0                  14

                           Rejected   No. of Applications                    0            0    0%             0        0%             0        0%             0       0%         0      0%
                                      Receipt to Completion                               0                   0                       0                       0                  0
                                      Completion to Rejected                              0                   0                       0                       0                  0

                           Withdrawn No. of Applications                     0            0    0%             0        0%             0        0%             0       0%         0      0%
                                     Receipt to Completion                                0                   0                       0                       0                  0
                                     Completion to Withdrawn                              0                   0                       0                       0                  0

                                      This county was not using FSA's automated application tracking system; therefore this data was not obtained from the APPL Database and
                                      has not been included in this report's State totals. This data was obtained during fieldwork in the servicing office.

 CA   SAN JOAQUIN          Approved   No. of Applications                    14       14      100%            0        0%             0        0%             0       0%         0      0%
                                      Receipt to Completion                           52                      0                       0                       0                  0
                                      Completion to Approval                          21                      0                       0                       0                  0
                                      Approval to Loan Closing                        27                      0                       0                       0                  0

                           Rejected   No. of Applications                    5         5      100%            0        0%             0        0%             0       0%         0      0%
                                      Receipt to Completion                           32                      0                       0                       0                  0
                                      Completion to Rejected                           0                      0                       0                       0                  0

                           Withdrawn No. of Applications                     5            4   80%             0        0%             0        0%             1      20%         0      0%
                                     Receipt to Completion                                0                   0                       0                       0                  0
                                     Completion to Withdrawn                              0                   0                       0                       0                  0

 CA   SANTA BARBARA        Approved   No. of Applications                    0            0    0%             0        0%             0        0%             0       0%         0      0%
                                      Receipt to Completion                               0                   0                       0                       0                  0
                                      Completion to Approval                              0                   0                       0                       0                  0
                                      Approval to Loan Closing                            0                   0                       0                       0                  0

                           Rejected   No. of Applications                    0            0    0%             0        0%             0        0%             0       0%         0      0%
                                      Receipt to Completion                               0                   0                       0                       0                  0
                                      Completion to Rejected                              0                   0                       0                       0                  0

                           Withdrawn No. of Applications                     0            0    0%             0        0%             0        0%             0       0%         0      0%
                                     Receipt to Completion                                0                   0                       0                       0                  0
                                     Completion to Withdrawn                              0                   0                       0                       0                  0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 150
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African           Native
State  Servicing Office   Decision           Average Days       Total        White              American          American         Asian              Hispanic
 CA SHASTA                Approved   No. of Applications                3         3      100%            0   0%           0   0%           0    0%           0     0%
                                     Receipt to Completion                       62                      0                0                0                 0
                                     Completion to Approval                       0                      0                0                0                 0
                                     Approval to Loan Closing                    26                      0                0                0                 0

                          Rejected   No. of Applications                0            0    0%            0    0%          0    0%           0    0%          0      0%
                                     Receipt to Completion                           0                  0                0                 0                0
                                     Completion to Rejected                          0                  0                0                 0                0

                          Withdrawn No. of Applications                 1            1   100%           0    0%          0    0%           0    0%          0      0%
                                    Receipt to Completion                            0                  0                0                 0                0
                                    Completion to Withdrawn                          0                  0                0                 0                0

 CA   SISKIYOU            Approved   No. of Applications                8         7      88%            0    0%          0    0%           0    0%          1     13%
                                     Receipt to Completion                       18                     0                0                 0               14
                                     Completion to Approval                      35                     0                0                 0                6
                                     Approval to Loan Closing                    10                     0                0                 0               59

                          Rejected   No. of Applications                0            0    0%            0    0%          0    0%           0    0%          0      0%
                                     Receipt to Completion                           0                  0                0                 0                0
                                     Completion to Rejected                          0                  0                0                 0                0

                          Withdrawn No. of Applications                 0            0    0%            0    0%          0    0%           0    0%          0      0%
                                    Receipt to Completion                            0                  0                0                 0                0
                                    Completion to Withdrawn                          0                  0                0                 0                0

 CA   SUTTER              Approved   No. of Applications                32       20      63%            0    0%          0    0%           10   31%         2      6%
                                     Receipt to Completion                       34                     0                0                 38               5
                                     Completion to Approval                      13                     0                0                 13               0
                                     Approval to Loan Closing                    24                     0                0                 20              20

                          Rejected   No. of Applications                0            0    0%            0    0%          0    0%           0    0%          0      0%
                                     Receipt to Completion                           0                  0                0                 0                0
                                     Completion to Rejected                          0                  0                0                 0                0

                          Withdrawn No. of Applications                 15           8   53%            1    7%          0    0%           6    40%         0      0%
                                    Receipt to Completion                            0                  0                0                 0                0
                                    Completion to Withdrawn                          0                  0                0                 0                0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 151
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African            Native
State  Servicing Office   Decision           Average Days       Total        White            American           American          Asian              Hispanic
 CA TEHAMA                Approved   No. of Applications                27        25   93%             0   0%            0   0%            0    0%           2     7%
                                     Receipt to Completion                        89                   0                 0                 0               252
                                     Completion to Approval                        9                   0                 0                 0                 1
                                     Approval to Loan Closing                     31                   0                 0                 0               108

                          Rejected   No. of Applications                1         1    100%           0    0%           0    0%            0    0%          0      0%
                                     Receipt to Completion                        0                   0                 0                  0                0
                                     Completion to Rejected                       0                   0                 0                  0                0

                          Withdrawn No. of Applications                 4         3    75%            0    0%           0    0%            0    0%          1     25%
                                    Receipt to Completion                         0                   0                 0                  0                0
                                    Completion to Withdrawn                       0                   0                 0                  0                0

 CA   TULARE              Approved   No. of Applications                22       17    77%            0    0%           3    14%            2   9%          0      0%
                                     Receipt to Completion                       51                   0                27                  39               0
                                     Completion to Approval                      71                   0                75                  80               0
                                     Approval to Loan Closing                    51                   0                38                  74               0

                          Rejected   No. of Applications                6         5    83%            1    17%          0    0%            0    0%          0      0%
                                     Receipt to Completion                       11                  37                 0                  0                0
                                     Completion to Rejected                      28                  97                 0                  0                0

                          Withdrawn No. of Applications                 10       10    100%           0    0%           0    0%            0    0%          0      0%
                                    Receipt to Completion                         3                   0                 0                  0                0
                                    Completion to Withdrawn                      28                   0                 0                  0                0

 CA   STATE               Approved   No. of Applications           217          180    83%            1    0%           9    4%            18   8%          9      4%
                                     Receipt to Completion                       53                  99                25                  35              83
                                     Completion to Approval                      30                   0                50                  37              32
                                     Approval to Loan Closing                    33                  21                32                  24              47

                          Rejected   No. of Applications                32       29    91%            1    3%           0    0%             2   6%          0      0%
                                     Receipt to Completion                       39                  37                 0                  16               0
                                     Completion to Rejected                      31                  97                 0                   0               0

                          Withdrawn No. of Applications                 74       60    81%            1    1%           0    0%            12   16%         1      1%
                                    Receipt to Completion                        11                   0                 0                   0               0
                                    Completion to Withdrawn                      18                   0                 0                   0               0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 152
                            Demographics         154
                        FSA’s Loan Portfolio     162
                        FSA’s Application data   180




USDA/OIG-A/50801-4-Hq                                  153
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American               Asian                  Other                 Hispanic
                                             Total      Number      Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
         CO                 Population       265,038     198,710     75%         8,445          3%      1,824      1%      6,482          2%        398          0%     49,179    19%
         Adams County       Borrowers             13          13    100%             0          0%          0      0%          0          0%          0          0%          0     0%
                            Farms                657         624     95%             0          0%          0      0%          6          1%         10          2%         17     3%
                            Land in Farms    685,813     684,269    100%             0          0%          0      0%          0          0%          0          0%      1,544     0%

         CO                 Population        13,617       8,068     59%            61          0%         86      1%         98          1%         50          0%      5,254    39%
         Alamosa County     Borrowers             31          26     84%             1          3%          0      0%          0          0%          0          0%          4    13%
                            Farms                303         267     88%             0          0%          0      0%          0          0%         14          5%         22     7%
                            Land in Farms    207,448     200,488     97%             0          0%          0      0%          0          0%          0          0%      6,960     3%

         CO                 Population       391,511     334,225     85%        22,653          6%      1,790      0%     10,796          3%        304          0%     21,743       6%
         Arapahoe County    Borrowers              2           2    100%             0          0%          0      0%          0          0%          0          0%          0       0%
                            Farms                269         265     99%             0          0%          0      0%          0          0%          0          0%          4       1%
                            Land in Farms    322,823     322,405    100%             0          0%          0      0%          0          0%          0          0%        418       0%

         CO                 Population         5,345       3,976     74%                 5      0%         90      2%         25          0%          5          0%      1,244    23%
         Archuleta County   Borrowers              3           2     67%                 0      0%          0      0%          0          0%          0          0%          1    33%
                            Farms                160         122     76%                 0      0%          0      0%          0          0%         13          8%         25    16%
                            Land in Farms    155,465     132,046     85%                 0      0%          0      0%          0          0%      6,882          4%     16,537    11%

         CO                 Population          4,556       4,229    93%                 1      0%         63      1%              7      0%              1      0%        255       6%
         Baca County        Borrowers              78          76    97%                 0      0%          1      1%              1      1%              0      0%          0       0%
                            Farms                 562         559    99%                 0      0%          0      0%              0      0%              0      0%          3       1%
                            Land in Farms   1,257,229   1,254,209   100%                 0      0%          0      0%              0      0%              0      0%      3,020       0%

         CO                 Population         5,048       3,588     71%            32          1%         32      1%         23          0%              2      0%      1,371    27%
         Bent County        Borrowers             52          46     88%             0          0%          0      0%          2          4%              2      4%          2     4%
                            Farms                268         256     96%             0          0%          0      0%          3          1%              4      1%          5     2%
                            Land in Farms    796,892     796,892    100%             0          0%          0      0%          0          0%              0      0%          0     0%

         CO                 Population       225,339     201,617     89%         1,879          1%      1,092      0%      5,359          2%        197          0%     15,195       7%
         Boulder County     Borrowers              1           1    100%             0          0%          0      0%          0          0%          0          0%          0       0%
                            Farms                746         731     98%             0          0%          0      0%          3          0%          3          0%          9       1%
                            Land in Farms    157,493     157,122    100%             0          0%          0      0%          0          0%         52          0%        319       0%

         CO                 Population        12,684      11,148     88%           198          2%         91      1%         36          0%         11          0%      1,200       9%
         Chaffee County     Borrowers              0           0      0%             0          0%          0      0%          0          0%          0          0%          0       0%
                            Farms                157         154     98%             0          0%          0      0%          0          0%          3          2%          0       0%
                            Land in Farms     84,172      84,172    100%             0          0%          0      0%          0          0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                       THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                               Page 154
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                   Asian                  Other                 Hispanic
                                              Total      Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
         CO                   Population        2,397      2,307     96%                 0      0%              4      0%              3      0%              0      0%         83       3%
         Cheyenne County      Borrowers            27         27    100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                              Farms               305        305    100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                              Land in Farms   914,094    914,094    100%                 0      0%              0      0%              0      0%              0      0%          0       0%

         CO                   Population        7,619       7,280    96%            17          0%         26          0%         39          1%              3      0%        254       3%
         Clear Creek County   Borrowers             0           0     0%             0          0%          0          0%          0          0%              0      0%          0       0%
                              Farms                14          14   100%             0          0%          0          0%          0          0%              0      0%          0       0%
                              Land in Farms     7,129       7,129   100%             0          0%          0          0%          0          0%              0      0%          0       0%

         CO                   Population        7,453      2,933     39%                 9      0%         20          0%         16          0%         12         0%        4,463    60%
         Conejos County       Borrowers            45         22     49%                 0      0%          1          2%          0          0%          0         0%           22    49%
                              Farms               452        198     44%                 0      0%          7          2%          0          0%         92        20%          155    34%
                              Land in Farms   304,592    214,075     70%                 0      0%          0          0%          0          0%     25,878         8%       64,639    21%

         CO                   Population        3,190        688     22%                 7      0%              9      0%         28         1%           6         0%        2,452    77%
         Costilla County      Borrowers            24         12     50%                 0      0%              0      0%          3        13%           1         4%            8    33%
                              Farms               185         28     15%                 0      0%              6      3%          3         2%          50        27%           98    53%
                              Land in Farms   330,826    299,332     90%                 0      0%              0      0%          0         0%       8,440         3%       23,054     7%

         CO                   Population        3,946      2,694     68%           254          6%         57          1%         29          1%              0      0%         912    23%
         Crowley County       Borrowers            11          8     73%             1          9%          0          0%          0          0%              1      9%           1     9%
                              Farms               204        183     90%             0          0%          6          3%          0          0%              4      2%          11     5%
                              Land in Farms   423,785    407,962     96%             0          0%      7,020          2%          0          0%              0      0%       8,803     2%

         CO                   Population        1,926      1,842     96%                 0      0%         25          1%              3      0%              1      0%         55       3%
         Custer County        Borrowers             1          1    100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                              Farms               131        131    100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                              Land in Farms   156,801    156,801    100%                 0      0%          0          0%              0      0%              0      0%          0       0%

         CO                   Population       20,980     18,836     90%            59          0%        107          1%         49          0%         14          0%       1,915      9%
         Delta County         Borrowers            26         25     96%             0          0%          0          0%          0          0%          1          4%           0      0%
                              Farms               943        926     98%             0          0%          3          0%          0          0%          3          0%          11      1%
                              Land in Farms   260,728    258,535     99%             0          0%        757          0%          0          0%        149          0%       1,287      0%

         CO                   Population      467,610    287,162     61%        57,793        12%       3,761          1%     10,159          2%      1,353          0%     107,382    23%
         Denver County        Borrowers             0          0      0%             0         0%           0          0%          0          0%          0          0%           0     0%
                              Farms                16         16    100%             0         0%           0          0%          0          0%          0          0%           0     0%
                              Land in Farms         0          0                     0                      0                      0                      0                       0




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 155
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American               Asian                  Other                 Hispanic
                                             Total      Number      Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
         CO                 Population         1,504       1,416     94%                 0      0%         40      3%              0      0%              0      0%         48       3%
         Dolores County     Borrowers             22          22    100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                            Farms                132         128     97%                 0      0%          0      0%              0      0%              0      0%          4       3%
                            Land in Farms    167,106     161,275     97%                 0      0%          0      0%              0      0%              0      0%      5,831       3%

         CO                 Population        60,391      57,346     95%           391          1%        237      0%        494          1%         13          0%      1,910       3%
         Douglas County     Borrowers              2           2    100%             0          0%          0      0%          0          0%          0          0%          0       0%
                            Farms                522         518     99%             0          0%          0      0%          0          0%          0          0%          4       1%
                            Land in Farms    231,364     231,230    100%             0          0%          0      0%          0          0%          0          0%        134       0%

         CO                 Population        21,928      18,762     86%            40          0%        100      0%         99          0%         10          0%      2,917    13%
         Eagle County       Borrowers              0           0      0%             0          0%          0      0%          0          0%          0          0%          0     0%
                            Farms                134         134    100%             0          0%          0      0%          0          0%          0          0%          0     0%
                            Land in Farms    213,004     213,004    100%             0          0%          0      0%          0          0%          0          0%          0     0%

         CO                 Population          9,646       9,289    96%            46          0%         57      1%         42          0%              1      0%        211       2%
         Elbert County      Borrowers              23          22    96%             0          0%          1      4%          0          0%              0      0%          0       0%
                            Farms                 717         699    97%             0          0%          4      1%          6          1%              0      0%          8       1%
                            Land in Farms   1,105,614   1,103,042   100%             0          0%        225      0%      2,347          0%              0      0%          0       0%

         CO                 Population       397,014     322,461     81%        27,599          7%      2,641      1%      9,273          2%        567          0%     34,473       9%
         El Paso County     Borrowers             17          16     94%             0          0%          1      6%          0          0%          0          0%          0       0%
                            Farms                721         704     98%             0          0%          6      1%          0          0%          3          0%          8       1%
                            Land in Farms    857,404     844,613     99%             0          0%      1,040      0%          0          0%          0          0%     11,751       1%

         CO                 Population        32,273      28,292     88%           834          3%        266      1%        104          0%         18         0%       2,759       9%
         Fremont County     Borrowers              2           1     50%             0          0%          0      0%          0          0%          1        50%           0       0%
                            Farms                467         445     95%             0          0%          0      0%          0          0%          6         1%          16       3%
                            Land in Farms    331,639     330,546    100%             0          0%          0      0%          0          0%        231         0%         862       0%

         CO                 Population        29,974      27,908     93%            77          0%        185      1%        121          0%         10          0%      1,673       6%
         Garfield County    Borrowers              3           3    100%             0          0%          0      0%          0          0%          0          0%          0       0%
                            Farms                448         445     99%             0          0%          0      0%          0          0%          0          0%          3       1%
                            Land in Farms    440,581     440,581    100%             0          0%          0      0%          0          0%          0          0%          0       0%

         CO                 Population         3,070       2,900     94%            14          0%         34      1%         13          0%              0      0%        109       4%
         Gilpin County      Borrowers              0           0      0%             0          0%          0      0%          0          0%              0      0%          0       0%
                            Farms                 14          14    100%             0          0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms     13,296      13,296    100%             0          0%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                       THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                               Page 156
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                   Asian                  Other                 Hispanic
                                              Total      Number      Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         CO                  Population         7,966       7,641     96%            16          0%         28          0%         37          0%          1          0%        243          3%
         Grand County        Borrowers              0           0      0%             0          0%          0          0%          0          0%          0          0%          0          0%
                             Farms                149         142     95%             0          0%          0          0%          0          0%          3          2%          4          3%
                             Land in Farms    299,142     298,639    100%             0          0%          0          0%          0          0%        503          0%          0          0%

         CO                  Population        10,273       9,746     95%            59          1%         55          1%         45          0%              2     0%         366          4%
         Gunnison County     Borrowers              3           2     67%             0          0%          0          0%          0          0%              1    33%           0          0%
                             Farms                173         173    100%             0          0%          0          0%          0          0%              0     0%           0          0%
                             Land in Farms    177,333     177,333    100%             0          0%          0          0%          0          0%              0     0%           0          0%

         CO                  Population           467         460     99%                 1      0%              2      0%              0      0%              0      0%              4      1%
         Hinsdale County     Borrowers              0           0      0%                 0      0%              0      0%              0      0%              0      0%              0      0%
                             Farms                 16          16    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                             Land in Farms      9,021       9,021    100%                 0      0%              0      0%              0      0%              0      0%              0      0%

         CO                  Population         6,009       3,498     58%            20          0%         38         1%          13          0%         12          0%      2,428        40%
         Huerfano County     Borrowers              5           4     80%             0          0%          1        20%           0          0%          0          0%          0         0%
                             Farms                253         198     78%             0          0%          3         1%           0          0%         17          7%         35        14%
                             Land in Farms    641,755     597,616     93%             0          0%        740         0%           0          0%     10,385          2%     33,014         5%

         CO                  Population         1,605       1,460     91%                 0      0%         26          2%              1      0%              0      0%        118          7%
         Jackson County      Borrowers              3           3    100%                 0      0%          0          0%              0      0%              0      0%          0          0%
                             Farms                126         126    100%                 0      0%          0          0%              0      0%              0      0%          0          0%
                             Land in Farms    472,018     472,018    100%                 0      0%          0          0%              0      0%              0      0%          0          0%

         CO                  Population       438,430     394,946     90%         3,014          1%      2,019          0%      7,365          2%        295          0%     30,791          7%
         Jefferson County    Borrowers              5           5    100%             0          0%          0          0%          0          0%          0          0%          0          0%
                             Farms                419         413     99%             0          0%          0          0%          0          0%          0          0%          6          1%
                             Land in Farms    103,470     103,470    100%             0          0%          0          0%          0          0%          0          0%          0          0%

         CO                  Population         1,688       1,621     96%                 0      0%         11          1%              0      0%              1      0%         55          3%
         Kiowa County        Borrowers             30          30    100%                 0      0%          0          0%              0      0%              0      0%          0          0%
                             Farms                309         306     99%                 0      0%          0          0%              0      0%              0      0%          3          1%
                             Land in Farms    878,447     878,447    100%                 0      0%          0          0%              0      0%              0      0%          0          0%

         CO                  Population          7,140       6,636    93%                 8      0%         17          0%              9      0%              2      0%        468          7%
         Kit Carson County   Borrowers              35          35   100%                 0      0%          0          0%              0      0%              0      0%          0          0%
                             Farms                 718         714    99%                 0      0%          0          0%              0      0%              0      0%          4          1%
                             Land in Farms   1,341,738   1,331,538    99%                 0      0%          0          0%              0      0%              0      0%     10,200          1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 157
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                   Asian                  Other                 Hispanic
                                              Total      Number      Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         CO                  Population         6,007       4,497     75%            11          0%         30          0%         18          0%         17          0%      1,434    24%
         Lake County         Borrowers              0           0      0%             0          0%          0          0%          0          0%          0          0%          0     0%
                             Farms                 18          18    100%             0          0%          0          0%          0          0%          0          0%          0     0%
                             Land in Farms     14,411      14,411    100%             0          0%          0          0%          0          0%          0          0%          0     0%

         CO                  Population        32,284      27,091     84%            58          0%      1,355         4%         164          1%         30          0%      3,586    11%
         La Plata County     Borrowers             25          17     68%             0          0%          3        12%           0          0%          0          0%          5    20%
                             Farms                709         649     92%             0          0%          5         1%           0          0%         20          3%         35     5%
                             Land in Farms    587,339     560,470     95%             0          0%          0         0%           0          0%      7,477          1%     19,392     3%

         CO                  Population       186,136     169,213     91%         1,043          1%        844          0%      2,679          1%        130          0%     12,227       7%
         Larimer County      Borrowers             13          12     92%             0          0%          0          0%          0          0%          1          8%          0       0%
                             Farms              1,233       1,199     97%             0          0%          6          0%          6          0%          6          0%         16       1%
                             Land in Farms    540,412     535,698     99%             0          0%        585          0%          0          0%        504          0%      3,625       1%

         CO                  Population         13,765       7,507    55%            31          0%         65          0%         58          0%         24          0%      6,080    44%
         Las Animas County   Borrowers              14          12    86%             0          0%          0          0%          0          0%          0          0%          2    14%
                             Farms                 490         382    78%             0          0%          5          1%          0          0%         34          7%         69    14%
                             Land in Farms   2,286,947   2,158,180    94%             0          0%      1,342          0%          0          0%     46,094          2%     81,331     4%

         CO                  Population          4,529       4,413    97%                 4      0%         29          1%              8      0%              0      0%         75       2%
         Lincoln County      Borrowers              38          36    95%                 0      0%          0          0%              0      0%              2      5%          0       0%
                             Farms                 447         447   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                             Land in Farms   1,660,146   1,660,146   100%                 0      0%          0          0%              0      0%              0      0%          0       0%

         CO                  Population         17,567      16,073    91%            19          0%         34          0%         39          0%              9      0%      1,393       8%
         Logan County        Borrowers              44          43    98%             0          0%          0          0%          0          0%              1      2%          0       0%
                             Farms                 897         878    98%             0          0%          0          0%          0          0%              5      1%         14       2%
                             Land in Farms   1,066,453   1,053,781    99%             0          0%          0          0%          0          0%              0      0%     12,672       1%

         CO                  Population        93,145      84,035     90%           368          0%        537          1%        571          1%         71          0%      7,563       8%
         Mesa County         Borrowers             27          24     89%             0          0%          1          4%          0          0%          0          0%          2       7%
                             Farms              1,325       1,276     96%             0          0%         10          1%          4          0%         12          1%         23       2%
                             Land in Farms    420,233     415,820     99%             0          0%        570          0%        484          0%      1,041          0%      2,318       1%

         CO                  Population           558         528     95%                 0      0%              3      1%              0      0%              0      0%         27       5%
         Mineral County      Borrowers              0           0      0%                 0      0%              0      0%              0      0%              0      0%          0       0%
                             Farms                 17          17    100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                             Land in Farms     15,539      15,539    100%                 0      0%              0      0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 158
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                   Asian                  Other                 Hispanic
                                             Total      Number      Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         CO                 Population         11,357      10,524    93%            10          0%         82          1%         39          0%              4      0%        698       6%
         Moffat County      Borrowers               5           5   100%             0          0%          0          0%          0          0%              0      0%          0       0%
                            Farms                 350         346    99%             0          0%          0          0%          0          0%              0      0%          4       1%
                            Land in Farms   1,159,813   1,159,813   100%             0          0%          0          0%          0          0%              0      0%          0       0%

         CO                 Population        18,672      14,936     80%            12          0%      2,058        11%          45          0%          9          0%      1,612       9%
         Montezuma County   Borrowers             27          27    100%             0          0%          0         0%           0          0%          0          0%          0       0%
                            Farms                661         616     93%             0          0%          8         1%           0          0%         12          2%         25       4%
                            Land in Farms    834,018     827,029     99%             0          0%          0         0%           0          0%      1,358          0%      5,631       1%

         CO                 Population        24,423      21,447     88%            61          0%        115          0%         54          0%         10          0%      2,736    11%
         Montrose County    Borrowers             25          22     88%             0          0%          1          4%          0          0%          0          0%          2     8%
                            Farms                812         774     95%             0          0%          4          0%          0          0%          9          1%         25     3%
                            Land in Farms    447,412     436,850     98%             0          0%          0          0%          0          0%        991          0%      9,571     2%

         CO                 Population        21,939      17,667     81%            45          0%         87          0%         74          0%         32          0%      4,034    18%
         Morgan County      Borrowers             50          47     94%             0          0%          0          0%          0          0%          1          2%          2     4%
                            Farms                836         818     98%             0          0%          0          0%          0          0%          5          1%         13     2%
                            Land in Farms    751,517     747,931    100%             0          0%          0          0%          0          0%          0          0%      3,586     0%

         CO                 Population        20,185      12,698     63%           109          1%        119          1%        101          1%         54          0%      7,104    35%
         Otero County       Borrowers             12          11     92%             0          0%          0          0%          0          0%          0          0%          1     8%
                            Farms                509         446     88%             0          0%          0          0%         14          3%         14          3%         35     7%
                            Land in Farms    633,279     622,913     98%             0          0%          0          0%      3,497          1%          0          0%      6,869     1%

         CO                 Population         2,295       2,187     95%                 0      0%              3      0%              2      0%              0      0%        103       4%
         Ouray County       Borrowers              1           1    100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                            Farms                 76          76    100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                            Land in Farms    119,287     119,287    100%                 0      0%              0      0%              0      0%              0      0%          0       0%

         CO                 Population         7,174       6,863     96%            39          1%         45          1%         15          0%              6      0%        206       3%
         Park County        Borrowers              1           1    100%             0          0%          0          0%          0          0%              0      0%          0       0%
                            Farms                166         163     98%             0          0%          0          0%          0          0%              0      0%          3       2%
                            Land in Farms    388,902     388,867    100%             0          0%          0          0%          0          0%              0      0%         35       0%

         CO                 Population         4,189       4,006     96%                 0      0%              2      0%              9      0%              2      0%        170       4%
         Phillips County    Borrowers             19          19    100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                            Farms                375         375    100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                            Land in Farms    459,659     459,659    100%                 0      0%              0      0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                       THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 159
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                White             African American Native American                   Asian                  Other                 Hispanic
                                              Total         Number      Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         CO                  Population        12,661         11,955     94%            38          0%         48          0%        142          1%              3      0%        475       4%
         Pitkin County       Borrowers              0              0      0%             0          0%          0          0%          0          0%              0      0%          0       0%
                             Farms                 71             71    100%             0          0%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms     32,072         32,072    100%             0          0%          0          0%          0          0%              0      0%          0       0%

         CO                  Population         13,347         10,071    75%            38          0%         80          1%         36          0%         20          0%      3,102    23%
         Prowers County      Borrowers              46             45    98%             0          0%          0          0%          0          0%          1          2%          0     0%
                             Farms                 530            527    99%             0          0%          0          0%          3          1%          0          0%          0     0%
                             Land in Farms   1,004,360      1,004,360   100%             0          0%          0          0%          0          0%          0          0%          0     0%

         CO                  Population       123,051         75,382     61%         2,029          2%        614          0%        605          0%        331          0%     44,090    36%
         Pueblo County       Borrowers             19             18     95%             0          0%          0          0%          0          0%          0          0%          1     5%
                             Farms                617            550     89%             0          0%          5          1%          0          0%         23          4%         39     6%
                             Land in Farms    896,994        892,617    100%             0          0%          0          0%          0          0%          0          0%      4,377     0%

         CO                  Population         5,972          5,672     95%                 9      0%         35          1%         20          0%              0     0%         236       4%
         Rio Blanco County   Borrowers              3              2     67%                 0      0%          0          0%          0          0%              1    33%           0       0%
                             Farms                240            240    100%                 0      0%          0          0%          0          0%              0     0%           0       0%
                             Land in Farms    546,538        546,538    100%                 0      0%          0          0%          0          0%              0     0%           0       0%

         CO                  Population        10,770          6,352     59%                 5      0%         51          0%         13          0%          7          0%      4,342    40%
         Rio Grande County   Borrowers             32             25     78%                 0      0%          0          0%          0          0%          1          3%          6    19%
                             Farms                339            322     95%                 0      0%          0          0%          0          0%          4          1%         13     4%
                             Land in Farms    219,612        216,747     99%                 0      0%          0          0%          0          0%        988          0%      1,877     1%

         CO                  Population        14,088         13,630     97%                 8      0%         55          0%         39          0%              3     0%         353       3%
         Routt County        Borrowers              5              4     80%                 0      0%          0          0%          0          0%              1    20%           0       0%
                             Farms                438            434     99%                 0      0%          0          0%          0          0%              0     0%           4       1%
                             Land in Farms    576,397        575,645    100%                 0      0%          0          0%          0          0%              0     0%         752       0%

         CO                  Population         4,619          2,371     51%            11          0%        119          3%              4      0%          8          0%      2,106    46%
         Saguache County     Borrowers             15             13     87%             0          0%          0          0%              0      0%          0          0%          2    13%
                             Farms                250            232     93%             0          0%          0          0%              0      0%          6          2%         12     5%
                             Land in Farms    462,086        422,701     91%             0          0%          0          0%              0      0%     16,045          3%     23,340     5%

         CO                  Population               745        620     83%                 1      0%              4      1%              2      0%              0      0%        118    16%
         San Juan County     Borrowers                  0          0      0%                 0      0%              0      0%              0      0%              0      0%          0     0%
                             Farms                      1          1    100%                 0      0%              0      0%              0      0%              0      0%          0     0%
                             Land in Farms              0          0                         0                      0                      0                      0                  0




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 160
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American               Asian                  Other                 Hispanic
                                               Total        Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number    Percent
         CO                  Population          3,653        3,523     96%                 5      0%         12      0%              9      0%              2      0%        102       3%
         San Miguel County   Borrowers               1            1    100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                             Farms                  97           97    100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                             Land in Farms     200,674      200,674    100%                 0      0%          0      0%              0      0%              0      0%          0       0%

         CO                  Population          2,690        2,411     90%                 5      0%         12      0%         32          1%              0      0%        230       9%
         Sedgwick County     Borrowers               6            6    100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                             Farms                 230          230    100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                             Land in Farms     310,394      310,394    100%                 0      0%          0      0%          0          0%              0      0%          0       0%

         CO                  Population         12,881       12,359     96%            31          0%         69      1%         94          1%              5      0%        323       3%
         Summit County       Borrowers               0            0      0%             0          0%          0      0%          0          0%              0      0%          0       0%
                             Farms                  22           22    100%             0          0%          0      0%          0          0%              0      0%          0       0%
                             Land in Farms      38,467       38,467    100%             0          0%          0      0%          0          0%              0      0%          0       0%

         CO                  Population         12,468       11,980     96%            23          0%         89      1%         50          0%              4      0%        322       3%
         Teller County       Borrowers               0            0      0%             0          0%          0      0%          0          0%              0      0%          0       0%
                             Farms                  81           81    100%             0          0%          0      0%          0          0%              0      0%          0       0%
                             Land in Farms     104,010      104,010    100%             0          0%          0      0%          0          0%              0      0%          0       0%

         CO                  Population           4,812        4,652    97%                 1      0%         12      0%              8      0%              0      0%         139      3%
         Washington County   Borrowers               38           38   100%                 0      0%          0      0%              0      0%              0      0%           0      0%
                             Farms                  784          776    99%                 0      0%          0      0%              0      0%              3      0%           5      1%
                             Land in Farms    1,333,577    1,330,079   100%                 0      0%          0      0%              0      0%              0      0%       3,498      0%

         CO                  Population         131,821      101,977    77%           509          0%        593      0%      1,063          1%         177         0%      27,502    21%
         Weld County         Borrowers              135          126    93%             1          1%          2      1%          1          1%           2         1%           3     2%
                             Farms                2,909        2,807    96%             4          0%          6      0%         30          1%          19         1%          43     1%
                             Land in Farms    2,086,292    2,025,747    97%             0          0%          0      0%     16,059          1%       4,217         0%      40,269     2%

         CO                  Population           8,954        8,620    96%                 2      0%         34      0%         12          0%              2      0%         284      3%
         Yuma County         Borrowers               52           49    94%                 0      0%          0      0%          0          0%              2      4%           1      2%
                             Farms                  932          928   100%                 0      0%          0      0%          0          0%              0      0%           4      0%
                             Land in Farms    1,433,111    1,430,156   100%                 0      0%          0      0%          0          0%              0      0%       2,955      0%

         CO                  Population       3,294,394    2,658,945    81%       128,057          4%     22,068      1%     56,773          2%       4,249         0%     424,302    13%
         STATE               Borrowers            1,117        1,010    90%             3          0%         12      1%          7          1%          20         2%          65     6%
                             Farms               27,152       25,752    95%             4          0%         84      0%         78          0%         397         1%         837     3%
                             Land in Farms   33,978,173   33,401,801    98%             0          0%     12,279      0%     22,387          0%     131,235         0%     410,471     1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 161
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            ADAMS, COLORADO                                   ALAMOSA, COLORADO                                 ARAPAHOE, COLORADO
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            13                          1                         31                     12                         2                          2
                              Loans                                16                          1                         98                     59                         7                          6
                              Principal and Interest   1,608,474                       2,338                 8,221,519                  2,898,931                772,506                   383,671
WHITE                         Borrowers                            13    100%                  1    100%                 26     84%             10     83%                 2   100%                   2    100%
                              Loans                                16    100%                  1    100%                 88     90%             54     92%                 7   100%                   6    100%
                              Principal and Interest   1,608,474         100%          2,338        100%     7,067,497          86%     2,706,606      93%       772,506       100%        383,671         100%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 1       3%             0      0%                 0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 3       3%             0      0%                 0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%      164,916            2%             0      0%                 0      0%                  0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%

ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 4     13%              2     17%                 0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 7       7%             5      8%                 0      0%                  0       0%
                              Prinicpal and Interest                0       0%                 0       0%      989,106          12%      192,324        7%                 0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 162
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       ARCHULETA, COLORADO                                         BACA, COLORADO                                      BENT, COLORADO
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio        Percent   Delinquent   Percent    Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            3                          1                          78                     25                          52                     17
                              Loans                                5                          1                      176                        81                      143                        48
                              Principal and Interest      418,808                       443                 15,898,820                  4,225,083              17,104,169                  1,227,030
WHITE                         Borrowers                            2     67%                  0       0%                 76     97%             24     96%                  46     88%             15         88%
                              Loans                                4     80%                  0       0%             172        98%             80     99%              127        89%             41         85%
                              Principal and Interest      412,269        98%                  0       0%    15,721,733          99%     4,224,579    100%      15,265,363          89%       971,127          79%
AFRICAN AMERICAN              Borrowers                            0       0%                 0       0%                  0       0%             0      0%                   0      0%                  0       0%
                              Loans                                0       0%                 0       0%                  0       0%             0      0%                   0      0%                  0       0%
                              Principal and Interest               0       0%                 0       0%                  0       0%             0      0%                   0      0%                  0       0%
NATIVE AMERICAN               Borrowers                            0       0%                 0       0%                  1       1%             0      0%                   0      0%                  0       0%
                              Loans                                0       0%                 0       0%                  1       1%             0      0%                   0      0%                  0       0%
                              Principal and Interest               0       0%                 0       0%       148,132            1%             0      0%                   0      0%                  0       0%

ASIAN                         Borrowers                            0       0%                 0       0%                  1       1%             1      4%                   2      4%                  0       0%
                              Loans                                0       0%                 0       0%                  3       2%             1      1%                   2      1%                  0       0%
                              Principal and Interest               0       0%                 0       0%         28,956           0%          504       0%        493,738           3%                  0       0%
OTHER                         Borrowers                            0       0%                 0       0%                  0       0%             0      0%                   2      4%                  0       0%
                              Loans                                0       0%                 0       0%                  0       0%             0      0%                   3      2%                  0       0%
                              Principal and Interest               0       0%                 0       0%                  0       0%             0      0%        576,508           3%                  0       0%
HISPANIC                      Borrowers                            1     33%                  1    100%                   0       0%             0      0%                   2      4%                  2     12%
                              Loans                                1     20%                  1    100%                   0       0%             0      0%                  11      8%                  7     15%
                              Prinicpal and Interest         6,540         2%           443        100%                   0       0%             0      0%        768,559           4%       255,902          21%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 163
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          BOULDER, COLORADO                                 CHEYENNE, COLORADO                                   CONEJOS, COLORADO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            1                          0                         27                      5                         45                     16
                              Loans                                1                          0                         41                      5                     123                        62
                              Principal and Interest       58,502                             0             2,683,848                      4,601              8,672,375                  1,399,635
WHITE                         Borrowers                            1    100%                  0       0%                27    100%              5   100%                  22     49%             10         63%
                              Loans                                1    100%                  0       0%                41    100%              5   100%                  84     68%             55         89%
                              Principal and Interest       58,502       100%                  0       0%    2,683,848         100%         4,601    100%      5,375,904          62%     1,230,924          88%
AFRICAN AMERICAN              Borrowers                            0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest               0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
NATIVE AMERICAN               Borrowers                            0       0%                 0       0%                 0       0%             0      0%                  1      2%                  1       6%
                              Loans                                0       0%                 0       0%                 0       0%             0      0%                  3      2%                  2       3%
                              Principal and Interest               0       0%                 0       0%                 0       0%             0      0%         19,215          0%          1,687           0%

ASIAN                         Borrowers                            0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest               0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
OTHER                         Borrowers                            0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest               0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
HISPANIC                      Borrowers                            0       0%                 0       0%                 0       0%             0      0%                 22     49%                  5     31%
                              Loans                                0       0%                 0       0%                 0       0%             0      0%                 36     29%                  5       8%
                              Prinicpal and Interest               0       0%                 0       0%                 0       0%             0      0%     3,277,256          38%       167,024          12%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 164
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          COSTILLA, COLORADO                                  CROWLEY, COLORADO                                     CUSTER, COLORADO
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            24                          8                         11                      5                         1                          0
                              Loans                                77                      20                            31                     20                         2                          0
                              Principal and Interest   5,016,170                    267,290                  3,942,783                  1,600,964                  39,761                             0
WHITE                         Borrowers                            12     50%                  4     50%                  8     73%              4     80%                 1   100%                   0       0%
                              Loans                                45     58%              12        60%                 25     81%             18     90%                 2   100%                   0       0%
                              Principal and Interest   3,582,032          71%       133,840          50%     3,463,765          88%     1,572,057      98%         39,761      100%                   0       0%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 1       9%             1     20%                 0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 2       6%             2     10%                 0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%        48,510           1%      28,907        2%                 0      0%                  0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%

ASIAN                         Borrowers                             3     13%                  1     13%                  0       0%             0      0%                 0      0%                  0       0%
                              Loans                                 8     10%                  5     25%                  0       0%             0      0%                 0      0%                  0       0%
                              Principal and Interest      854,005         17%       123,490          46%                  0       0%             0      0%                 0      0%                  0       0%
OTHER                         Borrowers                             1       4%                 0       0%                 1       9%             0      0%                 0      0%                  0       0%
                              Loans                                 3       4%                 0       0%                 3     10%              0      0%                 0      0%                  0       0%
                              Principal and Interest       15,826           0%                 0       0%      389,739          10%              0      0%                 0      0%                  0       0%
HISPANIC                      Borrowers                             8     33%                  3     38%                  1       9%             0      0%                 0      0%                  0       0%
                              Loans                                21     27%                  3     15%                  1       3%             0      0%                 0      0%                  0       0%
                              Prinicpal and Interest      564,307         11%          9,960           4%        40,769           1%             0      0%                 0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 165
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             DELTA, COLORADO                                   DOLORES, COLORADO                                  DOUGLAS, COLORADO
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            26                          5                         22                      5                         2                          0
                              Loans                                38                          5                         49                      5                         2                          0
                              Principal and Interest   3,945,992                     41,351                  2,300,598                    21,457                 267,557                              0
WHITE                         Borrowers                            25     96%                  5    100%                 22    100%              5   100%                  2   100%                   0       0%
                              Loans                                36     95%                  5    100%                 49    100%              5   100%                  2   100%                   0       0%
                              Principal and Interest   3,926,390         100%        41,351         100%     2,300,598         100%       21,457     100%        267,557       100%                   0       0%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%

ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
OTHER                         Borrowers                             1       4%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Loans                                 2       5%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Principal and Interest       19,602           0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Prinicpal and Interest                0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 166
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           EL PASO, COLORADO                                    ELBERT, COLORADO                                  FREMONT, COLORADO
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            17                          5                         23                      4                         2                          1
                              Loans                                30                      15                            60                     10                         4                          2
                              Principal and Interest   2,237,305                    593,589                  4,376,337                    72,322                 327,676                   228,839
WHITE                         Borrowers                            16     94%                  5    100%                 22     96%              3     75%                 1     50%                  1    100%
                              Loans                                29     97%              15       100%                 59     98%              9     90%                 3     75%                  2    100%
                              Principal and Interest   2,150,787          96%       593,589         100%     4,134,418          94%       63,757       88%       310,433         95%       228,839         100%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
NATIVE AMERICAN               Borrowers                             1       6%                 0       0%                 1       4%             1     25%                 0      0%                  0       0%
                              Loans                                 1       3%                 0       0%                 1       2%             1     10%                 0      0%                  0       0%
                              Principal and Interest       86,518           4%                 0       0%      241,919            6%        8,565      12%                 0      0%                  0       0%

ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%             0      0%                 1     50%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                 1     25%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%         17,243         5%                  0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Prinicpal and Interest                0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 167
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         GARFIELD, COLORADO                                  GUNNISON, COLORADO                               HUERFANO, COLORADO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            3                          1                         3                      2                         5                          0
                              Loans                                5                          1                         5                      2                         7                          0
                              Principal and Interest      382,330                  129,878                    544,654                     6,786                458,953                              0
WHITE                         Borrowers                            3    100%                  1    100%                 2     67%              1     50%                 4     80%                  0       0%
                              Loans                                5    100%                  1    100%                 3     60%              1     50%                 6     86%                  0       0%
                              Principal and Interest      382,330       100%       129,878         100%       540,633         99%         6,090      90%       411,400         90%                  0       0%
AFRICAN AMERICAN              Borrowers                            0       0%                 0       0%                0       0%             0      0%                 0      0%                  0       0%
                              Loans                                0       0%                 0       0%                0       0%             0      0%                 0      0%                  0       0%
                              Principal and Interest               0       0%                 0       0%                0       0%             0      0%                 0      0%                  0       0%
NATIVE AMERICAN               Borrowers                            0       0%                 0       0%                0       0%             0      0%                 1     20%                  0       0%
                              Loans                                0       0%                 0       0%                0       0%             0      0%                 1     14%                  0       0%
                              Principal and Interest               0       0%                 0       0%                0       0%             0      0%         47,553        10%                  0       0%

ASIAN                         Borrowers                            0       0%                 0       0%                0       0%             0      0%                 0      0%                  0       0%
                              Loans                                0       0%                 0       0%                0       0%             0      0%                 0      0%                  0       0%
                              Principal and Interest               0       0%                 0       0%                0       0%             0      0%                 0      0%                  0       0%
OTHER                         Borrowers                            0       0%                 0       0%                1     33%              1     50%                 0      0%                  0       0%
                              Loans                                0       0%                 0       0%                2     40%              1     50%                 0      0%                  0       0%
                              Principal and Interest               0       0%                 0       0%         4,021          1%          696      10%                 0      0%                  0       0%
HISPANIC                      Borrowers                            0       0%                 0       0%                0       0%             0      0%                 0      0%                  0       0%
                              Loans                                0       0%                 0       0%                0       0%             0      0%                 0      0%                  0       0%
                              Prinicpal and Interest               0       0%                 0       0%                0       0%             0      0%                 0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 168
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          JACKSON, COLORADO                                 JEFFERSON, COLORADO                                   KIOWA, COLORADO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            3                          0                         5                      1                         30                          3
                              Loans                                4                          0                         9                      3                         46                          4
                              Principal and Interest      352,276                             0             1,513,260                   51,452               3,278,040                     12,513
WHITE                         Borrowers                            3    100%                  0       0%                5    100%              1   100%                  30   100%                   3    100%
                              Loans                                4    100%                  0       0%                9    100%              3   100%                  46   100%                   4    100%
                              Principal and Interest      352,276       100%                  0       0%    1,513,260        100%       51,452     100%      3,278,040        100%         12,513         100%
AFRICAN AMERICAN              Borrowers                            0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Loans                                0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest               0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
NATIVE AMERICAN               Borrowers                            0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Loans                                0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest               0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%

ASIAN                         Borrowers                            0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Loans                                0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest               0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
OTHER                         Borrowers                            0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Loans                                0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest               0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
HISPANIC                      Borrowers                            0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Loans                                0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Prinicpal and Interest               0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 169
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       KIT CARSON, COLORADO                                    LA PLATA, COLORADO                                 LARIMER, COLORADO
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            35                          5                         25                      6                         13                          4
                              Loans                                45                          6                         47                     23                         25                     11
                              Principal and Interest   4,272,475                     61,535                  3,580,308                   250,780               1,841,878                    457,851
WHITE                         Borrowers                            35    100%                  5    100%                 17     68%              5     83%                 12     92%                  3     75%
                              Loans                                45    100%                  6    100%                 37     79%             22     96%                 24     96%             10         91%
                              Principal and Interest   4,272,475         100%        61,535         100%     3,058,274          85%      244,591       98%     1,838,525        100%        456,508         100%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 3     12%              1     17%                  0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 4       9%             1      4%                  0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%      193,435            5%        6,190       2%                  0      0%                  0       0%

ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 0       0%             0      0%                  1      8%                  1     25%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                  1      4%                  1       9%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%          3,352          0%          1,343           0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 5     20%              0      0%                  0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 6     13%              0      0%                  0      0%                  0       0%
                              Prinicpal and Interest                0       0%                 0       0%      328,599            9%             0      0%                  0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 170
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       LAS ANIMAS, COLORADO                                    LINCOLN, COLORADO                                    LOGAN, COLORADO
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            14                          3                         38                      7                         44                     10
                              Loans                                20                          7                         68                      9                         72                     15
                              Principal and Interest   5,748,204                    719,986                  6,484,226                    41,425               5,460,661                    331,528
WHITE                         Borrowers                            12     86%                  2     67%                 36     95%              7   100%                  43     98%             10        100%
                              Loans                                15     75%                  3     43%                 65     96%              9   100%                  67     93%             15        100%
                              Principal and Interest   5,557,741          97%       323,764          45%     5,998,774          93%       41,425     100%      4,981,498          91%       331,528         100%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%

ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 2       5%             0      0%                  1      2%                  0       0%
                              Loans                                 0       0%                 0       0%                 3       4%             0      0%                  5      7%                  0       0%
                              Principal and Interest                0       0%                 0       0%      485,452            7%             0      0%       479,163           9%                  0       0%
HISPANIC                      Borrowers                             2     14%                  1     33%                  0       0%             0      0%                  0      0%                  0       0%
                              Loans                                 5     25%                  4     57%                  0       0%             0      0%                  0      0%                  0       0%
                              Prinicpal and Interest      190,463           3%      396,222          55%                  0       0%             0      0%                  0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 171
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              MESA, COLORADO                                    MOFFAT, COLORADO                              MONTEZUMA, COLORADO
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            27                          6                         5                      3                         27                          9
                              Loans                                44                      12                            9                      4                         63                     20
                              Principal and Interest   4,120,223                     96,842                    919,556                   39,380               4,833,017                    375,451
WHITE                         Borrowers                            24     89%                  5     83%                 5    100%              3   100%                  27   100%                   9    100%
                              Loans                                38     86%                  9     75%                 9    100%              4   100%                  63   100%              20        100%
                              Principal and Interest   3,569,143          87%        79,128          82%       919,556        100%       39,380     100%      4,833,017        100%        375,451         100%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
NATIVE AMERICAN               Borrowers                             1       4%                 1     17%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                 4       9%                 3     25%                 0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest      290,926           7%       17,714          18%                 0       0%             0      0%                  0      0%                  0       0%

ASIAN                         Borrowers                             0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
OTHER                         Borrowers                             0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
HISPANIC                      Borrowers                             2       7%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Loans                                 2       5%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Prinicpal and Interest      260,154           6%                 0       0%                0       0%             0      0%                  0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 172
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        MONTROSE, COLORADO                                     MORGAN, COLORADO                                     OTERO, COLORADO
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            25                          1                         50                     27                         12                          3
                              Loans                                37                          1                     121                        67                         44                     26
                              Principal and Interest   4,325,045                           10                9,883,675                  1,567,515              1,973,694                    629,616
WHITE                         Borrowers                            22     88%                  1    100%                 47     94%             26     96%                 11     92%                  2     67%
                              Loans                                34     92%                  1    100%             110        91%             65     97%                 42     95%             24         92%
                              Principal and Interest   3,806,322          88%              10       100%     9,405,161          95%     1,497,030      96%     1,876,685          95%       445,682          71%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
NATIVE AMERICAN               Borrowers                             1       4%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                 1       3%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest      241,695           6%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%

ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
OTHER                         Borrowers                             0       0%                 0       0%                 1       2%             0      0%                  0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 6       5%             0      0%                  0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%      114,114            1%             0      0%                  0      0%                  0       0%
HISPANIC                      Borrowers                             2       8%                 0       0%                 2       4%             1      4%                  1      8%                  1     33%
                              Loans                                 2       5%                 0       0%                 5       4%             2      3%                  2      5%                  2       8%
                              Prinicpal and Interest      277,029           6%                 0       0%      364,400            4%      70,485        4%         97,009          5%       183,934          29%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 173
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             OURAY, COLORADO                                      PARK, COLORADO                                PHILLIPS, COLORADO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            1                          0                         1                      1                         19                          9
                              Loans                                1                          0                         2                      1                         34                     10
                              Principal and Interest       73,065                             0               193,808                   61,386               3,898,392                    616,196
WHITE                         Borrowers                            1    100%                  0       0%                1    100%              1   100%                  19   100%                   9    100%
                              Loans                                1    100%                  0       0%                2    100%              1   100%                  34   100%              10        100%
                              Principal and Interest       73,065       100%                  0       0%      193,808        100%       61,386     100%      3,898,392        100%        616,196         100%
AFRICAN AMERICAN              Borrowers                            0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Loans                                0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest               0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
NATIVE AMERICAN               Borrowers                            0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Loans                                0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest               0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%

ASIAN                         Borrowers                            0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Loans                                0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest               0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
OTHER                         Borrowers                            0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Loans                                0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest               0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
HISPANIC                      Borrowers                            0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Loans                                0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%
                              Prinicpal and Interest               0       0%                 0       0%                0       0%             0      0%                  0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 174
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          PROWERS, COLORADO                                     PUEBLO, COLORADO                               RIO BLANCO, COLORADO
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            46                      16                            19                      8                         3                          1
                              Loans                            138                         68                            24                     10                         8                          2
                              Principal and Interest   7,563,572                  1,993,605                  2,141,364                   231,980                 578,698                    10,895
WHITE                         Borrowers                            45     98%              16       100%                 18     95%              7     88%                 2     67%                  1    100%
                              Loans                            136        99%              68       100%                 22     92%              8     80%                 4     50%                  2    100%
                              Principal and Interest   7,432,447          98%     1,993,605         100%     2,033,316          95%      205,802       89%       484,998         84%        10,895         100%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%

ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                 0      0%                  0       0%
OTHER                         Borrowers                             1       2%                 0       0%                 0       0%             0      0%                 1     33%                  0       0%
                              Loans                                 2       1%                 0       0%                 0       0%             0      0%                 4     50%                  0       0%
                              Principal and Interest      131,125           2%                 0       0%                 0       0%             0      0%         93,700        16%                  0       0%
HISPANIC                      Borrowers                             0       0%                 0       0%                 1       5%             1     13%                 0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 2       8%             2     20%                 0      0%                  0       0%
                              Prinicpal and Interest                0       0%                 0       0%      108,048            5%      26,177       11%                 0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 175
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       RIO GRANDE, COLORADO                                       ROUTT, COLORADO                               SAGUACHE, COLORADO
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            32                          9                          5                      1                         15                          7
                              Loans                                67                      24                            11                      2                         32                     15
                              Principal and Interest   5,121,956                    317,397                  1,494,370                   734,795               2,246,527                    158,793
WHITE                         Borrowers                            25     78%                  8     89%                  4     80%              1   100%                  13     87%                  7    100%
                              Loans                                56     84%              23        96%                  7     64%              2   100%                  28     88%             15        100%
                              Principal and Interest   3,794,666          74%       317,365         100%     1,322,179          88%      734,795     100%      2,155,319          96%       158,793         100%
AFRICAN AMERICAN              Borrowers                             0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
NATIVE AMERICAN               Borrowers                             0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%

ASIAN                         Borrowers                             0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
OTHER                         Borrowers                             1       3%                 0       0%                 1     20%              0      0%                  0      0%                  0       0%
                              Loans                                 1       1%                 0       0%                 4     36%              0      0%                  0      0%                  0       0%
                              Principal and Interest       59,042           1%                 0       0%      172,191          12%              0      0%                  0      0%                  0       0%
HISPANIC                      Borrowers                             6     19%                  1     11%                  0       0%             0      0%                  2     13%                  0       0%
                              Loans                                10     15%                  1       4%                 0       0%             0      0%                  4     13%                  0       0%
                              Prinicpal and Interest   1,268,248          25%              33          0%                 0       0%             0      0%         91,208          4%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 176
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       SAN MIGUEL, COLORADO                                 SEDGWICK, COLORADO                                WASHINGTON, COLORADO
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            1                          0                          6                      2                         38                     23
                              Loans                                1                          0                         10                      5                         90                     54
                              Principal and Interest       21,344                             0               544,740                    74,425               8,172,541                  1,105,928
WHITE                         Borrowers                            1    100%                  0       0%                 6    100%              2   100%                  38   100%              23        100%
                              Loans                                1    100%                  0       0%                10    100%              5   100%                  90   100%              54        100%
                              Principal and Interest       21,344       100%                  0       0%      544,740         100%       74,425     100%      8,172,541        100%      1,105,928         100%
AFRICAN AMERICAN              Borrowers                            0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest               0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
NATIVE AMERICAN               Borrowers                            0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest               0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%

ASIAN                         Borrowers                            0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest               0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
OTHER                         Borrowers                            0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest               0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
HISPANIC                      Borrowers                            0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Prinicpal and Interest               0       0%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 177
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       WELD, NORTH, COLORADO                                 WELD, SOUTH, COLORADO                                   YUMA, COLORADO
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            88                      18                            47                     15                         52                     12
                              Loans                            190                         52                            98                     35                     100                        23
                              Principal and Interest   19,914,471                 1,338,546                  7,872,523                   875,486               6,750,507                    406,882
WHITE                         Borrowers                            80     91%              18       100%                 46     98%             15   100%                  49     94%             11         92%
                              Loans                            168        88%              52       100%                 97     99%             35   100%                  90     90%             15         65%
                              Principal and Interest   17,994,002         90%     1,338,546         100%     7,759,176          99%      875,486     100%      6,009,548          89%       221,553          54%
AFRICAN AMERICAN              Borrowers                             1       1%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                 5       3%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest      593,781           3%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
NATIVE AMERICAN               Borrowers                             2       2%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Loans                                 4       2%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%
                              Principal and Interest      528,051           3%                 0       0%                 0       0%             0      0%                  0      0%                  0       0%

ASIAN                         Borrowers                             0       0%                 0       0%                 1       2%             0      0%                  0      0%                  0       0%
                              Loans                                 0       0%                 0       0%                 1       1%             0      0%                  0      0%                  0       0%
                              Principal and Interest                0       0%                 0       0%      113,347            1%             0      0%                  0      0%                  0       0%
OTHER                         Borrowers                             2       2%                 0       0%                 0       0%             0      0%                  2      4%                  0       0%
                              Loans                                 9       5%                 0       0%                 0       0%             0      0%                  2      2%                  0       0%
                              Principal and Interest      410,921           2%                 0       0%                 0       0%             0      0%       250,462           4%                  0       0%
HISPANIC                      Borrowers                             3       3%                 0       0%                 0       0%             0      0%                  1      2%                  1       8%
                              Loans                                 4       2%                 0       0%                 0       0%             0      0%                  8      8%                  8     35%
                              Prinicpal and Interest      387,716           2%                 0       0%                 0       0%             0      0%       490,496           7%       185,329          46%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 178
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            STATE OF COLORADO
                                                        Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                       1,117                       325
                              Loans                           2,380                       852
                              Principal and Interest   204,453,553                 25,666,406
WHITE                         Borrowers                       1,010        90%            297         91%
                              Loans                           2,158        91%            795         93%
                              Principal and Interest   187,626,488         92%     23,989,476         93%
AFRICAN AMERICAN              Borrowers                              3       0%                 1       0%
                              Loans                                 10       0%                 2       0%
                              Principal and Interest       807,207           0%       28,907            0%
NATIVE AMERICAN               Borrowers                             12       1%                 4       1%
                              Loans                                 20       1%                 7       1%
                              Principal and Interest     1,797,444           1%       34,156            0%

ASIAN                         Borrowers                              7       1%                 2       1%
                              Loans                                 14       1%                 6       1%
                              Principal and Interest     1,490,046           1%      123,994            0%
OTHER                         Borrowers                             20       2%                 2       1%
                              Loans                                 51       2%                 2       0%
                              Principal and Interest     3,222,461           2%         2,039           0%
HISPANIC                      Borrowers                             65       6%             19          6%
                              Loans                             127          5%             40          5%
                              Prinicpal and Interest     9,509,907           5%     1,487,833           6%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED   Page 179
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian             Hispanic
 CO ALAMOSA               Approved   No. of Applications                25        14   56%             0   0%           0   0%            1   4%         10    40%
                                     Receipt to Completion                         9                   0                0                28               9
                                     Completion to Approval                       16                   0                0                15              26
                                     Approval to Loan Closing                     32                   0                0                14              16

                          Rejected   No. of Applications                4         2    50%            0    0%          0    0%           0    0%         2     50%
                                     Receipt to Completion                       14                   0                0                 0               0
                                     Completion to Rejected                     172                   0                0                 0               4

                          Withdrawn No. of Applications                 17        9    53%            0    0%          0    0%           1    6%         7     41%
                                    Receipt to Completion                         8                   0                0                 0               0
                                    Completion to Withdrawn                      13                   0                0                 0               0

 CO   BACA                Approved   No. of Applications                1         1    100%           0    0%          0    0%           0    0%         0      0%
                                     Receipt to Completion                       68                   0                0                 0               0
                                     Completion to Approval                      87                   0                0                 0               0
                                     Approval to Loan Closing                     1                   0                0                 0               0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0    0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0               0
                                     Completion to Rejected                       0                   0                0                 0               0

                          Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0    0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0               0
                                    Completion to Withdrawn                       0                   0                0                 0               0

 CO   KIT CARSON          Approved   No. of Applications                8         8    100%           0    0%          0    0%           0    0%         0      0%
                                     Receipt to Completion                       15                   0                0                 0               0
                                     Completion to Approval                      23                   0                0                 0               0
                                     Approval to Loan Closing                    26                   0                0                 0               0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0    0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0               0
                                     Completion to Rejected                       0                   0                0                 0               0

                          Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0    0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0               0
                                    Completion to Withdrawn                       0                   0                0                 0               0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 180
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African           Native
State   Servicing Office   Decision           Average Days       Total       White              American          American          Asian            Hispanic
 CO LINCOLN                Approved   No. of Applications                6        6      100%            0   0%           0   0%            0   0%          0     0%
                                      Receipt to Completion                       0                      0                0                 0               0
                                      Completion to Approval                     30                      0                0                 0               0
                                      Approval to Loan Closing                    3                      0                0                 0               0

                           Rejected   No. of Applications                0           0    0%            0    0%          0    0%            0   0%         0      0%
                                      Receipt to Completion                          0                  0                0                  0              0
                                      Completion to Rejected                         0                  0                0                  0              0

                           Withdrawn No. of Applications                 3        3      100%           0    0%          0    0%            0   0%         0      0%
                                     Receipt to Completion                        0                     0                0                  0              0
                                     Completion to Withdrawn                    118                     0                0                  0              0

 CO   LOGAN                Approved   No. of Applications                6        6      100%           0    0%          0    0%            0   0%         0      0%
                                      Receipt to Completion                       5                     0                0                  0              0
                                      Completion to Approval                     41                     0                0                  0              0
                                      Approval to Loan Closing                   44                     0                0                  0              0

                           Rejected   No. of Applications                1           1   100%           0    0%          0    0%            0   0%         0      0%
                                      Receipt to Completion                          0                  0                0                  0              0
                                      Completion to Rejected                         0                  0                0                  0              0

                           Withdrawn No. of Applications                 1           1   100%           0    0%          0    0%            0   0%         0      0%
                                     Receipt to Completion                           0                  0                0                  0              0
                                     Completion to Withdrawn                         0                  0                0                  0              0

 CO   MESA                 Approved   No. of Applications                2        1      50%            0    0%          0    0%            0   0%         1     50%
                                      Receipt to Completion                       3                     0                0                  0             11
                                      Completion to Approval                      5                     0                0                  0             47
                                      Approval to Loan Closing                   27                     0                0                  0            218

                           Rejected   No. of Applications                0           0    0%            0    0%          0    0%            0   0%         0      0%
                                      Receipt to Completion                          0                  0                0                  0              0
                                      Completion to Rejected                         0                  0                0                  0              0

                           Withdrawn No. of Applications                 2        1      50%            0    0%          1    50%           0   0%         0      0%
                                     Receipt to Completion                       10                     0               40                  0              0
                                     Completion to Withdrawn                     45                     0               51                  0              0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 181
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American           Asian              Hispanic
 CO MONTEZUMA             Approved   No. of Applications                18        17   94%             0   0%            1   6%            0    0%           0     0%
                                     Receipt to Completion                        21                   0                20                 0                 0
                                     Completion to Approval                       13                   0                 7                 0                 0
                                     Approval to Loan Closing                     29                   0                57                 0                 0

                          Rejected   No. of Applications                3         1    33%            0    0%           2    67%           0    0%          0      0%
                                     Receipt to Completion                        0                   0                 0                  0                0
                                     Completion to Rejected                      20                   0                22                  0                0

                          Withdrawn No. of Applications                 2         2    100%           0    0%           0    0%            0    0%          0      0%
                                    Receipt to Completion                         0                   0                 0                  0                0
                                    Completion to Withdrawn                       0                   0                 0                  0                0

 CO   MONTROSE            Approved   No. of Applications                3         3    100%           0    0%           0    0%            0    0%          0      0%
                                     Receipt to Completion                        6                   0                 0                  0                0
                                     Completion to Approval                       2                   0                 0                  0                0
                                     Approval to Loan Closing                    12                   0                 0                  0                0

                          Rejected   No. of Applications                1         1    100%           0    0%           0    0%            0    0%          0      0%
                                     Receipt to Completion                        0                   0                 0                  0                0
                                     Completion to Rejected                       0                   0                 0                  0                0

                          Withdrawn No. of Applications                 0         0     0%            0    0%           0    0%            0    0%          0      0%
                                    Receipt to Completion                         0                   0                 0                  0                0
                                    Completion to Withdrawn                       0                   0                 0                  0                0

 CO   MORGAN              Approved   No. of Applications                10        9    90%            0    0%           0    0%             1   10%         0      0%
                                     Receipt to Completion                       15                   0                 0                  32               0
                                     Completion to Approval                      36                   0                 0                  17               0
                                     Approval to Loan Closing                    20                   0                 0                  26               0

                          Rejected   No. of Applications                2         2    100%           0    0%           0    0%            0    0%          0      0%
                                     Receipt to Completion                       18                   0                 0                  0                0
                                     Completion to Rejected                      34                   0                 0                  0                0

                          Withdrawn No. of Applications                 4         4    100%           0    0%           0    0%            0    0%          0      0%
                                    Receipt to Completion                        13                   0                 0                  0                0
                                    Completion to Withdrawn                      53                   0                 0                  0                0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 182
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian             Hispanic
 CO PROWERS               Approved   No. of Applications                31        31   100%            0   0%           0   0%           0   0%           0     0%
                                     Receipt to Completion                        25                   0                0                0                0
                                     Completion to Approval                       29                   0                0                0                0
                                     Approval to Loan Closing                     33                   0                0                0                0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%          0      0%
                                     Receipt to Completion                        0                   0                0                 0               0
                                     Completion to Rejected                       0                   0                0                 0               0

                          Withdrawn No. of Applications                 4         3    75%            0    0%          0    0%           0   0%          1     25%
                                    Receipt to Completion                        73                   0                0                 0               0
                                    Completion to Withdrawn                      41                   0                0                 0               0

 CO   SOUTH WELD          Approved   No. of Applications                24       23    96%            0    0%          1    4%           0   0%          0      0%
                                     Receipt to Completion                        8                   0                0                 0               0
                                     Completion to Approval                       3                   0                0                 0               0
                                     Approval to Loan Closing                    19                   0               16                 0               0

                          Rejected   No. of Applications                4         2    50%            0    0%          0    0%           1   25%         1     25%
                                     Receipt to Completion                       59                   0                0                 0               0
                                     Completion to Rejected                      16                   0                0                 0              43

                          Withdrawn No. of Applications                 35       33    94%            0    0%          1    3%           1   3%          0      0%
                                    Receipt to Completion                         0                   0                0                 0               0
                                    Completion to Withdrawn                       1                   0                0                 0               0

 CO   WELD                Approved   No. of Applications                15       12    80%            1    7%          0    0%           0   0%          2     13%
                                     Receipt to Completion                       14                  19                0                 0              33
                                     Completion to Approval                      32                  29                0                 0              24
                                     Approval to Loan Closing                    26                  20                0                 0              12

                          Rejected   No. of Applications                3         3    100%           0    0%          0    0%           0   0%          0      0%
                                     Receipt to Completion                       18                   0                0                 0               0
                                     Completion to Rejected                      68                   0                0                 0               0

                          Withdrawn No. of Applications                 6         4    67%            0    0%          0    0%           0   0%          2     33%
                                    Receipt to Completion                        56                   0                0                 0               0
                                    Completion to Withdrawn                      99                   0                0                 0               0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 183
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian             Hispanic
 CO YUMA                  Approved   No. of Applications                20        20   100%            0   0%           0   0%           0    0%          0     0%
                                     Receipt to Completion                        15                   0                0                0                0
                                     Completion to Approval                        3                   0                0                0                0
                                     Approval to Loan Closing                     25                   0                0                0                0

                          Rejected   No. of Applications                5         5    100%           0    0%          0    0%           0    0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0               0
                                     Completion to Rejected                       0                   0                0                 0               0

                          Withdrawn No. of Applications                 6         6    100%           0    0%          0    0%           0    0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0               0
                                    Completion to Withdrawn                       0                   0                0                 0               0

 CO   STATE               Approved   No. of Applications           169          151    89%            1    1%          2    1%            2   1%        13      8%
                                     Receipt to Completion                       15                  19               10                 30             13
                                     Completion to Approval                      19                  29                4                 16             27
                                     Approval to Loan Closing                    26                  20               37                 20             31

                          Rejected   No. of Applications                23       17    74%            0    0%          2    9%           1    4%         3     13%
                                     Receipt to Completion                       14                   0                0                 0               0
                                     Completion to Rejected                      39                   0               22                 0              17

                          Withdrawn No. of Applications                 81       67    83%            0    0%          2    2%           2    2%        10     12%
                                    Receipt to Completion                         9                   0               20                 0               0
                                    Completion to Withdrawn                      19                   0               26                 0               0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 184
                            Demographics         186
                        FSA’s Loan Portfolio     188
                        FSA’s Application data   192




USDA/OIG-A/50801-4-Hq                                  185
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American           Asian              Other             Hispanic
                                           Total      Number      Percent     Number   Percent   Number   Percent   Number   Percent   Number   Percent   Number   Percent
       CT                  Population      827,645      660,337    80%        77,472      9%      1,008      0%     16,796      2%      1,214      0%     70,818       9%
       Fairfield County    Borrowers             0            0     0%             0      0%          0      0%          0      0%          0      0%          0       0%
                           Farms               241          241   100%             0      0%          0      0%          0      0%          0      0%          0       0%
                           Land in Farms     9,975        9,975   100%             0      0%          0      0%          0      0%          0      0%          0       0%

       CT                  Population      851,783      683,004    80%        81,884     10%      1,225      0%     12,915      2%      1,180      0%     71,575       8%
       Hartford County     Borrowers            28           27    96%             1      4%          0      0%          0      0%          0      0%          0       0%
                           Farms               628          620    99%             3      0%          0      0%          0      0%          0      0%          5       1%
                           Land in Farms    56,510       56,425   100%             0      0%          0      0%          0      0%          0      0%         85       0%

       CT                  Population      174,092      168,876    97%         1,561      1%        300      0%      1,386      1%         62      0%      1,907       1%
       Litchfield County   Borrowers            29           27    93%             1      3%          1      3%          0      0%          0      0%          0       0%
                           Farms               607          607   100%             0      0%          0      0%          0      0%          0      0%          0       0%
                           Land in Farms    86,581       86,581   100%             0      0%          0      0%          0      0%          0      0%          0       0%

       CT                  Population      143,196      132,667    93%         5,846      4%        221      0%      1,510      1%         71      0%      2,881       2%
       Middlesex County    Borrowers             8            8   100%             0      0%          0      0%          0      0%          0      0%          0       0%
                           Farms               256          256   100%             0      0%          0      0%          0      0%          0      0%          0       0%
                           Land in Farms    19,830       19,830   100%             0      0%          0      0%          0      0%          0      0%          0       0%

       CT                  Population      804,219      661,754    82%        78,935     10%      1,396      0%     10,204      1%        927      0%     51,003       6%
       New Haven County    Borrowers             5            4    80%             0      0%          1     20%          0      0%          0      0%          0       0%
                           Farms               381          381   100%             0      0%          0      0%          0      0%          0      0%          0       0%
                           Land in Farms    25,882       25,882   100%             0      0%          0      0%          0      0%          0      0%          0       0%

       CT                  Population      254,957      230,179    90%        11,587      5%      1,257      0%      3,145      1%        334      0%      8,455       3%
       New London County   Borrowers            19           17    89%             1      5%          0      0%          0      0%          1      5%          0       0%
                           Farms               550          550   100%             0      0%          0      0%          0      0%          0      0%          0       0%
                           Land in Farms    65,987       65,987   100%             0      0%          0      0%          0      0%          0      0%          0       0%

       CT                  Population      128,699      121,269    94%         2,533      2%        206      0%      2,421      2%         54      0%      2,216       2%
       Tolland County      Borrowers             6            6   100%             0      0%          0      0%          0      0%          0      0%          0       0%
                           Farms               326          326   100%             0      0%          0      0%          0      0%          0      0%          0       0%
                           Land in Farms    38,715       38,715   100%             0      0%          0      0%          0      0%          0      0%          0       0%

       CT                  Population      102,525       96,098    94%         1,022      1%        337      0%        737      1%         70      0%      4,261       4%
       Windham County      Borrowers            34           33    97%             1      3%          0      0%          0      0%          0      0%          0       0%
                           Farms               438          438   100%             0      0%          0      0%          0      0%          0      0%          0       0%
                           Land in Farms    55,263       55,263   100%             0      0%          0      0%          0      0%          0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                               Page 186
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White              African American Native American           Asian              Other             Hispanic
                                           Total      Number      Percent     Number   Percent   Number   Percent   Number   Percent   Number   Percent   Number    Percent
       CT                 Population      3,287,116   2,754,184    84%       260,840      8%      5,950      0%     49,114      1%      3,912      0%     213,116      6%
       STATE              Borrowers             129         122    95%             4      3%          2      2%          0      0%          1      1%           0      0%
                          Farms               3,427       3,419   100%             3      0%          0      0%          0      0%          0      0%           5      0%
                          Land in Farms     358,743     358,658   100%             0      0%          0      0%          0      0%          0      0%          85      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                Page 187
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       HARTFORD,PT, CONNECTICUT                              LITCHFIELD, CONNECTICUT                             MIDDLESEX,N, CONNECTICUT
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        28                             8                     29                             9                         3                          1
                              Loans                            45                        17                         80                        33                             4                          1
                              Principal and Interest   2,888,441                   337,189                  4,702,614                   313,768                    296,700                    19,806
WHITE                         Borrowers                        27          96%                7       88%           27          93%                9     100%                3     100%                 1     100%
                              Loans                            43          96%           16           94%           76          95%           33         100%                4     100%                 1     100%
                              Principal and Interest   2,884,882         100%      336,886          100%    4,309,418           92%     313,768          100%      296,700         100%       19,806          100%

AFRICAN AMERICAN              Borrowers                            1        4%                1       13%               1        3%                0        0%               0        0%                0        0%
                              Loans                                2        4%                1        6%               1        1%                0        0%               0        0%                0        0%
                              Principal and Interest       3,559            0%          302            0%    128,675             3%                0        0%               0        0%                0        0%
NATIVE AMERICAN               Borrowers                            0        0%                0        0%               1        3%                0        0%               0        0%                0        0%
                              Loans                                0        0%                0        0%               3        4%                0        0%               0        0%                0        0%
                              Principal and Interest               0        0%                0        0%    264,521             6%                0        0%               0        0%                0        0%
ASIAN                         Borrowers                            0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Loans                                0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Principal and Interest               0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
OTHER                         Borrowers                            0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Loans                                0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Principal and Interest               0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
HISPANIC                      Borrowers                            0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Loans                                0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Prinicpal and Interest               0        0%                0        0%               0        0%                0        0%               0        0%                0        0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 188
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MIDDLESEX,S, CONNECTICUT                             NEW HAVEN,SE, CONNECTICUT                            NEW HAVEN,SW, CONNECTICUT
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            5                          4                         3                          1                         2                          2
                              Loans                            10                             9                         8                          4                         7                          7
                              Principal and Interest    871,876                    117,098                   806,473                     16,895                    365,463                    86,999
WHITE                         Borrowers                            5     100%                 4     100%                3     100%                 1     100%                1       50%                1       50%
                              Loans                            10        100%                 9     100%                8     100%                 4     100%                3       43%                3       43%
                              Principal and Interest    871,876          100%      117,098          100%     806,473          100%       16,895          100%      258,778           71%      75,965            87%
AFRICAN AMERICAN              Borrowers                            0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Loans                                0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Principal and Interest               0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
NATIVE AMERICAN               Borrowers                            0        0%                0        0%               0        0%                0        0%               1       50%                1       50%
                              Loans                                0        0%                0        0%               0        0%                0        0%               4       57%                4       57%
                              Principal and Interest               0        0%                0        0%               0        0%                0        0%     106,685           29%      11,034            13%
ASIAN                         Borrowers                            0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Loans                                0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Principal and Interest               0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
OTHER                         Borrowers                            0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Loans                                0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Principal and Interest               0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
HISPANIC                      Borrowers                            0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Loans                                0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Prinicpal and Interest               0        0%                0        0%               0        0%                0        0%               0        0%                0        0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 189
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          NORWICH, CONNECTICUT                                  TOLLAND, CONNECTICUT                              TOLLAND,PT, CONNECTICUT
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        19                             9                         5                          3                         1                          1
                              Loans                            41                        19                         22                        17                             3                          3
                              Principal and Interest   3,036,387                   527,824                  1,390,890                   254,477                    310,536                    23,283
WHITE                         Borrowers                        17          89%                9     100%                5     100%                 3     100%                1     100%                 1     100%
                              Loans                            38          93%           19         100%            22        100%            17         100%                3     100%                 3     100%
                              Principal and Interest   3,002,118           99%     527,824          100%    1,390,890         100%      254,477          100%      310,536         100%       23,283          100%
AFRICAN AMERICAN              Borrowers                            1        5%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Loans                                1        2%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Principal and Interest      10,150            0%                0        0%               0        0%                0        0%               0        0%                0        0%
NATIVE AMERICAN               Borrowers                            0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Loans                                0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Principal and Interest               0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
ASIAN                         Borrowers                            0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Loans                                0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Principal and Interest               0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
OTHER                         Borrowers                            1        5%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Loans                                2        5%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Principal and Interest      24,120            1%                0        0%               0        0%                0        0%               0        0%                0        0%
HISPANIC                      Borrowers                            0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Loans                                0        0%                0        0%               0        0%                0        0%               0        0%                0        0%
                              Prinicpal and Interest               0        0%                0        0%               0        0%                0        0%               0        0%                0        0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 190
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          WINDHAM, CONNECTICUT                               WINDHAM,PT, CONNECTICUT                                  STATE OF CONNECTICUT
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        15                             3                     19                             8                     129                        49
                              Loans                            27                             7                     41                        16                         288                       133
                              Principal and Interest   1,432,508                    19,044                  2,666,973                   255,689                  18,768,861                 1,972,072
WHITE                         Borrowers                        15        100%                 3     100%            18          95%                7       88%           122          95%           46           94%
                              Loans                            27        100%                 7     100%            38          93%           13           81%           272          94%          125           94%
                              Principal and Interest   1,432,508         100%       19,044          100%    2,395,043           90%     155,520            61%   17,959,222           96%   1,860,566            94%
AFRICAN AMERICAN              Borrowers                            0        0%                0        0%               1        5%                1       13%                4        3%                2        4%
                              Loans                                0        0%                0        0%               3        7%                3       19%                7        2%                4        3%
                              Principal and Interest               0        0%                0        0%    271,930            10%     100,169            39%      414,314            2%     100,471             5%
NATIVE AMERICAN               Borrowers                            0        0%                0        0%               0        0%                0        0%                2        2%                1        2%
                              Loans                                0        0%                0        0%               0        0%                0        0%                7        2%                4        3%
                              Principal and Interest               0        0%                0        0%               0        0%                0        0%      371,206            2%      11,034             1%
ASIAN                         Borrowers                            0        0%                0        0%               0        0%                0        0%                0        0%                0        0%
                              Loans                                0        0%                0        0%               0        0%                0        0%                0        0%                0        0%
                              Principal and Interest               0        0%                0        0%               0        0%                0        0%                0        0%                0        0%
OTHER                         Borrowers                            0        0%                0        0%               0        0%                0        0%                1        1%                0        0%
                              Loans                                0        0%                0        0%               0        0%                0        0%                2        1%                0        0%
                              Principal and Interest               0        0%                0        0%               0        0%                0        0%       24,120            0%                0        0%
HISPANIC                      Borrowers                            0        0%                0        0%               0        0%                0        0%                0        0%                0        0%
                              Loans                                0        0%                0        0%               0        0%                0        0%                0        0%                0        0%
                              Prinicpal and Interest               0        0%                0        0%               0        0%                0        0%                0        0%                0        0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 191
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African            Native
State  Servicing Office   Decision           Average Days       Total        White            American           American         Asian            Hispanic
 CT HARTFORD              Approved   No. of Applications                12        12   100%            0   0%            0   0%           0   0%          0     0%
                                     Receipt to Completion                        27                   0                 0                0               0
                                     Completion to Approval                       12                   0                 0                0               0
                                     Approval to Loan Closing                     44                   0                 0                0               0

                          Rejected   No. of Applications                1         1    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                 0                 0              0
                                     Completion to Rejected                      27                   0                 0                 0              0

                          Withdrawn No. of Applications                 2         2    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                        13                   0                 0                 0              0
                                    Completion to Withdrawn                      29                   0                 0                 0              0

 CT   LITCHFIELD          Approved   No. of Applications                18       17    94%            1    6%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       17                  21                 0                 0              0
                                     Completion to Approval                      11                   0                 0                 0              0
                                     Approval to Loan Closing                    16                  81                 0                 0              0

                          Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                 0                 0              0
                                     Completion to Rejected                       0                   0                 0                 0              0

                          Withdrawn No. of Applications                 4         3    75%            1    25%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                 0                 0              0
                                    Completion to Withdrawn                       0                   0                 0                 0              0

 CT   STATE               Approved   No. of Applications                30       29    97%            1    3%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       21                  21                 0                 0              0
                                     Completion to Approval                      11                   0                 0                 0              0
                                     Approval to Loan Closing                    28                  81                 0                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                 0                 0              0
                                     Completion to Rejected                      27                   0                 0                 0              0

                          Withdrawn No. of Applications                 6         5    83%            1    17%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         5                   0                 0                 0              0
                                    Completion to Withdrawn                      12                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 192
                            Demographics         194
                        FSA’s Loan Portfolio     195
                        FSA’s Application data   197




USDA/OIG-A/50801-4-Hq                                  193
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American           Asian              Other             Hispanic
                                           Total      Number      Percent     Number   Percent   Number   Percent   Number   Percent   Number   Percent   Number   Percent
       DE                  Population      110,993       86,071    78%        20,316     18%        596      1%      1,354      1%        116      0%      2,540       2%
       Kent County         Borrowers            26           25    96%             0      0%          1      4%          0      0%          0      0%          0       0%
                           Farms               782          773    99%             4      1%          2      0%          0      0%          0      0%          3       0%
                           Land in Farms   197,375      197,261   100%           114      0%          0      0%          0      0%          0      0%          0       0%

       DE                  Population      441,946      350,312    79%        71,895     16%        701      0%      6,932      2%        302      0%     11,804       3%
       New Castle County   Borrowers            16           16   100%             0      0%          0      0%          0      0%          0      0%          0       0%
                           Farms               336          331    99%             0      0%          0      0%          0      0%          0      0%          5       1%
                           Land in Farms    87,134       87,005   100%             0      0%          0      0%          0      0%          0      0%        129       0%

       DE                  Population      113,229       91,709    81%        18,800     17%        641      1%        568      1%         35      0%      1,476       1%
       Sussex County       Borrowers            58           53    91%             2      3%          2      3%          1      2%          0      0%          0       0%
                           Farms             1,515        1,479    98%            15      1%         16      1%          0      0%          0      0%          5       0%
                           Land in Farms   304,680      303,680   100%         1,000      0%          0      0%          0      0%          0      0%          0       0%

       DE                  Population      666,168      528,092    79%       111,011     17%      1,938      0%      8,854      1%        453      0%     15,820       2%
       STATE               Borrowers           100           94    94%             2      2%          3      3%          1      1%          0      0%          0       0%
                           Farms             2,633        2,583    98%            19      1%         18      1%          0      0%          0      0%         13       0%
                           Land in Farms   589,189      587,946   100%         1,114      0%          0      0%          0      0%          0      0%        129       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                               Page 194
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             KENT, DELAWARE                               NEW CASTLE, DELAWARE                                  SUSSEX, DELAWARE
                                                        Portfolio        Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                         26                          6                      16                         5                      29                         7
                              Loans                             47                          9                      34                        18                      64                        18
                              Principal and Interest   2,388,743                      51,942              1,794,360                   184,550               4,115,670                   340,834

WHITE                         Borrowers                         25         96%              5     83%              16      100%               5   100%               25        86%              6     86%
                              Loans                             42         89%              7     78%              34      100%              18   100%               56        88%             17     94%
                              Principal and Interest   2,159,072           90%        50,422      97%     1,794,360        100%       184,550     100%      3,581,365          87%      338,284       99%
AFRICAN AMERICAN              Borrowers                             0       0%              0      0%                  0      0%              0      0%                  2      7%              1     14%
                              Loans                                 0       0%              0      0%                  0      0%              0      0%                  4      6%              1      6%
                              Principal and Interest                0       0%              0      0%                  0      0%              0      0%      331,563            8%         2,550       1%

NATIVE AMERICAN               Borrowers                             1       4%              1     17%                  0      0%              0      0%                  1      3%              0      0%
                              Loans                                 5      11%              2     22%                  0      0%              0      0%                  2      3%              0      0%
                              Principal and Interest    229,670            10%         1,521       3%                  0      0%              0      0%        82,889           2%              0      0%

ASIAN                         Borrowers                             0       0%              0      0%                  0      0%              0      0%                  1      3%              0      0%
                              Loans                                 0       0%              0      0%                  0      0%              0      0%                  2      3%              0      0%
                              Principal and Interest                0       0%              0      0%                  0      0%              0      0%      119,852            3%              0      0%

OTHER                         Borrowers                             0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%

HISPANIC                      Borrowers                             0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest                0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 195
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        SUSSEX,PT, DELAWARE                                   STATE OF DELAWARE
                                                        Portfolio        Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                         29                          4                     100                         22
                              Loans                             53                          7                     198                         52
                              Principal and Interest   3,712,963                    155,002               12,011,736                   732,328

WHITE                         Borrowers                         28         97%              4   100%                94        94%             20     91%
                              Loans                             52         98%              7   100%              184         93%             49     94%
                              Principal and Interest   3,416,868           92%      155,002     100%      10,951,665          91%      728,258       99%
AFRICAN AMERICAN              Borrowers                             0       0%              0      0%                   2      2%              1      5%
                              Loans                                 0       0%              0      0%                   4      2%              1      2%
                              Principal and Interest                0       0%              0      0%       331,563            3%         2,550       0%

NATIVE AMERICAN               Borrowers                             1       3%              0      0%                   3      3%              1      5%
                              Loans                                 1       2%              0      0%                   8      4%              2      4%
                              Principal and Interest    296,095             8%              0      0%       608,654            5%         1,521       0%

ASIAN                         Borrowers                             0       0%              0      0%                   1      1%              0      0%
                              Loans                                 0       0%              0      0%                   2      1%              0      0%
                              Principal and Interest                0       0%              0      0%       119,852            1%              0      0%

OTHER                         Borrowers                             0       0%              0      0%                   0      0%              0      0%
                              Loans                                 0       0%              0      0%                   0      0%              0      0%
                              Principal and Interest                0       0%              0      0%                   0      0%              0      0%

HISPANIC                      Borrowers                             0       0%              0      0%                   0      0%              0      0%
                              Loans                                 0       0%              0      0%                   0      0%              0      0%
                              Prinicpal and Interest                0       0%              0      0%                   0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                          Page 196
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African            Native
State  Servicing Office   Decision           Average Days       Total        White              American           American         Asian            Hispanic
 DE SUSSEX                Approved   No. of Applications                12        9      75%             3   25%           0   0%           0   0%          0     0%
                                     Receipt to Completion                       39                     10                 0                0               0
                                     Completion to Approval                       9                    343                 0                0               0
                                     Approval to Loan Closing                    92                    138                 0                0               0

                          Rejected   No. of Applications                2            2   100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                 0                 0              0
                                     Completion to Rejected                          0                  0                 0                 0              0

                          Withdrawn No. of Applications                 4            4   100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                 0                 0              0
                                    Completion to Withdrawn                          0                  0                 0                 0              0

 DE   STATE               Approved   No. of Applications                12        9      75%            3    25%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       39                    10                 0                 0              0
                                     Completion to Approval                       9                   343                 0                 0              0
                                     Approval to Loan Closing                    92                   138                 0                 0              0

                          Rejected   No. of Applications                2            2   100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                 0                 0              0
                                     Completion to Rejected                          0                  0                 0                 0              0

                          Withdrawn No. of Applications                 4            4   100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                 0                 0              0
                                    Completion to Withdrawn                          0                  0                 0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 197
                            Demographics         199
                        FSA’s Loan Portfolio     208
                        FSA’s Application data   230




USDA/OIG-A/50801-4-Hq                                  198
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian              Other                 Hispanic
                                          Total          Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number    Percent
       FL                 Population       181,596       135,690     75%         34,116    19%         333      0%      4,465      2%        213          0%       6,779      4%
       Alachua County     Borrowers             29            24     83%              5    17%           0      0%          0      0%          0          0%           0      0%
                          Farms              1,089         1,002     92%             71     7%           0      0%          3      0%          0          0%          13      1%
                          Land in Farms    191,140       185,090     97%          4,456     2%           0      0%         29      0%          0          0%       1,565      1%

       FL                 Population        18,486        15,444     84%          2,738    15%          58      0%         44      0%              2      0%         200      1%
       Baker County       Borrowers             14            13     93%              0     0%           1      7%          0      0%              0      0%           0      0%
                          Farms                193           188     97%              5     3%           0      0%          0      0%              0      0%           0      0%
                          Land in Farms     24,489        24,489    100%              0     0%           0      0%          0      0%              0      0%           0      0%

       FL                 Population       126,994       108,004     85%         13,612    11%         903      1%      2,165      2%         54          0%       2,256      2%
       Bay County         Borrowers              4             4    100%              0     0%           0      0%          0      0%          0          0%           0      0%
                          Farms                 63            63    100%              0     0%           0      0%          0      0%          0          0%           0      0%
                          Land in Farms      9,135         9,135    100%              0     0%           0      0%          0      0%          0          0%           0      0%

       FL                 Population        22,515        17,406     77%          4,505    20%          74      0%         98      0%              6      0%         426      2%
       Bradford County    Borrowers             16            15     94%              0     0%           0      0%          0      0%              1      6%           0      0%
                          Farms                315           304     97%              5     2%           0      0%          0      0%              0      0%           6      2%
                          Land in Farms     36,230        35,918     99%             62     0%           0      0%          0      0%              0      0%         250      1%

       FL                 Population       398,978       349,276     88%         30,824      8%      1,273      0%      5,194      1%        150          0%      12,261      3%
       Brevard County     Borrowers              3             3    100%              0      0%          0      0%          0      0%          0          0%           0      0%
                          Farms                496           474     96%              6      1%          0      0%          3      1%          3          1%          10      2%
                          Land in Farms    199,724       199,160    100%            254      0%          0      0%          0      0%          0          0%         310      0%

       FL                 Population      1,255,488      940,345     75%        186,670    15%       2,391      0%     16,395      1%      1,248          0%     108,439      9%
       Broward County     Borrowers              20           17     85%              3    15%           0      0%          0      0%          0          0%           0      0%
                          Farms                 393          349     89%              7     2%           0      0%          4      1%          7          2%          26      7%
                          Land in Farms      23,735       22,798     96%              0     0%           0      0%          0      0%         35          0%         902      4%

       FL                 Population        11,011         9,094     83%          1,654    15%         131      1%         13      0%              1      0%         118      1%
       Calhoun County     Borrowers              8             8    100%              0     0%           0      0%          0      0%              0      0%           0      0%
                          Farms                132           128     97%              4     3%           0      0%          0      0%              0      0%           0      0%
                          Land in Farms     43,314        43,049     99%            265     1%           0      0%          0      0%              0      0%           0      0%

       FL                 Population       110,975       103,437     93%          3,857      3%        198      0%        700      1%         19          0%       2,764      2%
       Charlotte County   Borrowers              2             2    100%              0      0%          0      0%          0      0%          0          0%           0      0%
                          Farms                214           214    100%              0      0%          0      0%          0      0%          0          0%           0      0%
                          Land in Farms    227,202       227,202    100%              0      0%          0      0%          0      0%          0          0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 199
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian              Other                 Hispanic
                                          Total          Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number    Percent
       FL                Population         93,515        88,963     95%          2,170      2%        274      0%        386      0%         20          0%       1,702      2%
       Citrus County     Borrowers               0             0      0%              0      0%          0      0%          0      0%          0          0%           0      0%
                         Farms                 288           284     99%              0      0%          0      0%          0      0%          0          0%           4      1%
                         Land in Farms      70,672        70,672    100%              0      0%          0      0%          0      0%          0          0%           0      0%

       FL                Population        105,986        95,794     90%          5,405      5%        346     0%       1,633      2%         44          0%       2,764      3%
       Clay County       Borrowers               4             3     75%              0      0%          1    25%           0      0%          0          0%           0      0%
                         Farms                 210           207     99%              0      0%          0     0%           0      0%          0          0%           3      1%
                         Land in Farms      86,026        86,026    100%              0      0%          0     0%           0      0%          0          0%           0      0%

       FL                Population        152,099       124,700     82%          5,770      4%        353      0%        496      0%         46          0%      20,734      14%
       Collier County    Borrowers               9             8     89%              0      0%          0      0%          0      0%          0          0%           1      11%
                         Farms                 254           244     96%              0      0%          0      0%          0      0%          3          1%           7       3%
                         Land in Farms     301,977       301,977    100%              0      0%          0      0%          0      0%          0          0%           0       0%

       FL                Population         42,613        33,978     80%          7,644    18%         100      0%        260      1%         12          0%         619      1%
       Columbia County   Borrowers              55            39     71%             16    29%           0      0%          0      0%          0          0%           0      0%
                         Farms                 523           492     94%             26     5%           0      0%          0      0%          0          0%           5      1%
                         Land in Farms      96,968        95,768     99%              0     0%           0      0%          0      0%          0          0%       1,200      1%

       FL                Population       1,937,094      585,607     30%        369,621    19%       2,002      0%     24,054      1%      2,403          0%     953,407      49%
       Dade County       Borrowers               83           54     65%              2     2%           1      1%          8     10%          1          1%          17      20%
                         Farms                1,891        1,309     69%             14     1%           4      0%         58      3%        103          5%         403      21%
                         Land in Farms       83,681       60,601     72%            367     0%          50      0%      2,440      3%      3,288          4%      16,935      20%

       FL                Population         23,865        17,724     74%          3,672    15%          77      0%         89      0%         21          0%       2,282      10%
       DeSoto County     Borrowers               8             8    100%              0     0%           0      0%          0      0%          0          0%           0       0%
                         Farms                 804           787     98%              3     0%           3      0%          3      0%          0          0%           8       1%
                         Land in Farms     334,623       334,602    100%              0     0%           0      0%         21      0%          0          0%           0       0%

       FL                Population         10,585         9,524     90%            918      9%         34      0%         12      0%              1      0%          96      1%
       Dixie County      Borrowers               3             3    100%              0      0%          0      0%          0      0%              0      0%           0      0%
                         Farms                 106           106    100%              0      0%          0      0%          0      0%              0      0%           0      0%
                         Land in Farms      31,693        31,693    100%              0      0%          0      0%          0      0%              0      0%           0      0%

       FL                Population        672,971       478,981     71%        162,420    24%       1,779      0%     12,123      2%        335          0%      17,333      3%
       Duval County      Borrowers               0             0      0%              0     0%           0      0%          0      0%          0          0%           0      0%
                         Farms                 378           366     97%              7     2%           0      0%          0      0%          0          0%           5      1%
                         Land in Farms      40,039        39,439     99%            470     1%           0      0%          0      0%          0          0%         130      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 200
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian              Other                 Hispanic
                                          Total          Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number    Percent
       FL                 Population       262,798       198,083     75%         52,333    20%       2,552      1%      4,745      2%         72          0%       5,013      2%
       Escambia County    Borrowers             23            23    100%              0     0%           0      0%          0      0%          0          0%           0      0%
                          Farms                454           438     96%              8     2%           8      2%          0      0%          0          0%           0      0%
                          Land in Farms     57,179        56,360     99%            408     1%         411      1%          0      0%          0          0%           0      0%

       FL                 Population        28,701        24,841     87%          2,270      8%         50      0%        269      1%         11          0%       1,260      4%
       Flagler County     Borrowers              6             6    100%              0      0%          0      0%          0      0%          0          0%           0      0%
                          Farms                 93            93    100%              0      0%          0      0%          0      0%          0          0%           0      0%
                          Land in Farms     52,259        52,259    100%              0      0%          0      0%          0      0%          0          0%           0      0%

       FL                 Population          8,967        7,727     86%          1,107    12%          49      1%         17      0%              2      0%          65      1%
       Franklin County    Borrowers               0            0      0%              0     0%           0      0%          0      0%              0      0%           0      0%
                          Farms                   6            6    100%              0     0%           0      0%          0      0%              0      0%           0      0%
                          Land in Farms           0            0                      0                  0                  0                      0                   0

       FL                 Population        41,105        16,357     40%         23,620    57%          64      0%         85      0%         15          0%         964      2%
       Gadsden County     Borrowers              9             5     56%              4    44%           0      0%          0      0%          0          0%           0      0%
                          Farms                333           308     92%             21     6%           0      0%          0      0%          0          0%           4      1%
                          Land in Farms     57,853        56,265     97%              0     0%           0      0%          0      0%          0          0%       1,588      3%

       FL                 Population         9,667         8,656     90%            811      8%         30      0%         18      0%              2      0%         150      2%
       Gilchrist County   Borrowers             14            14    100%              0      0%          0      0%          0      0%              0      0%           0      0%
                          Farms                329           326     99%              0      0%          0      0%          0      0%              0      0%           3      1%
                          Land in Farms     70,987        70,896    100%              0      0%          0      0%          0      0%              0      0%          91      0%

       FL                 Population         7,591         5,634     74%            916    12%         425     6%          10      0%              1      0%         605      8%
       Glades County      Borrowers              1             0      0%              0     0%           1   100%           0      0%              0      0%           0      0%
                          Farms                206           197     96%              0     0%           4     2%           0      0%              0      0%           5      2%
                          Land in Farms    369,965       369,965    100%              0     0%           0     0%           0      0%              0      0%           0      0%

       FL                 Population        11,504         9,193     80%          2,149    19%          53      0%         23      0%              0     0%           86      1%
       Gulf County        Borrowers              5             2     40%              2    40%           0      0%          0      0%              1    20%            0      0%
                          Farms                 27            27    100%              0     0%           0      0%          0      0%              0     0%            0      0%
                          Land in Farms     14,203        14,203    100%              0     0%           0      0%          0      0%              0     0%            0      0%

       FL                 Population        10,930         6,356     58%          4,219    39%          42      0%         17      0%              1      0%         295      3%
       Hamilton County    Borrowers             24            18     75%              5    21%           0      0%          0      0%              1      4%           0      0%
                          Farms                224           206     92%             18     8%           0      0%          0      0%              0      0%           0      0%
                          Land in Farms     69,405        69,405    100%              0     0%           0      0%          0      0%              0      0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 201
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American            Asian              Other                 Hispanic
                                             Total          Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number    Percent
       FL                    Population        19,499        13,804     71%          1,008      5%         68      0%         34      0%         23          0%       4,562      23%
       Hardee County         Borrowers             21            21    100%              0      0%          0      0%          0      0%          0          0%           0       0%
                             Farms              1,169         1,147     98%              0      0%          0      0%          0      0%          7          1%          15       1%
                             Land in Farms    327,611       326,691    100%              0      0%          0      0%          0      0%        347          0%         573       0%

       FL                    Population        25,773        15,184     59%          4,185    16%         527     2%          92      0%         28         0%        5,757      22%
       Hendry County         Borrowers              3             1     33%              0     0%           1    33%           0      0%          1        33%            0       0%
                             Farms                389           366     94%              6     2%           0     0%           0      0%          0         0%           17       4%
                             Land in Farms    529,835       528,000    100%            102     0%           0     0%           0      0%          0         0%        1,733       0%

       FL                    Population       101,115        93,701     93%          3,812      4%        237      0%        382      0%         21          0%       2,962      3%
       Hernando County       Borrowers              1             1    100%              0      0%          0      0%          0      0%          0          0%           0      0%
                             Farms                411           384     93%              6      1%          0      0%          0      0%          7          2%          14      3%
                             Land in Farms     61,019        59,805     98%              0      0%          0      0%          0      0%        426          1%         788      1%

       FL                    Population        68,432        57,592     84%          6,721    10%         214      0%        371      1%         34          0%       3,500       5%
       Highlands County      Borrowers             22            17     77%              0     0%           0      0%          1      5%          0          0%           4      18%
                             Farms                652           640     98%              3     0%           3      0%          0      0%          0          0%           6       1%
                             Land in Farms    483,835       483,286    100%              0     0%         549      0%          0      0%          0          0%           0       0%

       FL                    Population       834,054       606,466     73%        107,111    13%       2,183      0%     10,901      1%        485          0%     106,908      13%
       Hillsborough County   Borrowers             65            60     92%              1     2%           0      0%          1      2%          0          0%           3       5%
                             Farms              2,760         2,586     94%             25     1%           6      0%         24      1%         25          1%          94       3%
                             Land in Farms    265,443       248,946     94%            430     0%         193      0%      3,721      1%        835          0%      11,318       4%

       FL                    Population        15,778        14,619     93%            768      5%        163      1%         50      0%              2      0%         176      1%
       Holmes County         Borrowers            109           102     94%              0      0%          6      6%          0      0%              0      0%           1      1%
                             Farms                523           517     99%              0      0%          6      1%          0      0%              0      0%           0      0%
                             Land in Farms     86,706        85,342     98%              0      0%      1,364      2%          0      0%              0      0%           0      0%

       FL                    Population        90,208        79,349     88%          7,552      8%        124      0%        455      1%         24          0%       2,704      3%
       Indian River County   Borrowers              4             4    100%              0      0%          0      0%          0      0%          0          0%           0      0%
                             Farms                447           437     98%              4      1%          0      0%          0      0%          0          0%           6      1%
                             Land in Farms    174,673       173,843    100%              0      0%          0      0%          0      0%          0          0%         830      0%

       FL                    Population        41,375        29,376     71%         10,721    26%         215      1%         82      0%              7      0%         974      2%
       Jackson County        Borrowers             92            77     84%             13    14%           1      1%          0      0%              1      1%           0      0%
                             Farms                808           727     90%             77    10%           0      0%          0      0%              0      0%           4      0%
                             Land in Farms    244,185       244,012    100%              0     0%           0      0%          0      0%              0      0%         173      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 202
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian                  Other                 Hispanic
                                          Total          Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number    Percent
       FL                 Population        11,296         6,233     55%          4,883    43%          17      0%         27          0%              6     0%          130      1%
       Jefferson County   Borrowers              8             5     63%              2    25%           0      0%          0          0%              1    13%            0      0%
                          Farms                297           271     91%             26     9%           0      0%          0          0%              0     0%            0      0%
                          Land in Farms    118,352       118,352    100%              0     0%           0      0%          0          0%              0     0%            0      0%

       FL                 Population         5,578         4,554     82%            772    14%          17      0%              9      0%              0      0%         226      4%
       Lafayette County   Borrowers              9             9    100%              0     0%           0      0%              0      0%              0      0%           0      0%
                          Farms                252           252    100%              0     0%           0      0%              0      0%              0      0%           0      0%
                          Land in Farms     95,833        95,833    100%              0     0%           0      0%              0      0%              0      0%           0      0%

       FL                 Population       152,104       133,071     87%         13,774      9%        366      0%        548          0%         40          0%       4,305      3%
       Lake County        Borrowers             26            22     85%              2      8%          0      0%          1          4%          1          4%           0      0%
                          Farms              1,320         1,286     97%              8      1%          4      0%          9          1%          0          0%          13      1%
                          Land in Farms    199,098       197,316     99%            275      0%        208      0%          0          0%          0          0%       1,299      1%

       FL                 Population       335,113       296,005     88%         21,515      6%        603      0%      1,776          1%        120          0%      15,094      5%
       Lee County         Borrowers             14            14    100%              0      0%          0      0%          0          0%          0          0%           0      0%
                          Farms                517           511     99%              0      0%          0      0%          0          0%          0          0%           6      1%
                          Land in Farms    106,721       106,613    100%              0      0%          0      0%          0          0%          0          0%         108      0%

       FL                 Population       192,493       138,396     72%         46,191    24%         471      0%      2,625          1%         95          0%       4,715      2%
       Leon County        Borrowers              4             3     75%              1    25%           0      0%          0          0%          0          0%           0      0%
                          Farms                263           235     89%             28    11%           0      0%          0          0%          0          0%           0      0%
                          Land in Farms    100,764       100,764    100%              0     0%           0      0%          0          0%          0          0%           0      0%

       FL                 Population        25,923        22,014     85%          3,204    12%         105      0%        103          0%              7      0%         490       2%
       Levy County        Borrowers             10             8     80%              1    10%           0      0%          0          0%              0      0%           1      10%
                          Farms                473           459     97%              9     2%           0      0%          0          0%              0      0%           5       1%
                          Land in Farms    190,553       190,553    100%              0     0%           0      0%          0          0%              0      0%           0       0%

       FL                 Population         5,569         4,465     80%            965    17%          26      0%              4      0%              1      0%         108      2%
       Liberty County     Borrowers              4             4    100%              0     0%           0      0%              0      0%              0      0%           0      0%
                          Farms                 71            71    100%              0     0%           0      0%              0      0%              0      0%           0      0%
                          Land in Farms     11,738        11,738    100%              0     0%           0      0%              0      0%              0      0%           0      0%

       FL                 Population        16,569         9,409     57%          6,867    41%          52      0%              8      0%              2      0%         231      1%
       Madison County     Borrowers             40            32     80%              6    15%           1      3%              0      0%              1      3%           0      0%
                          Farms                481           459     95%             22     5%           0      0%              0      0%              0      0%           0      0%
                          Land in Farms    132,208       132,208    100%              0     0%           0      0%              0      0%              0      0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 203
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American            Asian              Other                 Hispanic
                                           Total          Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number    Percent
       FL                  Population       211,707       184,568     87%         15,971     8%         439      0%      1,192      1%        113          0%       9,424      4%
       Manatee County      Borrowers             11             8     73%              3    27%           0      0%          0      0%          0          0%           0      0%
                           Farms                728           717     98%              4     1%           0      0%          0      0%          0          0%           7      1%
                           Land in Farms    299,699       299,156    100%            543     0%           0      0%          0      0%          0          0%           0      0%

       FL                  Population       194,833       162,861     84%         24,542    13%         616      0%        896      0%         58          0%       5,860      3%
       Marion County       Borrowers             12             7     58%              5    42%           0      0%          0      0%          0          0%           0      0%
                           Farms              1,654         1,531     93%             68     4%           0      0%          4      0%          8          0%          43      3%
                           Land in Farms    296,242       280,788     95%          5,138     2%           0      0%          0      0%      2,380          1%       7,936      3%

       FL                  Population       100,900        89,596     89%          5,887      6%        138      0%        503      0%         48          0%       4,728      5%
       Martin County       Borrowers              4             4    100%              0      0%          0      0%          0      0%          0          0%           0      0%
                           Farms                305           293     96%              0      0%          0      0%          5      2%          0          0%           7      2%
                           Land in Farms    190,788       183,735     96%              0      0%          0      0%          0      0%          0          0%       7,053      4%

       FL                  Population        78,024        63,686     82%          3,896      5%        233      0%        596      1%         33          0%       9,580      12%
       Monroe County       Borrowers              1             1    100%              0      0%          0      0%          0      0%          0          0%           0       0%
                           Farms                 15            15    100%              0      0%          0      0%          0      0%          0          0%           0       0%
                           Land in Farms         32            32    100%              0      0%          0      0%          0      0%          0          0%           0       0%

       FL                  Population        43,941        38,697     88%          4,509    10%         120      0%        129      0%              6      0%         480      1%
       Nassau County       Borrowers             13            13    100%              0     0%           0      0%          0      0%              0      0%           0      0%
                           Farms                277           277    100%              0     0%           0      0%          0      0%              0      0%           0      0%
                           Land in Farms     44,962        44,962    100%              0     0%           0      0%          0      0%              0      0%           0      0%

       FL                  Population       143,776       122,233     85%         12,835      9%        737      1%      3,471      2%         73          0%       4,427      3%
       Okaloosa County     Borrowers             27            27    100%              0      0%          0      0%          0      0%          0          0%           0      0%
                           Farms                315           312     99%              0      0%          0      0%          0      0%          0          0%           3      1%
                           Land in Farms     56,704        56,265     99%              0      0%          0      0%          0      0%          0          0%         439      1%

       FL                  Population        29,627        23,940     81%          1,875      6%        127     0%         148      0%         44          0%       3,493      12%
       Okeechobee County   Borrowers             27             7     26%              0      0%         18    67%           0      0%          1          4%           1       4%
                           Farms                418           404     97%              0      0%          0     0%           0      0%          0          0%          14       3%
                           Land in Farms    351,885       333,620     95%              0      0%          0     0%           0      0%          0          0%      18,265       5%

       FL                  Population       677,491       496,544     73%        100,185    15%       1,846      0%     13,313      2%        657          0%      64,946      10%
       Orange County       Borrowers              4             4    100%              0     0%           0      0%          0      0%          0          0%           0       0%
                           Farms                990           934     94%             13     1%           6      1%         28      3%          0          0%           9       1%
                           Land in Farms    138,418       137,820    100%            229     0%           0      0%        236      0%          0          0%         133       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 204
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American            Asian              Other             Hispanic
                                           Total          Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number   Percent   Number    Percent
       FL                  Population       107,728        87,439     81%          5,452      5%        326      0%      1,558      1%         87      0%      12,866      12%
       Osceola County      Borrowers              1             1    100%              0      0%          0      0%          0      0%          0      0%           0       0%
                           Farms                499           495     99%              0      0%          0      0%          4      1%          0      0%           0       0%
                           Land in Farms    716,542       716,542    100%              0      0%          0      0%          0      0%          0      0%           0       0%

       FL                  Population       863,518       683,402     79%        103,309    12%       1,028      0%      8,692      1%        474      0%      66,613       8%
       Palm Beach County   Borrowers             22            18     82%              1     5%           0      0%          2      9%          0      0%           1       5%
                           Farms                924           837     91%             11     1%           0      0%          5      1%         17      2%          54       6%
                           Land in Farms    637,934       368,793     58%            624     0%           0      0%          0      0%        456      0%     268,061      42%

       FL                  Population       281,131       264,308     94%          5,303      2%        740      0%      1,404      0%         67      0%       9,309      3%
       Pasco County        Borrowers             10            10    100%              0      0%          0      0%          0      0%          0      0%           0      0%
                           Farms                922           893     97%              5      1%          0      0%          0      0%          0      0%          24      3%
                           Land in Farms    221,232       218,324     99%             53      0%          0      0%          0      0%          0      0%       2,855      1%

       FL                  Population       851,659       754,802     89%         65,046      8%      1,863      0%      9,506      1%        373      0%      20,069      2%
       Pinellas County     Borrowers              1             1    100%              0      0%          0      0%          0      0%          0      0%           0      0%
                           Farms                124           124    100%              0      0%          0      0%          0      0%          0      0%           0      0%
                           Land in Farms      4,123         4,123    100%              0      0%          0      0%          0      0%          0      0%           0      0%

       FL                  Population       405,382       331,732     82%         53,500    13%       1,079      0%      2,338      1%        133      0%      16,600      4%
       Polk County         Borrowers             43            41     95%              1     2%           0      0%          1      2%          0      0%           0      0%
                           Farms              2,294         2,243     98%             15     1%           7      0%         11      0%          0      0%          18      1%
                           Land in Farms    611,336       605,053     99%          1,007     0%           0      0%      1,829      0%          0      0%       3,447      1%

       FL                  Population        65,070        51,150     79%         11,874    18%         119      0%        220      0%         19      0%       1,688      3%
       Putnam County       Borrowers             14            10     71%              4    29%           0      0%          0      0%          0      0%           0      0%
                           Farms                400           388     97%              9     2%           0      0%          0      0%          0      0%           3      1%
                           Land in Farms    105,621       105,193    100%            428     0%           0      0%          0      0%          0      0%           0      0%

       FL                  Population        83,829        73,992     88%          7,261     9%         178      0%        484      1%         12      0%       1,902      2%
       St. Johns County    Borrowers              8             7     88%              1    13%           0      0%          0      0%          0      0%           0      0%
                           Farms                166           163     98%              0     0%           0      0%          0      0%          0      0%           3      2%
                           Land in Farms     48,839        48,793    100%              0     0%           0      0%          0      0%          0      0%          46      0%

       FL                  Population       150,171       118,646     79%         24,200    16%         306      0%        987      1%         80      0%       5,952      4%
       St. Lucie County    Borrowers              3             2     67%              1    33%           0      0%          0      0%          0      0%           0      0%
                           Farms                539           535     99%              0     0%           0      0%          0      0%          0      0%           4      1%
                           Land in Farms    300,622       300,622    100%              0     0%           0      0%          0      0%          0      0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 205
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American            Asian              Other                 Hispanic
                                           Total          Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number    Percent
       FL                  Population        81,608        75,519     93%          3,231      4%        702      1%        909      1%         24          0%       1,223      1%
       Santa Rosa County   Borrowers             15            15    100%              0      0%          0      0%          0      0%          0          0%           0      0%
                           Farms                430           430    100%              0      0%          0      0%          0      0%          0          0%           0      0%
                           Land in Farms     79,270        79,270    100%              0      0%          0      0%          0      0%          0          0%           0      0%

       FL                  Population       277,776       258,095     93%         11,855      4%        471      0%      1,394      1%         79          0%       5,882      2%
       Sarasota County     Borrowers              0             0      0%              0      0%          0      0%          0      0%          0          0%           0      0%
                           Farms                328           324     99%              0      0%          0      0%          0      0%          0          0%           4      1%
                           Land in Farms    151,242       151,242    100%              0      0%          0      0%          0      0%          0          0%           0      0%

       FL                  Population       287,529       239,612     83%         23,801      8%        754      0%      4,588      2%        168          0%      18,606      6%
       Seminole County     Borrowers              7             7    100%              0      0%          0      0%          0      0%          0          0%           0      0%
                           Farms                352           328     93%              9      3%          0      0%          9      3%          0          0%           6      2%
                           Land in Farms     59,642        58,767     99%            149      0%          0      0%        382      1%          0          0%         344      1%

       FL                  Population        31,577        25,526     81%          5,064    16%         162      1%         51      0%         12          0%         762      2%
       Sumter County       Borrowers             17            14     82%              2    12%           0      0%          0      0%          0          0%           1      6%
                           Farms                720           690     96%             15     2%           4      1%          0      0%          0          0%          11      2%
                           Land in Farms    253,330       251,184     99%            852     0%         215      0%          0      0%          0          0%       1,079      0%

       FL                  Population        26,780        22,277     83%          3,915    15%         101      0%         65      0%              5      0%         417      2%
       Suwannee County     Borrowers             56            49     88%              6    11%           0      0%          0      0%              1      2%           0      0%
                           Farms                932           901     97%             21     2%           0      0%          0      0%              0      0%          10      1%
                           Land in Farms    161,936       160,275     99%            884     1%           0      0%          0      0%              0      0%         777      0%

       FL                  Population        17,111        13,682     80%          3,068    18%         153      1%         34      0%              0      0%         174      1%
       Taylor County       Borrowers              3             3    100%              0     0%           0      0%          0      0%              0      0%           0      0%
                           Farms                125           125    100%              0     0%           0      0%          0      0%              0      0%           0      0%
                           Land in Farms          0             0                      0                  0                  0                      0                   0

       FL                  Population        10,252         7,499     73%          2,320    23%          57      1%         38      0%              3      0%         335      3%
       Union County        Borrowers             24            24    100%              0     0%           0      0%          0      0%              0      0%           0      0%
                           Farms                175           175    100%              0     0%           0      0%          0      0%              0      0%           0      0%
                           Land in Farms     48,280        48,280    100%              0     0%           0      0%          0      0%              0      0%           0      0%

       FL                  Population       370,712       319,259     86%         32,985      9%        856      0%      2,637      1%        135          0%      14,840      4%
       Volusia County      Borrowers             42            37     88%              1      2%          2      5%          0      0%          0          0%           2      5%
                           Farms                978           961     98%              8      1%          0      0%          0      0%          0          0%           9      1%
                           Land in Farms    138,208       138,123    100%             85      0%          0      0%          0      0%          0          0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 206
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American            Asian               Other                 Hispanic
                                            Total          Number     Percent     Number    Percent   Number   Percent   Number    Percent   Number       Percent   Number    Percent
       FL                  Population         14,202        12,162     86%          1,830    13%          94      1%         30       0%              3      0%          83      1%
       Wakulla County      Borrowers               2             2    100%              0     0%           0      0%          0       0%              0      0%           0      0%
                           Farms                  83            79     95%              4     5%           0      0%          0       0%              0      0%           0      0%
                           Land in Farms       8,679         8,679    100%              0     0%           0      0%          0       0%              0      0%           0      0%

       FL                  Population         27,760        25,114     90%          1,870      7%        412      1%        117       0%              3      0%         244      1%
       Walton County       Borrowers              23            22     96%              0      0%          1      4%          0       0%              0      0%           0      0%
                           Farms                 383           377     98%              6      2%          0      0%          0       0%              0      0%           0      0%
                           Land in Farms      96,730        96,189     99%            541      1%          0      0%          0       0%              0      0%           0      0%

       FL                  Population         16,919        13,933     82%          2,449    14%         274      2%         81       0%              2      0%         180      1%
       Washington County   Borrowers              66            60     91%              1     2%           5      8%          0       0%              0      0%           0      0%
                           Farms                 274           274    100%              0     0%           0      0%          0       0%              0      0%           0      0%
                           Land in Farms      45,214        45,214    100%              0     0%           0      0%          0       0%              0      0%           0      0%

       FL                  Population      12,937,926 9,475,326        73% 1,701,103         13%      32,910      0%     146,159      1%      8,285          0% 1,574,143        12%
       STATE               Borrowers            1,228      1,043       85%        89          7%          39      3%          14      1%         11          1%        32         3%
                           Farms               35,204     33,291       95%       597          2%          55      0%         170      0%        180          1%       911         3%
                           Land in Farms   10,688,583 10,301,318       96%    17,622          0%       2,990      0%       8,658      0%      7,767          0%   350,228         3%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 207
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           ALACHUA, FLORIDA                                         BAKER, FLORIDA                                            BAY, FLORIDA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            29                     13                         14                             6                         4                          1
                              Loans                                91                     56                         43                        22                         10                             2
                              Principal and Interest   5,419,655                  1,722,828                  2,069,848                   467,485                   795,618                    485,794

WHITE                         Borrowers                            24     83%                  8     62%             13        93%                  6   100%                  4   100%                   1   100%
                              Loans                                67     74%             35         63%             39        91%             22       100%              10      100%                   2   100%
                              Principal and Interest   5,068,837          94%     1,484,773          86%     1,983,312         96%       467,485        100%       795,618        100%        485,794        100%

AFRICAN AMERICAN              Borrowers                             5     17%                  5     38%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                24     26%             21         38%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest     350,819           6%       238,055          14%                 0      0%                  0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 1      7%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 4      9%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%        86,537          4%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 208
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          BRADFORD, FLORIDA                                       BREVARD, FLORIDA                                     BROWARD, FLORIDA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            16                          3                         3                          2                      20                        10
                              Loans                                40                     20                         11                        10                          87                        71
                              Principal and Interest   3,080,189                  1,206,920                   100,515                     49,285                  14,746,530                 8,773,508

WHITE                         Borrowers                            15     94%                  3   100%                  3   100%                   2   100%               17        85%                  8     80%
                              Loans                                39     98%             20       100%              11      100%              10       100%               60        69%             46         65%
                              Principal and Interest   2,987,186          97%     1,206,920        100%       100,515        100%         49,285        100%      13,908,613         94%     8,187,658          93%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                  3     15%                  2     20%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%              27        31%             25         35%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%       837,917           6%       585,850           7%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             1      6%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 1      3%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest      93,003           3%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 209
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           CALHOUN, FLORIDA                                    CHARLOTTE, FLORIDA                                             CLAY, FLORIDA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                             8                          3                         2                          1                         4                          0
                              Loans                                21                          6                         8                          7                         5                          0
                              Principal and Interest   1,255,935                     25,439                   946,547                     66,573                   205,119                               0

WHITE                         Borrowers                             8   100%                   3   100%                  2   100%                   1   100%                  3     75%                  0      0%
                              Loans                                21   100%                   6   100%                  8   100%                   7   100%                  4     80%                  0      0%
                              Principal and Interest   1,255,935        100%         25,439        100%       946,547        100%         66,573        100%       101,245          49%                  0      0%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 1     25%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 1     20%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%      103,874          51%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 210
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            COLLIER, FLORIDA                                    COLUMBIA, FLORIDA                                              DADE, FLORIDA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                             9                          5                     55                        22                          83                        33
                              Loans                                32                     26                        210                       121                         221                       125
                              Principal and Interest   2,903,053                  1,550,339                  6,933,062                 1,991,883                  29,848,620                 7,776,634

WHITE                         Borrowers                             8     89%                  5   100%              39        71%             16         73%              54        65%             23         70%
                              Loans                                31     97%             26       100%             147        70%             91         75%             160        72%            100         80%
                              Principal and Interest   2,853,398          98%     1,550,339        100%      5,657,616         82%     1,777,293          89%     21,521,480         72%     6,843,386          88%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%             16        29%                  6     27%                  2      2%                  0      0%
                              Loans                                 0      0%                  0      0%             63        30%             30         25%                  2      1%                  0      0%
                              Principal and Interest                0      0%                  0      0%     1,275,446         18%       214,590          11%       131,254           0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                  1      1%                  1      3%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                  7      3%                  7      6%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%       909,479           3%       438,580           6%

ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                  8     10%                  3      9%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%              12         5%                  4      3%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%      1,582,193          5%       177,925           2%

OTHER                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                  1      1%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                  2      1%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%       292,466           1%                  0      0%

HISPANIC                      Borrowers                             1     11%                  0      0%                 0      0%                  0      0%              17        20%                  6     18%
                              Loans                                 1      3%                  0      0%                 0      0%                  0      0%              38        17%             14         11%
                              Prinicpal and Interest      49,655           2%                  0      0%                 0      0%                  0      0%      5,411,748         18%       316,742           4%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 211
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             DE SOTO, FLORIDA                                            DIXIE, FLORIDA                               ESCAMBIA, FLORIDA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                             8                          2                         3                          1                     23                             0
                              Loans                                12                          2                         7                          3                     28                             0
                              Principal and Interest     633,358                       6,340                  940,651                    542,914                  1,476,542                              0

WHITE                         Borrowers                             8   100%                   2   100%                  3   100%                   1   100%              23      100%                   0      0%
                              Loans                                12   100%                   2   100%                  7   100%                   3   100%              28      100%                   0      0%
                              Principal and Interest     633,358        100%           6,340       100%       940,651        100%        542,914        100%      1,476,542       100%                   0      0%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 212
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            FLAGLER, FLORIDA                                     GADSDEN, FLORIDA                                   GILCHRIST, FLORIDA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            6                          1                         9                          3                     14                             3
                              Loans                                9                          1                     15                             8                     30                        12
                              Principal and Interest     691,781                         86                  780,903                    200,057                  1,521,480                   219,220

WHITE                         Borrowers                            6   100%                   1   100%                  5     56%                  2     67%             14      100%                   3   100%
                              Loans                                9   100%                   1   100%                  8     53%                  5     63%             30      100%              12       100%
                              Principal and Interest     691,781       100%              86       100%       738,876          95%       195,340          98%     1,521,480       100%        219,220        100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 4     44%                  1     33%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 7     47%                  3     38%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%        42,027          5%          4,717          2%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 213
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             GLADES, FLORIDA                                            GULF, FLORIDA                               HAMILTON, FLORIDA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            1                          1                         5                          0                     24                        11
                              Loans                                1                          1                         6                          0                     86                        65
                              Principal and Interest      46,469                      3,400                  218,235                               0             5,122,271                 2,345,289

WHITE                         Borrowers                            0      0%                  0      0%                 2     40%                  0      0%             18        75%                  8     73%
                              Loans                                0      0%                  0      0%                 2     33%                  0      0%             67        78%             49         75%
                              Principal and Interest               0      0%                  0      0%        12,094          6%                  0      0%     4,451,965         87%     2,020,006          86%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 2     40%                  0      0%                 5     21%                  3     27%
                              Loans                                0      0%                  0      0%                 2     33%                  0      0%             18        21%             16         25%
                              Principal and Interest               0      0%                  0      0%         1,699          1%                  0      0%      587,443          11%       325,283          14%

NATIVE AMERICAN               Borrowers                            1   100%                   1   100%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                1   100%                   1   100%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest      46,469       100%           3,400       100%                  0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 1     20%                  0      0%                 1      4%                  0      0%
                              Loans                                0      0%                  0      0%                 2     33%                  0      0%                 1      1%                  0      0%
                              Principal and Interest               0      0%                  0      0%      204,442          94%                  0      0%        82,863          2%                  0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 214
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             HARDEE, FLORIDA                                       HENDRY, FLORIDA                                   HERNANDO, FLORIDA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            21                          4                         3                          3                         1                          1
                              Loans                                31                     11                             4                          4                         2                          2
                              Principal and Interest   3,587,754                  1,343,204                   656,579                    400,511                   151,361                     38,628

WHITE                         Borrowers                            21   100%                   4   100%                  1     33%                  1     33%                 1   100%                   1   100%
                              Loans                                31   100%              11       100%                  1     25%                  1     25%                 2   100%                   2   100%
                              Principal and Interest   3,587,754        100%      1,343,204        100%         39,658          6%        14,525           4%      151,361        100%         38,628        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 1     33%                  1     33%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 1     25%                  1     25%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%      588,483          90%       372,301          93%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                 1     33%                  1     33%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 2     50%                  2     50%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%        28,438          4%        13,685           3%                 0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 215
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         HIGHLANDS, FLORIDA                                  HILLSBOROUGH, FLORIDA                                        HOLMES, FLORIDA
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            22                     10                          65                        17                         109                        28
                              Loans                                58                     34                         164                        87                         327                       111
                              Principal and Interest   3,829,614                    884,827                  10,657,443                 1,528,891                  13,840,656                 2,273,332

WHITE                         Borrowers                            17     77%                  8     80%              60        92%             16         94%             102        94%             26         93%
                              Loans                                49     84%             29         85%             156        95%             84         97%             311        95%            108         97%
                              Principal and Interest   3,240,720          85%       698,846          79%      9,980,152         94%     1,435,074          94%     12,932,251         93%     2,233,173          98%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                  1      2%                  1      6%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  3      2%                  3      3%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%       326,597           3%        93,816           6%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                  6      6%                  2      7%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%              13         4%                  3      3%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%       864,968           6%        40,159           2%

ASIAN                         Borrowers                             1      5%                  1     10%                  1      2%                  0      0%                  0      0%                  0      0%
                              Loans                                 4      7%                  4     12%                  2      1%                  0      0%                  0      0%                  0      0%
                              Principal and Interest     435,174          11%       146,550          17%         60,274          1%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             4     18%                  1     10%                  3      5%                  0      0%                  1      1%                  0      0%
                              Loans                                 5      9%                  1      3%                  3      2%                  0      0%                  3      1%                  0      0%
                              Prinicpal and Interest     153,721           4%        39,431           4%       290,420           3%                  0      0%         43,437          0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 216
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       INDIAN RIVER, FLORIDA                                      JACKSON, FLORIDA                                   JEFFERSON, FLORIDA
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            4                          2                      92                        48                             8                          3
                              Loans                                5                          2                     277                       181                         18                             6
                              Principal and Interest     327,993                    17,115                  19,370,010                 6,872,782                   327,948                     47,855

WHITE                         Borrowers                            4   100%                   2   100%               77        84%             38         79%                 5     63%                  2     67%
                              Loans                                5   100%                   2   100%              204        74%            124         69%             12        67%                  5     83%
                              Principal and Interest     327,993       100%         17,115        100%      17,707,900         91%     6,184,306          90%      209,208          64%        47,296          99%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%              13        14%                  8     17%                 2     25%                  1     33%
                              Loans                                0      0%                  0      0%              70        25%             54         30%                 4     22%                  1     17%
                              Principal and Interest               0      0%                  0      0%      1,611,389          8%       682,969          10%        54,400         17%            558          1%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  1      1%                  1      2%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  1      0%                  1      1%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%         44,145          0%          2,973          0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%                  0      0%                  1      1%                  1      2%                 1     13%                  0      0%
                              Loans                                0      0%                  0      0%                  2      1%                  2      1%                 2     11%                  0      0%
                              Principal and Interest               0      0%                  0      0%          6,576          0%          2,534          0%        64,340         20%                  0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 217
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         LAFAYETTE, FLORIDA                                              LAKE, FLORIDA                                        LEE, FLORIDA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                             9                          2                     26                             7                     14                             8
                              Loans                                23                     14                         49                        16                         33                        18
                              Principal and Interest   1,309,817                    132,364                  4,631,272                   314,088                  1,720,557                   326,428

WHITE                         Borrowers                             9   100%                   2   100%              22        85%                  6     86%             14      100%                   8   100%
                              Loans                                23   100%              14       100%              39        80%             13         81%             33      100%              18       100%
                              Principal and Interest   1,309,817        100%        132,364        100%      4,343,749         94%       288,710          92%     1,720,557       100%        326,428        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 2      8%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 2      4%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%        35,871          1%                  0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                 1      4%                  1     14%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 3      6%                  3     19%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%      124,270           3%        25,378           8%                 0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                 1      4%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 5     10%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%      127,381           3%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 218
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   LEON, FLORIDA                                         LEVY, FLORIDA                                 LIBERTY, FLORIDA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                             4                          1                     10                             2                         4                          1
                              Loans                                11                          5                     16                             2                         6                          1
                              Principal and Interest     205,280                     17,311                  1,820,931                      3,887                    31,146                         25

WHITE                         Borrowers                             3     75%                  0      0%                 8     80%                  2   100%                  4   100%                   1   100%
                              Loans                                 6     55%                  0      0%             14        88%                  2   100%                  6   100%                   1   100%
                              Principal and Interest     172,275          84%                  0      0%     1,555,919         85%          3,887       100%         31,146       100%              25       100%

AFRICAN AMERICAN              Borrowers                             1     25%                  1   100%                  1     10%                  0      0%                 0      0%                  0      0%
                              Loans                                 5     45%                  5   100%                  1      6%                  0      0%                 0      0%                  0      0%
                              Principal and Interest      33,005          16%        17,311        100%          7,138          0%                  0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                 1     10%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 1      6%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%      257,874          14%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 219
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            MADISON, FLORIDA                                     MANATEE, FLORIDA                                       MARION, FLORIDA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            40                     11                         11                             8                     12                             8
                              Loans                           117                         37                         51                        44                         38                        29
                              Principal and Interest   5,253,454                  1,605,390                  8,704,579                 5,080,672                  4,819,140                 2,379,024

WHITE                         Borrowers                            32     80%                  9     82%                 8     73%                  5     63%                 7     58%                  6     75%
                              Loans                                94     80%             28         76%             21        41%             14         32%             22        58%             20         69%
                              Principal and Interest   4,342,627          83%     1,440,569          90%     2,885,302         33%       987,608          19%     3,655,706         76%     2,184,480          92%

AFRICAN AMERICAN              Borrowers                             6     15%                  2     18%                 3     27%                  3     38%                 5     42%                  2     25%
                              Loans                                18     15%                  9     24%             30        59%             30         68%             16        42%                  9     31%
                              Principal and Interest     665,848          13%       164,821          10%     5,819,277         67%     4,093,064          81%     1,163,434         24%       194,544           8%

NATIVE AMERICAN               Borrowers                             1      3%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 1      1%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest     217,242           4%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                             1      3%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 4      3%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest      27,737           1%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 220
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             MARTIN, FLORIDA                                     MONROE, FLORIDA                                       NASSAU, FLORIDA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            4                          2                         1                          1                     13                             6
                              Loans                                5                          2                         1                          1                     24                        13
                              Principal and Interest     757,175                    48,678                  1,517,272                    60,721                  2,054,947                   637,072

WHITE                         Borrowers                            4   100%                   2   100%                  1   100%                   1   100%              13      100%                   6   100%
                              Loans                                5   100%                   2   100%                  1   100%                   1   100%              24      100%              13       100%
                              Principal and Interest     757,175       100%         48,678        100%      1,517,272       100%         60,721        100%      2,054,947       100%        637,072        100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 221
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          OKALOOSA, FLORIDA                                   OKEECHOBEE, FLORIDA                                       ORANGE, FLORIDA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            27                     14                         27                        12                             4                          1
                              Loans                                70                     43                         35                        14                             9                          1
                              Principal and Interest   2,098,938                    805,598                  1,417,956                   225,163                   429,681                          15

WHITE                         Borrowers                            27   100%              14       100%                  7     26%                  3     25%                 4   100%                   1   100%
                              Loans                                70   100%              43       100%              11        31%                  4     29%                 9   100%                   1   100%
                              Principal and Interest   2,098,938        100%        805,598        100%       614,637          43%       179,425          80%      429,681        100%              15       100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%             18        67%                  8     67%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%             21        60%                  8     57%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%      765,507          54%        30,099          13%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                 1      4%                  1      8%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 2      6%                  2     14%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%        35,731          3%        15,639           7%                 0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                 1      4%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 1      3%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%         2,082          0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 222
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            OSCEOLA, FLORIDA                                  PALM BEACH, FLORIDA                                         PASCO, FLORIDA
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            1                          0                      22                        12                         10                             8
                              Loans                                1                          0                      95                        73                         45                        34
                              Principal and Interest      81,132                              0             18,383,549                 10,288,175                 2,584,290                   567,592

WHITE                         Borrowers                            1   100%                   0      0%              18        82%                  9     75%             10      100%                   8   100%
                              Loans                                1   100%                   0      0%              77        81%             56         77%             45      100%              34       100%
                              Principal and Interest      81,132       100%                   0      0%     16,610,902         90%      9,668,270         94%     2,584,290       100%        567,592        100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                  1      5%                  1      8%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  2      2%                  2      3%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%       386,004           2%        64,808           1%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                  2      9%                  1      8%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  8      8%                  7     10%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%       800,024           4%       140,018           1%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                  1      5%                  1      8%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                  8      8%                  8     11%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%       586,619           3%       415,078           4%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 223
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           PINELLAS, FLORIDA                                            POLK, FLORIDA                                  PUTNAM, FLORIDA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            1                          1                     43                        20                         14                             4
                              Loans                                3                          3                     59                        24                         27                        12
                              Principal and Interest     211,012                    51,116                  5,911,349                   628,308                  2,056,944                   243,639

WHITE                         Borrowers                            1   100%                   1   100%              41        95%             19         95%             10        71%                  4   100%
                              Loans                                3   100%                   3   100%              57        97%             23         96%             22        81%             12       100%
                              Principal and Interest     211,012       100%         51,116        100%      5,830,276         99%       623,458          99%     1,569,877         76%       243,639        100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 1      2%                  1      5%                 4     29%                  0      0%
                              Loans                                0      0%                  0      0%                 1      2%                  1      4%                 5     19%                  0      0%
                              Principal and Interest               0      0%                  0      0%        55,140          1%          4,850          1%      487,067          24%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 1      2%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 1      2%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%        25,933          0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 224
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         SANTA ROSA, FLORIDA                                     SEMINOLE, FLORIDA                                     ST JOHNS, FLORIDA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            15                          4                         7                          2                         8                          2
                              Loans                                34                     11                         27                        11                         11                             3
                              Principal and Interest   1,590,725                    118,297                  1,548,590                   240,948                  1,158,743                    22,364

WHITE                         Borrowers                            15   100%                   4   100%                  7   100%                   2   100%                  7     88%                  2   100%
                              Loans                                34   100%              11       100%              27      100%              11       100%              10        91%                  3   100%
                              Principal and Interest   1,590,725        100%        118,297        100%      1,548,590       100%        240,948        100%       857,053          74%        22,364        100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 1     13%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 1      9%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%      301,690          26%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 225
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            ST LUCIE, FLORIDA                                      SUMTER, FLORIDA                                   SUWANNEE, FLORIDA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                             3                          2                     17                        10                         56                        22
                              Loans                                19                     17                         71                        52                        117                        56
                              Principal and Interest     288,008                    174,746                  2,467,542                   633,716                  7,164,381                   989,378

WHITE                         Borrowers                             2     67%                  1     50%             14        82%                  9     90%             49        88%             17         77%
                              Loans                                 6     32%                  5     29%             61        86%             48         92%            104        89%             46         82%
                              Principal and Interest     107,028          37%        56,830          33%     1,898,756         77%       598,421          94%     6,683,282         93%       830,401          84%

AFRICAN AMERICAN              Borrowers                             1     33%                  1     50%                 2     12%                  1     10%                 6     11%                  4     18%
                              Loans                                13     68%             12         71%                 7     10%                  4      8%             12        10%                  9     16%
                              Principal and Interest     180,979          63%       117,916          67%      119,413           5%        35,295           6%      478,489           7%       156,367          16%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 1      2%                  1      5%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 1      1%                  1      2%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%         2,611          0%          2,611          0%

HISPANIC                      Borrowers                             0      0%                  0      0%                 1      6%                  0      0%                 0      0%                  0      0%
                              Loans                                 0      0%                  0      0%                 3      4%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%                  0      0%      449,373          18%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 226
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             TAYLOR, FLORIDA                                        UNION, FLORIDA                                    VOLUSIA, FLORIDA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            3                          1                     24                        16                         42                        10
                              Loans                                6                          1                     93                        72                         95                        46
                              Principal and Interest     525,165                   213,260                  7,127,064                 4,108,462                  7,620,510                 2,153,512

WHITE                         Borrowers                            3   100%                   1   100%              24      100%              16       100%              37        88%                  9     90%
                              Loans                                6   100%                   1   100%              93      100%              72       100%              85        89%             44         96%
                              Principal and Interest     525,165       100%        213,260        100%      7,127,064       100%      4,108,462        100%      6,878,117         90%     2,123,524          99%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 1      2%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 4      4%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%        21,805          0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 2      5%                  1     10%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 3      3%                  2      4%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%      600,365           8%        29,988           1%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 2      5%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 3      3%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%      120,222           2%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 227
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           WAKULLA, FLORIDA                                      WALTON, FLORIDA                                  WASHINGTON, FLORIDA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            2                          1                     23                             8                     66                        24
                              Loans                                3                          2                     81                        59                        211                       103
                              Principal and Interest      86,142                    18,460                  2,613,160                   852,776                  9,028,998                 2,290,183

WHITE                         Borrowers                            2   100%                   1   100%              22        96%                  8   100%              60        91%             21         88%
                              Loans                                3   100%                   2   100%              80        99%             59       100%             187        89%             82         80%
                              Principal and Interest      86,142       100%         18,460        100%      2,588,664         99%       852,776        100%      8,228,030         91%     2,059,768          90%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 1      2%                  1      4%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%             18         9%             18         17%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%      271,194           3%       200,865           9%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 1      4%                  0      0%                 5      8%                  2      8%
                              Loans                                0      0%                  0      0%                 1      1%                  0      0%                 6      3%                  3      3%
                              Principal and Interest               0      0%                  0      0%        24,496          1%                  0      0%      529,774           6%        29,549           1%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 228
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              STATE OF FLORIDA
                                                         Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                       1,228                        468
                              Loans                           3,345                      1,815
                              Principal and Interest   239,705,188                  76,072,507

WHITE                         Borrowers                       1,043         85%            389         83%
                              Loans                           2,810         84%          1,489         82%
                              Principal and Interest   208,319,899          87%     66,634,184         88%

AFRICAN AMERICAN              Borrowers                              89      7%             44          9%
                              Loans                             355         11%            252         14%
                              Principal and Interest    15,245,345           6%      7,195,679          9%

NATIVE AMERICAN               Borrowers                              39      3%             17          4%
                              Loans                                  60      2%             26          1%
                              Principal and Interest     4,781,339           2%       947,049           1%

ASIAN                         Borrowers                              14      1%                  6      1%
                              Loans                                  30      1%             18          1%
                              Principal and Interest     3,027,868           1%       489,871           1%

OTHER                         Borrowers                              11      1%                  4      1%
                              Loans                                  24      1%                  7      0%
                              Principal and Interest       965,588           0%        34,469           0%

HISPANIC                      Borrowers                              32      3%                  8      2%
                              Loans                                  66      2%             23          1%
                              Prinicpal and Interest     7,365,151           3%       771,251           1%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED   Page 229
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American           Asian            Hispanic
 FL BONIFAY               Approved   No. of Applications                43        37   86%             0   0%            6   14%           0   0%          0     0%
                                     Receipt to Completion                        17                   0                 8                 0               0
                                     Completion to Approval                       13                   0                21                 0               0
                                     Approval to Loan Closing                     22                   0                28                 0               0

                          Rejected   No. of Applications                7         4    57%            0    0%           3    43%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                 0                  0              0
                                     Completion to Rejected                       0                   0                 0                  0              0

                          Withdrawn No. of Applications                 47       45    96%            0    0%           2    4%            0   0%         0      0%
                                    Receipt to Completion                         3                   0                 2                  0              0
                                    Completion to Withdrawn                       8                   0                33                  0              0

 FL   CRESTVIEW           Approved   No. of Applications                12       12    100%           0    0%           0    0%            0   0%         0      0%
                                     Receipt to Completion                       60                   0                 0                  0              0
                                     Completion to Approval                      39                   0                 0                  0              0
                                     Approval to Loan Closing                    27                   0                 0                  0              0

                          Rejected   No. of Applications                6         6    100%           0    0%           0    0%            0   0%         0      0%
                                     Receipt to Completion                       25                   0                 0                  0              0
                                     Completion to Rejected                       9                   0                 0                  0              0

                          Withdrawn No. of Applications                 2         2    100%           0    0%           0    0%            0   0%         0      0%
                                    Receipt to Completion                         0                   0                 0                  0              0
                                    Completion to Withdrawn                       0                   0                 0                  0              0

 FL   DELAND              Approved   No. of Applications                5         5    100%           0    0%           0    0%            0   0%         0      0%
                                     Receipt to Completion                       12                   0                 0                  0              0
                                     Completion to Approval                      11                   0                 0                  0              0
                                     Approval to Loan Closing                    38                   0                 0                  0              0

                          Rejected   No. of Applications                2         2    100%           0    0%           0    0%            0   0%         0      0%
                                     Receipt to Completion                        0                   0                 0                  0              0
                                     Completion to Rejected                       0                   0                 0                  0              0

                          Withdrawn No. of Applications                 4         4    100%           0    0%           0    0%            0   0%         0      0%
                                    Receipt to Completion                        20                   0                 0                  0              0
                                    Completion to Withdrawn                       1                   0                 0                  0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 230
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                  African            Native
State   Servicing Office   Decision           Average Days       Total        White              American           American          Asian              Hispanic
 FL GAINSVILLE             Approved   No. of Applications                5         5      100%            0   0%            0   0%            0    0%           0     0%
                                      Receipt to Completion                       43                      0                 0                 0                 0
                                      Completion to Approval                      15                      0                 0                 0                 0
                                      Approval to Loan Closing                    34                      0                 0                 0                 0

                           Rejected   No. of Applications                13       12      92%            0    0%           0    0%            0    0%          1      8%
                                      Receipt to Completion                       69                     0                 0                  0               21
                                      Completion to Rejected                      13                     0                 0                  0               14

                           Withdrawn No. of Applications                 5            3   60%            0    0%           0    0%            0    0%          2     40%
                                     Receipt to Completion                            0                  0                 0                  0                0
                                     Completion to Withdrawn                          0                  0                 0                  0                0

 FL   HOMESTEAD            Approved   No. of Applications                20       15      75%            0    0%           0    0%             2   10%         3     15%
                                      Receipt to Completion                       40                     0                 0                   0              48
                                      Completion to Approval                      30                     0                 0                   6              48
                                      Approval to Loan Closing                    37                     0                 0                  18              10

                           Rejected   No. of Applications                3         2      67%            1    33%          0    0%            0    0%          0      0%
                                      Receipt to Completion                        0                    19                 0                  0                0
                                      Completion to Rejected                      30                    52                 0                  0                0

                           Withdrawn No. of Applications                 32       28      88%            0    0%           0    0%            3    9%          1      3%
                                     Receipt to Completion                         0                     0                 0                  0                0
                                     Completion to Withdrawn                       0                     0                 0                  0                0

 FL   LAKE CITY            Approved   No. of Applications                4         2      50%            2    50%          0    0%            0    0%          0      0%
                                      Receipt to Completion                       14                    15                 0                  0                0
                                      Completion to Approval                      19                    31                 0                  0                0
                                      Approval to Loan Closing                    11                    22                 0                  0                0

                           Rejected   No. of Applications                2         1      50%            0    0%           1    50%           0    0%          0      0%
                                      Receipt to Completion                        7                     0               109                  0                0
                                      Completion to Rejected                      45                     0                58                  0                0

                           Withdrawn No. of Applications                 3            2   67%            1    33%          0    0%            0    0%          0      0%
                                     Receipt to Completion                            0                  0                 0                  0                0
                                     Completion to Withdrawn                          0                  0                 0                  0                0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                    Page 231
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African            Native
State  Servicing Office   Decision           Average Days       Total        White              American           American         Asian            Hispanic
 FL MADISON               Approved   No. of Applications                8         8      100%            0   0%            0   0%           0   0%          0     0%
                                     Receipt to Completion                       15                      0                 0                0               0
                                     Completion to Approval                      13                      0                 0                0               0
                                     Approval to Loan Closing                    21                      0                 0                0               0

                          Rejected   No. of Applications                3            3   100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                           9                  0                 0                 0              0
                                     Completion to Rejected                          9                  0                 0                 0              0

                          Withdrawn No. of Applications                 4            4   100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                            0                  0                 0                 0              0
                                    Completion to Withdrawn                          0                  0                 0                 0              0

 FL   MARIANNA            Approved   No. of Applications                18       17      94%            1    6%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       47                    40                 0                 0              0
                                     Completion to Approval                       7                     0                 0                 0              0
                                     Approval to Loan Closing                    20                    15                 0                 0              0

                          Rejected   No. of Applications                7         5      71%            2    29%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       13                    32                 0                 0              0
                                     Completion to Rejected                       8                     0                 0                 0              0

                          Withdrawn No. of Applications                 14       14      100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         2                     0                 0                 0              0
                                    Completion to Withdrawn                       3                     0                 0                 0              0

 FL   N FORT MYERS        Approved   No. of Applications                3         3      100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                       99                     0                 0                 0              0
                                     Completion to Approval                       2                     0                 0                 0              0
                                     Approval to Loan Closing                    67                     0                 0                 0              0

                          Rejected   No. of Applications                0            0    0%            0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                           0                  0                 0                 0              0
                                     Completion to Rejected                          0                  0                 0                 0              0

                          Withdrawn No. of Applications                 10       10      100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                     0                 0                 0              0
                                    Completion to Withdrawn                       0                     0                 0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 232
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American           Asian            Hispanic
 FL OKEECHOBEE            Approved   No. of Applications                21        14   67%             0   0%            2   10%           0   0%          5    24%
                                     Receipt to Completion                         5                   0                 0                 0              51
                                     Completion to Approval                       22                   0                10                 0              11
                                     Approval to Loan Closing                     15                   0              132                  0              23

                          Rejected   No. of Applications                3         1    33%            0    0%           1    33%           0   0%         1     33%
                                     Receipt to Completion                        1                   0                30                  0              0
                                     Completion to Rejected                      24                   0                31                  0              0

                          Withdrawn No. of Applications                 14       12    86%            0    0%           1    7%            0   0%         1      7%
                                    Receipt to Completion                        17                   0                 0                  0              0
                                    Completion to Withdrawn                      20                   0                 0                  0              0

 FL   PALATKA             Approved   No. of Applications                2         2    100%           0    0%           0    0%            0   0%         0      0%
                                     Receipt to Completion                       32                   0                 0                  0              0
                                     Completion to Approval                       0                   0                 0                  0              0
                                     Approval to Loan Closing                    14                   0                 0                  0              0

                          Rejected   No. of Applications                2         2    100%           0    0%           0    0%            0   0%         0      0%
                                     Receipt to Completion                       19                   0                 0                  0              0
                                     Completion to Rejected                       4                   0                 0                  0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%           0    0%            0   0%         0      0%
                                    Receipt to Completion                         0                   0                 0                  0              0
                                    Completion to Withdrawn                       0                   0                 0                  0              0

 FL   PLANT CITY          Approved   No. of Applications                39       37    95%            0    0%           0    0%            0   0%         2      5%
                                     Receipt to Completion                       16                   0                 0                  0             32
                                     Completion to Approval                      22                   0                 0                  0             24
                                     Approval to Loan Closing                    20                   0                 0                  0             50

                          Rejected   No. of Applications                5         5    100%           0    0%           0    0%            0   0%         0      0%
                                     Receipt to Completion                       30                   0                 0                  0              0
                                     Completion to Rejected                      27                   0                 0                  0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%           0    0%            0   0%         0      0%
                                    Receipt to Completion                        43                   0                 0                  0              0
                                    Completion to Withdrawn                       9                   0                 0                  0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 233
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African           Native
State  Servicing Office   Decision           Average Days       Total        White              American          American         Asian             Hispanic
 FL TAVARES               Approved   No. of Applications                2         2      100%            0   0%           0   0%           0    0%          0     0%
                                     Receipt to Completion                       25                      0                0                0                0
                                     Completion to Approval                       9                      0                0                0                0
                                     Approval to Loan Closing                    20                      0                0                0                0

                          Rejected   No. of Applications                0            0    0%            0    0%          0    0%           0    0%         0      0%
                                     Receipt to Completion                           0                  0                0                 0               0
                                     Completion to Rejected                          0                  0                0                 0               0

                          Withdrawn No. of Applications                 3            3   100%           0    0%          0    0%           0    0%         0      0%
                                    Receipt to Completion                            0                  0                0                 0               0
                                    Completion to Withdrawn                          0                  0                0                 0               0

 FL   STATE               Approved   No. of Applications           182          159      87%            3    2%          8    4%            2   1%        10      5%
                                     Receipt to Completion                       27                    23                6                  0             46
                                     Completion to Approval                      18                    21               18                  6             25
                                     Approval to Loan Closing                    24                    20               54                 18             25

                          Rejected   No. of Applications                53       43      81%            3    6%          5    9%           0    0%         2      4%
                                     Receipt to Completion                       29                    28               28                 0              11
                                     Completion to Rejected                      13                    17               18                 0               7

                          Withdrawn No. of Applications            142          131      92%            1    1%          3    2%           3    2%         4      3%
                                    Receipt to Completion                         4                     0                1                 0               0
                                    Completion to Withdrawn                       5                     0               22                 0               0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 234
                            Demographics         236
                        FSA’s Loan Portfolio     256
                        FSA’s Application data   304




USDA/OIG-A/50801-4-Hq                                  235
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American                Asian                  Other                 Hispanic
                                           Total     Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
       GA                  Population       15,744     12,286    78%          3,266     21%         17          0%         33          0%              4      0%        138       1%
       Appling County      Borrowers            25         25   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               535        530    99%              5      1%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   105,538    105,474   100%             64      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population        6,213      4,400    71%          1,654     27%              2      0%              3      0%              0      0%        154       2%
       Atkinson County     Borrowers            13         12    92%              1      8%              0      0%              0      0%              0      0%          0       0%
                           Farms               244        241    99%              3      1%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms    77,659     77,659   100%              0      0%              0      0%              0      0%              0      0%          0       0%

       GA                  Population        9,566      7,992    84%          1,469     15%              6      0%         13          0%              3      0%         83       1%
       Bacon County        Borrowers            31         31   100%              0      0%              0      0%          0          0%              0      0%          0       0%
                           Farms               349        344    99%              5      1%              0      0%          0          0%              0      0%          0       0%
                           Land in Farms    78,739     78,739   100%              0      0%              0      0%          0          0%              0      0%          0       0%

       GA                  Population        3,615      1,745    48%          1,846     51%              1      0%              2      0%              0      0%         21       1%
       Baker County        Borrowers            20         12    60%              8     40%              0      0%              0      0%              0      0%          0       0%
                           Farms               130        116    89%             14     11%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms   108,840    108,840   100%              0      0%              0      0%              0      0%              0      0%          0       0%

       GA                  Population       39,530     22,209    56%         16,668     42%         44          0%        257          1%              3      0%        349       1%
       Baldwin County      Borrowers             5          4    80%              1     20%          0          0%          0          0%              0      0%          0       0%
                           Farms               118        108    92%             10      8%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    32,976     32,976   100%              0      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population       10,308      9,844    95%            364      4%         17          0%         31          0%              0      0%         52       1%
       Banks County        Borrowers             6          6   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               469        465    99%              0      0%          0          0%          0          0%              0      0%          4       1%
                           Land in Farms    49,397     49,190   100%              0      0%          0          0%          0          0%              0      0%        207       0%

       GA                  Population       29,721     25,834    87%          3,348     11%         64          0%        218          1%              4      0%        253       1%
       Barrow County       Borrowers             5          5   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               386        382    99%              4      1%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    35,851     35,612    99%            239      1%          0          0%          0          0%              0      0%          0       0%

       GA                  Population       55,911     50,116     90%         5,013      9%        115          0%        137          0%              9      0%        521       1%
       Bartow County       Borrowers            12         11     92%             1      8%          0          0%          0          0%              0      0%          0       0%
                           Farms               390        386     99%             4      1%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    85,075     84,611     99%           464      1%          0          0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 236
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American                Asian                  Other                 Hispanic
                                           Total     Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
       GA                  Population       16,245     11,047    68%          5,068     31%         16          0%         34          0%              2      0%         78       0%
       Ben Hill County     Borrowers             2          2   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               183        174    95%              9      5%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    47,071     46,641    99%            430      1%          0          0%          0          0%              0      0%          0       0%

       GA                  Population       14,153     12,178    86%          1,642     12%         27          0%         29          0%              0      0%        277       2%
       Berrien County      Borrowers            10         10   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               436        436   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   129,216    129,216   100%              0      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population      149,967     85,744    57%         62,330     42%        180          0%        766          1%         31          0%        916       1%
       Bibb County         Borrowers             2          2   100%              0      0%          0          0%          0          0%          0          0%          0       0%
                           Farms               134        134   100%              0      0%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms    17,105     17,105   100%              0      0%          0          0%          0          0%          0          0%          0       0%

       GA                  Population       10,430      7,975    76%          2,328     22%              6      0%         78          1%              0      0%         43       0%
       Bleckley County     Borrowers            17         17   100%              0      0%              0      0%          0          0%              0      0%          0       0%
                           Farms               201        198    99%              3      1%              0      0%          0          0%              0      0%          0       0%
                           Land in Farms    62,983     62,709   100%            274      0%              0      0%          0          0%              0      0%          0       0%

       GA                  Population       11,077     10,408    94%            596      5%         32          0%              5      0%              0      0%         36       0%
       Brantley County     Borrowers            11         11   100%              0      0%          0          0%              0      0%              0      0%          0       0%
                           Farms               230        230   100%              0      0%          0          0%              0      0%              0      0%          0       0%
                           Land in Farms    27,561     27,561   100%              0      0%          0          0%              0      0%              0      0%          0       0%

       GA                  Population       15,398      8,725     57%         6,365     41%         27          0%         27          0%              1      0%        253       2%
       Brooks County       Borrowers            27         15     56%            12     44%          0          0%          0          0%              0      0%          0       0%
                           Farms               441        407     92%            30      7%          0          0%          0          0%              0      0%          4       1%
                           Land in Farms   168,861    163,352     97%         3,760      2%          0          0%          0          0%              0      0%      1,749       1%

       GA                  Population       15,438     12,932     84%         2,289     15%         22          0%         58          0%              1      0%        136       1%
       Bryan County        Borrowers             2          1     50%             1     50%          0          0%          0          0%              0      0%          0       0%
                           Farms                51         47     92%             4      8%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    15,948     15,751     99%           197      1%          0          0%          0          0%              0      0%          0       0%

       GA                  Population       43,125     31,281     73%        11,195     26%         55          0%        215          0%         19          0%        360       1%
       Bulloch County      Borrowers            40         35     88%             5     13%          0          0%          0          0%          0          0%          0       0%
                           Farms               558        527     94%            28      5%          0          0%          0          0%          0          0%          3       1%
                           Land in Farms   213,943    210,826     99%         3,117      1%          0          0%          0          0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 237
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American                Asian                  Other                 Hispanic
                                           Total     Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
       GA                  Population       20,579      9,719    47%         10,750     52%         13          0%         26          0%              4      0%         67          0%
       Burke County        Borrowers            37         28    76%              9     24%          0          0%          0          0%              0      0%          0          0%
                           Farms               315        276    88%             39     12%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms   166,511    166,511   100%              0      0%          0          0%          0          0%              0      0%          0          0%

       GA                  Population       15,326      9,711    63%          5,421     35%         38          0%         43          0%              0      0%        113          1%
       Butts County        Borrowers             0          0     0%              0      0%          0          0%          0          0%              0      0%          0          0%
                           Farms               139        139   100%              0      0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    29,213     29,213   100%              0      0%          0          0%          0          0%              0      0%          0          0%

       GA                  Population        5,013      2,047     41%         2,945     59%         12          0%              1      0%              0      0%              8      0%
       Calhoun County      Borrowers            21         16     76%             5     24%          0          0%              0      0%              0      0%              0      0%
                           Farms               114        107     94%             7      6%          0          0%              0      0%              0      0%              0      0%
                           Land in Farms   113,861    111,734     98%         2,127      2%          0          0%              0      0%              0      0%              0      0%

       GA                  Population       30,167     22,945     76%         6,056     20%        138          0%        382          1%         24          0%        622          2%
       Camden County       Borrowers             0          0      0%             0      0%          0          0%          0          0%          0          0%          0          0%
                           Farms                50         42     84%             8     16%          0          0%          0          0%          0          0%          0          0%
                           Land in Farms    17,944     17,527     98%           417      2%          0          0%          0          0%          0          0%          0          0%

       GA                  Population        7,744      5,187     67%         2,403     31%              7      0%              9      0%              0      0%        138          2%
       Candler County      Borrowers            16         12     75%             3     19%              0      0%              0      0%              1      6%          0          0%
                           Farms               229        214     93%            15      7%              0      0%              0      0%              0      0%          0          0%
                           Land in Farms    57,074     55,005     96%         2,069      4%              0      0%              0      0%              0      0%          0          0%

       GA                  Population       71,422     59,260    83%         11,186     16%        146          0%        224          0%         14          0%        592          1%
       Carroll County      Borrowers            18         18   100%              0      0%          0          0%          0          0%          0          0%          0          0%
                           Farms               771        766    99%              5      1%          0          0%          0          0%          0          0%          0          0%
                           Land in Farms    82,549     82,549   100%              0      0%          0          0%          0          0%          0          0%          0          0%

       GA                  Population       42,464     41,664    98%            354      1%         89          0%        151          0%              1      0%        205          0%
       Catoosa County      Borrowers             2          2   100%              0      0%          0          0%          0          0%              0      0%          0          0%
                           Farms               242        242   100%              0      0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    29,451     29,451   100%              0      0%          0          0%          0          0%              0      0%          0          0%

       GA                  Population        8,496      6,070    71%          2,352     28%         31          0%              8      0%              0      0%         35          0%
       Charlton County     Borrowers             1          1   100%              0      0%          0          0%              0      0%              0      0%          0          0%
                           Farms                88         88   100%              0      0%          0          0%              0      0%              0      0%          0          0%
                           Land in Farms    21,697     21,697   100%              0      0%          0          0%              0      0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                              Page 238
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                Asian                  Other                 Hispanic
                                              Total     Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
       GA                     Population      216,935    129,145    60%         82,179     38%        437          0%      2,276          1%        116          0%      2,782       1%
       Chatham County         Borrowers             0          0     0%              0      0%          0          0%          0          0%          0          0%          0       0%
                              Farms                40         40   100%              0      0%          0          0%          0          0%          0          0%          0       0%
                              Land in Farms     8,518      8,518   100%              0      0%          0          0%          0          0%          0          0%          0       0%

       GA                     Population       16,934      9,422    56%          5,140     30%         97          1%        435          3%         47          0%      1,793       11%
       Chattahoochee County   Borrowers             0          0     0%              0      0%          0          0%          0          0%          0          0%          0        0%
                              Farms                16         16   100%              0      0%          0          0%          0          0%          0          0%          0        0%
                              Land in Farms     5,901      5,901   100%              0      0%          0          0%          0          0%          0          0%          0        0%

       GA                     Population       22,242     20,180    91%          1,929      9%         39          0%         19          0%              0      0%         75       0%
       Chattooga County       Borrowers             9          8    89%              1     11%          0          0%          0          0%              0      0%          0       0%
                              Farms               257        257   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                              Land in Farms    52,651     52,651   100%              0      0%          0          0%          0          0%              0      0%          0       0%

       GA                     Population       90,204     86,890    96%          1,688      2%        246          0%        302          0%         19          0%      1,059       1%
       Cherokee County        Borrowers             3          3   100%              0      0%          0          0%          0          0%          0          0%          0       0%
                              Farms               473        473   100%              0      0%          0          0%          0          0%          0          0%          0       0%
                              Land in Farms    33,641     33,641   100%              0      0%          0          0%          0          0%          0          0%          0       0%

       GA                     Population       87,594     60,980    70%         22,850     26%        118          0%      2,107          2%         48          0%      1,491       2%
       Clarke County          Borrowers             3          1    33%              2     67%          0          0%          0          0%          0          0%          0       0%
                              Farms                76         76   100%              0      0%          0          0%          0          0%          0          0%          0       0%
                              Land in Farms    11,559     11,559   100%              0      0%          0          0%          0          0%          0          0%          0       0%

       GA                     Population        3,364      1,306     39%         2,031     60%              5      0%              3      0%              0      0%         19       1%
       Clay County            Borrowers             5          4     80%             0      0%              1     20%              0      0%              0      0%          0       0%
                              Farms                49         41     84%             8     16%              0      0%              0      0%              0      0%          0       0%
                              Land in Farms    42,678     40,108     94%         2,570      6%              0      0%              0      0%              0      0%          0       0%

       GA                     Population      182,052    129,798    71%         43,053     24%        437          0%      4,905          3%        113          0%      3,746       2%
       Clayton County         Borrowers             1          1   100%              0      0%          0          0%          0          0%          0          0%          0       0%
                              Farms                56         56   100%              0      0%          0          0%          0          0%          0          0%          0       0%
                              Land in Farms     4,519      4,519   100%              0      0%          0          0%          0          0%          0          0%          0       0%

       GA                     Population        6,160      4,410    72%          1,676     27%              8      0%              6      0%              0      0%         60       1%
       Clinch County          Borrowers             2          2   100%              0      0%              0      0%              0      0%              0      0%          0       0%
                              Farms                89         86    97%              3      3%              0      0%              0      0%              0      0%          0       0%
                              Land in Farms    13,563     13,563   100%              0      0%              0      0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 239
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American            Asian              Other                 Hispanic
                                           Total     Number     Percent     Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
       GA                  Population      447,745    385,831    86%         43,655     10%        909      0%      7,775      2%        172          0%      9,403       2%
       Cobb County         Borrowers             1          1   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                           Farms               136        136   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms    10,192     10,192   100%              0      0%          0      0%          0      0%          0          0%          0       0%

       GA                  Population       29,592     21,406    72%          7,484     25%         31      0%        109      0%              5      0%        557       2%
       Coffee County       Borrowers            42         42   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                           Farms               711        708   100%              3      0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   178,861    178,626   100%            235      0%          0      0%          0      0%              0      0%          0       0%

       GA                  Population       36,645     26,155    71%          8,791     24%         64      0%         39      0%              8      0%      1,588       4%
       Colquitt County     Borrowers            41         41   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                           Farms               693        685    99%              8      1%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   198,184    198,000   100%            184      0%          0      0%          0      0%              0      0%          0       0%

       GA                  Population       66,031     56,141    85%          7,239     11%        150      0%      1,518      2%         21          0%        962       1%
       Columbia County     Borrowers             0          0     0%              0      0%          0      0%          0      0%          0          0%          0       0%
                           Farms               154        149    97%              5      3%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms    26,984     26,984   100%              0      0%          0      0%          0      0%          0          0%          0       0%

       GA                  Population       13,456      9,155    68%          4,027     30%         34      0%         22      0%              1      0%        217       2%
       Cook County         Borrowers            12         12   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                           Farms               266        260    98%              6      2%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms    72,636     72,636   100%              0      0%          0      0%          0      0%              0      0%          0       0%

       GA                  Population       53,853     41,044    76%         12,162     23%        101      0%        149      0%         12          0%        385       1%
       Coweta County       Borrowers             6          6   100%              0      0%          0      0%          0      0%          0          0%          0       0%
                           Farms               333        328    98%              0      0%          0      0%          0      0%          0          0%          5       2%
                           Land in Farms    41,972     40,787    97%              0      0%          0      0%          0      0%          0          0%      1,185       3%

       GA                  Population        8,991      6,045     67%         2,751     31%         33      0%         13      0%              0      0%        149       2%
       Crawford County     Borrowers             8          7     88%             1     13%          0      0%          0      0%              0      0%          0       0%
                           Farms               122        114     93%             8      7%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms    37,973     36,493     96%         1,480      4%          0      0%          0      0%              0      0%          0       0%

       GA                  Population       20,011     11,742    59%          8,137     41%         36      0%         27      0%              7      0%         62       0%
       Crisp County        Borrowers             9          9   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                           Farms               199        199   100%              0      0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   109,923    109,923   100%              0      0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                  Page 240
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American                   Asian                  Other                 Hispanic
                                           Total     Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
       GA                  Population       13,147     12,915    98%            101         1%         42          0%         25          0%              0      0%         64       0%
       Dade County         Borrowers             3          3   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                           Farms               191        191   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    25,802     25,802   100%              0         0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population        9,429      9,301    99%                 4      0%         78          1%              7      0%              0      0%         39       0%
       Dawson County       Borrowers             0          0     0%                 0      0%          0          0%              0      0%              0      0%          0       0%
                           Farms               170        170   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                           Land in Farms    19,060     19,060   100%                 0      0%          0          0%              0      0%              0      0%          0       0%

       GA                  Population       25,511     15,012    59%          9,917        39%         61          0%         40          0%              9      0%        472       2%
       Decatur County      Borrowers            33         22    67%             11        33%          0          0%          0          0%              0      0%          0       0%
                           Farms               342        318    93%             24         7%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   168,593    168,593   100%              0         0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population      545,837    284,025    52%        228,922        42%        893          0%     15,952          3%        426          0%     15,619       3%
       DeKalb County       Borrowers             0          0     0%              0         0%          0          0%          0          0%          0          0%          0       0%
                           Farms                51         51   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms     3,046      3,046   100%              0         0%          0          0%          0          0%          0          0%          0       0%

       GA                  Population       17,607     12,564     71%         4,843        28%         16          0%         35          0%              1      0%        148       1%
       Dodge County        Borrowers            25         23     92%             2         8%          0          0%          0          0%              0      0%          0       0%
                           Farms               394        384     97%            10         3%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    97,215     96,676     99%           539         1%          0          0%          0          0%              0      0%          0       0%

       GA                  Population        9,901      4,959     50%         4,832        49%              3      0%         30          0%              0      0%         77       1%
       Dooly County        Borrowers            21         16     76%             5        24%              0      0%          0          0%              0      0%          0       0%
                           Farms               240        218     91%            22         9%              0      0%          0          0%              0      0%          0       0%
                           Land in Farms   156,805    154,873     99%         1,932         1%              0      0%          0          0%              0      0%          0       0%

       GA                  Population       96,311     46,607    48%         48,216        50%        235          0%        419          0%         18          0%        816       1%
       Dougherty County    Borrowers             1          1   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                           Farms               166        149    90%             17        10%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms    71,135     69,193    97%          1,942         3%          0          0%          0          0%          0          0%          0       0%

       GA                  Population       71,120     64,251    90%          5,553         8%        171          0%        377          1%         19          0%        749       1%
       Douglas County      Borrowers             1          1   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                           Farms               103        103   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms     8,151      8,151   100%              0         0%          0          0%          0          0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 241
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American                   Asian                  Other                 Hispanic
                                           Total     Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
       GA                  Population       11,854      6,570     55%         5,194        44%         31          0%         13          0%              1      0%         45       0%
       Early County        Borrowers            37         30     81%             7        19%          0          0%          0          0%              0      0%          0       0%
                           Farms               314        280     89%            34        11%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   184,137    175,788     95%         8,349         5%          0          0%          0          0%              0      0%          0       0%

       GA                  Population        2,334      1,990    85%            257        11%         40          2%              2      0%              0      0%         45       2%
       Echols County       Borrowers             7          7   100%              0         0%          0          0%              0      0%              0      0%          0       0%
                           Farms                85         85   100%              0         0%          0          0%              0      0%              0      0%          0       0%
                           Land in Farms    16,362     16,362   100%              0         0%          0          0%              0      0%              0      0%          0       0%

       GA                  Population       25,687     21,794    85%          3,601        14%         54          0%         56          0%         13          0%        169       1%
       Effingham County    Borrowers             4          4   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                           Farms               182        179    98%              3         2%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms    43,775     43,702   100%             73         0%          0          0%          0          0%          0          0%          0       0%

       GA                  Population       18,949     13,058    69%          5,702        30%              8      0%         45          0%              2      0%        134       1%
       Elbert County       Borrowers            14         12    86%              2        14%              0      0%          0          0%              0      0%          0       0%
                           Farms               314        314   100%              0         0%              0      0%          0          0%              0      0%          0       0%
                           Land in Farms    54,233     54,233   100%              0         0%              0      0%          0          0%              0      0%          0       0%

       GA                  Population       20,546     13,738    67%          6,665        32%         20          0%         41          0%              0      0%         82       0%
       Emanuel County      Borrowers            22         21    95%              1         5%          0          0%          0          0%              0      0%          0       0%
                           Farms               381        370    97%             11         3%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   123,702    123,702   100%              0         0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population        8,724      5,644    65%          2,952        34%              2      0%         14          0%              3      0%        109       1%
       Evans County        Borrowers             5          5   100%              0         0%              0      0%          0          0%              0      0%          0       0%
                           Farms               168        163    97%              5         3%              0      0%          0          0%              0      0%          0       0%
                           Land in Farms    40,608     40,264    99%            344         1%              0      0%          0          0%              0      0%          0       0%

       GA                  Population       15,992     15,872    99%                 5      0%         38          0%         15          0%              0      0%         62       0%
       Fannin County       Borrowers            15         15   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               176        176   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    15,577     15,577   100%                 0      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population       62,415     56,958    91%          3,334         5%         77          0%      1,039          2%         13          0%        994       2%
       Fayette County      Borrowers             0          0     0%              0         0%          0          0%          0          0%          0          0%          0       0%
                           Farms               208        208   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms    22,212     22,212   100%              0         0%          0          0%          0          0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 242
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American                   Asian                  Other                 Hispanic
                                           Total     Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
       GA                  Population       81,251     68,858    85%         11,027        14%        128          0%        400          0%              7      0%        831          1%
       Floyd County        Borrowers             6          6   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Farms               424        420    99%              4         1%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    73,659     73,659   100%              0         0%          0          0%          0          0%              0      0%          0          0%

       GA                  Population       44,083     43,257    98%                 9      0%         92          0%         81          0%              9      0%        635          1%
       Forsyth County      Borrowers             0          0     0%                 0      0%          0          0%          0          0%              0      0%          0          0%
                           Farms               502        499    99%                 0      0%          0          0%          0          0%              0      0%          3          1%
                           Land in Farms    36,260     36,260   100%                 0      0%          0          0%          0          0%              0      0%          0          0%

       GA                  Population       16,650     14,845    89%          1,674        10%         28          0%         26          0%              0      0%         77          0%
       Franklin County     Borrowers            25         25   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Farms               666        666   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    74,641     74,641   100%              0         0%          0          0%          0          0%              0      0%          0          0%

       GA                  Population      648,951    303,724    47%        322,428        50%        904          0%      8,221          1%        301          0%     13,373          2%
       Fulton County       Borrowers             2          2   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                           Farms               235        232    99%              3         1%          0          0%          0          0%          0          0%          0          0%
                           Land in Farms    21,975     21,720    99%            255         1%          0          0%          0          0%          0          0%          0          0%

       GA                  Population       13,368     13,193    99%             37         0%         15          0%         20          0%              1      0%        102          1%
       Gilmer County       Borrowers             6          6   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Farms               252        252   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    25,376     25,376   100%              0         0%          0          0%          0          0%              0      0%          0          0%

       GA                  Population        2,357      2,052    87%            297        13%              2      0%              0      0%              0      0%              6      0%
       Glascock County     Borrowers             0          0     0%              0         0%              0      0%              0      0%              0      0%              0      0%
                           Farms                78         78   100%              0         0%              0      0%              0      0%              0      0%              0      0%
                           Land in Farms    28,535     28,535   100%              0         0%              0      0%              0      0%              0      0%              0      0%

       GA                  Population       62,496     45,620    73%         15,874        25%        114          0%        285          0%         18          0%        585          1%
       Glynn County        Borrowers             1          1   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                           Farms                41         38    93%              3         7%          0          0%          0          0%          0          0%          0          0%
                           Land in Farms     9,681      9,681   100%              0         0%          0          0%          0          0%          0          0%          0          0%

       GA                  Population       35,072     33,350    95%          1,314         4%         82          0%        121          0%              5      0%        200          1%
       Gordon County       Borrowers            23         21    91%              2         9%          0          0%          0          0%              0      0%          0          0%
                           Farms               538        538   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    73,869     73,869   100%              0         0%          0          0%          0          0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 243
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American                Asian                  Other                 Hispanic
                                           Total     Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
       GA                  Population       20,279     13,538    67%          6,356     31%         75          0%         19          0%              2      0%        289       1%
       Grady County        Borrowers            41         38    93%              3      7%          0          0%          0          0%              0      0%          0       0%
                           Farms               521        512    98%              9      2%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   137,637    137,637   100%              0      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population       11,793      5,816     49%         5,867     50%         13          0%              1      0%              0      0%         96       1%
       Greene County       Borrowers            19         16     84%             3     16%          0          0%              0      0%              0      0%          0       0%
                           Farms               207        199     96%             8      4%          0          0%              0      0%              0      0%          0       0%
                           Land in Farms    46,748     45,846     98%           902      2%          0          0%              0      0%              0      0%          0       0%

       GA                  Population      352,910    315,548    89%         17,971      5%        681          0%     10,115          3%        125          0%      8,470       2%
       Gwinnett County     Borrowers             1          1   100%              0      0%          0          0%          0          0%          0          0%          0       0%
                           Farms               345        345   100%              0      0%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms    24,239     24,239   100%              0      0%          0          0%          0          0%          0          0%          0       0%

       GA                  Population       27,621     25,176    91%          1,532      6%         69          0%        497          2%              5      0%        342       1%
       Habersham County    Borrowers             3          3   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               455        455   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    36,074     36,074   100%              0      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population       95,428     81,860    86%          8,173      9%        177          0%        609          1%         51          0%      4,558       5%
       Hall County         Borrowers             7          7   100%              0      0%          0          0%          0          0%          0          0%          0       0%
                           Farms               689        684    99%              5      1%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms    53,944     53,833   100%            111      0%          0          0%          0          0%          0          0%          0       0%

       GA                  Population        8,908      1,789     20%         7,038     79%              6      0%              0      0%         12          0%         63       1%
       Hancock County      Borrowers             4          2     50%             2     50%              0      0%              0      0%          0          0%          0       0%
                           Farms               102         90     88%            12     12%              0      0%              0      0%          0          0%          0       0%
                           Land in Farms    35,387     34,066     96%         1,321      4%              0      0%              0      0%          0          0%          0       0%

       GA                  Population       21,966     20,381    93%          1,426      6%         27          0%         48          0%              0      0%         84       0%
       Haralson County     Borrowers             9          9   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               255        255   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    31,529     31,529   100%              0      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population       17,788     13,041    73%          4,559     26%         52          0%         39          0%              0      0%         97       1%
       Harris County       Borrowers             4          4   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               219        208    95%             11      5%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    31,037     30,351    98%            686      2%          0          0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 244
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American                Asian              Other                 Hispanic
                                           Total     Number     Percent     Number    Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
       GA                  Population       19,712     15,603     79%         3,985     20%         15          0%         33      0%              0      0%         76       0%
       Hart County         Borrowers            27         25     93%             2      7%          0          0%          0      0%              0      0%          0       0%
                           Farms               452        444     98%             8      2%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms    58,529     57,755     99%           774      1%          0          0%          0      0%              0      0%          0       0%

       GA                  Population        8,628      7,378    86%          1,150     13%         12          0%         20      0%              0      0%         68       1%
       Heard County        Borrowers             1          1   100%              0      0%          0          0%          0      0%              0      0%          0       0%
                           Farms               153        153   100%              0      0%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms    24,242     24,242   100%              0      0%          0          0%          0      0%              0      0%          0       0%

       GA                  Population       58,741     51,807    88%          6,041     10%        107          0%        323      1%              0      0%        463       1%
       Henry County        Borrowers             8          7    88%              0      0%          1         13%          0      0%              0      0%          0       0%
                           Farms               355        355   100%              0      0%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms    45,624     45,624   100%              0      0%          0          0%          0      0%              0      0%          0       0%

       GA                  Population       89,208     67,175    75%         19,279     22%        267          0%        993      1%         35          0%      1,459       2%
       Houston County      Borrowers            19         13    68%              6     32%          0          0%          0      0%          0          0%          0       0%
                           Farms               222        206    93%             13      6%          0          0%          0      0%          0          0%          3       1%
                           Land in Farms    73,417     73,417   100%              0      0%          0          0%          0      0%          0          0%          0       0%

       GA                  Population        8,649      5,973     69%         2,604     30%              6      0%         13      0%              0      0%         53       1%
       Irwin County        Borrowers            14         10     71%             4     29%              0      0%          0      0%              0      0%          0       0%
                           Farms               351        343     98%             8      2%              0      0%          0      0%              0      0%          0       0%
                           Land in Farms   135,247    133,141     98%         2,106      2%              0      0%          0      0%              0      0%          0       0%

       GA                  Population       30,005     26,830    89%          2,900     10%         60          0%         50      0%              5      0%        160       1%
       Jackson County      Borrowers             8          8   100%              0      0%          0          0%          0      0%              0      0%          0       0%
                           Farms               746        746   100%              0      0%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms    83,074     83,074   100%              0      0%          0          0%          0      0%              0      0%          0       0%

       GA                  Population        8,453      5,434     64%         2,936     35%         15          0%         10      0%              1      0%         57       1%
       Jasper County       Borrowers             8          7     88%             1     13%          0          0%          0      0%              0      0%          0       0%
                           Farms               201        196     98%             5      2%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms    60,811     60,355     99%           456      1%          0          0%          0      0%              0      0%          0       0%

       GA                  Population       12,032     10,025    83%          1,826     15%              9      0%         24      0%              4      0%        144       1%
       Jeff Davis County   Borrowers            27         26    96%              1      4%              0      0%          0      0%              0      0%          0       0%
                           Farms               263        255    97%              8      3%              0      0%          0      0%              0      0%          0       0%
                           Land in Farms    72,626     72,626   100%              0      0%              0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 245
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American                Asian                  Other                 Hispanic
                                           Total     Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
       GA                  Population       17,408      7,647    44%          9,688     56%         14          0%         16          0%              2      0%         41       0%
       Jefferson County    Borrowers            37         30    81%              7     19%          0          0%          0          0%              0      0%          0       0%
                           Farms               295        271    92%             24      8%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   136,082    136,082   100%              0      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population        8,247      4,802    58%          3,411     41%              5      0%         16          0%              0      0%         13       0%
       Jenkins County      Borrowers            22         22   100%              0      0%              0      0%          0          0%              0      0%          0       0%
                           Farms               178        175    98%              3      2%              0      0%          0          0%              0      0%          0       0%
                           Land in Farms    77,532     77,532   100%              0      0%              0      0%          0          0%              0      0%          0       0%

       GA                  Population        8,329      5,457     66%         2,825     34%              3      0%              7      0%              2      0%         35       0%
       Johnson County      Borrowers            11         10     91%             0      0%              0      0%              0      0%              1      9%          0       0%
                           Farms               224        216     96%             8      4%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms    71,379     70,558     99%           821      1%              0      0%              0      0%              0      0%          0       0%

       GA                  Population       20,739     15,271    74%          5,308     26%         31          0%         47          0%              3      0%         79       0%
       Jones County        Borrowers             4          4   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               157        154    98%              3      2%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    31,394     31,369   100%             25      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population       13,038      8,517     65%         4,442     34%         19          0%         11          0%              0      0%         49       0%
       Lamar County        Borrowers            10          9     90%             1     10%          0          0%          0          0%              0      0%          0       0%
                           Farms               203        195     96%             8      4%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    39,712     39,222     99%           490      1%          0          0%          0          0%              0      0%          0       0%

       GA                  Population        5,531      3,957    72%          1,455     26%         36          1%         15          0%              0      0%         68       1%
       Lanier County       Borrowers             1          1   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               107        107   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    40,955     40,955   100%              0      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population       39,988     26,395    66%         13,235     33%         35          0%        135          0%              8      0%        180       0%
       Laurens County      Borrowers            22         22   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               599        567    95%             32      5%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   168,051    164,190    98%          3,861      2%          0          0%          0          0%              0      0%          0       0%

       GA                  Population       16,250     12,949     80%         3,112     19%         30          0%         44          0%              3      0%        112       1%
       Lee County          Borrowers            15         11     73%             4     27%          0          0%          0          0%              0      0%          0       0%
                           Farms               136        124     91%            12      9%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   104,768    101,382     97%         3,386      3%          0          0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 246
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American                Asian                  Other                 Hispanic
                                           Total     Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
       GA                  Population       52,745     27,778    53%         20,285     38%        242          0%      1,100          2%        104          0%      3,236       6%
       Liberty County      Borrowers             2          2   100%              0      0%          0          0%          0          0%          0          0%          0       0%
                           Farms                49         40    82%              9     18%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms    15,583     15,121    97%            462      3%          0          0%          0          0%          0          0%          0       0%

       GA                  Population        7,442      4,573     61%         2,801     38%              3      0%              9      0%              0      0%         56       1%
       Lincoln County      Borrowers            11         10     91%             1      9%              0      0%              0      0%              0      0%          0       0%
                           Farms               163        159     98%             4      2%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms    32,657     32,451     99%           206      1%              0      0%              0      0%              0      0%          0       0%

       GA                  Population        6,202      4,608    74%          1,337     22%         23          0%         40          1%              5      0%        189       3%
       Long County         Borrowers             4          2    50%              2     50%          0          0%          0          0%              0      0%          0       0%
                           Farms                67         62    93%              5      7%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    11,969     11,969   100%              0      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population       75,981     50,013     66%        24,151     32%        213          0%        599          1%         14          0%        991       1%
       Lowndes County      Borrowers            17         12     71%             5     29%          0          0%          0          0%          0          0%          0       0%
                           Farms               363        326     90%            37     10%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms    73,023     69,970     96%         3,053      4%          0          0%          0          0%          0          0%          0       0%

       GA                  Population       14,573     13,844    95%            237      2%        235          2%         42          0%              2      0%        213       1%
       Lumpkin County      Borrowers             2          2   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               229        229   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    23,284     23,284   100%              0      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population       20,119     12,662    63%          7,307     36%         38          0%         28          0%              0      0%         84       0%
       McDuffie County     Borrowers             6          6   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               211        208    99%              3      1%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    33,785     33,734   100%             51      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population        8,634      4,852    56%          3,707     43%              9      0%              3      0%              0      0%         63       1%
       McIntosh County     Borrowers             1          1   100%              0      0%              0      0%              0      0%              0      0%          0       0%
                           Farms                33         33   100%              0      0%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms     8,003      8,003   100%              0      0%              0      0%              0      0%              0      0%          0       0%

       GA                  Population       13,114      5,340    41%          7,671     58%         15          0%         25          0%              6      0%         57       0%
       Macon County        Borrowers            42         33    79%              9     21%          0          0%          0          0%              0      0%          0       0%
                           Farms               274        252    92%             22      8%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   120,839    120,839   100%              0      0%          0          0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 247
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American                Asian                  Other                 Hispanic
                                           Total     Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
       GA                  Population       21,050     18,945    90%          1,845      9%         26          0%         52          0%              0      0%        182       1%
       Madison County      Borrowers            24         23    96%              1      4%          0          0%          0          0%              0      0%          0       0%
                           Farms               605        605   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    61,757     61,757   100%              0      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population        5,590      3,238     58%         2,300     41%         18          0%         11          0%              0      0%         23       0%
       Marion County       Borrowers            17         15     88%             2     12%          0          0%          0          0%              0      0%          0       0%
                           Farms               133        126     95%             7      5%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    45,448     43,821     96%         1,627      4%          0          0%          0          0%              0      0%          0       0%

       GA                  Population       22,411     12,308    55%          9,940     44%         25          0%         11          0%              6      0%        121       1%
       Meriwether County   Borrowers            11          9    82%              1      9%          0          0%          0          0%              1      9%          0       0%
                           Farms               268        264    99%              4      1%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    68,729     68,432   100%            297      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population        6,280      4,524    72%          1,725     27%              6      0%              4      0%              1      0%         20       0%
       Miller County       Borrowers            40         40   100%              0      0%              0      0%              0      0%              0      0%          0       0%
                           Farms               288        281    98%              7      2%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms   121,588    120,534    99%          1,054      1%              0      0%              0      0%              0      0%          0       0%

       GA                  Population       20,275     10,338    51%          9,611     47%         51          0%         15          0%              0      0%        260       1%
       Mitchell County     Borrowers            83         76    92%              6      7%          1          1%          0          0%              0      0%          0       0%
                           Farms               463        446    96%             17      4%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   205,573    205,573   100%              0      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population       17,113     11,554    68%          5,390     31%         36          0%         36          0%              1      0%         96       1%
       Monroe County       Borrowers             6          6   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               179        167    93%             12      7%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    44,599     44,599   100%              0      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population        7,163      4,981     70%         2,023     28%              4      0%         12          0%              1      0%        142       2%
       Montgomery County   Borrowers             8          6     75%             2     25%              0      0%          0          0%              0      0%          0       0%
                           Farms               231        217     94%            14      6%              0      0%          0          0%              0      0%          0       0%
                           Land in Farms    64,901     63,383     98%         1,518      2%              0      0%          0          0%              0      0%          0       0%

       GA                  Population       12,883      8,293     64%         4,436     34%         11          0%         26          0%              0      0%        117       1%
       Morgan County       Borrowers            30         26     87%             4     13%          0          0%          0          0%              0      0%          0       0%
                           Farms               366        350     96%            10      3%          0          0%          0          0%              0      0%          6       2%
                           Land in Farms    93,061     92,136     99%             0      0%          0          0%          0          0%              0      0%        925       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 248
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American            Asian                  Other                 Hispanic
                                           Total     Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
       GA                  Population       26,147     25,872    99%             41      0%         43      0%         54          0%              1      0%        136       1%
       Murray County       Borrowers             5          5   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                           Farms               216        216   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    32,950     32,950   100%              0      0%          0      0%          0          0%              0      0%          0       0%

       GA                  Population      179,278    103,395    58%         67,529     38%        530      0%      2,376          1%        154          0%      5,294       3%
       Muscogee County     Borrowers             0          0     0%              0      0%          0      0%          0          0%          0          0%          0       0%
                           Farms                44         44   100%              0      0%          0      0%          0          0%          0          0%          0       0%
                           Land in Farms     4,870      4,870   100%              0      0%          0      0%          0          0%          0          0%          0       0%

       GA                  Population       41,808     31,936    76%          9,286     22%         89      0%         98          0%              9      0%        390       1%
       Newton County       Borrowers             3          3   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                           Farms               255        252    99%              0      0%          0      0%          0          0%              0      0%          3       1%
                           Land in Farms    45,845     45,756   100%              0      0%          0      0%          0          0%              0      0%         89       0%

       GA                  Population       17,618     16,015    91%          1,309      7%         33      0%         80          0%              3      0%        178       1%
       Oconee County       Borrowers            15         11    73%              4     27%          0      0%          0          0%              0      0%          0       0%
                           Farms               298        298   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    51,836     51,836   100%              0      0%          0      0%          0          0%              0      0%          0       0%

       GA                  Population        9,763      7,267    74%          2,398     25%         23      0%              7      0%              2      0%         66       1%
       Oglethorpe County   Borrowers            15         14    93%              1      7%          0      0%              0      0%              0      0%          0       0%
                           Farms               303        297    98%              6      2%          0      0%              0      0%              0      0%          0       0%
                           Land in Farms    55,310     55,310   100%              0      0%          0      0%              0      0%              0      0%          0       0%

       GA                  Population       41,611     39,515    95%          1,642      4%        109      0%         73          0%              3      0%        269       1%
       Paulding County     Borrowers             0          0     0%              0      0%          0      0%          0          0%              0      0%          0       0%
                           Farms               220        220   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    18,644     18,644   100%              0      0%          0      0%          0          0%              0      0%          0       0%

       GA                  Population       21,189     10,642    50%         10,017     47%         72      0%         72          0%              8      0%        378       2%
       Peach County        Borrowers            14         13    93%              1      7%          0      0%          0          0%              0      0%          0       0%
                           Farms               157        143    91%             14      9%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    44,470     44,470   100%              0      0%          0      0%          0          0%              0      0%          0       0%

       GA                  Population       14,432     14,091    98%            245      2%         31      0%         19          0%              0      0%         46       0%
       Pickens County      Borrowers            11         10    91%              0      0%          0      0%          0          0%              1      9%          0       0%
                           Farms               207        207   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    18,254     18,254   100%              0      0%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 249
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American                Asian                  Other                 Hispanic
                                           Total     Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
       GA                  Population      13,328      11,628     87%         1,566     12%         20          0%         10          0%              0      0%        104          1%
       Pierce County       Borrowers           38          37     97%             1      3%          0          0%          0          0%              0      0%          0          0%
                           Farms              357         347     97%            10      3%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms   80,905      78,576     97%         2,329      3%          0          0%          0          0%              0      0%          0          0%

       GA                  Population      10,224       8,095    79%          2,042     20%         11          0%         21          0%              1      0%         54          1%
       Pike County         Borrowers            7           7   100%              0      0%          0          0%          0          0%              0      0%          0          0%
                           Farms              253         249    98%              4      2%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms   45,450      45,450   100%              0      0%          0          0%          0          0%              0      0%          0          0%

       GA                  Population      33,815      28,413    84%          4,772     14%         58          0%         87          0%              2      0%        483          1%
       Polk County         Borrowers            7           7   100%              0      0%          0          0%          0          0%              0      0%          0          0%
                           Farms              310         307    99%              3      1%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms   46,014      46,014   100%              0      0%          0          0%          0          0%              0      0%          0          0%

       GA                  Population       8,108       5,381     66%         2,623     32%              7      0%         14          0%              0      0%         83          1%
       Pulaski County      Borrowers            9           7     78%             2     22%              0      0%          0          0%              0      0%          0          0%
                           Farms              137         127     93%            10      7%              0      0%          0          0%              0      0%          0          0%
                           Land in Farms   80,396      69,420     86%        10,976     14%              0      0%          0          0%              0      0%          0          0%

       GA                  Population      14,137       9,253     65%         4,719     33%         21          0%         42          0%              5      0%         97          1%
       Putnam County       Borrowers            0           0      0%             0      0%          0          0%          0          0%              0      0%          0          0%
                           Farms              166         155     93%            11      7%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms   34,746      33,721     97%         1,025      3%          0          0%          0          0%              0      0%          0          0%

       GA                  Population       2,209       1,092    49%          1,107     50%              6      0%              3      0%              0      0%              1      0%
       Quitman County      Borrowers            0           0     0%              0      0%              0      0%              0      0%              0      0%              0      0%
                           Farms               24          21    88%              3     13%              0      0%              0      0%              0      0%              0      0%
                           Land in Farms   11,559      11,559   100%              0      0%              0      0%              0      0%              0      0%              0      0%

       GA                  Population      11,648      11,488    99%             41      0%         33          0%         17          0%              2      0%         67          1%
       Rabun County        Borrowers            2           2   100%              0      0%          0          0%          0          0%              0      0%          0          0%
                           Farms              131         131   100%              0      0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms   12,733      12,733   100%              0      0%          0          0%          0          0%              0      0%          0          0%

       GA                  Population       8,023       3,303    41%          4,629     58%              4      0%         46          1%              2      0%         39          0%
       Randolph County     Borrowers           16          16   100%              0      0%              0      0%          0          0%              0      0%          0          0%
                           Farms              126         120    95%              6      5%              0      0%          0          0%              0      0%          0          0%
                           Land in Farms   95,876      93,828    98%          2,048      2%              0      0%          0          0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                              Page 250
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American                Asian                  Other                 Hispanic
                                           Total     Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
       GA                  Population      189,719    103,009    54%         79,221     42%        491          0%      3,186          2%        105          0%      3,707       2%
       Richmond County     Borrowers             1          1   100%              0      0%          0          0%          0          0%          0          0%          0       0%
                           Farms               113        109    96%              4      4%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms    15,974     15,974   100%              0      0%          0          0%          0          0%          0          0%          0       0%

       GA                  Population       54,091     48,539    90%          4,330      8%        111          0%        505          1%         12          0%        594       1%
       Rockdale County     Borrowers             1          1   100%              0      0%          0          0%          0          0%          0          0%          0       0%
                           Farms               118        118   100%              0      0%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms    12,836     12,836   100%              0      0%          0          0%          0          0%          0          0%          0       0%

       GA                  Population        3,588      2,308     64%         1,221     34%              2      0%              0      0%              2      0%         55       2%
       Schley County       Borrowers             9          6     67%             3     33%              0      0%              0      0%              0      0%          0       0%
                           Farms                91         84     92%             7      8%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms    37,923     36,685     97%         1,238      3%              0      0%              0      0%              0      0%          0       0%

       GA                  Population       13,842      7,569     55%         6,197     45%         13          0%         11          0%              1      0%         51       0%
       Screven County      Borrowers            32         27     84%             5     16%          0          0%          0          0%              0      0%          0       0%
                           Farms               282        257     91%            25      9%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   138,803    136,264     98%         2,539      2%          0          0%          0          0%              0      0%          0       0%

       GA                  Population        9,010      5,517     61%         2,934     33%         19          0%         10          0%              0      0%        530       6%
       Seminole County     Borrowers            24         23     96%             1      4%          0          0%          0          0%              0      0%          0       0%
                           Farms               184        177     96%             7      4%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   108,967    108,313     99%           654      1%          0          0%          0          0%              0      0%          0       0%

       GA                  Population       54,457     38,057    70%         15,750     29%         88          0%        233          0%         13          0%        316       1%
       Spalding County     Borrowers             5          5   100%              0      0%          0          0%          0          0%          0          0%          0       0%
                           Farms               213        213   100%              0      0%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms    24,086     24,086   100%              0      0%          0          0%          0          0%          0          0%          0       0%

       GA                  Population       23,257     20,208    87%          2,768     12%         32          0%         99          0%              6      0%        144       1%
       Stephens County     Borrowers             1          1   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               172        172   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    15,521     15,521   100%              0      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population        5,654      2,036    36%          3,567     63%         13          0%         12          0%              0      0%         26       0%
       Stewart County      Borrowers             4          4   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms                97         85    88%             12     12%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    49,043     46,075    94%          2,968      6%          0          0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 251
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American                Asian                  Other                 Hispanic
                                           Total     Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
       GA                  Population       30,228     15,816    52%         14,010     46%        100          0%        109          0%              4      0%        189       1%
       Sumter County       Borrowers            43         32    74%             11     26%          0          0%          0          0%              0      0%          0       0%
                           Farms               314        300    96%             14      4%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   169,989    169,989   100%              0      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population        6,524      2,412    37%          4,045     62%         13          0%              3      0%              0      0%         51       1%
       Talbot County       Borrowers             5          5   100%              0      0%          0          0%              0      0%              0      0%          0       0%
                           Farms               127        119    94%              8      6%          0          0%              0      0%              0      0%          0       0%
                           Land in Farms    38,313     37,233    97%          1,080      3%          0          0%              0      0%              0      0%          0       0%

       GA                  Population        1,915        736    38%          1,152     60%              1      0%              4      0%              1      0%         21       1%
       Taliaferro County   Borrowers             2          2   100%              0      0%              0      0%              0      0%              0      0%          0       0%
                           Farms                68         62    91%              6      9%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms    19,314     18,648    97%            666      3%              0      0%              0      0%              0      0%          0       0%

       GA                  Population       17,722     11,950     67%         5,155     29%         23          0%         45          0%              2      0%        547       3%
       Tattnall County     Borrowers            64         51     80%            12     19%          0          0%          0          0%              0      0%          1       2%
                           Farms               539        516     96%            23      4%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   119,873    116,579     97%         3,294      3%          0          0%          0          0%              0      0%          0       0%

       GA                  Population        7,642      4,289     56%         3,289     43%              2      0%              4      0%              0      0%         58       1%
       Taylor County       Borrowers            48         46     96%             2      4%              0      0%              0      0%              0      0%          0       0%
                           Farms               168        163     97%             5      3%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms    54,356     53,891     99%           465      1%              0      0%              0      0%              0      0%          0       0%

       GA                  Population       11,000      7,190     65%         3,754     34%              9      0%              6      0%              0      0%         41       0%
       Telfair County      Borrowers            15         13     87%             1      7%              0      0%              0      0%              0      0%          1       7%
                           Farms               276        262     95%            14      5%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms    71,097     69,385     98%         1,712      2%              0      0%              0      0%              0      0%          0       0%

       GA                  Population       10,653      4,241     40%         6,356     60%              8      0%              8      0%              0      0%         40       0%
       Terrell County      Borrowers            17         13     76%             3     18%              0      0%              0      0%              0      0%          1       6%
                           Farms               199        188     94%            11      6%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms   142,824    140,051     98%         2,773      2%              0      0%              0      0%              0      0%          0       0%

       GA                  Population       38,986     23,816    61%         14,719     38%         93          0%         62          0%              7      0%        289       1%
       Thomas County       Borrowers            31         29    94%              2      6%          0          0%          0          0%              0      0%          0       0%
                           Farms               465        451    97%             14      3%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   174,020    174,020   100%              0      0%          0          0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 252
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American                   Asian                  Other                 Hispanic
                                           Total     Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
       GA                  Population       34,998     24,246     69%         9,288        27%         40          0%        173          0%         18          0%      1,233       4%
       Tift County         Borrowers            18         15     83%             3        17%          0          0%          0          0%          0          0%          0       0%
                           Farms               365        358     98%             7         2%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms   114,487    113,713     99%           774         1%          0          0%          0          0%          0          0%          0       0%

       GA                  Population       24,072     17,446     72%         5,621        23%         34          0%        139          1%              8      0%        824       3%
       Toombs County       Borrowers             9          8     89%             1        11%          0          0%          0          0%              0      0%          0       0%
                           Farms               332        320     96%            12         4%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    88,811     87,948     99%           863         1%          0          0%          0          0%              0      0%          0       0%

       GA                  Population        6,754      6,719    99%                 0      0%         13          0%              4      0%              0      0%         18       0%
       Towns County        Borrowers             3          3   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                           Farms               128        128   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                           Land in Farms     9,910      9,910   100%                 0      0%          0          0%              0      0%              0      0%          0       0%

       GA                  Population        5,994      3,993     67%         1,982        33%              2      0%              0      0%              1      0%         16       0%
       Treutlen County     Borrowers             8          7     88%             1        13%              0      0%              0      0%              0      0%          0       0%
                           Farms               116        110     95%             6         5%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms    32,800     32,353     99%           447         1%              0      0%              0      0%              0      0%          0       0%

       GA                  Population       55,536     38,284    69%         16,614        30%         53          0%        286          1%         10          0%        289       1%
       Troup County        Borrowers             7          7   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                           Farms               244        244   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms    40,783     40,783   100%              0         0%          0          0%          0          0%          0          0%          0       0%

       GA                  Population        8,703      5,118    59%          3,525        41%              5      0%         20          0%              0      0%         35       0%
       Turner County       Borrowers            20         19    95%              0         0%              0      0%          0          0%              1      5%          0       0%
                           Farms               278        272    98%              6         2%              0      0%          0          0%              0      0%          0       0%
                           Land in Farms    98,824     98,824   100%              0         0%              0      0%          0          0%              0      0%          0       0%

       GA                  Population        9,806      5,266    54%          4,480        46%              8      0%              6      0%              0      0%         46       0%
       Twiggs County       Borrowers             3          3   100%              0         0%              0      0%              0      0%              0      0%          0       0%
                           Farms               113        105    93%              8         7%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms    31,161     31,013   100%            148         0%              0      0%              0      0%              0      0%          0       0%

       GA                  Population       11,993     11,884    99%             19         0%         25          0%         16          0%              0      0%         49       0%
       Union County        Borrowers            16         16   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                           Farms               261        261   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    21,973     21,973   100%              0         0%          0          0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 253
DEMOGRAPHICS OF STATES AND COUNTIES
                                                        White             African American Native American                Asian                  Other                 Hispanic
                                           Total     Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
       GA                  Population       26,300     18,833    72%          7,266     28%         34          0%         63          0%              6      0%         98          0%
       Upson County        Borrowers             7          7   100%              0      0%          0          0%          0          0%              0      0%          0          0%
                           Farms               175        170    97%              5      3%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    32,865     32,397    99%            468      1%          0          0%          0          0%              0      0%          0          0%

       GA                  Population       58,340     55,624    95%          2,241      4%        132          0%        124          0%              5      0%        214          0%
       Walker County       Borrowers            19         18    95%              1      5%          0          0%          0          0%              0      0%          0          0%
                           Farms               527        519    98%              8      2%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    88,829     88,829   100%              0      0%          0          0%          0          0%              0      0%          0          0%

       GA                  Population       38,586     30,960    80%          7,062     18%         85          0%        134          0%              7      0%        338          1%
       Walton County       Borrowers             6          5    83%              1     17%          0          0%          0          0%              0      0%          0          0%
                           Farms               434        430    99%              4      1%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    55,779     55,582   100%            197      0%          0          0%          0          0%              0      0%          0          0%

       GA                  Population       35,471     25,912    73%          9,193     26%         55          0%        120          0%              1      0%        190          1%
       Ware County         Borrowers            13         13   100%              0      0%          0          0%          0          0%              0      0%          0          0%
                           Farms               296        291    98%              5      2%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    53,895     53,895   100%              0      0%          0          0%          0          0%              0      0%          0          0%

       GA                  Population        6,078      2,411    40%          3,656     60%              2      0%              7      0%              0      0%              2      0%
       Warren County       Borrowers             9          9   100%              0      0%              0      0%              0      0%              0      0%              0      0%
                           Farms               136        129    95%              7      5%              0      0%              0      0%              0      0%              0      0%
                           Land in Farms    47,000     45,753    97%          1,247      3%              0      0%              0      0%              0      0%              0      0%

       GA                  Population       19,112      9,179    48%          9,831     51%         10          0%         25          0%              2      0%         65          0%
       Washington County   Borrowers            15         15   100%              0      0%          0          0%          0          0%              0      0%          0          0%
                           Farms               299        295    99%              4      1%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms   111,801    111,697   100%            104      0%          0          0%          0          0%              0      0%          0          0%

       GA                  Population       22,356     17,765    79%          4,331     19%         40          0%         39          0%              4      0%        177          1%
       Wayne County        Borrowers            11         11   100%              0      0%          0          0%          0          0%              0      0%          0          0%
                           Farms               283        283   100%              0      0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    54,445     54,445   100%              0      0%          0          0%          0          0%              0      0%          0          0%

       GA                  Population        2,263      1,126     50%         1,132     50%              4      0%              0      0%              0      0%              1      0%
       Webster County      Borrowers            10          8     80%             2     20%              0      0%              0      0%              0      0%              0      0%
                           Farms                80         71     89%             9     11%              0      0%              0      0%              0      0%              0      0%
                           Land in Farms    53,291     51,947     97%         1,344      3%              0      0%              0      0%              0      0%              0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                     THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                              Page 254
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                Asian                  Other                 Hispanic
                                              Total      Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
       GA                  Population          4,903       3,319      68%         1,473     30%              4      0%              5      0%              1      0%        101       2%
       Wheeler County      Borrowers              16          14      88%             2     13%              0      0%              0      0%              0      0%          0       0%
                           Farms                 155         144      93%            11      7%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms      48,755      46,904      96%         1,851      4%              0      0%              0      0%              0      0%          0       0%

       GA                  Population         13,006      12,453     96%            359      3%         37          0%         58          0%              1      0%         98       1%
       White County        Borrowers               5           5    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms                 297         297    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms      24,127      24,127    100%              0      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population         72,462      66,794      92%         2,869      4%        145          0%        318          0%         15          0%       2,321      3%
       Whitfield County    Borrowers               0           0       0%             0      0%          0          0%          0          0%          0          0%           0      0%
                           Farms                 395         390      99%             5      1%          0          0%          0          0%          0          0%           0      0%
                           Land in Farms      38,691      38,086      98%           605      2%          0          0%          0          0%          0          0%           0      0%

       GA                  Population          7,008       4,745     68%          2,222     32%              9      0%              2      0%              0      0%         30       0%
       Wilcox County       Borrowers              13          11     85%              2     15%              0      0%              0      0%              0      0%          0       0%
                           Farms                 292         286     98%              6      2%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms     115,516     115,516    100%              0      0%              0      0%              0      0%              0      0%          0       0%

       GA                  Population         10,597       5,633     53%          4,895     46%         15          0%         10          0%              0      0%         44       0%
       Wilkes County       Borrowers              37          35     95%              2      5%          0          0%          0          0%              0      0%          0       0%
                           Farms                 319         312     98%              7      2%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms      93,078      93,078    100%              0      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population         10,228       5,886     58%          4,300     42%              5      0%              6      0%              1      0%         30       0%
       Wilkinson County    Borrowers               0           0      0%              0      0%              0      0%              0      0%              0      0%          0       0%
                           Farms                  99          99    100%              0      0%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms      31,838      31,838    100%              0      0%              0      0%              0      0%              0      0%          0       0%

       GA                  Population         19,745      13,404     68%          6,029     31%         53          0%         37          0%              0      0%        222       1%
       Worth County        Borrowers              44          37     84%              7     16%          0          0%          0          0%              0      0%          0       0%
                           Farms                 454         441     97%             13      3%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms     200,061     200,061    100%              0      0%          0          0%          0          0%              0      0%          0       0%

       GA                  Population       6,478,216   4,543,425     70%     1,737,165     27%     12,621          0%     73,725          1%      2,358          0%     108,922      2%
       STATE               Borrowers            2,075       1,846     89%           218     11%          3          0%          0          0%          5          0%           3      0%
                           Farms               40,759      39,690     97%         1,038      3%          0          0%          0          0%          0          0%          31      0%
                           Land in Farms   10,025,581   9,925,343     99%        96,083      1%          0          0%          0          0%          0          0%       4,155      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 255
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             APPLING, GEORGIA                                  ATKINSON, GEORGIA                                        BACON, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       25                          4                        13                         3                         31                       11
                              Loans                           64                          8                        30                        16                        106                       48
                              Principal and Interest   2,717,515                     26,526                 1,636,745                   511,551                  3,358,863                  653,350
WHITE                         Borrowers                       25       100%               4       100%             12        92%              3        100%             31        100%           11     100%
                              Loans                           64       100%               8       100%             28        93%             16        100%            106        100%           48     100%
                              Principal and Interest   2,717,515       100%          26,526       100%      1,632,464       100%        511,551        100%      3,358,863        100%      653,350     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%              1         8%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%              2         7%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%          4,281         0%                  0                         0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 256
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              BAKER, GEORGIA                                    BALDWIN, GEORGIA                                         BANKS, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       20                        11                         5                           1                         6                         2
                              Loans                           64                        42                        16                           1                         9                         2
                              Principal and Interest   2,862,753                   866,213                   319,967                          74                   768,246                    98,896
WHITE                         Borrowers                       12        60%              4         36%             4         80%               1       100%              6        100%             2    100%
                              Loans                           25        39%              7         17%            15         94%               1       100%              9        100%             2    100%
                              Principal and Interest   1,600,414        56%        179,598         21%       267,170         83%              74       100%        768,246        100%        98,896    100%
AFRICAN AMERICAN              Borrowers                        8        40%              7         64%              1        20%                   0      0%                 0       0%             0      0%
                              Loans                           39        61%             35         83%              1         6%                   0      0%                 0       0%             0      0%
                              Principal and Interest   1,262,338        44%        686,616         79%         52,797        17%                   0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 257
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            BARROW, GEORGIA                                     BARTOW, GEORGIA                                       BEN HILL, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        5                              1                    12                         9                          2                          0
                              Loans                           10                              1                    36                        27                          2                          0
                              Principal and Interest     220,313                              9             2,169,861                   997,674                    285,571                          0
WHITE                         Borrowers                        5       100%                   1   100%             11        92%              9        100%              2        100%              0      0%
                              Loans                           10       100%                   1   100%             34        94%             27        100%              2        100%              0      0%
                              Principal and Interest     220,313       100%                   9   100%      2,167,353       100%        997,674        100%        285,571        100%              0      0%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%              1         8%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%              2         6%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%          2,508         0%                  0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 258
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            BERRIEN, GEORGIA                                            BIBB, GEORGIA                                BLECKLEY, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       10                         3                          2                              0                    17                         1
                              Loans                           28                         5                          2                              0                    37                         1
                              Principal and Interest     892,223                   174,352                     54,064                              0             1,557,535                    11,679
WHITE                         Borrowers                       10       100%              3        100%              2       100%                   0      0%            17        100%             1    100%
                              Loans                           28       100%              5        100%              2       100%                   0      0%            37        100%             1    100%
                              Principal and Interest     892,223       100%        174,352        100%         54,064       100%                   0      0%     1,557,535        100%        11,679    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 259
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          BRANTLEY, GEORGIA                                      BROOKS, GEORGIA                                        BRYAN, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       11                          5                        27                        12                          2                          0
                              Loans                           22                          9                        82                        60                          2                          0
                              Principal and Interest   1,121,851                     99,015                 4,461,235                 1,560,493                     80,633                          0
WHITE                         Borrowers                       11       100%               5       100%             15        56%              5         42%               1        50%              0      0%
                              Loans                           22       100%               9       100%             31        38%             16         27%               1        50%              0      0%
                              Principal and Interest   1,121,851       100%          99,015       100%      2,853,682        64%        784,588         50%           3,617         4%              0      0%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%            12        44%              7         58%              1         50%              0      0%
                              Loans                                0      0%                  0      0%            51        62%             44         73%              1         50%              0      0%
                              Principal and Interest               0      0%                  0      0%     1,607,553        36%        775,905         50%         77,016         96%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 260
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            BULLOCH, GEORGIA                                      BURKE, GEORGIA                                      CALHOUN, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       40                        14                         37                        14                         21                       11
                              Loans                           94                        31                         78                        22                         50                       26
                              Principal and Interest   3,196,532                   217,440                  5,296,911                   387,648                  2,887,633                  253,772
WHITE                         Borrowers                       35        88%             12         86%             28        76%              9         64%             16         76%            8      73%
                              Loans                           85        90%             29         94%             59        76%             15         68%             35         70%           18      69%
                              Principal and Interest   3,076,115        96%        217,390        100%      4,031,486        76%        365,434         94%      2,017,025         70%      174,359      69%
AFRICAN AMERICAN              Borrowers                        5        13%                2       14%              9        24%              5         36%              5         24%             3     27%
                              Loans                            9        10%                2        6%             19        24%              7         32%             15         30%             8     31%
                              Principal and Interest     120,417         4%               50        0%      1,265,425        24%         22,214          6%        870,608         30%        79,413     31%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 261
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            CANDLER, GEORGIA                                    CARROLL, GEORGIA                                      CATOOSA, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       16                         6                         18                         2                          2                          0
                              Loans                           61                        37                         35                        12                          4                          0
                              Principal and Interest   4,393,743                 1,725,988                  2,854,064                   992,311                     24,790                          0
WHITE                         Borrowers                       12        75%              2         33%             18       100%              2        100%              2        100%              0      0%
                              Loans                           41        67%             17         46%             35       100%             12        100%              4        100%              0      0%
                              Principal and Interest   3,000,690        68%        940,012         54%      2,854,064       100%        992,311        100%         24,790        100%              0      0%
AFRICAN AMERICAN              Borrowers                        3        19%              3         50%                  0      0%                  0      0%                 0       0%             0      0%
                              Loans                           19        31%             19         51%                  0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest   1,389,243        32%        784,427         45%                  0      0%                  0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                         1         6%              1        17%                  0      0%                  0      0%                 0       0%             0      0%
                              Loans                             1         2%              1         3%                  0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest        3,809         0%          1,549         0%                  0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 262
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          CHARLTON, GEORGIA                                 CHATTOOGA, GEORGIA                                      CHEROKEE, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                         1                             0                    9                          3                          3                         2
                              Loans                             1                             0                   22                          9                          4                         3
                              Principal and Interest       18,043                             0              714,429                     30,898                    684,036                    25,389
WHITE                         Borrowers                         1      100%                   0      0%            8         89%              3        100%              3        100%             2    100%
                              Loans                             1      100%                   0      0%           21         95%              9        100%              4        100%             3    100%
                              Principal and Interest       18,043      100%                   0      0%      708,989         99%         30,898        100%        684,036        100%        25,389    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%              1       11%                   0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%              1        5%                   0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%          5,440        1%                   0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 263
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             CLARKE, GEORGIA                                        CLAY, GEORGIA                                     CLAYTON, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        3                              0                     5                         3                           1                         0
                              Loans                            6                              0                    23                        21                           1                         0
                              Principal and Interest     258,541                              0             1,367,450                   713,279                       7,777                         0
WHITE                         Borrowers                        1        33%                   0      0%             4        80%              3        100%               1       100%              0      0%
                              Loans                            2        33%                   0      0%            22        96%             21        100%               1       100%              0      0%
                              Principal and Interest     224,847        87%                   0      0%     1,270,552        93%        713,279        100%           7,777       100%              0      0%
AFRICAN AMERICAN              Borrowers                         2       67%                   0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                             4       67%                   0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest       33,694       13%                   0      0%                 0      0%                  0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%             1        20%                   0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%             1         4%                   0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%        96,898         7%                   0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 264
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             CLINCH, GEORGIA                                        COBB, GEORGIA                                      COFFEE, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                         2                         2                        1                          1                         42                        11
                              Loans                             2                         2                        8                          8                         75                        24
                              Principal and Interest       57,315                     2,930                  383,068                    149,902                  3,790,497                    60,154
WHITE                         Borrowers                         2      100%               2       100%             1        100%              1        100%             42        100%            11    100%
                              Loans                             2      100%               2       100%             8        100%              8        100%             75        100%            24    100%
                              Principal and Interest       57,315      100%           2,930       100%       383,068        100%        149,902        100%      3,790,497        100%        60,154    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 265
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           COLQUITT, GEORGIA                                       COOK, GEORGIA                                       COWETA, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       41                        14                         12                         4                          6                         2
                              Loans                           83                        40                         26                        12                         26                        17
                              Principal and Interest   7,155,365                 1,731,770                  1,329,518                   155,303                  2,705,919                 1,099,678
WHITE                         Borrowers                       41       100%             14        100%             12       100%              4        100%              6        100%             2    100%
                              Loans                           83       100%             40        100%             26       100%             12        100%             26        100%            17    100%
                              Principal and Interest   7,155,365       100%      1,731,770        100%      1,329,518       100%        155,303        100%      2,705,919        100%     1,099,678    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 266
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          CRAWFORD, GEORGIA                                        CRISP, GEORGIA                                            DADE, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        8                         3                          9                         1                          3                         2
                              Loans                           24                        15                         19                         1                          6                         3
                              Principal and Interest   2,461,427                 1,113,575                  2,088,590                     8,279                     69,543                     5,599
WHITE                         Borrowers                        7        88%              2         67%              9       100%              1        100%              3        100%             2    100%
                              Loans                           22        92%             13         87%             19       100%              1        100%              6        100%             3    100%
                              Principal and Interest   2,454,546       100%      1,108,678        100%      2,088,590       100%          8,279        100%         69,543        100%         5,599    100%
AFRICAN AMERICAN              Borrowers                         1       13%               1        33%                  0      0%                  0      0%                 0       0%             0      0%
                              Loans                             2        8%               2        13%                  0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest        6,880        0%           4,897         0%                  0      0%                  0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 267
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            DECATUR, GEORGIA                                      DODGE, GEORGIA                                        DOOLY, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       33                        15                         25                         5                         21                       10
                              Loans                           96                        54                         71                        27                         53                       38
                              Principal and Interest   4,741,911                 1,139,971                  3,236,370                   675,493                  4,623,906                  571,632
WHITE                         Borrowers                       22        67%             11         73%             23        92%              5        100%             16         76%            6      60%
                              Loans                           61        64%             40         74%             67        94%             27        100%             27         51%           15      39%
                              Principal and Interest   3,466,199        73%        735,727         65%      3,212,442        99%        675,493        100%      3,718,280         80%      113,553      20%
AFRICAN AMERICAN              Borrowers                       11        33%              4         27%              2          8%                  0      0%             5         24%            4      40%
                              Loans                           35        36%             14         26%              4          6%                  0      0%            26         49%           23      61%
                              Principal and Interest   1,275,712        27%        404,244         35%         23,928          1%                  0      0%       905,626         20%      458,079      80%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 268
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        DOUGHERTY, GEORGIA                                      DOUGLAS, GEORGIA                                         EARLY, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        1                          1                          1                             0                    37                       14
                              Loans                            1                          1                          1                             0                    96                       39
                              Principal and Interest     254,794                     13,400                      2,074                             0             4,889,015                  705,981
WHITE                         Borrowers                        1       100%               1       100%               1      100%                   0      0%            30         81%           11      79%
                              Loans                            1       100%               1       100%               1      100%                   0      0%            70         73%           30      77%
                              Principal and Interest     254,794       100%          13,400       100%           2,074      100%                   0      0%     3,439,854         70%      639,117      91%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%                  0      0%             7         19%             3     21%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%            26         27%             9     23%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%     1,449,161         30%        66,864      9%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 269
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             ECHOLS, GEORGIA                                 EFFINGHAM, GEORGIA                                        ELBERT, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        7                          1                        4                          2                         14                        4
                              Loans                           12                          2                        6                          4                         31                       18
                              Principal and Interest   1,054,248                      3,631                  295,877                      5,835                  1,478,623                  387,158
WHITE                         Borrowers                        7       100%               1       100%             4        100%              2        100%             12         86%             3     75%
                              Loans                           12       100%               2       100%             6        100%              4        100%             19         61%             7     39%
                              Principal and Interest   1,054,248       100%           3,631       100%       295,877        100%          5,835        100%        862,935         58%        48,701     13%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%                  0      0%             2         14%            1      25%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%            12         39%           11      61%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%       615,688         42%      338,457      87%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 270
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           EMANUEL, GEORGIA                                        EVANS, GEORGIA                                       FANNIN, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       22                         4                         5                          1                         15                          0
                              Loans                           61                        21                        16                         11                         17                          0
                              Principal and Interest   2,909,389                   609,274                   931,573                    147,108                    361,605                          0
WHITE                         Borrowers                       21        95%              4        100%             5        100%              1        100%             15        100%              0      0%
                              Loans                           60        98%             21        100%            16        100%             11        100%             17        100%              0      0%
                              Principal and Interest   2,859,828        98%        609,274        100%       931,573        100%        147,108        100%        361,605        100%              0      0%
AFRICAN AMERICAN              Borrowers                         1         5%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                             1         2%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest       49,561         2%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 271
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           FRANKLIN, GEORGIA                                     FULTON, GEORGIA                                       GILMER, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       25                        14                         2                          2                          6                        3
                              Loans                           65                        30                        10                         10                         15                       10
                              Principal and Interest   4,243,186                   644,070                   108,979                     82,819                  1,699,883                  586,376
WHITE                         Borrowers                       25       100%             14        100%             2        100%              2        100%              6        100%            3     100%
                              Loans                           65       100%             30        100%            10        100%             10        100%             15        100%           10     100%
                              Principal and Interest   4,243,186       100%        644,070        100%       108,979        100%         82,819        100%      1,699,883        100%      586,376     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 272
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              GLYNN, GEORGIA                                     GORDON, GEORGIA                                        GRADY, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                         1                             0                    23                         3                         41                        22
                              Loans                             1                             0                    41                         6                         88                        47
                              Principal and Interest       44,061                             0             2,320,319                    38,261                  6,420,763                 1,335,823
WHITE                         Borrowers                         1      100%                   0      0%            21        91%              3        100%             38         93%            20     91%
                              Loans                             1      100%                   0      0%            38        93%              6        100%             82         93%            44     94%
                              Principal and Interest       44,061      100%                   0      0%     2,243,564        97%         38,261        100%      6,288,169         98%     1,332,245    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%             2          9%                  0      0%             3           7%            2       9%
                              Loans                                0      0%                  0      0%             3          7%                  0      0%             6           7%            3       6%
                              Principal and Interest               0      0%                  0      0%        76,755          3%                  0      0%       132,594           2%        3,577       0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 273
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             GREENE, GEORGIA                                  GWINNETT, GEORGIA                                    HABERSHAM, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       19                         4                         1                          1                          3                         1
                              Loans                           48                        11                         7                          7                          5                         2
                              Principal and Interest   2,535,433                   111,744                   436,148                    250,721                    413,750                    18,322
WHITE                         Borrowers                       16        84%               2        50%             1        100%              1        100%              3        100%             1    100%
                              Loans                           36        75%               6        55%             7        100%              7        100%              5        100%             2    100%
                              Principal and Interest   2,074,185        82%          35,548        32%       436,148        100%        250,721        100%        413,750        100%        18,322    100%
AFRICAN AMERICAN              Borrowers                        3        16%               2        50%                  0      0%                  0      0%                 0       0%             0      0%
                              Loans                           12        25%               5        45%                  0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest     461,249        18%          76,196        68%                  0      0%                  0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 274
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   HALL, GEORGIA                                HANCOCK, GEORGIA                                     HARALSON, GEORGIA
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        7                           2                        4                          2                          9                        3
                              Loans                           18                           9                        8                          5                         32                       22
                              Principal and Interest     687,666                      90,600                  155,958                      2,856                  1,930,413                  404,099
WHITE                         Borrowers                        7        100%               2       100%              2        50%                   0      0%             9        100%            3     100%
                              Loans                           18        100%               9       100%              2        25%                   0      0%            32        100%           22     100%
                              Principal and Interest     687,666        100%          90,600       100%         18,148        12%                   0      0%     1,930,413        100%      404,099     100%
AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%            2         50%              2        100%                  0       0%             0      0%
                              Loans                                 0      0%                  0      0%            6         75%              5        100%                  0       0%             0      0%
                              Principal and Interest                0      0%                  0      0%      137,810         88%          2,856        100%                  0       0%             0      0%
NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                 0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 275
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              HARRIS, GEORGIA                                       HART, GEORGIA                                       HEARD, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        4                              0                    27                         7                          1                          0
                              Loans                            8                              0                    48                         8                          1                          0
                              Principal and Interest     619,621                              0             2,701,406                    98,334                    274,118                          0
WHITE                         Borrowers                        4       100%                   0      0%            25        93%              7        100%              1        100%              0      0%
                              Loans                            8       100%                   0      0%            46        96%              8        100%              1        100%              0      0%
                              Principal and Interest     619,621       100%                   0      0%     2,661,310        99%         98,334        100%        274,118        100%              0      0%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%             2          7%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%             2          4%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%        40,095          1%                  0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 276
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              HENRY, GEORGIA                                    HOUSTON, GEORGIA                                         IRWIN, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        8                         5                         19                        11                         14                         2
                              Loans                           24                        16                         89                        74                         27                         5
                              Principal and Interest   1,435,815                   580,895                  8,270,748                 3,528,058                  1,254,373                    15,453
WHITE                         Borrowers                        7        88%              5        100%             13        68%              6         55%             10         71%             2    100%
                              Loans                           22        92%             16        100%             52        58%             39         53%             20         74%             5    100%
                              Principal and Interest   1,250,332        87%        580,895        100%      6,352,980        77%      2,487,091         70%        930,608         74%        15,453    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%             6        32%              5         45%              4         29%              0      0%
                              Loans                                0      0%                  0      0%            37        42%             35         47%              7         26%              0      0%
                              Principal and Interest               0      0%                  0      0%     1,917,769        23%      1,040,967         30%        323,766         26%              0      0%
NATIVE AMERICAN               Borrowers                        1        13%                   0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                            2         8%                   0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest     185,483        13%                   0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 277
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            JACKSON, GEORGIA                                      JASPER, GEORGIA                                   JEFF DAVIS, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        8                         4                          8                         2                         27                       12
                              Loans                           14                         8                         21                         5                         45                       21
                              Principal and Interest     916,936                   186,169                  1,005,547                    69,596                  1,849,877                  205,662
WHITE                         Borrowers                        8       100%              4        100%             7         88%              2        100%             26         96%           11      92%
                              Loans                           14       100%              8        100%            19         90%              5        100%             42         93%           20      95%
                              Principal and Interest     916,936       100%        186,169        100%       726,922         72%         69,596        100%      1,839,824         99%      205,645     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%            1         13%                   0      0%             1           4%             1      8%
                              Loans                                0      0%                  0      0%            2         10%                   0      0%             3           7%             1      5%
                              Principal and Interest               0      0%                  0      0%      278,625         28%                   0      0%        10,052           1%            17      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 278
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          JEFFERSON, GEORGIA                                     JENKINS, GEORGIA                                     JOHNSON, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       37                        11                         22                         6                         11                         1
                              Loans                          119                        66                         51                        11                         15                         1
                              Principal and Interest   8,504,893                 2,592,044                  3,622,119                   130,088                    437,337                     3,830
WHITE                         Borrowers                       30        81%              6         55%             22       100%              6        100%             10         91%             1    100%
                              Loans                           74        62%             32         48%             51       100%             11        100%             13         87%             1    100%
                              Principal and Interest   6,930,040        81%      1,981,658         76%      3,622,119       100%        130,088        100%        414,189         95%         3,830    100%
AFRICAN AMERICAN              Borrowers                        7        19%              5         45%                  0      0%                  0      0%                 0       0%             0      0%
                              Loans                           45        38%             34         52%                  0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest   1,574,853        19%        610,386         24%                  0      0%                  0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%             1          9%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%             2         13%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%        23,148          5%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 279
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               JONES, GEORGIA                                     LAMAR, GEORGIA                                        LANIER, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        4                          3                        10                         2                           1                         0
                              Loans                           10                          9                        40                         4                           1                         0
                              Principal and Interest     627,516                     48,289                 2,175,336                    31,593                       2,861                         0
WHITE                         Borrowers                        4       100%               3       100%              9        90%              1         50%               1       100%              0      0%
                              Loans                           10       100%               9       100%             38        95%              3         75%               1       100%              0      0%
                              Principal and Interest     627,516       100%          48,289       100%      2,148,735        99%         31,125         99%           2,861       100%              0      0%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%             1        10%               1        50%                  0       0%             0      0%
                              Loans                                0      0%                  0      0%             2         5%               1        25%                  0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%        26,601         1%             468         1%                  0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 280
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            LAURENS, GEORGIA                                            LEE, GEORGIA                                   LIBERTY, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       22                         7                         15                         2                          2                          0
                              Loans                           77                        36                         23                         6                          5                          0
                              Principal and Interest   4,698,368                 1,690,080                  1,677,028                   256,294                    289,662                          0
WHITE                         Borrowers                       22       100%              7        100%            11         73%              1         50%              2        100%              0      0%
                              Loans                           77       100%             36        100%            15         65%              1         17%              5        100%              0      0%
                              Principal and Interest   4,698,368       100%      1,690,080        100%       944,395         56%          6,079          2%        289,662        100%              0      0%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%            4         27%              1         50%                  0       0%             0      0%
                              Loans                                0      0%                  0      0%            8         35%              5         83%                  0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%      732,632         44%        250,215         98%                  0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 281
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            LINCOLN, GEORGIA                                        LONG, GEORGIA                                    LOWNDES, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       11                         6                         4                           2                        17                       10
                              Loans                           31                        23                         9                           2                        35                       24
                              Principal and Interest   1,529,099                   424,624                   385,203                          65                 4,694,522                  847,711
WHITE                         Borrowers                       10        91%              5         83%             2         50%               1        50%             12         71%            8      80%
                              Loans                           29        94%             22         96%             3         33%               1        50%             25         71%           18      75%
                              Principal and Interest   1,508,119        99%        424,372        100%       160,690         42%              17        26%      4,132,006         88%      782,602      92%
AFRICAN AMERICAN              Borrowers                         1         9%               1       17%             2         50%               1        50%              5         29%             2     20%
                              Loans                             2         6%               1        4%             6         67%               1        50%             10         29%             6     25%
                              Principal and Interest       20,980         1%             253                 224,513         58%              48        74%        562,516         12%        65,109      8%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 282
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            LUMPKIN, GEORGIA                                       MACON, GEORGIA                                      MADISON, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                         2                         1                         42                        13                         24                       11
                              Loans                             3                         1                        196                       115                         53                       25
                              Principal and Interest       19,451                     2,341                 22,299,189                 8,883,970                  3,557,033                  391,924
WHITE                         Borrowers                         2      100%               1       100%              33        79%              8         62%             23         96%           11     100%
                              Loans                             3      100%               1       100%             117        60%             50         43%             52         98%           25     100%
                              Principal and Interest       19,451      100%           2,341       100%      11,460,883        51%      3,290,630         37%      3,536,223         99%      391,924     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%              9        21%              5         38%              1           4%             0      0%
                              Loans                                0      0%                  0      0%             79        40%             65         57%              1           2%             0      0%
                              Principal and Interest               0      0%                  0      0%     10,838,306        49%      5,593,340         63%         20,810           1%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0       0%             0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 283
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             MARION, GEORGIA                                   MCDUFFIE, GEORGIA                                     MCINTOSH, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       17                         7                         6                          1                          1                          0
                              Loans                           36                        14                         9                          1                          1                          0
                              Principal and Interest   2,002,788                   324,116                   385,718                      2,111                     41,042                          0

WHITE                         Borrowers                       15        88%              5         71%             6        100%              1        100%              1        100%              0      0%
                              Loans                           32        89%             10         71%             9        100%              1        100%              1        100%              0      0%
                              Principal and Interest   1,933,826        97%        318,578         98%       385,718        100%          2,111        100%         41,042        100%              0      0%

AFRICAN AMERICAN              Borrowers                         2       12%               2        29%                  0      0%                  0      0%                 0       0%             0      0%
                              Loans                             4       11%               4        29%                  0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest       68,963        3%           5,538         2%                  0      0%                  0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 284
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MERIWETHER, GEORGIA                                       MILLER, GEORGIA                                      MITCHELL, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       11                         3                         40                        17                          83                        40
                              Loans                           52                        37                        132                        69                         287                       159
                              Principal and Interest   3,523,516                 1,686,417                  7,877,564                 1,695,495                  22,245,830                 6,788,605

WHITE                         Borrowers                        9        82%              3        100%             40       100%             17        100%              76         92%            36     90%
                              Loans                           50        96%             37        100%            132       100%             69        100%             266         93%           151     95%
                              Principal and Interest   3,191,463        91%      1,686,417        100%      7,877,564       100%      1,695,495        100%      21,339,455         96%     6,735,974     99%

AFRICAN AMERICAN              Borrowers                        1          9%                  0      0%                 0      0%                  0      0%              6           7%            3       8%
                              Loans                            1          2%                  0      0%                 0      0%                  0      0%             20           7%            7       4%
                              Principal and Interest     167,703          5%                  0      0%                 0      0%                  0      0%        831,263           4%       48,813       1%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%              1           1%            1       3%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%              1           0%            1       1%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%         75,111           0%        3,818       0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0       0%             0      0%
OTHER                         Borrowers                        1          9%                  0      0%                 0      0%                  0      0%                  0       0%             0      0%
                              Loans                            1          2%                  0      0%                 0      0%                  0      0%                  0       0%             0      0%
                              Principal and Interest     164,350          5%                  0      0%                 0      0%                  0      0%                  0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                  0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                  0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                  0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 285
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            MONROE, GEORGIA                                 MONTGOMERY, GEORGIA                                       MORGAN, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        6                          3                        8                          5                         30                        7
                              Loans                           13                          4                       15                          7                         66                       19
                              Principal and Interest   1,492,281                     66,748                  838,413                    109,088                  5,391,424                  251,187

WHITE                         Borrowers                        6       100%               3       100%             6         75%              3         60%             26         87%            7     100%
                              Loans                           13       100%               4       100%            11         73%              3         43%             57         86%           19     100%
                              Principal and Interest   1,492,281       100%          66,748       100%       681,107         81%         16,663         15%      4,359,818         81%      251,187     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%            2         25%              2         40%              4         13%              0      0%
                              Loans                                0      0%                  0      0%            4         27%              4         57%              9         14%              0      0%
                              Principal and Interest               0      0%                  0      0%      157,307         19%         92,425         85%      1,031,605         19%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 286
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            MURRAY, GEORGIA                                     NEWTON, GEORGIA                                        OCONEE, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        5                          3                        3                          1                         15                        6
                              Loans                           12                          5                       11                          9                         40                       15
                              Principal and Interest     567,160                     25,138                  187,750                    102,350                  5,374,950                  991,629

WHITE                         Borrowers                        5       100%               3       100%             3        100%              1        100%             11         73%            5      83%
                              Loans                           12       100%               5       100%            11        100%              9        100%             25         63%           11      73%
                              Principal and Interest     567,160       100%          25,138       100%       187,750        100%        102,350        100%      4,261,591         79%      987,299     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%                  0      0%             4         27%             1     17%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%            15         38%             4     27%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%     1,113,358         21%         4,330      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 287
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       OGLETHORPE, GEORGIA                                        PEACH, GEORGIA                                       PICKENS, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       15                          4                        14                         6                         11                        4
                              Loans                           35                          7                        39                        26                         24                        6
                              Principal and Interest   2,484,016                     46,550                 4,445,123                 1,953,635                  3,624,517                  547,511

WHITE                         Borrowers                       14        93%               4       100%             13        93%              6        100%             10         91%            4     100%
                              Loans                           33        94%               7       100%             37        95%             26        100%             22         92%            6     100%
                              Principal and Interest   2,382,957        96%          46,550       100%      4,416,248        99%      1,953,635        100%      3,513,617         97%      547,511     100%

AFRICAN AMERICAN              Borrowers                        1          7%                  0      0%             1          7%                  0      0%                 0       0%             0      0%
                              Loans                            2          6%                  0      0%             2          5%                  0      0%                 0       0%             0      0%
                              Principal and Interest     101,059          4%                  0      0%        28,874          1%                  0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%             1           9%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%             2           8%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%       110,901           3%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 288
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              PIERCE, GEORGIA                                       PIKE, GEORGIA                                            POLK, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       38                        14                          7                         2                          7                         3
                              Loans                           86                        41                         16                         7                         30                         9
                              Principal and Interest   4,069,033                   405,813                  2,145,708                 1,063,068                  1,144,781                    81,144

WHITE                         Borrowers                       37        97%             13         93%              7       100%              2        100%              7        100%             3    100%
                              Loans                           85        99%             40         98%             16       100%              7        100%             30        100%             9    100%
                              Principal and Interest   4,051,459       100%        404,356        100%      2,145,708       100%      1,063,068        100%      1,144,781        100%        81,144    100%

AFRICAN AMERICAN              Borrowers                         1         3%              1          7%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                             1         1%              1          2%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest       17,574         0%          1,457          0%                 0      0%                  0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 289
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             PULASKI, GEORGIA                                     RABUN, GEORGIA                                    RANDOLPH, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        9                          3                        2                               0                    16                         1
                              Loans                           16                          4                        2                               0                    29                         5
                              Principal and Interest   1,266,824                     54,044                  577,072                               0             3,078,377                    16,597

WHITE                         Borrowers                        7        78%               3       100%             2        100%                   0      0%            16        100%             1    100%
                              Loans                           13        81%               4       100%             2        100%                   0      0%            29        100%             5    100%
                              Principal and Interest     847,934        67%          54,044       100%       577,072        100%                   0      0%     3,078,377        100%        16,597    100%

AFRICAN AMERICAN              Borrowers                        2        22%                   0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                            3        19%                   0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest     418,890        33%                   0      0%                 0      0%                  0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 290
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          RICHMOND, GEORGIA                                   ROCKDALE, GEORGIA                                          ROME, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        1                          1                         1                         1                          6                         2
                              Loans                            1                          1                         2                         2                         18                         2
                              Principal and Interest     292,394                     16,957                    37,603                    25,497                  1,158,604                    41,778

WHITE                         Borrowers                        1       100%               1       100%              1       100%              1        100%              6        100%             2    100%
                              Loans                            1       100%               1       100%              2       100%              2        100%             18        100%             2    100%
                              Principal and Interest     292,394       100%          16,957       100%         37,603       100%         25,497        100%      1,158,604        100%        41,778    100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 291
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             SCHLEY, GEORGIA                                    SCREVEN, GEORGIA                                     SEMINOLE, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        9                         3                         32                         7                         24                         9
                              Loans                           36                        13                         62                        13                         83                        53
                              Principal and Interest   1,661,448                   101,531                  3,583,264                   145,986                  7,721,304                 2,587,554

WHITE                         Borrowers                        6        67%               1        33%             27        84%              4         57%             23         96%             9    100%
                              Loans                           20        56%               1         8%             53        85%              9         69%             81         98%            53    100%
                              Principal and Interest     947,038        57%           1,357         1%      2,971,900        83%         88,174         60%      7,706,957        100%     2,587,554    100%

AFRICAN AMERICAN              Borrowers                        3        33%              2         67%             5         16%              3         43%              1           4%             0      0%
                              Loans                           16        44%             12         92%             9         15%              4         31%              2           2%             0      0%
                              Principal and Interest     714,410        43%        100,174         99%       611,363         17%         57,812         40%         14,347           0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 292
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           SPALDING, GEORGIA                                   STEPHENS, GEORGIA                                      STEWART, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        5                         3                         1                           1                         4                         1
                              Loans                           21                        14                         5                           1                         6                         1
                              Principal and Interest   1,398,949                   193,226                   410,321                          14                   261,201                     2,718

WHITE                         Borrowers                        5       100%              3        100%             1        100%               1       100%              4        100%             1    100%
                              Loans                           21       100%             14        100%             5        100%               1       100%              6        100%             1    100%
                              Principal and Interest   1,398,949       100%        193,226        100%       410,321        100%              14       100%        261,201        100%         2,718    100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 293
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             SUMTER, GEORGIA                                     TALBOT, GEORGIA                                  TALIAFERRO, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        43                       23                          5                         3                          2                         1
                              Loans                           124                       82                         24                         9                          2                         1
                              Principal and Interest   20,097,530                9,696,016                  1,406,729                    21,967                    214,893                    58,537

WHITE                         Borrowers                        32       74%             18         78%              5       100%              3        100%              2        100%             1    100%
                              Loans                            84       68%             55         67%             24       100%              9        100%              2        100%             1    100%
                              Principal and Interest   18,191,691       91%      9,068,152         94%      1,406,729       100%         21,967        100%        214,893        100%        58,537    100%

AFRICAN AMERICAN              Borrowers                        11       26%              5         22%                  0      0%                  0      0%                 0       0%             0      0%
                              Loans                            40       32%             27         33%                  0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest    1,905,839        9%        627,864          6%                  0      0%                  0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 294
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           TATTNALL, GEORGIA                                      TAYLOR, GEORGIA                                       TELFAIR, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       64                        17                          48                        17                         15                        7
                              Loans                          170                        71                         185                        75                         53                       35
                              Principal and Interest   9,118,091                 2,290,010                  10,385,125                 1,258,550                  2,579,066                  802,067

WHITE                         Borrowers                       51        80%             13         76%              46        96%             16         94%             13         87%            5      71%
                              Loans                          122        72%             39         55%             183        99%             74         99%             29         55%           12      34%
                              Principal and Interest   6,799,258        75%      1,251,864         55%      10,359,748       100%      1,258,293        100%      1,874,169         73%      365,399      46%

AFRICAN AMERICAN              Borrowers                       12        19%              4         24%               2          4%              1          6%             1          7%            1      14%
                              Loans                           47        28%             32         45%               2          1%              1          1%            15         28%           14      40%
                              Principal and Interest   2,275,299        25%      1,038,147         45%          25,377          0%            257          0%       375,570         15%      268,719      34%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0       0%             0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                  0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                  0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                         1         2%                  0      0%                  0      0%                  0      0%             1          7%            1      14%
                              Loans                             1         1%                  0      0%                  0      0%                  0      0%             9         17%            9      26%
                              Prinicpal and Interest       43,534         0%                  0      0%                  0      0%                  0      0%       329,327         13%      167,949      21%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 295
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            TERRELL, GEORGIA                                     THOMAS, GEORGIA                                             TIFT, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       17                          2                        31                        14                         18                       10
                              Loans                           25                          3                        63                        35                         46                       28
                              Principal and Interest   2,734,971                     23,470                 4,660,667                   773,031                  2,397,197                  735,194

WHITE                         Borrowers                       13        76%                   0      0%            29        94%             14        100%             15         83%            7      70%
                              Loans                           20        80%                   0      0%            59        94%             35        100%             40         87%           23      82%
                              Principal and Interest   2,129,683        78%                   0      0%     4,551,683        98%        773,031        100%      1,989,629         83%      688,517      94%

AFRICAN AMERICAN              Borrowers                        3        18%               1        50%             2           6%                  0      0%             3         17%             3     30%
                              Loans                            3        12%               1        33%             4           6%                  0      0%             6         13%             5     18%
                              Principal and Interest     292,151        11%           3,155        13%       108,984           2%                  0      0%       407,568         17%        46,677      6%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                        1         6%               1        50%                  0      0%                  0      0%                 0       0%             0      0%
                              Loans                            2         8%               2        67%                  0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest     313,137        11%          20,315        87%                  0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 296
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             TOOMBS, GEORGIA                                      TOWNS, GEORGIA                                     TREUTLEN, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        9                         4                          3                              0                     8                         3
                              Loans                           42                        34                          6                              0                    15                         5
                              Principal and Interest   1,440,636                   684,044                     23,557                              0               489,513                     5,404

WHITE                         Borrowers                        8        89%              3         75%              3       100%                   0      0%             7         88%             2     67%
                              Loans                           39        93%             32         94%              6       100%                   0      0%            12         80%             4     80%
                              Principal and Interest   1,427,148        99%        682,398        100%         23,557       100%                   0      0%       466,561         95%         5,096     94%

AFRICAN AMERICAN              Borrowers                         1       11%               1        25%                  0      0%                  0      0%             1         13%              1    33%
                              Loans                             3        7%               2         6%                  0      0%                  0      0%             3         20%              1    20%
                              Principal and Interest       13,488        1%           1,646         0%                  0      0%                  0      0%        22,952          5%            308     6%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 297
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              TROUP, GEORGIA                                     TURNER, GEORGIA                                       TWIGGS, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        7                          2                        20                         9                          3                          0
                              Loans                           17                          4                        49                        29                          6                          0
                              Principal and Interest     996,773                      1,011                 4,013,248                   983,949                    444,702                          0

WHITE                         Borrowers                        7       100%               2       100%             19        95%              9        100%              3        100%              0      0%
                              Loans                           17       100%               4       100%             47        96%             29        100%              6        100%              0      0%
                              Principal and Interest     996,773       100%           1,011       100%      3,846,068        96%        983,949        100%        444,702        100%              0      0%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%            1           5%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%            2           4%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%      167,181           4%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 298
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               UNION, GEORGIA                                      UPSON, GEORGIA                                      WALKER, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       16                          1                        7                          2                         19                        8
                              Loans                           24                          3                        8                          2                         51                       12
                              Principal and Interest     743,086                     15,456                  305,717                     20,591                  3,144,922                  442,535

WHITE                         Borrowers                       16       100%               1       100%             7        100%              2        100%             18         95%            7      88%
                              Loans                           24       100%               3       100%             8        100%              2        100%             47         92%           11      92%
                              Principal and Interest     743,086       100%          15,456       100%       305,717        100%         20,591        100%      3,081,344         98%      442,415     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%                  0      0%             1           5%             1    13%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%             4           8%             1     8%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%        63,578           2%           120
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 299
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            WALTON, GEORGIA                                        WARE, GEORGIA                                       WARREN, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        6                         3                         13                         2                          9                         5
                              Loans                            8                         4                         38                         6                         23                         9
                              Principal and Interest     323,636                   138,966                  1,973,120                    38,356                    779,531                    18,460

WHITE                         Borrowers                        5        83%              2         67%             13       100%              2        100%              9        100%             5    100%
                              Loans                            6        75%              3         75%             38       100%              6        100%             23        100%             9    100%
                              Principal and Interest     321,215        99%        138,832        100%      1,973,120       100%         38,356        100%        779,531        100%        18,460    100%

AFRICAN AMERICAN              Borrowers                         1       17%                1       33%                  0      0%                  0      0%                 0       0%             0      0%
                              Loans                             2       25%                1       25%                  0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest        2,420        1%              134                            0      0%                  0      0%                 0       0%             0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 300
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       WASHINGTON, GEORGIA                                        WAYNE, GEORGIA                                      WEBSTER, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       15                         3                        11                          1                         10                        4
                              Loans                           27                        10                        20                          2                         32                       14
                              Principal and Interest   2,202,181                   176,590                   728,361                      9,692                  3,343,294                  549,326

WHITE                         Borrowers                       15       100%              3        100%            11        100%              1        100%              8         80%            3      75%
                              Loans                           27       100%             10        100%            20        100%              2        100%             29         91%           13      93%
                              Principal and Interest   2,202,181       100%        176,590        100%       728,361        100%          9,692        100%      3,286,298         98%      548,834     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%                  0      0%             2         20%              1    25%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%             3          9%              1     7%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%        56,996          2%            492     0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 301
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           WHEELER, GEORGIA                                       WHITE, GEORGIA                                       WILCOX, GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       16                         6                          5                         2                         13                         5
                              Loans                           41                        18                          6                         2                         24                         6
                              Principal and Interest   2,716,092                   298,944                  1,249,019                    17,646                    927,164                    11,365

WHITE                         Borrowers                       14        88%              4         67%              5       100%              2        100%             11         85%             3     60%
                              Loans                           36        88%             14         78%              6       100%              2        100%             22         92%             4     67%
                              Principal and Interest   2,384,192        88%        239,511         80%      1,249,019       100%         17,646        100%        916,587         99%         9,216     81%

AFRICAN AMERICAN              Borrowers                        2        13%               2        33%                  0      0%                  0      0%             2         15%             2     40%
                              Loans                            5        12%               4        22%                  0      0%                  0      0%             2          8%             2     33%
                              Principal and Interest     331,901        12%          59,434        20%                  0      0%                  0      0%        10,577          1%         2,149     19%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%                 0       0%             0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 302
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             WILKES, GEORGIA                                      WORTH, GEORGIA                                        STATE OF GEORGIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent     Portfolio       Percent    Delinquent   Percent
TOTAL                         Borrowers                       37                         8                         44                        15                        2,075                        725
                              Loans                           65                        24                        117                        42                        5,398                      2,446
                              Principal and Interest   7,469,929                   561,237                  8,081,110                 1,106,767                  367,155,403                 81,551,629

WHITE                         Borrowers                       35        95%              7         88%             37        84%             10         67%            1,846         89%        609         84%
                              Loans                           57        88%             17         71%             96        82%             27         64%            4,618         86%      1,947         80%
                              Principal and Interest   7,443,614       100%        543,448         97%      6,369,630        79%        418,559         38%      324,337,507         88% 67,027,755         82%

AFRICAN AMERICAN              Borrowers                         2        5%               1        13%              7        16%              5         33%              218         11%        112         15%
                              Loans                             8       12%               7        29%             21        18%             15         36%              756         14%        486         20%
                              Principal and Interest       26,315        0%          17,790         3%      1,711,481        21%        688,208         62%       41,305,014         11% 14,330,247         18%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%                  0      0%               3           0%             1       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%               4           0%             1       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%         357,492           0%         3,818       0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%                   0       0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%                   0       0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%                   0       0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%                  0      0%               5           0%             1       0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%               8           0%             1       0%
                              Principal and Interest               0      0%                  0      0%                 0      0%                  0      0%         469,389           0%         1,549       0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%                  0      0%               3           0%            2        0%
                              Loans                                0      0%                  0      0%                 0      0%                  0      0%              12           0%           11        0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%                  0      0%         685,998           0%      188,264        0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                         Page 303
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                    African            Native
State      Servicing Office    Decision           Average Days       Total        White            American           American         Asian            Hispanic
 GA BULLOCK                    Approved   No. of Applications                47        37   79%            10   21%           0   0%           0   0%          0     0%
      (Combines Byron and                 Receipt to Completion                        19                  16                 0                0               0
        Statesboro)                       Completion to Approval                       16                  31                 0                0               0
                                          Approval to Loan Closing                     23                  42                 0                0               0

                               Rejected   No. of Applications                20       14    70%            6    30%          0    0%           0   0%         0      0%
                                          Receipt to Completion                       17                  28                 0                 0              0
                                          Completion to Rejected                      17                  15                 0                 0              0

                               Withdrawn No. of Applications                 18       13    72%            5    28%          0    0%           0   0%         0      0%
                                         Receipt to Completion                        13                   0                 0                 0              0
                                         Completion to Withdrawn                      25                   0                 0                 0              0


 GA   COLQUITT                 Approved   No. of Applications                49       41    84%            8    16%          0    0%           0   0%         0      0%
      (Combines Colquitt and              Receipt to Completion                       23                  40                 0                 0              0
        Moultrie)                         Completion to Approval                      27                  26                 0                 0              0
                                          Approval to Loan Closing                    25                  17                 0                 0              0

                               Rejected   No. of Applications                3         3    100%           0    0%           0    0%           0   0%         0      0%
                                          Receipt to Completion                        0                   0                 0                 0              0
                                          Completion to Rejected                       0                   0                 0                 0              0

                               Withdrawn No. of Applications                 12        9    75%            3    25%          0    0%           0   0%         0      0%
                                         Receipt to Completion                        12                   0                 0                 0              0
                                         Completion to Withdrawn                       7                   0                 0                 0              0

 GA   COMMERCE                 Approved   No. of Applications                17       16    94%            1    6%           0    0%           0   0%         0      0%
                                          Receipt to Completion                       11                   1                 0                 0              0
                                          Completion to Approval                      13                   7                 0                 0              0
                                          Approval to Loan Closing                    23                  34                 0                 0              0

                               Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                          Receipt to Completion                        0                   0                 0                 0              0
                                          Completion to Rejected                       0                   0                 0                 0              0

                               Withdrawn No. of Applications                 7         6    86%            1    14%          0    0%           0   0%         0      0%
                                         Receipt to Completion                         2                   0                 0                 0              0
                                         Completion to Withdrawn                       6                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 304
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African            Native
State  Servicing Office   Decision           Average Days       Total        White            American           American          Asian            Hispanic
 GA DOUGLAS               Approved   No. of Applications                16        16   100%            0   0%            0   0%            0   0%          0     0%
                                     Receipt to Completion                        25                   0                 0                 0               0
                                     Completion to Approval                       31                   0                 0                 0               0
                                     Approval to Loan Closing                     30                   0                 0                 0               0

                          Rejected   No. of Applications                4         4    100%           0    0%           0    0%            0   0%         0      0%
                                     Receipt to Completion                        2                   0                 0                  0              0
                                     Completion to Rejected                       3                   0                 0                  0              0

                          Withdrawn No. of Applications                 2         1    50%            1    50%          0    0%            0   0%         0      0%
                                    Receipt to Completion                         0                   0                 0                  0              0
                                    Completion to Withdrawn                      25                   0                 0                  0              0

 GA   EASTMAN             Approved   No. of Applications                13       10    77%            3    23%          0    0%            0   0%         0      0%
                                     Receipt to Completion                       12                  13                 0                  0              0
                                     Completion to Approval                       6                  25                 0                  0              0
                                     Approval to Loan Closing                    24                  31                 0                  0              0

                          Rejected   No. of Applications                8         8    100%           0    0%           0    0%            0   0%         0      0%
                                     Receipt to Completion                        6                   0                 0                  0              0
                                     Completion to Rejected                       6                   0                 0                  0              0

                          Withdrawn No. of Applications                 6         4    67%            2    33%          0    0%            0   0%         0      0%
                                    Receipt to Completion                         0                   0                 0                  0              0
                                    Completion to Withdrawn                      20                   0                 0                  0              0

 GA   EATONTON            Approved   No. of Applications                33       25    76%            4    12%          4    12%           0   0%         0      0%
                                     Receipt to Completion                       26                  31                48                  0              0
                                     Completion to Approval                      28                  74                24                  0              0
                                     Approval to Loan Closing                    23                  86                26                  0              0

                          Rejected   No. of Applications                10        5    50%            4    40%          1    10%           0   0%         0      0%
                                     Receipt to Completion                       41                  15                 0                  0              0
                                     Completion to Rejected                     115                  29                 0                  0              0

                          Withdrawn No. of Applications                 19       16    84%            3    16%          0    0%            0   0%         0      0%
                                    Receipt to Completion                        12                  13                 0                  0              0
                                    Completion to Withdrawn                      27                   0                 0                  0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 305
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African            Native
State  Servicing Office   Decision           Average Days       Total        White            American           American         Asian            Hispanic
 GA LOUISVILLE            Approved   No. of Applications                13        10   77%             3   23%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        17                   0                 0                0               0
                                     Completion to Approval                       12                  18                 0                0               0
                                     Approval to Loan Closing                     25                  42                 0                0               0

                          Rejected   No. of Applications                8         6    75%            2    25%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       13                  43                 0                 0              0
                                     Completion to Rejected                      39                   0                 0                 0              0

                          Withdrawn No. of Applications                 3         2    67%            1    33%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                 0                 0              0
                                    Completion to Withdrawn                       0                   0                 0                 0              0

 GA   TERRELL             Approved   No. of Applications                46       44    96%            2    4%           0    0%           0   0%         0      0%
      (Combines Calhoun              Receipt to Completion                       23                  42                 0                 0              0
        and Dawson)                  Completion to Approval                      24                  89                 0                 0              0
                                     Approval to Loan Closing                    35                  20                 0                 0              0

                          Rejected   No. of Applications                11        4    36%            7    64%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       56                  35                 0                 0              0
                                     Completion to Rejected                      15                  34                 0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%           0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                 0                 0              0
                                    Completion to Withdrawn                     259                   0                 0                 0              0

 GA   STATE               Approved   No. of Applications           234          199    85%           31    13%          4    2%           0   0%         0      0%
                                     Receipt to Completion                       21                  24                48                 0              0
                                     Completion to Approval                      22                  36                24                 0              0
                                     Approval to Loan Closing                    27                  38                26                 0              0

                          Rejected   No. of Applications                64       44    69%           19    30%          1    2%           0   0%         0      0%
                                     Receipt to Completion                       18                  29                 0                 0              0
                                     Completion to Rejected                      27                  23                 0                 0              0

                          Withdrawn No. of Applications                 68       52    76%           16    24%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         9                   2                 0                 0              0
                                    Completion to Withdrawn                      24                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 306
                            Demographics         308
                        FSA’s Loan Portfolio     309
                        FSA’s Application data   312




USDA/OIG-A/50801-4-Hq                                  307
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                        White               African American Native American                          Asian                     Other                 Hispanic
                                                  Total            Number         Percent      Number       Percent     Number       Percent     Number      Percent         Number       Percent   Number   Percent
          HI                Population            120,317             44,421        37%              566        0%           661         1%      63,185         53%             350          0%     11,134       9%
          Hawaii County     Borrowers                 125                 29        23%                1        1%             4         3%          79         63%               9          7%          3       2%
                            Farms                   3,157              1,191        38%                0        0%             0         0%       1,866         59%              13          0%         87       3%
                            Land in Farms         926,607            793,127        86%                0        0%             0         0%     133,480         14%               0          0%          0       0%

          HI                Population            836,231            249,616        30%          24,717         3%         2,800         0%     500,041         60%            2,173        0%      56,884       7%
          Honolulu County   Borrowers                  92                  9        10%               0         0%             2         2%          66         72%               13       14%           2       2%
                            Farms                     892                189        21%               0         0%             0         0%         650         73%               40        4%          13       1%
                            Land in Farms          91,998             90,250        98%               0         0%             0         0%           0          0%              233        0%       1,515       2%

          HI                Population             51,177             16,235       32%               193        0%           149         0%       28,914        56%             106          0%      5,580    11%
          Kauai County      Borrowers                  23                  7       30%                 0        0%             0         0%           15        65%               0          0%          1     4%
                            Farms                     437                203       46%                 0        0%             0         0%          212        49%               1          0%         21     5%
                            Land in Farms         214,452            213,943      100%                 0        0%             0         0%            0         0%               0          0%        509     0%

          HI                Population            100,374             37,348        37%              440        0%           391         0%       54,169        54%             245          0%      7,781       8%
          Maui County       Borrowers                  81                 23        28%                0        0%             1         1%           53        65%               0          0%          4       5%
                            Farms                     850                453        53%                0        0%             0         0%          363        43%               1          0%         33       4%
                            Land in Farms         355,786            318,102        89%                0        0%             0         0%       37,684        11%               0          0%          0       0%

          HI                Population                    130               24      18%                 0       0%               0       0%            95       73%                   0      0%         11       8%
          Kalawao County    Borrowers                       0                0       0%                 0       0%               0       0%             0        0%                   0      0%          0       0%
                            Farms                           0                0       0%                 0       0%               0       0%             0        0%                   0      0%          0       0%
                            Land in Farms                   0                0       0%                 0       0%               0       0%             0        0%                   0      0%          0       0%

          HI                Population          1,108,229           347,644         31%          25,916         2%         4,001         0%     646,404         58%            2,874         0%     81,390       7%
          STATE             Borrowers*                324                69         21%               1         0%             7         2%         215         66%               22         7%         10       3%
                            Farms                   5,336             2,036         38%               0         0%             0         0%       3,091         58%               55         1%        154       3%
                            Land in Farms       1,588,843         1,415,422         89%               0         0%             0         0%     171,164         11%              233         0%      2,024       0%
                            *The number of borrowers includes the borrowers in Molokai, Hawaii, for which there was no population, farms, or land in farms data available.




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                                  THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                                Page 308
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       HAWAII, E. (HILO), HAWAII                             HAWAII, W. (KONA), HAWAII                             HONOLULU, HAWAII
                                                        Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        85                              0                     40                          0                     92                        52
                              Loans                           137                              0                     78                          0                    197                        89
                              Principal and Interest   11,001,381                              0              9,728,104                          0             35,594,157                 6,396,929

WHITE                         Borrowers                        15        18%                   0      0%             14         35%              0      0%              9        10%             3        6%
                              Loans                            30        22%                   0      0%             31         40%              0      0%             14         7%             3        3%
                              Principal and Interest    2,284,157        21%                   0      0%      2,828,468         29%              0      0%      2,122,847         6%       164,098        3%

AFRICAN AMERICAN              Borrowers                         1          1%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                             1          1%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest       75,065          1%                  0      0%                  0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                        3           4%                  0      0%             1           3%              0      0%             2           2%              0      0%
                              Loans                            5           4%                  0      0%             2           3%              0      0%             6           3%              0      0%
                              Principal and Interest     311,073           3%                  0      0%       355,394           4%              0      0%       709,608           2%              0      0%

ASIAN                         Borrowers                        60        71%                   0      0%             19         48%              0      0%             66        72%             41     79%
                              Loans                            93        68%                   0      0%             38         49%              0      0%            152        77%             74     83%
                              Principal and Interest    8,081,864        73%                   0      0%      5,326,524         55%              0      0%     31,288,900        88%      5,974,147     93%
OTHER                         Borrowers                        5           6%                  0      0%             4          10%              0      0%            13         14%              6     12%
                              Loans                            6           4%                  0      0%             4           5%              0      0%            20         10%              7      8%
                              Principal and Interest     249,221           2%                  0      0%       275,026           3%              0      0%       808,007          2%         19,763      0%
HISPANIC                      Borrowers                             1      1%                  0      0%             2           5%              0      0%             2           2%            2        4%
                              Loans                                 2      1%                  0      0%             3           4%              0      0%             5           3%            5        6%
                              Prinicpal and Interest                0      0%                  0      0%       942,691          10%              0      0%       664,794           2%      238,921        4%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                             Page 309
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               KAUAI, HAWAII                                             MAUI, HAWAII                              MOLOKAI, HAWAII
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       23                        10                          81                       31                      3                           0
                              Loans                           33                        11                         174                       48                      4                           0
                              Principal and Interest   3,007,861                    64,627                  14,116,612                  373,744                308,522                           0

WHITE                         Borrowers                        7        30%              5          50%             23         28%             8      26%            1         33%               0      0%
                              Loans                           11        33%              5          45%             55         32%            12      25%            1         25%               0      0%
                              Principal and Interest   1,158,589        39%         14,953          23%      5,030,169         36%        88,677      24%      274,900         89%               0      0%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%             1           1%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%             2           1%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%       274,004           2%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                       15        65%              5          50%             53         65%           22       71%             2        67%               0      0%
                              Loans                           21        64%              6          55%            109         63%           35       73%             3        75%               0      0%
                              Principal and Interest   1,811,480        60%         49,674          77%      8,427,911         60%      282,297       76%        33,621        11%               0      0%
OTHER                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                        1          4%                  0      0%             4           5%             1       3%                 0      0%              0      0%
                              Loans                            1          3%                  0      0%             8           5%             1       2%                 0      0%              0      0%
                              Prinicpal and Interest      37,791          1%                  0      0%       384,528           3%         2,770       1%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                            Page 310
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              STATE OF HAWAII
                                                        Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       324                        93
                              Loans                           623                       148
                              Principal and Interest   73,756,637                 6,835,300

WHITE                         Borrowers                        69        21%            16           17%
                              Loans                           142        23%            20           14%
                              Principal and Interest   13,699,130        19%       267,728            4%

AFRICAN AMERICAN              Borrowers                         1          0%                  0      0%
                              Loans                             1          0%                  0      0%
                              Principal and Interest       75,065          0%                  0      0%
NATIVE AMERICAN               Borrowers                             7      2%                  0      0%
                              Loans                            15          2%                  0      0%
                              Principal and Interest    1,650,079          2%                  0      0%
ASIAN                         Borrowers                       215        66%             68          73%
                              Loans                           416        67%            115          78%
                              Principal and Interest   54,970,300        75%      6,306,118          92%

OTHER                         Borrowers                        22          7%             6           6%
                              Loans                            30          5%             7           5%
                              Principal and Interest    1,332,254          2%        19,763           0%
HISPANIC                      Borrowers                        10          3%            3            3%
                              Loans                            19          3%            6            4%
                              Prinicpal and Interest    2,029,804          3%      241,691            4%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED   Page 311
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African           Native
State   Servicing Office   Decision           Average Days       Total        White             American          American         Asian               Hispanic
 HI HILO                   Approved   No. of Applications                12        8      67%            0   0%           0   0%            2   17%           2    17%
                                      Receipt to Completion                       23                     0                0                 7                 0
                                      Completion to Approval                      15                     0                0                29                44
                                      Approval to Loan Closing                    35                     0                0                48                41

                           Rejected   No. of Applications                0            0   0%            0    0%          0    0%           0     0%          0      0%
                                      Receipt to Completion                           0                 0                0                 0                 0
                                      Completion to Rejected                          0                 0                0                 0                 0

                           Withdrawn No. of Applications                 0            0   0%            0    0%          0    0%           0     0%          0      0%
                                     Receipt to Completion                            0                 0                0                 0                 0
                                     Completion to Withdrawn                          0                 0                0                 0                 0

  HI   HONOLULU            Approved   No. of Applications                0            0   0%            0    0%          0    0%           0     0%          0      0%
                                      Receipt to Completion                           0                 0                0                 0                 0
                                      Completion to Approval                          0                 0                0                 0                 0
                                      Approval to Loan Closing                        0                 0                0                 0                 0

                           Rejected   No. of Applications                1            0   0%            0    0%          0    0%           1    100%         0      0%
                                      Receipt to Completion                           0                 0                0                 0                 0
                                      Completion to Rejected                          0                 0                0                 0                 0

                           Withdrawn No. of Applications                 0            0   0%            0    0%          0    0%           0     0%          0      0%
                                     Receipt to Completion                            0                 0                0                 0                 0
                                     Completion to Withdrawn                          0                 0                0                 0                 0

  HI   MAUI                Approved   No. of Applications                6         2      33%           0    0%          0    0%            4   67%          0      0%
                                      Receipt to Completion                       21                    0                0                  5                0
                                      Completion to Approval                       7                    0                0                 44                0
                                      Approval to Loan Closing                     4                    0                0                 16                0

                           Rejected   No. of Applications                0            0   0%            0    0%          0    0%           0     0%          0      0%
                                      Receipt to Completion                           0                 0                0                 0                 0
                                      Completion to Rejected                          0                 0                0                 0                 0

                           Withdrawn No. of Applications                 0            0   0%            0    0%          0    0%           0     0%          0      0%
                                     Receipt to Completion                            0                 0                0                 0                 0
                                     Completion to Withdrawn                          0                 0                0                 0                 0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 312
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                              African           Native
State  Servicing Office   Decision           Average Days       Total        White           American          American         Asian               Hispanic
 HI STATE                 Approved   No. of Applications                18        10   56%            0   0%           0   0%            6   33%           2    11%
                                     Receipt to Completion                        23                  0                0                 6                 0
                                     Completion to Approval                       13                  0                0                39                44
                                     Approval to Loan Closing                     29                  0                0                27                41

                          Rejected   No. of Applications                1         0    0%            0    0%          0    0%           1    100%         0      0%
                                     Receipt to Completion                        0                  0                0                 0                 0
                                     Completion to Rejected                       0                  0                0                 0                 0

                          Withdrawn No. of Applications                 0         0    0%            0    0%          0    0%           0     0%          0      0%
                                    Receipt to Completion                         0                  0                0                 0                 0
                                    Completion to Withdrawn                       0                  0                0                 0                 0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 313
                            Demographics         315
                        FSA’s Loan Portfolio     321
                        FSA’s Application data   336




USDA/OIG-A/50801-4-Hq                                  314
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                White             African American Native American               Asian                  Other                 Hispanic
                                                Total        Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
           ID                 Population       205,775       195,120     95%            924         0%      1,247      1%      2,829          1%         99          0%      5,556       3%
           Ada County         Borrowers             16            15     94%              0         0%          0      0%          0          0%          1          6%          0       0%
                              Farms              1,174         1,154     98%              0         0%          0      0%          6          1%          0          0%         14       1%
                              Land in Farms    232,879       230,946     99%              0         0%          0      0%          0          0%          0          0%      1,933       1%

           ID                 Population         3,254         3,172     97%                 2      0%         41      1%              1      0%              0      0%         38       1%
           Adams County       Borrowers             11            11    100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                              Farms                271           268     99%                 0      0%          0      0%              0      0%              0      0%          3       1%
                              Land in Farms    221,209       220,007     99%                 0      0%          0      0%              0      0%              0      0%      1,202       1%

           ID                 Population        66,026        60,626     92%            415         1%      1,509      2%        697          1%         39          0%      2,740       4%
           Bannock County     Borrowers             35            34     97%              0         0%          0      0%          0          0%          1          3%          0       0%
                              Farms                588           578     98%              0         0%         10      2%          0          0%          0          0%          0       0%
                              Land in Farms    325,338       322,764     99%              0         0%      2,574      1%          0          0%          0          0%          0       0%

           ID                 Population         6,084         5,928     97%                 0      0%         15      0%              5      0%              0      0%        136       2%
           Bear Lake County   Borrowers             33            32     97%                 0      0%          1      3%              0      0%              0      0%          0       0%
                              Farms                415           412     99%                 0      0%          0      0%              0      0%              0      0%          3       1%
                              Land in Farms    269,435       269,435    100%                 0      0%          0      0%              0      0%              0      0%          0       0%

           ID                 Population         7,937         7,194     91%                 3      0%        583      7%         28          0%              5     0%         124     2%
           Benewah County     Borrowers              8             6     75%                 0      0%          0      0%          0          0%              1    13%           1    13%
                              Farms                195           195    100%                 0      0%          0      0%          0          0%              0     0%           0     0%
                              Land in Farms    111,510       111,510    100%                 0      0%          0      0%          0          0%              0     0%           0     0%

           ID                 Population         37,583        31,432    84%             31         0%      2,209      6%        264          1%         33          0%      3,614    10%
           Bingham County     Borrowers             128           125    98%              0         0%          3      2%          0          0%          0          0%          0     0%
                              Farms               1,282         1,222    95%              3         0%         22      2%          9          1%          9          1%         17     1%
                              Land in Farms   1,371,605     1,360,366    99%              0         0%          0      0%      6,192          0%        880          0%      4,167     0%

           ID                 Population        13,552        12,999     96%             10         0%         46      0%         97          1%          3          0%        397       3%
           Blaine County      Borrowers             35            29     83%              0         0%          0      0%          0          0%          3          9%          3       9%
                              Farms                221           212     96%              0         0%          0      0%          0          0%          4          2%          5       2%
                              Land in Farms    266,293       264,505     99%              0         0%          0      0%          0          0%        364          0%      1,424       1%

           ID                 Population         3,509         3,372     96%                 2      0%         35      1%         14          0%              2      0%         84       2%
           Boise County       Borrowers              3             3    100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                              Farms                 67            67    100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                              Land in Farms     80,333        80,333    100%                 0      0%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 315
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American                   Asian                  Other                 Hispanic
                                               Total       Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
           ID                  Population       26,622       25,964    98%             34         0%        204          1%         66          0%              2      0%        352          1%
           Bonner County       Borrowers            16           16   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                               Farms               476          466    98%              0         0%          0          0%          0          0%              0      0%         10          2%
                               Land in Farms   150,021      147,864    99%              0         0%          0          0%          0          0%              0      0%      2,157          1%

           ID                  Population       72,207       67,879    94%            286         0%        343          0%        663          1%         26          0%      3,010          4%
           Bonneville County   Borrowers            47           46    98%              0         0%          0          0%          0          0%          0          0%          1          2%
                               Farms               775          766    99%              0         0%          0          0%          6          1%          0          0%          3          0%
                               Land in Farms   453,647      453,647   100%              0         0%          0          0%          0          0%          0          0%          0          0%

           ID                  Population        8,332        7,847    94%                 3      0%        147          2%         23          0%              2      0%        310          4%
           Boundary County     Borrowers            19           19   100%                 0      0%          0          0%          0          0%              0      0%          0          0%
                               Farms               285          285   100%                 0      0%          0          0%          0          0%              0      0%          0          0%
                               Land in Farms    72,664       72,664   100%                 0      0%          0          0%          0          0%              0      0%          0          0%

           ID                  Population        2,918        2,791    96%                 0      0%         21          1%              5      0%              0      0%        101          3%
           Butte County        Borrowers           111          109    98%                 0      0%          0          0%              0      0%              1      1%          1          1%
                               Farms               188          188   100%                 0      0%          0          0%              0      0%              0      0%          0          0%
                               Land in Farms   159,358      159,358   100%                 0      0%          0          0%              0      0%              0      0%          0          0%

           ID                  Population          727          710    98%                 2      0%              8      1%              3      0%              0      0%              4      1%
           Camas County        Borrowers            11           11   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                               Farms                93           93   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                               Land in Farms   129,490      129,490   100%                 0      0%              0      0%              0      0%              0      0%              0      0%

           ID                  Population       90,076       76,470    85%            165         0%        595          1%        930          1%         78          0%     11,838        13%
           Canyon County       Borrowers            98           92    94%              0         0%          2          2%          2          2%          0          0%          2         2%
                               Farms             1,873        1,783    95%              3         0%          6          0%         34          2%         11          1%         36         2%
                               Land in Farms   391,050      355,862    91%              0         0%          0          0%     13,687          4%      1,144          0%     20,357         5%

           ID                  Population        6,963        6,733    97%                 2      0%         22          0%         13          0%              1      0%        192          3%
           Caribou County      Borrowers            44           42    95%                 0      0%          0          0%          0          0%              2      5%          0          0%
                               Farms               384          384   100%                 0      0%          0          0%          0          0%              0      0%          0          0%
                               Land in Farms   587,693      587,693   100%                 0      0%          0          0%          0          0%              0      0%          0          0%

           ID                  Population       19,532       16,659    85%                 3      0%        136          1%         94          0%         17          0%      2,623        13%
           Cassia County       Borrowers           125          121    97%                 0      0%          0          0%          0          0%          3          2%          1         1%
                               Farms               788          759    96%                 0      0%          0          0%          5          1%          7          1%         17         2%
                               Land in Farms   666,342      661,972    99%                 0      0%          0          0%      2,156          0%        252          0%      1,962         0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 316
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American                   Asian                  Other                 Hispanic
                                               Total       Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
           ID                  Population          762          678    89%                 0      0%              5      1%              0      0%              0     0%          79    10%
           Clark County        Borrowers            14           11    79%                 0      0%              0      0%              0      0%              3    21%           0     0%
                               Farms                85           85   100%                 0      0%              0      0%              0      0%              0     0%           0     0%
                               Land in Farms   286,711      286,711   100%                 0      0%              0      0%              0      0%              0     0%           0     0%

           ID                  Population        8,505        8,191    96%                 8      0%        175          2%         19          0%              0     0%         112       1%
           Clearwater County   Borrowers             8            6    75%                 0      0%          0          0%          0          0%              2    25%           0       0%
                               Farms               210          210   100%                 0      0%          0          0%          0          0%              0     0%           0       0%
                               Land in Farms   103,246      103,246   100%                 0      0%          0          0%          0          0%              0     0%           0       0%

           ID                  Population        4,133        3,993    97%                 2      0%         32          1%         16          0%              0      0%         90       2%
           Custer County       Borrowers            59           54    92%                 0      0%          0          0%          0          0%              5      8%          0       0%
                               Farms               267          267   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                               Land in Farms   140,701      140,701   100%                 0      0%          0          0%          0          0%              0      0%          0       0%

           ID                  Population       21,205       18,250    86%            763         4%        144          1%        425          2%         26          0%      1,597       8%
           Elmore County       Borrowers            48           46    96%              0         0%          0          0%          0          0%          1          2%          1       2%
                               Farms               285          276    97%              0         0%          0          0%          0          0%          0          0%          9       3%
                               Land in Farms   353,528      346,361    98%              0         0%          0          0%          0          0%          0          0%      7,167       2%

           ID                  Population        9,232        8,947    97%                 5      0%         32          0%         10          0%              1      0%        237       3%
           Franklin County     Borrowers            59           59   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                               Farms               619          615    99%                 0      0%          0          0%          0          0%              0      0%          4       1%
                               Land in Farms   230,086      228,561    99%                 0      0%          0          0%          0          0%              0      0%      1,525       1%

           ID                  Population       10,937       10,064    92%                 8      0%         65          1%         31          0%              7      0%        762       7%
           Fremont County      Borrowers            21           21   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                               Farms               495          495   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                               Land in Farms   380,928      380,928   100%                 0      0%          0          0%          0          0%              0      0%          0       0%

           ID                  Population       11,844       11,056    93%             11         0%        105          1%         53          0%              4      0%        615       5%
           Gem County          Borrowers            45           42    93%              1         2%          1          2%          0          0%              1      2%          0       0%
                               Farms               531          522    98%              0         0%          0          0%          0          0%              4      1%          5       1%
                               Land in Farms   197,176      196,932   100%              0         0%          0          0%          0          0%              0      0%        244       0%

           ID                  Population       11,633       10,535    91%                 7      0%         40          0%         29          0%          1          0%      1,021       9%
           Gooding County      Borrowers            87           80    92%                 0      0%          2          2%          0          0%          0          0%          5       6%
                               Farms               683          641    94%                 0      0%          0          0%          3          0%         13          2%         26       4%
                               Land in Farms   227,114      219,557    97%                 0      0%          0          0%          0          0%      4,100          2%      3,457       2%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                               Page 317
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American               Asian              Other                 Hispanic
                                              Total       Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
           ID                 Population       13,783       13,286    96%                 3      0%        336      2%         33      0%              1      0%        124       1%
           Idaho County       Borrowers            53           53   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                              Farms               662          659   100%                 0      0%          0      0%          0      0%              0      0%          3       0%
                              Land in Farms   744,295      744,295   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

           ID                 Population       16,543       15,219    92%                 3      0%        109      1%         40      0%         17          0%      1,155       7%
           Jefferson County   Borrowers            52           52   100%                 0      0%          0      0%          0      0%          0          0%          0       0%
                              Farms               766          761    99%                 0      0%          0      0%          0      0%          0          0%          5       1%
                              Land in Farms   311,296      310,810   100%                 0      0%          0      0%          0      0%          0          0%        486       0%

           ID                 Population       15,138       13,951    92%                 9      0%         97      1%         51      0%         12          0%      1,018       7%
           Jerome County      Borrowers           103          100    97%                 1      1%          0      0%          1      1%          1          1%          0       0%
                              Farms               815          797    98%                 0      0%          0      0%          4      0%          3          0%         11       1%
                              Land in Farms   207,552      204,713    99%                 0      0%          0      0%      1,620      1%          0          0%      1,219       1%

           ID                 Population       69,795       67,717    97%             91         0%        614     1%         310      0%         11          0%      1,052       2%
           Kootenai County    Borrowers            10            9    90%              0         0%          1    10%           0      0%          0          0%          0       0%
                              Farms               541          530    98%              0         0%          7     1%           0      0%          0          0%          4       1%
                              Land in Farms   131,281      130,761   100%              0         0%          0     0%           0      0%          0          0%        520       0%

           ID                 Population       30,617       29,096    95%            169         1%        192      1%        700      2%         11          0%        449       1%
           Latah County       Borrowers            24           24   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                              Farms               610          602    99%              3         0%          0      0%          0      0%          0          0%          5       1%
                              Land in Farms   347,293      346,491   100%              0         0%          0      0%          0      0%          0          0%        802       0%

           ID                 Population        6,899        6,692    97%                 0      0%         44      1%         23      0%              0      0%        140       2%
           Lemhi County       Borrowers            39           37    95%                 0      0%          0      0%          0      0%              1      3%          1       3%
                              Farms               333          329    99%                 0      0%          0      0%          0      0%              0      0%          4       1%
                              Land in Farms   193,908      193,608   100%                 0      0%          0      0%          0      0%              0      0%        300       0%

           ID                 Population        3,516        3,287    93%                 4      0%        169     5%          14      0%              0      0%         42       1%
           Lewis County       Borrowers            41           37    84%                 0      0%          4    16%           0      0%              0      0%          0       0%
                              Farms               177          174    98%                 0      0%          3     2%           0      0%              0      0%          0       0%
                              Land in Farms   211,039      209,631    99%                 0      0%      1,408     1%           0      0%              0      0%          0       0%

           ID                 Population        3,308        3,075    93%                 3      0%         22      1%         12      0%          1          0%        195       6%
           Lincoln County     Borrowers           102           98    96%                 0      0%          0      0%          0      0%          2          2%          2       2%
                              Farms               302          274    91%                 0      0%          4      1%          0      0%          6          2%         18       6%
                              Land in Farms   132,429      124,381    94%                 0      0%          0      0%          0      0%      1,498          1%      6,550       5%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 318
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American               Asian                  Other                 Hispanic
                                              Total       Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
           ID                 Population       23,674       22,500    95%             35         0%         91      0%        288          1%              7      0%        753       3%
           Madison County     Borrowers            15           14    93%              0         0%          0      0%          0          0%              1      7%          0       0%
                              Farms               505          498    99%              0         0%          0      0%          4          1%              0      0%          3       1%
                              Land in Farms   224,369      224,369   100%              0         0%          0      0%          0          0%              0      0%          0       0%

           ID                 Population       19,361       15,312    79%             29         0%        171      1%         95          0%         19          0%      3,735    19%
           Minidoka County    Borrowers           261          250    96%              0         0%          0      0%          7          3%          0          0%          4     2%
                              Farms               774          746    96%              0         0%          0      0%         13          2%          0          0%         15     2%
                              Land in Farms   208,161      206,064    99%              0         0%          0      0%          0          0%          0          0%      2,097     1%

           ID                 Population       33,754       31,456    93%             45         0%      1,623      5%        207          1%              4      0%        419       1%
           Nez Perce County   Borrowers             0            0     0%              0         0%          0      0%          0          0%              0      0%          0       0%
                              Farms               345          345   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                              Land in Farms   477,839      477,839   100%              0         0%          0      0%          0          0%              0      0%          0       0%

           ID                 Population        3,492        3,407    98%                 4      0%         17      0%              8      0%              0      0%         56       2%
           Oneida County      Borrowers            40           37    93%                 0      0%          0      0%              0      0%              3      8%          0       0%
                              Farms               313          313   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                              Land in Farms   271,143      271,143   100%                 0      0%          0      0%              0      0%              0      0%          0       0%

           ID                 Population        8,392        6,644    79%             22         0%        240     3%          72          1%          6          0%      1,408    17%
           Owyhee County      Borrowers           144          112    78%              0         0%         23    16%           2          1%          2          1%          5     3%
                              Farms               561          527    94%              0         0%          0     0%          11          2%          7          1%         16     3%
                              Land in Farms   752,032      744,447    99%              0         0%          0     0%       2,910          0%      1,597          0%      3,078     0%

           ID                 Population       16,434       14,884    91%             11         0%        175      1%        157          1%              7      0%      1,200       7%
           Payette County     Borrowers            30           27    90%              1         3%          0      0%          1          3%              1      3%          0       0%
                              Farms               562          538    96%              0         0%          5      1%         10          2%              3      1%          6       1%
                              Land in Farms   148,776      141,254    95%              0         0%          0      0%      3,397          2%              0      0%      4,125       3%

           ID                 Population        7,086        5,908    83%                 6      0%        198      3%         33          0%              4      0%        937    13%
           Power County       Borrowers            26           24    92%                 1      4%          0      0%          0          0%              1      4%          0     0%
                              Farms               292          289    99%                 0      0%          0      0%          0          0%              0      0%          3     1%
                              Land in Farms   435,069      435,069   100%                 0      0%          0      0%          0          0%              0      0%          0     0%

           ID                 Population       13,931       13,461    97%             14         0%        171      1%         36          0%              2      0%        247       2%
           Shoshone County    Borrowers             0            0     0%              0         0%          0      0%          0          0%              0      0%          0       0%
                              Farms                42           42   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                              Land in Farms     4,428        4,428   100%              0         0%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 319
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                  White             African American Native American               Asian                  Other                 Hispanic
                                                  Total        Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
           ID                  Population          3,439         3,185     93%                 2      0%         13      0%              1      0%              1     0%         237       7%
           Teton County        Borrowers               9             7     78%                 0      0%          0      0%              0      0%              2    22%           0       0%
                               Farms                 257           257    100%                 0      0%          0      0%              0      0%              0     0%           0       0%
                               Land in Farms     134,788       134,788    100%                 0      0%          0      0%              0      0%              0     0%           0       0%

           ID                  Population         53,580        49,606     93%             62         0%        273      1%        510          1%         23          0%      3,106       6%
           Twin Falls County   Borrowers              86            79     92%              0         0%          0      0%          0          0%          4          5%          3       3%
                               Farms               1,457         1,428     98%              4         0%          7      0%          0          0%          4          0%         14       1%
                               Land in Farms     489,993       481,399     98%              0         0%          0      0%          0          0%      1,096          0%      7,498       2%

           ID                  Population          6,109         5,911     97%                 7      0%         59      1%         25          0%              0      0%        107       2%
           Valley County       Borrowers               4             4    100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                               Farms                 107           104     97%                 0      0%          0      0%          0          0%              0      0%          3       3%
                               Land in Farms      78,813        77,055     98%                 0      0%          0      0%          0          0%              0      0%      1,758       2%

           ID                Population            8,550         7,454     87%                 6      0%         45      1%        123          1%              7      0%        915    11%
           Washington County Borrowers                64            60     94%                 0      0%          1      2%          0          0%              3      5%          0     0%
                             Farms                   453           434     96%                 0      0%          0      0%         11          2%              3      1%          5     1%
                               Land in Farms     556,131       552,625     99%                 0      0%          0      0%      3,506          1%              0      0%          0     0%

           ID                  Population       1,006,749       928,661    92%          3,211         0%     12,418      1%      9,053          1%        479          0%     52,927       5%
           STATE               Borrowers            2,184         2,054    94%              4         0%         38      2%         13          1%         45          2%         30       1%
                               Farms               22,124        21,590    98%             13         0%         64      0%        116          1%         74          0%        267       1%
                               Land in Farms   13,468,992    13,346,583    99%              0         0%      3,982      0%     33,468          0%     10,931          0%     74,028       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 320
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   ADA, IDAHO                                       ADAMS, IDAHO                                    BANNOCK, IDAHO
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       16                        3                       11                         5                        35                        14
                              Loans                           24                        6                       25                        10                       105                        47
                              Principal and Interest   3,106,220                  405,895                  975,853                    67,629                 7,118,515                 1,909,990

WHITE                         Borrowers                       15         94%            3     100%              11      100%               5       100%             34        97%             14    100%
                              Loans                           23         96%            6     100%              25      100%              10       100%            104        99%             47    100%
                              Principal and Interest   3,083,884         99%      405,895     100%         975,853      100%          67,629       100%      7,105,513       100%      1,909,990    100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1          6%              0      0%                 0      0%                  0      0%            1           3%              0      0%
                              Loans                            1          4%              0      0%                 0      0%                  0      0%            1           1%              0      0%
                              Principal and Interest      22,335          1%              0      0%                 0      0%                  0      0%       13,002           0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 321
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            BEAR LAKE, IDAHO                                   BENEWAH, IDAHO                                        BINGHAM, IDAHO
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       33                       14                        8                        5                         128                        25
                              Loans                           97                       39                       21                        9                         273                        62
                              Principal and Interest   6,168,588                  796,765                5,594,508                  433,093                  21,509,086                 1,325,611

WHITE                         Borrowers                       32         97%           14     100%               6        75%             5        100%             125         98%            25    100%
                              Loans                           96         99%           39     100%              13        62%             9        100%             268         98%            62    100%
                              Principal and Interest   6,038,773         98%      796,765     100%       1,375,186        25%       433,093        100%      21,130,829         98%     1,325,611    100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                        1          3%              0      0%                 0      0%                  0      0%             3           2%              0      0%
                              Loans                            1          1%              0      0%                 0      0%                  0      0%             5           2%              0      0%
                              Principal and Interest     129,816          2%              0      0%                 0      0%                  0      0%       378,257           2%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%              1        13%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%              6        29%                  0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%      4,057,891        73%                  0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%              1        13%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%              2        10%                  0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%        161,431         3%                  0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 322
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   BLAINE, IDAHO                                    BOISE, IDAHO                                     BONNER, IDAHO
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       35                       12                        3                         1                        16                         5
                              Loans                           89                       30                        5                         1                        41                        12
                              Principal and Interest   6,571,553                  668,187                  644,761                    28,521                 1,434,991                    24,871

WHITE                         Borrowers                       29         83%           10       83%              3      100%               1       100%             16       100%              5    100%
                              Loans                           73         82%           20       67%              5      100%               1       100%             41       100%             12    100%
                              Principal and Interest   5,163,376         79%      336,508       50%        644,761      100%          28,521       100%      1,434,991       100%         24,871    100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                        3          9%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                            4          4%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest     185,739          3%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                        3          9%            2       17%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                           12         13%           10       33%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest   1,222,439         19%      331,678       50%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 323
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        BONNEVILLE, W, IDAHO                                  BOUNDARY, IDAHO                                             BUTTE, IDAHO
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       47                        16                      19                        3                         111                       13
                              Loans                          128                        44                      33                       10                         261                       28
                              Principal and Interest   7,962,683                 1,338,460               1,736,434                  117,566                  15,108,036                  247,476

WHITE                         Borrowers                       46         98%            15     94%              19      100%              3        100%             109         98%           13     100%
                              Loans                          127         99%            43     98%              33      100%             10        100%             256         98%           28     100%
                              Principal and Interest   7,910,136         99%     1,335,822    100%       1,736,434      100%        117,566        100%      14,373,989         95%      247,476     100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%             1           1%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%             1           0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%       615,790           4%              0      0%
HISPANIC                      Borrowers                        1          2%             1       6%                 0      0%                  0      0%             1           1%              0      0%
                              Loans                            1          1%             1       2%                 0      0%                  0      0%             4           2%              0      0%
                              Prinicpal and Interest      52,548          1%         2,638       0%                 0      0%                  0      0%       118,257           1%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 324
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   CAMAS, IDAHO                                     CANYON, IDAHO                                    CARIBOU, IDAHO
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       11                        3                       98                        22                         44                       16
                              Loans                           23                        7                      172                        46                         99                       25
                              Principal and Interest   3,362,030                  237,553               12,617,231                 1,178,044                  7,597,272                  227,567

WHITE                         Borrowers                       11       100%             3     100%              92         94%            21          95%            42         95%           16     100%
                              Loans                           23       100%             7     100%             164         95%            44          96%            89         90%           25     100%
                              Principal and Interest   3,362,030       100%       237,553     100%      11,359,416         90%       952,961          81%     6,864,105         90%      227,567     100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%              2          2%             1           5%                 0      0%              0      0%
                              Loans                                0      0%              0      0%              3          2%             2           4%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%        646,142          5%       225,083          19%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%              2          2%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%              2          1%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%        305,302          2%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%                  0      0%            2           5%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%           10          10%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%      733,168          10%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%              2          2%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%              3          2%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%        306,371          2%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 325
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                    CASSIA, IDAHO                                    CLARK, IDAHO                               CLEARWATER, IDAHO
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       125                        36                      14                        6                         8                          3
                              Loans                           307                        80                      47                       22                        19                          6
                              Principal and Interest   19,501,602                 1,053,215               3,605,545                  857,376                   456,566                     72,633

WHITE                         Borrowers                       121         97%            35     97%              11        79%             6        100%             6          75%             3    100%
                              Loans                           296         96%            79     99%              43        91%            22        100%            14          74%             6    100%
                              Principal and Interest   18,850,198         97%     1,051,606    100%       3,312,224        92%       857,376        100%       305,890          67%        72,633    100%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%

ASIAN                         Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                         3          2%             1       3%              3        21%                  0      0%            2          25%              0      0%
                              Loans                             7          2%             1       1%              4         9%                  0      0%            5          26%              0      0%
                              Principal and Interest      216,578          1%         1,609                 293,321         8%                  0      0%      150,677          33%              0      0%
HISPANIC                      Borrowers                         1          1%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                             4          1%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest      434,825          2%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 326
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             CUSTER,PT, IDAHO                                       ELMORE, IDAHO                                    FRANKLIN, IDAHO
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       59                         8                      48                        11                          59                        21
                              Loans                           96                        14                      71                        15                         169                        61
                              Principal and Interest   7,097,775                    76,407               5,303,518                 1,107,106                  10,004,251                 1,665,943

WHITE                         Borrowers                       54         92%             7      88%             46         96%            11        100%              59       100%             21    100%
                              Loans                           85         89%            13      93%             66         93%            15        100%             169       100%             61    100%
                              Principal and Interest   6,209,918         87%        67,593      88%      5,019,346         95%     1,107,106        100%      10,004,251       100%      1,665,943    100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                  0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                  0      0%              0      0%
OTHER                         Borrowers                        5          8%             1      13%              1          2%                  0      0%                  0      0%              0      0%
                              Loans                           11         11%             1       7%              3          4%                  0      0%                  0      0%              0      0%
                              Principal and Interest     887,858         13%         8,814      12%        149,995          3%                  0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%              1          2%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%              2          3%                  0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%        134,177          3%                  0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 327
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              FREMONT, IDAHO                                        GEM, IDAHO                                GOODING RH LNS, IDAHO
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       21                        10                      45                       19                          87                        34
                              Loans                           69                        42                     108                       48                         236                       106
                              Principal and Interest   4,997,866                 1,570,814               5,599,893                  896,921                  14,648,025                 2,490,661

WHITE                         Borrowers                       21       100%             10    100%              42        93%            17          89%             80         92%            32      94%
                              Loans                           69       100%             42    100%             102        94%            45          94%            222         94%           102      96%
                              Principal and Interest   4,997,866       100%      1,570,814    100%       4,411,950        79%       575,788          64%     13,553,074         93%     2,382,908      96%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%               1        2%              1          5%                  0      0%              0      0%
                              Loans                                0      0%              0      0%               2        2%              1          2%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%          59,847        1%            515          0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%              1         2%             1           5%             2           2%              0      0%
                              Loans                                0      0%              0      0%              2         2%             2           4%             3           1%              0      0%
                              Principal and Interest               0      0%              0      0%        721,352        13%       320,618          36%       294,985           2%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%              1         2%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%              2         2%                  0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%        406,744         7%                  0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%             5           6%            2        6%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%            11           5%            4        4%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%       799,966           5%      107,753        4%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 328
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   IDAHO, IDAHO                           JEROME FP LNS, IDAHO                                     KOOTENAI, IDAHO
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       53                       17                      103                       37                         10                        5
                              Loans                          108                       29                      217                       64                         22                       10
                              Principal and Interest   9,510,168                  279,537               19,577,908                5,035,154                  1,619,162                  490,116

WHITE                         Borrowers                       53       100%            17     100%             100        97%            37        100%              9         90%            5     100%
                              Loans                          108       100%            29     100%             213        98%            64        100%             21         95%           10     100%
                              Principal and Interest   9,510,168       100%       279,537     100%      19,211,128        98%     5,035,154        100%      1,485,076         92%      490,116     100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%              1         1%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%              2         1%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%        221,396         1%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%            1          10%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%            1           5%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%      134,085           8%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%               1        1%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%               1        0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%          88,576        0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%               1        1%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%               1        0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%          56,807        0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 329
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   LATAH, IDAHO                                     LEMHI, IDAHO                                         LEWIS, IDAHO
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       24                        7                       39                         8                        19                         8
                              Loans                           57                       20                       80                        11                        43                        17
                              Principal and Interest   3,548,344                  488,575                5,842,253                    92,009                 4,260,577                 1,042,190

WHITE                         Borrowers                       24       100%             7     100%              37        95%              7        88%             16         84%            5       63%
                              Loans                           57       100%            20     100%              76        95%             10        91%             39         91%           14       82%
                              Principal and Interest   3,548,344       100%       488,575     100%       5,785,029        99%         92,009       100%      3,716,092         87%      807,394       77%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%            3          16%            3       38%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%            4           9%            3       18%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%      544,485          13%      234,796       23%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%               1        3%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%               2        3%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%          20,948        0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%               1        3%                  1     13%                 0      0%              0      0%
                              Loans                                0      0%              0      0%               2        3%                  1      9%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%          36,275        1%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 330
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              LEWISTON, IDAHO                             LINCOLN RH LNS, IDAHO                                      MADISON, IDAHO
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        22                        6                      102                       43                         15                        8
                              Loans                            53                       13                      278                      119                         45                       24
                              Principal and Interest   12,765,014                  221,342               16,204,172                2,847,898                  3,011,401                  723,729

WHITE                         Borrowers                        21         95%            6     100%              98        96%            43        100%             14         93%            8     100%
                              Loans                            40         75%           13     100%             272        98%           119        100%             44         98%           24     100%
                              Principal and Interest    2,920,363         23%      221,342     100%      16,018,216        99%     2,847,898        100%      2,944,648         98%      723,729     100%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                         1          5%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                            13         25%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest    9,844,651         77%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%               2        2%                  0      0%            1           7%              0      0%
                              Loans                                 0      0%              0      0%               4        1%                  0      0%            1           2%              0      0%
                              Principal and Interest                0      0%              0      0%          48,586        0%                  0               66,752           2%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%              2         2%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%              2         1%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%        137,370         1%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 331
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            MINIDOKA, E, IDAHO                                       ONEIDA, IDAHO                                   OWYEE,W, IDAHO
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       261                        67                      40                       17                         144                        49
                              Loans                           700                       160                     108                       54                         338                       127
                              Principal and Interest   42,856,999                 3,584,531               9,808,056                2,040,437                  20,073,947                 3,790,653
WHITE                         Borrowers                       250         96%            65      97%             37        93%            16          94%            112         78%            43      88%
                              Loans                           687         98%           157      98%            103        95%            53          98%            278         82%           113      89%
                              Principal and Interest   41,191,583         96%     3,468,428      97%      5,526,179        56%       693,511          34%     17,117,844         85%     3,288,659      87%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%                  0      0%             23         16%            4        8%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%             40         12%           10        8%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%      1,352,323          7%      333,700        9%
ASIAN                         Borrowers                             7      3%              1      1%                 0      0%                  0      0%                  2      1%              2      4%
                              Loans                                 7      1%              1      1%                 0      0%                  0      0%                  5      1%              4      3%
                              Principal and Interest      943,548          2%         2,817                          0      0%                  0      0%       731,890           4%      168,294        4%
OTHER                         Borrowers                             0      0%              0      0%              3         8%             1           6%             2           1%              0      0%
                              Loans                                 0      0%              0      0%              5         5%             1           2%            10           3%              0      0%
                              Principal and Interest                0      0%              0      0%      4,281,877        44%     1,346,926          66%       636,144           3%              0      0%
HISPANIC                      Borrowers                         4          2%            1        1%                 0      0%                  0      0%             5           3%              0      0%
                              Loans                             6          1%            2        1%                 0      0%                  0      0%             5           1%              0      0%
                              Prinicpal and Interest      721,868          2%      113,286        3%                 0      0%                  0      0%       235,745           1%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 332
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              PAYETTE, IDAHO                                        POWER, IDAHO                             SOUTH JEFFERSON, IDAHO
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       30                       10                       26                       11                         52                       12
                              Loans                           58                       18                       73                       33                        126                       35
                              Principal and Interest   3,700,567                  199,086                6,412,456                1,705,513                  7,279,752                  804,673
WHITE                         Borrowers                       27         90%            9       90%             24        92%            10         91%             52       100%            12     100%
                              Loans                           50         86%           13       72%             70        96%            32         97%            126       100%            35     100%
                              Principal and Interest   3,348,880         90%      114,148       57%      6,176,589        96%     1,697,401        100%      7,279,752       100%       804,673     100%
AFRICAN AMERICAN              Borrowers                        1          3%              0      0%              1         4%                  0      0%                 0      0%              0      0%
                              Loans                            1          2%              0      0%              1         1%                  0      0%                 0      0%              0      0%
                              Principal and Interest     122,217          3%              0      0%        122,083         2%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            1      3%              1     10%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                5      9%              5     28%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest     204,717          6%        84,938      43%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1          3%              0      0%              1         4%              1          9%                 0      0%              0      0%
                              Loans                            2          3%              0      0%              2         3%              1          3%                 0      0%              0      0%
                              Principal and Interest      24,754          1%              0      0%        113,785         2%          8,111          0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 333
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   TETON, IDAHO                              TWIN FALLS, IDAHO                                       VALLEY, IDAHO
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        9                        2                       86                       19                         4                          2
                              Loans                           39                       17                      135                       30                         7                          2
                              Principal and Interest   1,592,324                  319,536               10,484,627                  560,097                   401,329                      6,453
WHITE                         Borrowers                        7         78%            2     100%              79        92%            19        100%             4        100%              2    100%
                              Loans                           27         69%           17     100%             126        93%            30        100%             7        100%              2    100%
                              Principal and Interest   1,106,946         70%      319,536     100%       9,117,762        87%       560,097        100%       401,329        100%          6,453    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                        2         22%              0      0%              4         5%                  0      0%                 0      0%              0      0%
                              Loans                           12         31%              0      0%              5         4%                  0      0%                 0      0%              0      0%
                              Principal and Interest     485,378         30%              0      0%        778,233         7%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%              3         3%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%              4         3%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%        588,632         6%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 334
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          WASHINGTON, IDAHO                                          STATE OF IDAHO
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio        Percent   Delinquent    Percent
TOTAL                         Borrowers                       64                        24                    2,184                        657
                              Loans                          155                        86                    5,160                      1,639
                              Principal and Interest   9,469,291                 1,942,745              361,141,149                 44,972,578
WHITE                         Borrowers                       60         94%            22     92%            2,054         94%            630      96%
                              Loans                          148         95%            84     98%            4,898         95%          1,587      97%
                              Principal and Interest   9,271,911         98%     1,934,188    100%      324,901,832         90%     41,672,443      93%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%               4          0%              1       0%
                              Loans                                0      0%              0      0%               6          0%              1       0%
                              Principal and Interest               0      0%              0      0%         525,543          0%            515       0%
NATIVE AMERICAN               Borrowers                        1          2%             1       4%              38          2%             10       2%
                              Loans                            2          1%             1       1%              74          1%             18       1%
                              Principal and Interest      51,048          1%           565       0%      14,097,144          4%      1,114,762       2%
ASIAN                         Borrowers                            0      0%              0      0%                  13      1%               4      1%
                              Loans                                0      0%              0      0%                  20      0%              10      1%
                              Principal and Interest               0      0%              0      0%       2,274,033          1%       256,049        1%
OTHER                         Borrowers                        3          5%             1       4%              45          2%              5       1%
                              Loans                            5          3%             1       1%             104          2%              5       0%
                              Principal and Interest     146,333          2%         7,991       0%      14,392,695          4%      1,373,451       3%
HISPANIC                      Borrowers                            0      0%              0      0%              30          1%             7        1%
                              Loans                                0      0%              0      0%              58          1%            18        1%
                              Prinicpal and Interest               0      0%              0      0%       4,949,904          1%       555,355        1%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                        Page 335
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State   Servicing Office   Decision           Average Days       Total        White            American          American          Asian            Hispanic
 ID BINGHAM                Approved   No. of Applications                21        20   95%             0   0%            1   5%           0   0%          0     0%
                                      Receipt to Completion                        23                   0                25                0               0
                                      Completion to Approval                       14                   0                 3                0               0
                                      Approval to Loan Closing                     22                   0                35                0               0

                           Rejected   No. of Applications                3         3    100%           0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                        3                   0                 0                 0              0
                                      Completion to Rejected                       9                   0                 0                 0              0

                           Withdrawn No. of Applications                 8         8    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                         4                   0                 0                 0              0
                                     Completion to Withdrawn                       6                   0                 0                 0              0

  ID   BONNEVILLE          Approved   No. of Applications                5         5    100%           0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                       35                   0                 0                 0              0
                                      Completion to Approval                      14                   0                 0                 0              0
                                      Approval to Loan Closing                    13                   0                 0                 0              0

                           Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                 0                 0              0
                                      Completion to Rejected                       0                   0                 0                 0              0

                           Withdrawn No. of Applications                 3         3    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                        12                   0                 0                 0              0
                                     Completion to Withdrawn                       3                   0                 0                 0              0

  ID   BUTTE               Approved   No. of Applications                93       93    100%           0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                       14                   0                 0                 0              0
                                      Completion to Approval                      13                   0                 0                 0              0
                                      Approval to Loan Closing                    21                   0                 0                 0              0

                           Rejected   No. of Applications                5         5    100%           0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                        6                   0                 0                 0              0
                                      Completion to Rejected                      52                   0                 0                 0              0

                           Withdrawn No. of Applications                 8         8    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                         3                   0                 0                 0              0
                                     Completion to Withdrawn                      19                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 336
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American           Asian             Hispanic
 ID CANYON                Approved   No. of Applications                75        57   76%             0   0%           17   23%            1   1%          0     0%
                                     Receipt to Completion                        25                   0                19                 22               0
                                     Completion to Approval                       16                   0                18                 62               0
                                     Approval to Loan Closing                     19                   0                15                  8               0

                          Rejected   No. of Applications                9         9    100%           0    0%           0    0%            0    0%         0      0%
                                     Receipt to Completion                       19                   0                 0                  0               0
                                     Completion to Rejected                      25                   0                 0                  0               0

                          Withdrawn No. of Applications                 13        8    62%            0    0%           5    38%           0    0%         0      0%
                                    Receipt to Completion                        11                   0                15                  0               0
                                    Completion to Withdrawn                       9                   0                11                  0               0

  ID   CARIBOU            Approved   No. of Applications                9         9    100%           0    0%           0    0%            0    0%         0      0%
                                     Receipt to Completion                       44                   0                 0                  0               0
                                     Completion to Approval                      41                   0                 0                  0               0
                                     Approval to Loan Closing                    12                   0                 0                  0               0

                          Rejected   No. of Applications                0         0     0%            0    0%           0    0%            0    0%         0      0%
                                     Receipt to Completion                        0                   0                 0                  0               0
                                     Completion to Rejected                       0                   0                 0                  0               0

                          Withdrawn No. of Applications                 0         0     0%            0    0%           0    0%            0    0%         0      0%
                                    Receipt to Completion                         0                   0                 0                  0               0
                                    Completion to Withdrawn                       0                   0                 0                  0               0

  ID   ELMORE             Approved   No. of Applications                11       10    91%            0    0%           0    0%             1   9%         0      0%
                                     Receipt to Completion                       11                   0                 0                  19              0
                                     Completion to Approval                       9                   0                 0                  36              0
                                     Approval to Loan Closing                    15                   0                 0                  16              0

                          Rejected   No. of Applications                0         0     0%            0    0%           0    0%            0    0%         0      0%
                                     Receipt to Completion                        0                   0                 0                  0               0
                                     Completion to Rejected                       0                   0                 0                  0               0

                          Withdrawn No. of Applications                 4         4    100%           0    0%           0    0%            0    0%         0      0%
                                    Receipt to Completion                         3                   0                 0                  0               0
                                    Completion to Withdrawn                       0                   0                 0                  0               0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 337
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 ID FRANKLIN              Approved   No. of Applications                19        19   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        33                   0                0                0               0
                                     Completion to Approval                       30                   0                0                0               0
                                     Approval to Loan Closing                     24                   0                0                0               0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 2         2    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

  ID   GOODING            Approved   No. of Applications                2         2    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       52                   0                0                 0              0
                                     Completion to Approval                     145                   0                0                 0              0
                                     Approval to Loan Closing                    35                   0                0                 0              0

                          Rejected   No. of Applications                4         3    75%            0    0%          0    0%           0   0%         1     25%
                                     Receipt to Completion                       11                   0                0                 0              7
                                     Completion to Rejected                      13                   0                0                 0             39

                          Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

  ID   IDAHO              Approved   No. of Applications                12       11    92%            0    0%          1    8%           0   0%         0      0%
                                     Receipt to Completion                       16                   0               31                 0              0
                                     Completion to Approval                      27                   0                7                 0              0
                                     Approval to Loan Closing                    16                   0               14                 0              0

                          Rejected   No. of Applications                1         1    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       20                   0                0                 0              0
                                     Completion to Rejected                      11                   0                0                 0              0

                          Withdrawn No. of Applications                 0         0     0%            0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 338
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian            Hispanic
 ID JEROME                Approved   No. of Applications                11        11   100%            0   0%           0   0%           0   0%          0     0%
                                     Receipt to Completion                        25                   0                0                0               0
                                     Completion to Approval                       14                   0                0                0               0
                                     Approval to Loan Closing                     15                   0                0                0               0

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0              0
                                     Completion to Rejected                       0                   0                0                 0              0

                          Withdrawn No. of Applications                 1         1    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0              0
                                    Completion to Withdrawn                       0                   0                0                 0              0

  ID   LINCOLN            Approved   No. of Applications                4         4    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       74                   0                0                 0              0
                                     Completion to Approval                      42                   0                0                 0              0
                                     Approval to Loan Closing                    15                   0                0                 0              0

                          Rejected   No. of Applications                3         3    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       28                   0                0                 0              0
                                     Completion to Rejected                      19                   0                0                 0              0

                          Withdrawn No. of Applications                 7         7    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        63                   0                0                 0              0
                                    Completion to Withdrawn                       6                   0                0                 0              0

  ID   MADISON            Approved   No. of Applications                11       11    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       24                   0                0                 0              0
                                     Completion to Approval                      34                   0                0                 0              0
                                     Approval to Loan Closing                    30                   0                0                 0              0

                          Rejected   No. of Applications                2         2    100%           0    0%          0    0%           0   0%         0      0%
                                     Receipt to Completion                       35                   0                0                 0              0
                                     Completion to Rejected                      96                   0                0                 0              0

                          Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%           0   0%         0      0%
                                    Receipt to Completion                        26                   0                0                 0              0
                                    Completion to Withdrawn                      18                   0                0                 0              0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                              Page 339
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African           Native
State   Servicing Office   Decision           Average Days       Total        White            American          American          Asian            Hispanic
 ID MINIDOKA               Approved   No. of Applications                64        62   97%             0   0%            2   3%           0   0%          0     0%
                                      Receipt to Completion                        12                   0                24                0               0
                                      Completion to Approval                       11                   0                12                0               0
                                      Approval to Loan Closing                     33                   0                66                0               0

                           Rejected   No. of Applications                6         6    100%           0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                       13                   0                 0                 0              0
                                      Completion to Rejected                       8                   0                 0                 0              0

                           Withdrawn No. of Applications                 7         7    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                         7                   0                 0                 0              0
                                     Completion to Withdrawn                       6                   0                 0                 0              0

  ID   NEZ PERCE           Approved   No. of Applications                10       10    100%           0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                       25                   0                 0                 0              0
                                      Completion to Approval                      13                   0                 0                 0              0
                                      Approval to Loan Closing                    13                   0                 0                 0              0

                           Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                 0                 0              0
                                      Completion to Rejected                       0                   0                 0                 0              0

                           Withdrawn No. of Applications                 1         1    100%           0    0%           0    0%           0   0%         0      0%
                                     Receipt to Completion                         0                   0                 0                 0              0
                                     Completion to Withdrawn                       0                   0                 0                 0              0

  ID   TWIN FALLS          Approved   No. of Applications                5         5    100%           0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                       59                   0                 0                 0              0
                                      Completion to Approval                      13                   0                 0                 0              0
                                      Approval to Loan Closing                    22                   0                 0                 0              0

                           Rejected   No. of Applications                0         0     0%            0    0%           0    0%           0   0%         0      0%
                                      Receipt to Completion                        0                   0                 0                 0              0
                                      Completion to Rejected                       0                   0                 0                 0              0

                           Withdrawn No. of Applications                 3         2    67%            0    0%           0    0%           0   0%         1     33%
                                     Receipt to Completion                         0                   0                 0                 0              0
                                     Completion to Withdrawn                       0                   0                 0                 0              0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 340
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African           Native
State  Servicing Office   Decision           Average Days       Total        White            American          American         Asian             Hispanic
 ID WASHINGTON            Approved   No. of Applications                16        15   94%             0   0%           0   0%           0    0%          1     6%
                                     Receipt to Completion                         9                   0                0                0               14
                                     Completion to Approval                        3                   0                0                0               25
                                     Approval to Loan Closing                     25                   0                0                0              132

                          Rejected   No. of Applications                0         0     0%            0    0%          0    0%           0    0%         0      0%
                                     Receipt to Completion                        0                   0                0                 0               0
                                     Completion to Rejected                       0                   0                0                 0               0

                          Withdrawn No. of Applications                 3         3    100%           0    0%          0    0%           0    0%         0      0%
                                    Receipt to Completion                         0                   0                0                 0               0
                                    Completion to Withdrawn                       0                   0                0                 0               0

  ID   STATE              Approved   No. of Applications           368          344    93%            0    0%         21    6%            2   1%         1      0%
                                     Receipt to Completion                       20                   0               20                 21             14
                                     Completion to Approval                      17                   0               16                 49             25
                                     Approval to Loan Closing                    22                   0               21                 12            132

                          Rejected   No. of Applications                33       32    97%            0    0%          0    0%           0    0%         1      3%
                                     Receipt to Completion                       15                   0                0                 0               7
                                     Completion to Rejected                      27                   0                0                 0              39

                          Withdrawn No. of Applications                 64       58    91%            0    0%          5    8%           0    0%         1      2%
                                    Receipt to Completion                        13                   0               15                 0               0
                                    Completion to Withdrawn                       7                   0               11                 0               0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 341
